<html>
<title> - THE NEXT GENERATION AIR TRANSPORTATION SYSTEM: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 THE NEXT GENERATION AIR TRANSPORTATION
                       SYSTEM: STATUS AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2008

                               __________

                           Serial No. 110-122

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
44-270 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
DONNA F. EDWARDS, Maryland           BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana


                            C O N T E N T S

                           September 11, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    16
    Written Statement............................................    18

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    19
    Written Statement............................................    20

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    21

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    21

Prepared Statement by Representative Mark Udall, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    22

Prepared Statement by Representative Laura Richardson, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    23

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    23

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    24

                               Witnesses:

Ms. Victoria Cox, Senior Vice President for NextGen and 
  Operations Planning, Air Traffic Organization, Federal Aviation 
  Administration
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    32

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    44

Honorable Calvin L. Scovel III, Inspector General, U.S. 
  Department of Transportation
    Oral Statement...............................................    45
    Written Statement............................................    47
    Biography....................................................    56

Dr. Paul G. Kaminski, Chairman and CEO, Technovation, Inc.; AIA 
  Member of NextGen Institute Management Committee
    Oral Statement...............................................    57
    Written Statement............................................    59
    Biography....................................................    78

Dr. Ian A. Waitz, PARTNER Director; Jerome C. Hunsaker Professor 
  of Aeronautics and Astronautics; Head, Department of 
  Aeronautics and Astronautics, Massachusetts Institute of 
  Technology
    Oral Statement...............................................    79
    Written Statement............................................    80
    Biography....................................................    90

Discussion
  Recommendations to the Next President..........................    98
  FAA Reorganization.............................................    99
  NextGen Funding................................................   101
  The Development of Alternative Jet Fuels.......................   102
  General Comments on NextGen....................................   102
  NextGen Budget and Education Issues............................   106
  FAA Hiring.....................................................   108
  Gap Analysis Findings..........................................   108
  Overcrowding of the Skies......................................   110

             Appendix 1: Answers to Post-Hearing Questions

Ms. Victoria Cox, Senior Vice President for NextGen and 
  Operations Planning, Air Traffic Organization, Federal Aviation 
  Administration.................................................   114

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................   132

Honorable Calvin L. Scovel III, Inspector General, U.S. 
  Department of Transportation...................................   139

Dr. Paul G. Kaminski, Chairman and CEO, Technovation, Inc.; AIA 
  Member of NextGen Institute Management Committee...............   144

Dr. Ian A. Waitz, PARTNER Director; Jerome C. Hunsaker Professor 
  of Aeronautics and Astronautics; Head, Department of 
  Aeronautics and Astronautics, Massachusetts Institute of 
  Technology.....................................................   164

             Appendix 2: Additional Material for the Record

Next Generation Air Transportation System: Status of Systems 
  Acquisition and the Transition to the Next Generation Air 
  Transportation System, Report to Congressional Requesters, U.S. 
  Government Accountability Office, September 2008...............   168


    THE NEXT GENERATION AIR TRANSPORTATION SYSTEM: STATUS AND ISSUES

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The Next Generation Air Transportation

                       System: Status and Issues

                      thursday, september 11, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, September 11, 2008 at 10:00 am, the Committee on 
Science & Technology will hold a hearing to examine the status of the 
Next Generation Air Transportation System initiative known as NextGen 
and explore key issues related to the initiative and the interagency 
Joint Planning and Development Office (JPDO), the organization 
entrusted with NextGen planning and research coordination.

Witnesses:

Ms. Victoria Cox, Senior Vice President for NextGen & Operations 
Planning, Air Traffic Organization, Federal Aviation Administration

Dr. Gerald L. Dillingham, Director, Physical Infrastructure Issues, 
Government Accountability Office

Mr. Calvin L. Scovel III, Inspector General, U.S. Department of 
Transportation

Dr. Paul G. Kaminski, Chairman and CEO, Technovation Inc.

Professor Ian A. Waitz, PARTNER Director, Massachusetts Institute of 
Technology

BACKGROUND

Issues
    The following issues are expected to be raised at the hearing:

        <bullet>  Have the specific and real improvements projected to 
        be gained through NextGen been well defined, are they 
        realistic, and is there a stakeholder consensus in support of 
        them?

        <bullet>  What metrics should Congress use to evaluate the 
        progress of the NextGen initiative?

        <bullet>  In light of the extremely complex systems engineering 
        challenge facing the NextGen initiative, what will the NextGen 
        interagency partnership and other stakeholders need to do to 
        maximize its chances for success?

        <bullet>  Have the views of industry, active air traffic 
        controllers, and technicians who maintain the ATC system been 
        adequately incorporated in NextGen foundational planning 
        documents, such as the Concept of Operations, Enterprise 
        Architecture, and Integrated Work Plan?

        <bullet>  Have the research and development (R&D) expectations 
        established by Vision 100--the legislation establishing the 
        framework for NextGen--been met by the JPDO and its 
        stakeholders?

        <bullet>  What needs to be done to move the JPDO from a 
        position of proposing the R&D necessary for the success of 
        NextGen to one of articulating a clear R&D program with defined 
        and prioritized tasks for each of the partner agencies?

        <bullet>  How confident should Congress be that progress in 
        meeting the research, development and testing activities set 
        out in the JPDO's Integrated Work Plan will provide a 
        sufficient basis for achieving the NextGen's goals and 
        timetable for quieter, cleaner, and more efficient air traffic 
        operations?

        <bullet>  Does the current form of the Integrated Work Plan 
        have sufficient detail and priorities to allow it to be 
        effectively used to oversee and manage the NextGen-related R&D 
        efforts of multiple agencies?

        <bullet>  What major omissions did the JPDO find when it 
        performed its recent research gap analysis, and how are they 
        being addressed? Did the gap analysis indicate areas in which 
        partners, other than the Federal Aviation Administration (FAA) 
        and National Aeronautics and Space Administration (NASA), need 
        to play a greater role in furthering the NextGen initiative?

        <bullet>  What has to happen for FAA to be able to successfully 
        carry out its intent to accelerate the transition from the 
        JPDO's system concepts and R&D activities to the implementation 
        of operational systems without sacrificing the focus needed to 
        ensure that NextGen's long-term benefits of increased system 
        capacity, lower energy consumption, and reduced environmental 
        impacts will be achieved?

        <bullet>  Given the impact of aviation on the environment, 
        including climate, what steps should the NextGen initiative 
        take to mitigate that impact?

        <bullet>  What assumptions regarding the maturity of near-term 
        and long-term research and technologies were made as part of 
        the decision to reorganize NextGen and JPDO in FAA?

        <bullet>  Can the JPDO continue to be viewed as an ``honest 
        broker'' by the other participating agencies in light of the 
        recent restructuring action by FAA?

        <bullet>  How will FAA and its federal partners ensure that the 
        JPDO and NextGen program adhere to budget and schedule 
        milestones during the upcoming Presidential transition? Will 
        momentum and program focus be impacted by transition 
        activities?

Overview
    While the health of the National Airspace System (NAS) is critical 
to America's economy, the current approach to managing air 
transportation is becoming increasingly inefficient and operationally 
obsolete. Today's NAS is near capacity, with delays growing to record 
levels, yet a threefold increase in air traffic is expected by 2025. 
Current processes and procedures do not provide the flexibility nor the 
scalability needed to meet the growing demand.
    In 2003, Congress created the Joint Planning and Development Office 
(JPDO) as part of P.L. 108-176, Vision 100: Century of Flight 
Reauthorization Act. The JPDO is to plan for and coordinate, with 
federal and non-federal stakeholders, a transformation from the current 
air traffic control system to the NextGen by 2025. NextGen is 
envisioned as a major redesign of the air transportation system that 
will entail precision satellite navigation; digital, networked 
communications; an integrated aviation weather system; layered, 
adaptive security; and more.
    Seven organizations are participating in the JPDO: the Departments 
of Transportation, Commerce, Defense, and Homeland Security; FAA; NASA; 
and the White House Office of Science and Technology Policy. The JPDO 
is housed within FAA, and FAA's FY 2009 budget request includes $19.5 
million to support JPDO. While the JPDO has the planning and 
development responsibility and can define R&D requirements that it 
would like the participating agencies to carry out, it has neither 
budgetary nor management authority over the agencies' activities in 
support of NextGen. Although the JPDO is responsible for planning the 
transformation to NextGen and coordinating the related research and 
development efforts of its partner agencies, FAA is largely responsible 
for implementing the policies and systems necessary for NextGen, while 
continuing to safely operate the current air traffic control system 24 
hours a day, seven days a week.
    The JPDO envisions that NextGen will be an evolutionary 
transformation of the Nation's air transportation system that 
integrates a combination of new procedures and advances in technology 
to improve delivery of services to both civil and military users. The 
goal of NextGen, as stated by the JPDO, is to ``significantly increase 
the safety, security, capacity, efficiency, and environmental 
compatibility of air transportation operations, and by doing so, to 
improve the overall economic well-being of the country.'' The JPDO's 
role is to establish how the air transportation system should be 
transformed. Part of this transformation involves integrating and 
reshaping capabilities across all aspects of air transportation so that 
the entire system operates as an interconnected structure.
    The JPDO sees the investments in NextGen resulting in increased 
system capacity and flexibility to accommodate growing demand for air 
transportation services and diversity of flight profiles. In its 
planning documents, the JPDO describes building NextGen in three 
phases, which it characterizes as Epochs.

        <bullet>  In Epoch 1 [Foundational Capabilities (2007-2011)], 
        focus will be on developing and implementing mature 
        foundational technologies and capabilities such as Automatic 
        Dependent Surveillance--Broadcast (ADS-B) which is the 
        surveillance and navigation technology that will serve as the 
        core of the NextGen system by delivering more timely and 
        precise information to the cockpit while giving pilots and 
        controllers a common operational picture.

        <bullet>  In Epoch 2 [Hybrid System (2012-2018)], the required 
        automation and procedures are implemented to allow pilots a 
        more active role in the system through self-separation, 
        merging, and passing. According to the JPDO, by the completion 
        of Epoch 2, operational improvements and fleet evolution will 
        provide a number of environmental benefits such as increased 
        fuel efficiency at 34 FAA-designated airports within the 
        continental United States. For example, in the terminal 
        airspace operations area, NextGen capabilities and improvements 
        in aircraft engine technologies will, according to the JPDO, 
        produce an overall improvement in fuel efficiency estimated at 
        six percent compared to the baseline. This will have a 
        commensurate positive effect on reducing the level of emissions 
        generated.

        <bullet>  The JPDO views Epoch 3 [NextGen Operations (2019-
        2025)] as the expansion of NextGen into a nationwide system 
        which also allows for more complex, high-density operations 
        across the system to take full advantage of the airspace and 
        the precision provided by satellite-based technologies that 
        will be fully deployed by then.

NextGen Funding
    Preliminary benefits analyses by the JPDO indicate that NextGen 
capacity increases could yield significant economic growth. As stated 
in its Business Case released in August 2007,\1\ using data derived 
from the joint FAA/NASA 2004 Socioeconomic Demand Forecast (SEDF) study 
on aviation demand, the JPDO estimated ``a rough-order-of-magnitude 
annual economic value of $3,000 per flight. Every additional flight 
accommodated by expected NextGen capacity gains represented an economic 
benefit, whereas every additional flight that cannot be accommodated 
represented an economic loss.'' The JPDO found that ``preliminary 
results from the SEDF study indicate that the cumulative positive 
impact to consumer surplus resulting from estimated NextGen capacity 
gains is expected to be up to $80 billion by the end of Epoch 2 (2018) 
and as much as $176 billion by the end of Epoch 3 (2025).'' The JPDO 
notes that these benefits are not achievable without investments by the 
government and industry: Initial estimates of the FAA investment 
required to achieve the NextGen benefits are projected at $15 billion 
to $22 billion through 2025 and preliminary investment estimates by the 
aviation industry are projected to be in the range of $14 billion to 
$20 billion during this same time frame.\2\
---------------------------------------------------------------------------
    \1\ JPDO, Business Case for the Next Generation Air Transportation 
System, Version 1.0 (Aug. 24, 2007).
    \2\ JPDO, Making the NextGen Vision a Reality: 2006 Progress Report 
to the Next Generation Air Transportation System Integrated Plan (Mar. 
14, 2007).
---------------------------------------------------------------------------
    NextGen investment over the next five years (from FY09 to FY13) 
including Research and Development is currently projected by the JPDO 
to total over $7.2 billion. Requested budgets by partner agencies for 
FY09 total $978.5 million. NextGen investments for FY08 through FY13 
are shown in Table 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It should be noted that to date, the Department of Defense (DOD) 
and Department of Homeland Security (DHS) have not identified specific 
NextGen-related investments in their out-year budgets.
    Uniquely establishing NextGen Research and Development costs\4\ 
requires adding FAA's System Development activities funded in the 
agency's Capital Account to agencies' activities characterized as RE&D 
or R&D. Doing so shows that NextGen's projected Research and 
Development costs in the next five years are projected to total over 
$2.2 billion; requested budgets for NextGen Research and Development 
activities by partner agencies for FY09 total $384.3 million. The 
NextGen R&D activities from FY09 through FY13 are shown below in Table 
2.
---------------------------------------------------------------------------
    \4\ The R&D costs in this table are components already included in 
the Table 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Realignment of NextGen Activities and Responsibilities in FAA

    FAA recently realigned its NextGen activities and modified JPDO's 
position and status within the FAA. Organizationally, the agency added 
a Senior Vice President for NextGen and Operations Planning to the Air 
Traffic Organization (ATO). Arguing that the change would give FAA ``a 
clear decision-maker and a distinct line of authority on issues 
relating to NextGen,'' the FAA Acting Administrator designated Ms. 
Victoria Cox as the Senior Vice President responsible for NextGen and 
Operations Planning. [Ms. Cox, one of the hearing witnesses, will be 
able to provide an update on the status of this realignment.]
    Prior to the recent realignment, the JPDO, which has always been 
housed in the FAA, reported to FAA's Administrator and the Chief 
Operating Officer of ATO. Today, the JPDO reports to the Senior Vice 
President for NextGen and Operations Planning, one of four Senior Vice 
Presidents in the ATO structure headed by the Chief Operating Officer 
and no longer reports directly to the FAA Administrator. This 
restructuring is contrary to the intent of the House-passed FAA 
Reauthorization bill [H.R. 2881], which envisions having the head of 
the JPDO report directly to the FAA Administrator and be a voting 
member of FAA's Joint Resources Council. The new ATO structure is shown 
on the following chart.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to the JPDO, the Senior Vice President for NextGen and 
Operations Planning has purview over Operations Planning as well as the 
newly established NextGen Integration and Implementation Office. 
According to FAA, the JPDO will maintain/revise the Integrated Work 
Plan; ``maintain the vision of the future'' and produce ``a long-term 
R&D Plan/Roadmap that demonstrates alignment across partner agencies 
performing long-term research''; and facilitate interagency 
cooperation. For its part, the newly formed Integration and 
Implementation Office has been tasked to ``ensure effective and 
efficient application, planning, programming, budgeting and execution 
of FAA's NextGen portfolio and manage NextGen portfolio across FAA 
lines of business.'' Responsibility for the execution of individual 
acquisitions, such as Automatic Dependence Surveillance Broadcast (ADS-
B), and System Wide Information Management (SWIM) would remain in 
operational units. The ATO organization and the units reporting to the 
Senior Vice President for NextGen and Operations Planning are shown on 
the next page.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Aviation and the Environment

    The NextGen initiative has, from the onset, recognized the need to 
consider aviation's impact on the environment. This is because 
environmental effects, such as noise level near airports and effects of 
aircraft emissions on local air quality, are known capacity limiters. 
Furthermore, aviation's contribution to climate change is becoming a 
major topic.
    In his prepared statement presented at a hearing before the Space 
and Aeronautics Subcommittee in March 2007 on FAA's R&D Budget 
Priorities for Fiscal Year 2008, Dr. Donald Wuebbles, Chair of a 
workshop on the impacts of aviation on climate change (jointly 
sponsored by the JPDO's Environmental Integrated Product Team and the 
Partnership for Air Transportation Noise and Emissions Reduction Center 
of Excellence) summarized the findings and conclusions of his workshop 
as follows:

         ``As a key conclusion, the workshop participants acknowledged 
        an urgent need for aviation-focused research activities to 
        address the uncertainties and gaps in the understanding of 
        current and projected impacts of aviation on climate and to 
        develop metrics to better characterize these impacts. This 
        effort will entail coordination with existing and planned 
        climate research programs within government agencies, and could 
        be organized through expansion of such programs or by totally 
        new activities. The workshop participants indicated that such 
        efforts should include strong and continuing interactions among 
        the science and aviation communities as well as among policy-
        makers to develop well-informed decisions. The next steps 
        required include further ranking and prioritizing of identified 
        research needs; creating a research roadmap with associated 
        roles and responsibilities of various participating agencies 
        and stakeholders; and identifying resources needed to implement 
        the roadmap.''

    In addition, GAO testified before the House Committee on 
Transportation and Infrastructure's Subcommittee on Aviation in March 
2008 [GAO-08-706T] and said:

         ``Aviation contributes a modest but growing proportion of 
        total U.S. emissions, and these emissions contribute to adverse 
        health and environmental effects. Aircraft and airport 
        operations, including those of service and passenger vehicles, 
        emit ozone and other substances that contribute to local air 
        pollution, as well as carbon dioxide and other greenhouse gases 
        that contribute to climate change. EPA estimates that aviation 
        emissions account for less than one percent of local air 
        pollution nationwide and about 2.7 percent of U.S. greenhouse 
        gas emissions, but these emissions are expected to grow as air 
        traffic increases.''

    The JDPO and its partners believe that there are uncertainties in 
our present understanding of the magnitude of climate impacts due to 
aviation emissions. In its most recent assessment, the 
Intergovernmental Panel on Climate Change (IPCC), a scientific 
intergovernmental body set up by the World Meteorological Organization 
(WMO) and by the United Nations Environment Programme (UNEP) has 
estimated that aviation in 2005 accounted for about three percent of 
worldwide anthropogenic radiative forcing. Because growth in demand is 
expected over the next few decades, the JPDO has identified the urgent 
need to understand and quantify the potential impacts of aviation 
emissions in its research program.
    Such urgency is also needed in light of steps by the European Union 
(EU) to include both domestic and international aviation in an 
emissions trading scheme. The congressionally-directed report Aviation 
and the Environment, A National Vision Statement, Framework for Goals 
and Recommended Actions that was prepared by the Partnership for Air 
Transportation Noise and Emissions Reduction (PARTNER) in 2004 
[Professor Ian Waitz, one of the hearing witnesses, participated in the 
study and may be able to provide additional details] said:

         ``The concerns extend well beyond American shores. For 
        example, within the European Union (EU) the climate impacts of 
        aviation are identified as the most significant adverse impact 
        of aviation, in contrast to the United States and many other 
        nations where air quality and noise are the current focus of 
        attention. As a result, there are increasing EU calls for 
        regulation-trading, taxes and charges, demand management and 
        reduced reliance on aviation-even though there is large 
        uncertainty in the understanding of the climate effects of 
        aircraft and appropriate means to mitigate these effects. 
        Despite the importance of this issue, the United States does 
        not have a significant research program to assess the potential 
        impacts of aviation on climate. This may put the United States 
        at a disadvantage in evaluating technological, operational and 
        policy options, and in negotiating appropriate regulations and 
        standards with other nations. The international concerns will 
        continue to grow with the strong increase in air transportation 
        demand anticipated for Asia.''

    According to GAO, the emissions trading scheme involves a ``cap and 
trade'' system that sets allowances for greenhouse gas emissions for 
industries and other sources.\5\ Parties that pollute below their 
allowance receive emissions credits, which they can trade in a market 
to other parties that have exceeded their allowance. As proposed, the 
EU's scheme would apply to air carriers flying within the EU and to 
carriers, including U.S. carriers, flying into and out of EU airports 
in 2012. For example, under the EU proposal, a U.S. airline's emissions 
in domestic airspace as well as over the high seas would require 
permits if a flight landed or departed from an EU airport. Airlines 
whose aircraft emit carbon dioxide at levels exceeding prescribed 
allowances would be required to reduce their emissions or to purchase 
additional allowances. According to GAO, although the EU's proposal 
seeks to include U.S. airlines within the emissions trading scheme, FAA 
and industry stakeholders have argued that U.S. carriers would not 
legally be subject to the legislation.
---------------------------------------------------------------------------
    \5\ GAO, Aviation and the Environment: NextGen and Research and 
Development Are Keys to Reducing Emissions and Their Impact on Health 
and Climate (May 2008).

Subcommittee on Space and Aeronautics' March 2007 Hearing On Status and 
                    Issues Related to the JPDO and NextGen

    During the March 29, 2007 hearing held by the Subcommittee on Space 
and Aeronautics on the status and issues associated with JPDO and 
NextGen, Mr. Charles Leader, Director of the JPDO, testified that two 
fundamental NextGen technologies were just beginning implementation: 
Automatic Dependence Surveillance Broadcast (ADS-B), and System Wide 
Information Management (SWIM) and mentioned the near-term release of 
three important NextGen documents: the Concept of Operations, the 
Enterprise Architecture, and the Integrated Work Plan. Dr. Gerald 
Dillingham from GAO discussed the JPDO's organizational structure, 
technical planning, and research funding. He urged the JPDO to involve 
all stakeholders, including active traffic controllers and technicians. 
Mr. John Douglass, then the President and CEO of the Aerospace 
Industries Association, noted that industry was an essential partner in 
NextGen and that it is important for industry to have confidence in the 
government's commitment to NextGen. Dr. Bruce Carmichael, Director, 
Aviation Applications Program, Research Applications Laboratory, 
National Center for Atmospheric Research stated that seventy percent of 
delays in today's system are attributable to weather and that NextGen 
will integrate the weather programs of the FAA, DOD and NOAA.

Progress in Completing Key Foundational Documents

    At the March 2007 hearing, the JPDO acknowledged that it had been 
working to establish a Memorandum of Understanding (MOU) between its 
participating agencies since at least August 2005 but indicated that 
only two signatures on a draft MOU had been secured to date. Witnesses 
at that hearing supported the need for a signed MOU, one witness saying 
that the document needed to be in place to span likely changes in 
senior management and another witness characterizing the MOU as 
fundamental, in that without one, the delayed dialogue among entities 
``is almost impossible to put into any rational context.'' It was not 
until June 9, 2008 that the MOU was finally signed by all five 
agencies.
    Three key planning documents were released by the JPDO subsequent 
to last year's hearing. These documents form the NextGen baseline plan: 
the Concept of Operations (Version 2.0), released June 13, 2007; the 
Enterprise Architecture (Version 2.0), released June 22, 2007; and the 
Integrated Work Plan (Version 0.2), released February 15, 2008. The 
Research Plan, released August 31, 2007, has since been incorporated 
into the Integrated Work Plan.
    The Concept of Operations document is the most fundamental and 
explains how the system will work and what it will look like. The JPDO 
states that this is important in developing the structure, policy, and 
procedures, and the changes needed to make the system a reality. The 
Enterprise Architecture document is a highly technical description of 
the NextGen system. According to the JPDO, it is meant to provide a 
common tool for planning and understanding the interrelated systems 
that make up NextGen. As such, the Enterprise Architecture serves as a 
guide in coordinating R&D activities and developing JPDO's future needs 
for research and capital investment. The Integrated Work Plan provides 
the research, policy and regulation, and acquisition timelines 
necessary to achieve NextGen by 2025.

External Reviews of NextGen and JPDO

    There have been several recent independent reviews on the progress 
of NextGen and JPDO's activities subsequent to the March 2007 hearing 
held by the Subcommittee on Space and Aeronautics. Some of the key 
findings and recommendations of those reviews are as follows:

Government Accountability Office
    Dr. Gerald Dillingham of the GAO testified on May 9, 2007 before 
the House Committee on Transportation and Infrastructure's Subcommittee 
on Aviation [GAO-07-784T] on the status of the NextGen initiative [Dr. 
Dillingham, one of the hearing witnesses, participated in the study and 
will be able to provide an update]. Some of the main points made by Dr. 
Dillingham were as follows:

        <bullet>  ``JPDO has continued to make progress in furthering 
        its key planning documents. JPDO has experienced delays in the 
        release of key documents, but currently plans to have initial 
        versions of these documents released by July 2007. JPDO has 
        been working since 2005 to establish a memorandum of 
        understanding between its partner agencies, although as of May 
        4, 2007, the memorandum had been signed by the Departments of 
        Transportation and Commerce and NASA, but was not yet signed by 
        the Departments of Defense and Homeland Security.''

        <bullet>  ``FAA and JPDO continue to face a number of 
        challenges in moving toward NextGen, including questions about 
        FAA's technical and contract management expertise; FAA's 
        ability to maintain a number of existing systems, including 
        monitoring and addressing equipment outages to ensure the 
        safety of these existing systems as it transitions to NextGen; 
        and conducting necessary human factors research.''

        <bullet>  ``In addition, while JPDO recently estimated that the 
        total federal cost for NextGen infrastructure through 2025 will 
        range between $15 billion and $22 billion, questions remain 
        about which entities will fund and conduct the necessary 
        research, development, and demonstration projects that will be 
        key to achieving certain NextGen capabilities.''

        <bullet>  ``Also, JPDO faces a continuing challenge in ensuring 
        the involvement of all key stakeholders, such as active air 
        traffic controllers and system technicians, in its NextGen 
        planning efforts.''

    In providing answers for the record for that same hearing, GAO 
responded [GAO-07-928R] to a question from Chairman Costello on the 
extent to which moving the JPDO out of the FAA's Air Traffic 
Organization (ATO) would give the JPDO greater visibility and 
authority, and the potential pluses and minuses of such a move. GAO 
said:

        <bullet>  ``Currently, JPDO is located within FAA and reports 
        to both the FAA Administrator and the Chief Operating Officer 
        of ATO. In GAO's view, JPDO should not be moved out of FAA.''

        <bullet>  ``However, JPDO's dual reporting status hinders its 
        ability to interact on an equal footing with ATO and the other 
        partner agencies. On one hand, JPDO must counter the perception 
        that it is a proxy for the ATO and, as such, is not able to act 
        as an ``honest broker.'' On the other hand, JPDO must continue 
        to work with ATO and its partner agencies in a partnership in 
        which ATO is the lead implementer of NextGen. Therefore, it is 
        important for JPDO to have some independence from ATO. One 
        change that could begin to address this issue would be to have 
        the JPDO Director report directly to the FAA Administrator. 
        This change may also lessen what some stakeholders now perceive 
        as unnecessary bureaucracy and red tape associated with 
        decision-making and other JPDO and NextGen processes.''

        <bullet>  ``As a part of any change in the dual reporting 
        status of JPDO's Director, consideration could be given to the 
        possibility of creating the position of Associate Administrator 
        of NextGen and elevating the JPDO Director to that post.''

        <bullet>  ``One plus or advantage of moving JPDO out of ATO is 
        that it could raise JPDO's authority and visibility in 
        interagency deliberations by putting JPDO on an equal footing 
        with ATO and other FAA lines of business. For example, moving 
        JPDO out of ATO might strengthen its linkages to the Department 
        of Defense (DOD) and the Department of Homeland Security (DHS). 
        In addition, JPDO may be able to work more effectively with 
        other FAA lines of business, such as Airports, for which JPDO 
        has planning responsibilities. For example, JPDO is responsible 
        for developing plans to increase airport capacity. A minus or 
        disadvantage of moving JPDO out of ATO is that because much of 
        the work related to implementing NextGen must occur under ATO, 
        this work could be harder to accomplish.''

    GAO also reported to the Subcommittee on Space and Aeronautics 
earlier this year on noise and other environmental impacts of aviation 
that may fundamentally constrain air transportation in the 21st century 
[GAO-08-384]. GAO said that FAA and NASA have aligned their aviation 
noise R&D plans through a number of planning and coordinating 
mechanisms in order to ensure that these plans are complementary and 
contribute to goals for addressing the environmental impacts of 
aviation, particularly as these impacts relate to the implementation of 
NextGen.

Department of Transportation Office of the Inspector General
    On April 14, 2008, the DOT's Office of the Inspector General (OIG) 
released a report [AV-2008-049] on how FAA's air traffic control 
projects are impacted by plans for NextGen [Mr. Calvin Scovel, DOT's 
Inspector General and one of the hearing witnesses, participated in the 
study and will be able to provide additional details]. Some of the main 
findings and recommendations of the OIG study were as follows:

            Findings

        <bullet>  ``Much work remains to determine NextGen's impact on 
        existing projects. FAA is currently exploring ways to 
        accelerate elements of NextGen. FAA faces complex integration 
        issues (linking new and legacy systems) and must manage 
        interdependency among diverse projects. The pace of introducing 
        new automation, more flexible airspace, and data-link 
        communications will be governed by the pace of existing 
        projects.''

        <bullet>  ``Over the next two years, over 23 critical decisions 
        must be made about ongoing programs. These decisions affect 
        major lines of the modernization effort with respect to 
        automation (modernizing terminal and en route capabilities), 
        communications (moving forward with data-link programs), 
        navigation (deciding whether to retain or discontinue certain 
        ground-based systems), and surveillance (using satellite-based 
        and radar information with existing ATC systems).''

        <bullet>  ``These decisions and many others will depend heavily 
        on the development of a comprehensive Enterprise Architecture 
        (a technical roadmap) that lays out the vision of how the 
        system will work and what changes will be required. The 
        Enterprise Architecture must establish a transition path that 
        identifies the role and evolution of current systems and how 
        they will transition to NextGen.''

        <bullet>  ``FAA has made progress in developing the NextGen 
        Enterprise Architecture, but planning documents lack details on 
        requirements, particularly for automation, that could be used 
        to develop reliable cost estimates. FAA must revise these 
        documents to prioritize NextGen operational improvements and 
        systems and ensure that these priorities are reflected in 
        NextGen planning documents and budget requests.''

        <bullet>  ``Along with refining the Enterprise Architecture, 
        FAA must chart a clear transition course from the current NAS 
        architecture to the vastly different NextGen environment. Our 
        work shows that FAA needs to conduct a gap analysis between the 
        current system and the NextGen architecture planned for the 
        2025 timeframe. This will help establish budget priorities, 
        better define requirements, and refine transition plans. In 
        addition, FAA needs to develop an interim architecture or 
        ``way-point'' that is manageable and executable for what is 
        expected of the NAS by 2015. Until these steps are taken, it 
        will not be possible to determine technical requirements that 
        translate into reliable cost and schedule estimates for 
        existing or future acquisitions.''

            Recommendations

        <bullet>  ``Develop and report on a new set of metrics for 
        measuring progress with NextGen initiatives that focus on the 
        delivery of a new capability with respect to enhancing 
        capacity, boosting productivity, or reducing Agency operating 
        costs.''

        <bullet>  ``Complete a gap analysis of the NAS enterprise 
        architecture that closely examines current systems (the ``as 
        is'') and the planned NextGen enterprise architecture (the ``to 
        be'') and develop and establish priorities.''

        <bullet>  ``Once the gap analysis is completed, develop an 
        interim architecture that details what can be accomplished in 
        the 2015 timeframe that will allow FAA to more accurately 
        determine costs and other factors required for NextGen.''

        <bullet>  ``Use the interim architecture as the basis for an 
        integrated program plan that establishes an executable program 
        for the NextGen capabilities. This effort should include 
        detailed cost, schedule, requirements, acquisition strategies, 
        risk management, and the supporting organizational structures 
        to execute the integrated program.''

    At an exit conference with FAA officials from ATO and JPDO, those 
officials generally concurred with all of the OIG's recommendations, 
including the need to establish metrics for measuring progress with 
NextGen initiatives and develop an interim architecture for NextGen.

National Academies Workshop on Assessing the Research and Development 
        Plan for the Next Generation Air Transportation System
    On April 1 and 2, 2008, a workshop was led by the National 
Academies' National Research Council to gather reactions to the 
research and development aspects of JPDO's baseline Integrated Work 
Plan (IWP). The workshop was composed of experts from JPDO, session 
moderators, members of the workshop organizing committee, and invited 
guests from government, industry, and academia who were familiar with 
air traffic management. Although the workshop was not a consensus 
activity, a number of issues were raised by the participants in the 
workshop. As indicated in the pre-publication copy of a summary of the 
workshop, these included:

        <bullet>  ``The issue of a sensed lack of urgency on the part 
        of the JPDO was mentioned most often by workshop participants. 
        There clearly are economic pressures to move quickly and the 
        rest of the international aviation world is moving forward, 
        particularly in Europe. However, the JPDO is still proposing 
        R&D that needs to be done rather than articulating a clear 
        program. ``

        <bullet>  ``A second issue raised by many of the participants 
        was the JPDO's inability to articulate the goals of the NextGen 
        program. The JPDO outlined a large number of excellent research 
        tasks in its presentations, most of which will likely be 
        required to support future U.S. airspace system needs. However, 
        many participants felt that there was a lack of focus on the 
        most important future needs: airspace and airport capacity.''

        <bullet>  ``Tied to the concern about the lack of clearly 
        stated goals is the concern that prioritization of the 
        individual pieces of the program has not been done. It is 
        important to consider how best to spend limited research 
        dollars and to determine the likely payoff for particular 
        investments.''

        <bullet>  ``During the workshop, several participants expressed 
        concern with the narrow boundaries and inward focus (at FAA and 
        NASA) of the NextGen R&D program. Participants suggested that a 
        number of connections needed to be made or strengthened with 
        other constituents, such as airport authorities, controllers, 
        local communities, industry, DOD, and international 
        organizations.''

        <bullet>  ``Most participants also felt that the IWP 
        [Integrated Work Plan] was not well-structured from the 
        research perspective and stressed that the document should make 
        research priorities clear. However, these and other 
        participants felt that the current draft IWP contains too much 
        unprioritized detail and is not properly detailed to plan what 
        research needs to be done. Further, other participants felt the 
        IWP does not appear to be the most effective way to oversee or 
        manage the research.''

        <bullet>  ``Concerns were raised by many participants that 
        there may not be sufficient resources to enable development of 
        these transition paths. First, it was not clear how the 
        activity is being financed. That is, it was not clear to the 
        participants who is ultimately responsible for paying for the 
        R&D needed to get to implementation of the program.''

        <bullet>  ``The last key issue centered on political 
        difficulties. Foremost among the workshop participants was the 
        concern about the challenge of making difficult (politically 
        charged) decisions. Government agencies tend to be risk-averse, 
        and some participants feel that the lack of decision-making is 
        holding up the JPDO's ability to move forward on NextGen's 
        research needs. A number of specific issues were identified 
        that are difficult, but which participants felt will need to be 
        addressed. For example, some participants raised the question 
        of how to deal with the issue that although manufacturers are 
        willing to invest in changes desired for environmental 
        improvements, airlines are not willing to pay the additional 
        costs; that is, there is an issue of the trade-off between 
        outcome and cost constraints.''

FAA's Proposed Rule on ADS-B

    Last October, FAA issued a Notice of Proposed Rule-making (NPRM) 
regarding the agency's transition plan to the Automatic Dependent 
Surveillance-Broadcast (ADS-B) system, a key foundation for NextGen. 
FAA's planned implementation would require installing ADS-B on all 
aircraft operating in U.S. airspace by 2020. According to media 
reports, the proposed rule garnered more than 300 comments, some 
centering on the fact that mandated equipment on board aircraft would 
provide only the ADS-B ``out'' service, where signals transmitted out 
(identification, GPS position, altitude, heading, speed and other data 
once per second) would be used primarily by the air traffic control 
system. Pilots would not be provided with information about other 
traffic around them, a capability available only with ADS-B ``in'' 
equipment, the addition of which was not mandated by the proposed rule. 
Aircraft equipage of ADS-B ``in'' and cockpit displays was optional. It 
has been reported that some operators view the mandated equipage as 
providing them little or no benefit, although they acknowledge 
improvement to controller provided information.
    According to media reports, FAA has asked the Aviation Rule-making 
Committee (ARC) to perform an NPRM review. Subsequent to the ARC's 
report and recommendations, FAA will have different options to 
consider, namely deciding that the NPRM will remain unchanged, 
modifying it to incorporate some of the committee's recommendations or 
performing a complete revision of the proposed rule and producing a 
supplemental NPRM (SNPRM) to replace it. No date has been established 
for when FAA will announce its choice of option. It is likely that the 
mandated equipage date for ADS-B will be delayed.

European Air Traffic Modernization and Associated Research and 
                    Development Efforts

    Last year, the FAA Administrator signed a Memorandum of 
Understanding with her European counterpart that formalizes cooperation 
between the NextGen initiative and the ``Single European Sky Air 
Traffic Management Research Programme'' or SESAR program, the European 
equivalent of NextGen. FAA has said that the agency and the European 
Commission are identifying opportunities and establishing timelines to 
implement, where appropriate, common, inter-operable, performance-based 
air traffic management systems and technologies. This coordination, FAA 
said, will address policy issues and facilitate global agreement within 
international standards organizations.
    Compatibility of the NextGen system with SESAR and the air traffic 
modernization efforts being planned elsewhere in the world is very 
important to U.S. and international air carriers. That is because 
failure to ensure compatibility could lead to air carriers having to 
equip their fleets with two sets of communications, navigation, and 
surveillance systems.
    According to FAA, SESAR is conceived as a system that, while 
smaller in scope and size, has similar air traffic management goals as 
NextGen. However, FAA has pointed out an important difference in scope 
between SESAR and NextGen. The agency says that while SESAR focuses 
almost exclusively on air traffic management, NextGen takes what is 
called a ``curb-to-curb'' approach, and includes not only air traffic 
control, but also airports, airport operations, security and passenger 
management, and Department of Defense and Department of Homeland 
Security requirements.
    The JPDO recently completed a comparative assessment of the NextGen 
and SESAR operational concepts. In this paper, JPDO found that:

        <bullet>  ``The vision and ``philosophical'' perspectives of 
        both concepts are closely aligned. This is to be expected based 
        on the existence of formal cooperative arrangements between the 
        U.S. and Europe. Further, the participation of a wide variety 
        of stakeholders in both the JPDO and SESAR initiatives allowed 
        for significant information sharing and the identification of 
        best practices to be incorporated.''

        <bullet>  ``Probably the most easily recognized difference in 
        the two concepts is the breadth of scope. The NextGen ConOps 
        [Concept of Operations] includes a full ``curb-to-curb'' 
        approach that includes passenger and inter-modal security 
        considerations. These build on the traditional ``block-to-
        block'' concepts that are centered on the airspace operations 
        (including environmental considerations). The SESAR ATM Target 
        Concept remains focused on the more traditional airspace 
        elements and recognizes the need to include airport operations 
        for a complete gate-to-gate process description.''

        <bullet>  ``Another area of difference, although not as 
        dramatic, is how weather is considered in the two concepts. In 
        the U.S. National Airspace System, summer convective weather 
        causes a majority of system-wide delays and therefore has been 
        included as a core element of the proposed concept. Weather is 
        recognized in the SESAR ATM Target Concept, but there does not 
        appear to be the same level of focus on infrastructure, 
        prediction, modeling, and planning as appears to be included in 
        the NextGen concept.''

    The European Union is also focusing its aeronautics R&D on 
environmental effects. Under the aegis of its Seventh Framework 
Programme, the EU's main instrument for funding research over the 
period 2007 to 2013, the Union will be conducting research on 
developing technologies to reduce the environmental impact of aviation 
with the aim of halving the amount of carbon dioxide emitted by air 
transport, cutting specific emissions of nitrogen oxides by 80 percent 
and halving perceived noise. The research will address green engine 
technologies, alternative fuels, novel aircraft/engine configurations, 
intelligent low-weight structures, improved aerodynamic efficiency, 
airport operations and air traffic management as well as manufacturing 
and recycling processes. The ``Clean Sky'' Joint Technology Initiative 
will bring together European R&D stakeholders to develop `green' air 
vehicle design, engines and systems aimed at minimizing the 
environmental impact of future air transport systems. This initiative 
establishes a Europe-wide partnership between industry, universities 
and research centers, with a total public/private funding of 1.6 
billion Euros.
    Chairman Gordon. Let me welcome everyone. This is a bit of 
an unusual day in that we have the 9/11 Pentagon Memorial 
Service going on right now, and I understand at 3:00 last night 
they closed that interstate down over there, so we have I am 
sure lots of staff and friends that were Members that were 
taking alternate routes, will take a little bit longer, and but 
I know that we have a variety of staff and Members also that 
are watching this hearing on TV. And so we want to proceed.
    Before we get going today, I want to take care of a few 
housekeeping details since this will be our last Full Committee 
hearing for the session. As you may know, this year marks the 
50th anniversary of the Science and Technology Committee. In 
honor of that milestone we have collaborated with the House 
Historian's Office to produce a history of the Committee, and 
it is on our desk and will be getting around to our different 
stakeholders and friends soon. The Historian's Office has been 
working to standardize the format to best help future 
researchers and historians, and our history will be the model 
for the Committees going forward. And so we have provided these 
copies today.
    Secondly, since many Members have expressed interest in 
attending a Shuttle launch, I want to let you know that the 
next launch is currently scheduled for Friday, October the 
10th, at 12:30 a.m., so coffee will be provided. There is a 
possibility that Mr. Mollohan at the Appropriations Committee 
will be taking a CODEL for that launch and that our Members 
have been asked to join. And if not, if we have enough Members, 
we will put together a CODEL of our own.
    There is also a launch that is currently scheduled for 
November the 12th that might be a better option for some 
Members.
    Third, I would like to, again, congratulate all the Members 
of the Committee for the good and constructive work that we 
have done this year in a very bipartisan way. Today marks the 
122nd hearing, and I am sure the, we hear groans going up from 
the staff because of that, but we have had 122 hearings. We 
have moved 78 bills and resolutions through the House, 24 of 
which have become law, and we have several more pending in the 
Senate that we hope that will become law before this session is 
over. This is a record that we should all be proud of, and I 
hope that we can do even better next year.
    And I am also very pleased that all of those bills and 
resolutions came out of this committee on a bipartisan basis. 
We are in the process now of trying to close the books on this 
year. We will soon start to look at our agenda for next year, 
and we want to do it in a collaborative way. We find that if 
you take good ideas and work together with Democrats and 
Republicans to build a coalition that you get a much better 
bill, and we are going to continue that.
    Also, for Members' attention I will let you know that we 
postponed a trip or CODEL to look at some of the nuclear 
reprocessing that is done in France and that we will try to get 
that back up again in the spring.
    And so that is--oh, I guess the final point I should make 
is that our Committee volunteered to be the model for the new 
energy-efficient rooms here on the Capitol Complex. We have 
finished many of those. As soon as our last Subcommittee 
hearing is over with they will come in and finish up this 
hearing room, and then hopefully by maybe next January or so we 
want to invite the family and friends, particularly of our 
staff, to come and see where they spend all their time and to 
show the rest of Congress how you really can save energy with 
an energy-efficient office.
    And so, finally, in light of the commemorative ceremony 
that will be taking place on the Capitol steps later this 
morning, I intend to keep the hearing moving so that we have an 
adequate opportunity to hear from our witnesses and examine the 
important issues facing the NextGen Program before Members have 
to depart for the ceremony at 11:30.
    I, therefore, will be brief in my opening remarks, and I 
will begin by welcoming our witnesses to today's hearing on a 
very important topic. America's air transportation has long 
been the envy of the world, and it is an important contributor 
to the Nation's economic vitality and quality of life.
    Yet it is clear that it is a system under stress and needs 
to change. Congress recognized that fact when it established 
the Next Generation Air Traffic Transportation System 
Initiative now known as NextGen in its Vision 100 FAA 
Reauthorization that was enacted in late 2003. We sought to 
harness the resources and expertise of FAA, NASA, DOD, 
Commerce, DHS, and OSTP in a joint effort to transform the 
Nation's ATC system so that it will be able to handle the 
anticipated dramatic future increase in travel demand without 
compromising safety or the environment.
    Today's hearing will provide the Committee with the 
opportunity to review the progress that has been made to date 
as well as examine the challenges that need to be addressed. We 
should have no illusions about the magnitude of the task. 
NextGen is a systems, engineering, management, and regulatory 
challenge as complex as any the Nation has ever faced. And 
success is not guaranteed.
    Last year we recognized that NextGen has to succeed, 
recognized that NextGen needs to succeed. This committee and 
the Transportation and Infrastructure Committee worked together 
to frame provisions in the House FAA Reauthorization Bill, H.R. 
2881, that sought to strengthen the interagency NextGen 
planning and development effort and to move NextGen R&D into 
new operational capacities as soon as practicable.
    In that regard, I want to salute Chairman Costello of the 
T&I Aviation Subcommittee for his strong leadership in 
developing the overall FAA Reauthorization Bill and for the 
spirit of cooperation he showed to us.
    In addition to his T&I responsibility, he is a valued 
senior Member of this committee, and I look forward to 
continuing to work collaboratively with him and his staff on 
these important issues in the next Congress.
    Yet we also need for the FAA to work cooperatively with us 
if we are to fulfill our oversight responsibility with respect 
to the NextGen initiative. Therefore, it was troubling to find 
out that the restructuring of the FAA's NextGen Program this 
summer from news accounts and not from the FAA itself. It was 
also very troubling to find out that the status of the NextGen 
Joint Planning and Development Office, JPDO, had been 
downgraded in the FAA and restructuring in a move directly 
counter to the intent of provisions of H.R. 2881.
    We need to hear why FAA decided to take such a step in the 
waning days of the current Administration. And finally, it is 
troubling that the FAA did not deliver this testimony for 
today's hearing to the Committee until yesterday afternoon at 
3:00, giving us little time to review it. I find that 
unacceptable, and I hope that we will not see a repeat of any 
of these practices when it comes to meetings in the 111th 
Congress.
    As my friend Mr. Hall remembers, former Chairman 
Sensenbrenner dismissed a hearing like this a few years ago 
because of late testimony. We are not going to do that this 
time because this is our last hearing, but this is going to be 
important. This committee is going to do its oversight. We can 
do it the easy way, or we can do it the hard way, and hopefully 
we are going to be able to work together next year.
    Well, we have a great deal of issues to cover today, so I 
will close by simply expressing my strong belief that the next 
President needs to make the NextGen Initiative a national 
priority and ensure that it is given the resources, management 
attention, and sense of urgency that it warrants. It is 
important.
    Again, I want to welcome our witnesses, and I look forward 
to their testimony, and I now recognize Mr. Hall for his 
opening statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    America's air transportation system has long been the envy of the 
world, and it is an important contributor to the Nation's economic 
vitality and quality of life.
    Yet it is clear that it is a system under stress, and it needs to 
change.
    Congress recognized that fact when it established the Next 
Generation Air Transportation System initiative--now known as NextGen--
in its Vision 100 FAA Reauthorization that was enacted in late 2003.
    We sought to harness the resources and expertise of FAA, NASA, DOD, 
Commerce, DHS, and OSTP in a joint effort to transform the Nation's ATC 
system so that it will be able to handle the anticipated dramatic 
future increases in travel demand without compromising safety or the 
environment.
    Today's hearing will provide this committee with the opportunity to 
review the progress that has been made to date as well as examine the 
challenges that need to be addressed.
    We should have no illusions about the magnitude of the task--
NextGen is a systems engineering, management, and regulatory challenge 
as complex as any the Nation has ever faced--and success is not 
guaranteed.
    Last year, recognizing that NextGen has to succeed, this committee 
and the Transportation and Infrastructure Committee worked together to 
frame provisions in the House's FAA Reauthorization bill--H.R. 2881--
that sought to strengthen the interagency NextGen planning and 
development effort and to move NextGen R&D into new operational 
capabilities as soon as practicable.
    In that regard, I want to salute Chairman Costello of T&I's 
Aviation Subcommittee for his strong leadership in developing the 
overall FAA Reauthorization bill and for the spirit of cooperation he 
showed to us.
    In addition to his T&I responsibilities, he is a valued senior 
Member of this committee, and I look forward to continuing to work 
collaboratively with him and his staff on these important issues in the 
next Congress.
    Yet we also need for the FAA to work cooperatively with us if we 
are to fulfill our oversight responsibilities with respect to the 
NextGen initiative.
    Thus, it was troubling to find out about the restructuring of the 
FAA's NextGen program this summer from news accounts--and not from the 
FAA itself.
    And it was even more troubling to find out that the status of the 
NextGen Joint Planning and Development Office--JPDO--had been 
downgraded in the FAA in the restructuring . . . a move directly 
counter to the intent of the provisions in H.R. 2881.
    We need to hear why the FAA decided to take such a step in the 
waning days of the current Administration.
    And finally, it is troubling that the FAA did not deliver its 
testimony for today's hearing to the Committee until yesterday 
afternoon, giving us little time to review it.
    I find that unacceptable, and I hope we will not see a repeat of 
any of these practices when we meet again in the 111th Congress.
    Well, we have a great many issues to consider today, so I will 
close by simply expressing my strong belief that the next President 
needs to make the NextGen initiative a national priority and ensure 
that it is given the resources, management attention, and sense of 
urgency that it warrants.
    It is that important.
    Again, I want to welcome our witnesses, and I look forward to your 
testimony.

    Mr. Hall. Mr. Chairman, I thank you, and before I go into 
my opening statement let me agree wholeheartedly with your 
opening statement and your outlining the accomplishments of 
this committee. More than any other committee under the Capitol 
Dome we have been successful, and we have been successful 
because we have had good leadership. And I would say this. If 
all Chairmen have operated like our Chairman has operated, both 
professional leadership and personal friendship and 
cooperation, we would have less acrimony and less anxiety every 
two years as to who is going to have the gavel. He has rendered 
a very fair gavel, extended friendship, and cooperation, and I 
think we really ought to give him a good round of applause.
    So now I will read my statement. And I thank you for 
calling today's hearing to review the Federal Aviation 
Administration's development of the Next Generation Air 
Transportation System. I also want to extend a sincere thank 
you to our panel of expert witnesses for taking your time from 
your busy schedule to appear before the Committee.
    The information and advice you provide this committee and 
Congress will help us better deal with the challenges of 
modernizing our nation's critically important air traffic 
management system. Congress passed legislation not quite five 
years ago calling for the creation of the Joint Planning and 
Development Office and charged it with planning for and 
coordinating the research and development of a Next Generation 
Air Transportation System.
    The rationale for Congress' action was clear. Congestion in 
and around our nation's airports was reaching gridlock, 
resulting in significant economic losses to carriers, severely 
inconveniencing large numbers of passengers, and threatening 
the vitality of our economy. It was estimated that demand for 
airline services would triple by the year 2025, and absent a 
more comprehensive and clearly-defined research, development, 
and implementation program future economic growth would be 
jeopardized.
    Therefore, Congress responded by creating the JPDO to 
address this serious challenge. Congress clearly recognized 
that integrating new, automated features into a nationwide 
network of communications, navigation, and surveillance systems 
is a huge challenge, and it will take clear and persistent 
management to achieve NextGen's goals.
    We also recognize that the future system must allow for 
more efficient routings and minimize delays in order to 
conserve fuel, the cost of which has risen dramatically in the 
last several months. Congress was confident then, as we are 
today, that through the focused leadership of the Federal 
Aviation Administration, the JPDO, its federal partners, and 
industry, these challenges will be met.
    This is the second oversight hearing in as many years held 
by this committee regarding NextGen. I also note that during 
the first session of this Congress our committee produced 
legislation strengthening the role and visibility of the Joint 
Planning and Development Office. Sadly, the legislation has 
been hung up in the Senate.
    The Nation's Air Traffic Management System is fundamental 
to our economy and our quality of life. NextGen absolutely must 
not be allowed to falter, and it is vitally important that 
there is accountability both at the FAA and among federal 
partners, and that roles and responsibilities are clearly 
articulated. So long as there is clarity in the management of 
NextGen and a well-understood and sustainable research, 
development, and implementation program, I am confident that we 
will succeed.
    And Mr. Chairman, I thank you and again, my thanks to the 
witnesses. I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, thank you for calling today's hearing to review the 
Federal Aviation Administration's development of the Next Generation 
Air Transportation System. I also want to extend a sincere thank you to 
our panel of expert witnesses for taking time from their busy schedules 
to appear before our committee. The information and advice you provide 
this committee and Congress will help us better deal with the 
challenges of modernizing our nation's critically important air traffic 
management system.
    Congress passed legislation not quite five years ago calling for 
the creation of the Joint Planning and Development Office (JPDO) and 
charged it with planning for, and coordinating the research and 
development of, a next generation air transportation system. The 
rationale for Congress' action was clear--congestion in and around our 
nations' airports was reaching gridlock, resulting in significant 
economic losses to carriers, severely inconveniencing large numbers of 
passengers, and threatening the vitality of our economy. It was 
estimated that demand for airline services would triple by the year 
2025, and absent a comprehensive and clearly-defined research, 
development and implementation program, future economic growth would be 
jeopardized. Therefore Congress responded by creating the JPDO to 
address this serious challenge.
    Congress clearly recognized that integrating new, automated 
features into a nationwide network of communications, navigation and 
surveillance systems, is a huge challenge, and it will take clear and 
persistent management to achieve NextGen's goals. We also recognize 
that the future system must allow for more efficient routings and 
minimize delays in order to conserve fuel, the cost of which has risen 
dramatically in the last several months. Congress was confident then, 
as we are today, that through the focused leadership of the Federal 
Aviation Administration, the JPDO, its federal partners, and industry, 
these challenges will be met.
    This is the second oversight hearing in as many years held by this 
committee regarding NextGen. I also note that during the First Session 
of this Congress, our committee produced legislation strengthening the 
role and visibility of the Joint Planning and Development Office. Sadly 
the legislation has been hung up in the Senate.
    The Nation's air traffic management system is fundamental to our 
economy and our quality of life. NextGen must not be allowed to falter. 
It is vitally important that there is accountability both at the FAA 
and among federal partners, and that roles and responsibilities are 
clearly articulated. So long as there is clarity in the management of 
NextGen, and a well-understood and sustainable research, development 
and implementation program, I am confident we will succeed.
    Thank you, Mr. Chairman, and again my thanks to our witnesses for 
being here today.

    Chairman Gordon. Thank you, Mr. Hall. If there are Members 
who wish to submit additional opening statements, your 
statement will be added to the record.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Thank you, Mr. Chairman, for holding this hearing today. As the 
Chairman of the Subcommittee on Aviation, the NextGen system is one 
that I have worked on for some time.
    The goal of this program, when implemented, is to significantly 
increase the safety, efficiency, and environmental compatibility of air 
transportation operations. NextGen will move the air transportation 
system away from the costly ground-based systems that have defined air 
traffic control for the past fifty years to satellite based technology.
    The FAA forecasts that airlines are expected to carry more than one 
billion passengers by 2015, increasing from approximately 740 million 
in 2006. The Department of Transportation (DOT) predicts up to a 
tripling of passengers, operations, and cargo by 2025. While these 
predictions may be affected by the high cost of fuel, nevertheless this 
modernization is very much needed, and we must ensure its effective and 
efficient implementation.
    The NextGen plan that is under development will consist of new 
concepts that rely on satellite-based capabilities; data 
communications; information and weather capabilities that will support 
strategic decisions; and enhanced automation. As Chairman of the 
Aviation Subcommittee and after spending a considerable amount of time 
on this project, we have learned that the NextGen system must evolve 
incrementally through sound contract management by the FAA coupled with 
vigorous Congressional oversight. To that end, today's hearing and the 
Science Committee's involvement with NextGen can contribute its 
success.
    I have concerns that FAA's restructuring related to NextGen lowers 
the status of the Joint Planning Development Office (JDPO) and does the 
complete opposite of what the House directed in H.R. 2881, the FAA 
Reauthorization bill, which we passed in September 2007. I have also 
been concerned that under this restructuring, the roles of the JPDO and 
the Air Traffic Organization are blurred.
    I believe we all must work together to ensure we have the resources 
needed for NextGen to be a success and so that our aviation system 
continues to be the best in the world.
    I want to thank the Chairman for his attention to this issue. I 
would also like to thank all of our witnesses today for coming and I 
look forward to the testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. Because of my service on the Committee on 
Transportation and Infrastructure, I am particularly interested in the 
subject of today's Full Committee hearing.
    Our air traffic control system is of critical importance to our 
safety and also to our national security.
    In June of 2008, the Dallas Fort Worth International Airport alone 
moved more than five million passengers. That is in one month, at one 
airport.
    Our skies are crowded with commercial and private aircraft. As air 
traffic becomes heavier, the technology that manages the load will be 
under greater pressure to perform without error.
    The Federal Aviation Administration must work with the federal 
science agencies to ensure that the next generation of air traffic 
control technologies--called NextGen--will be able to accommodate the 
needs of tomorrow's air traffic.
    This wide-ranging transformation of the national air transportation 
system will move away from long-relied-upon technologies.
    It will use more satellite based technology, and it will enable 
better weather imaging across the entire national airspace system.
    The transformation will enable will improve airport surface 
movements at busy airports such as the one in Dallas. It will reduce 
spacing and separation requirements of aircraft.
    The system will also better manage the overall flows into and out 
of busy metropolitan airspace to provide maximum use of high demand 
airports.
    NextGen represents the collaborative effort of seven federal 
organizations, and the planning and implementation of it will be 
carried out by a unique public/private partnership called the Joint 
Planning and Development Office (JPDO).
    This committee will be interested to know about recent FAA 
realignment of NextGen activities and changes in the Joint Planning and 
Development Office.
    We want to understand that the reorganization of the project 
represents a step toward clarity, rather than a tangle of bureaucracy.
    The American public deserves to know how and why these decisions 
are made.
    The reorganization of our national air traffic control system 
technology is no small ordeal. We as Members of this committee are 
tasked to be stewards of the public's investments.
    I want to thank the witnesses who are here today to illuminate 
matters for us.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Chairman Udall follows:]

               Prepared Statement of Chairman Mark Udall

    I want to thank Chairman Gordon for holding this very timely 
hearing. It is important that this committee continue to pay close 
attention to the progress and challenges of the interagency Next 
Generation Air Transportation System [NextGen] initiative--the national 
effort to transform the Nation's aging air traffic control system so 
that it can accommodate the large increases in travel demand forecast 
to occur over the next two decades. As I have often stated, America's 
aviation system is vital to the continued health of our economy and our 
competitiveness in the wider world beyond our shores, as well as being 
important to our quality of life. We need to ensure that we do all that 
is necessary to maintain its health.
    Last year I chaired a Space and Aeronautics Subcommittee hearing on 
the Joint Planning and Development Office's progress in planning and 
coordinating the research necessary to implement NextGen. I opened last 
year's hearing by saying that I was troubled by indications that all 
may not be going as well as hoped with the NextGen effort and that we 
had not yet seen a clear plan from FAA and the JPDO for implementing 
agreed-upon NextGen technologies and procedures into the National 
Airspace System expeditiously. As it turns out, we found out during 
that hearing that long-promised planning documents and a critical 
interagency Memorandum of Understanding were not yet completed. I am 
keenly interested in seeing what progress has been made since that 
hearing.
    Today, the need for NextGen is greater than ever. Passengers are 
faced with incessant delays, many caused by an aging air traffic 
control system's inability to cope with the capacity-reducing effects 
of bad weather. Over the short-term, soaring fuel prices have put some 
airlines on the brink of economic collapse. Over the longer-term, with 
reduced capital on hand to pay for higher fuel costs, other airlines 
have postponed purchases of quieter and more fuel efficient aircraft. 
And just last month, a shutdown of a critical computer system stranded 
hundreds of aircraft and delayed thousands of passengers. As I said 
after the incident, the outage demonstrated just how vulnerable our air 
traffic control system is--and how critical it is to our economic well-
being, competitiveness and our quality of life.
    Now I want to note that this committee and this House of 
Representatives have not been standing still. Last September the House 
passed an FAA reauthorization bill--which included provisions I 
authored to improve our air traffic control system--by a healthy 
margin. Unfortunately, that legislation has not yet cleared the Senate. 
H.R. 2881 addresses critical needs related to NextGen. The R&D 
provisions in the House-passed bill will help ensure that the Nation's 
air transportation system is able to handle the expected significant 
growth in future air travel demand over the next twenty years safely, 
efficiently, and in an environmentally friendly manner.
    It is imperative that the Congress help ensure that FAA has the 
tools it needs to keep the Nation's air transportation system safe, 
efficient, and environmentally friendly. With a projected cost to 
taxpayers as much as $22 billion and to airspace users as much as $20 
billion, it is important that we get NextGen right and that those asked 
to make sizable investments get a viable return. FAA needs to move 
smartly and in a focused manner, making sure that announced near-term 
accelerations of regional demonstrations do not detract from the long-
term benefits promised nationwide.
    I recognize that developing and implementing NextGen are enormous 
challenges. However, we need to look both at where progress is being 
made and where improvement is needed. I look forward to reviewing the 
testimony of today's distinguished panel of witnesses and to getting 
their constructive suggestions on how we can help make the transition 
to NextGen a reality.

    [The prepared statement of Ms. Richardson follows:]

         Prepared Statement of Representative Laura Richardson

    I want to thank Chairman Gordon and Ranking Member Hall for holding 
this important hearing today, and our witnesses for their appearance. 
The purpose of today's hearing is to examine the status of the NextGen 
system and to discuss any issues surrounding the full implementation of 
this new technology.
    At the end of every legislative week I fly home to my district, and 
I land at LAX, one of the Nation's busiest airports. However, what many 
travelers are not aware of, are the numerous runway incursions that 
have occurred this past decade at LAX, 55 since 2001. This number is so 
alarming that the LA City Council called on us, the Federal Government, 
to hire more air traffic controllers. Now assigning blame will not 
reduce the number of incursions, but the implementation of the NextGen 
system will, so the status of NextGen is important to me. In fact I was 
commenting yesterday in relation to legislation that we passed in the 
House Tuesday night, that as Members of Congress our most important 
duty is to ensure the safety of the American people. We need to 
maintain the confidence of the American people in our air traffic 
system.
    Aside from the obvious safety issues, the stability of our national 
economy depends upon a safe, reliable air traffic system. According to 
the FAA, independent economic studies have estimated that if indirect 
and secondary impacts are included (such as visitor expenditures and 
other economic activity generated by aviation) the industry contributes 
$640 billion to the U.S. economy--or 5.4 percent of U.S. GDP--and over 
nine million jobs.
    More importantly, the simple fact that air travel is expected to 
increase significantly in the coming years demands that we implement 
the NextGen system as soon as possible. Based on FAA reports in 2005, 
738 million passengers flew on U.S. commercial carriers, compared with 
579 million in 1995 and 395 million in 1985. Furthermore the FAA 
expects this figure to reach one billion passengers by 2015--less than 
a decade from now. Last summer was a grim reminder of the pain that 
travelers endure when the air traffic system is pushed to its limits.
    It is my understanding that NextGen, which utilizes GPS technology, 
has been used quite successfully for oceanic operations. Therefore I 
would like to hear from our witnesses what we can learn from that 
experience. Likewise I also understand that funding of the NextGen 
system is still in question. I would like to hear from our witnesses as 
to how we can achieve a balanced and adequate approach to fund this 
critical piece of technology.
    I look forward to a productive discussion, Mr. Chairman I yield 
back my time.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this hearing to examine the 
status of the Next Generation Air Transportation System (NextGen) 
initiative and the role of the Joint Planning and Development Office 
(JPDO) in charge of planning NextGen.
    A century ago the Wright brothers revolutionized America by marking 
the first successful human flight. From the small beginnings of the 
Wright brothers flying machine, to the Boeing 747s that rule our great 
skies today, the aviation industry has made leaps and bounds in 
progress. NextGen offers the next stride in the growing success of 
aviations effort to become safer and more efficient. As a Member of the 
Science and Technology Committee, and the Subcommittee on Aviation at 
the Transportation & Infrastructure Committee, I have a vested interest 
in this issue.
    NextGen offers many exciting possibilities for aviation. The 
National Airspace System (NAS) has become operationally obsolete, 
reached increased capacity levels and been affected by high oil prices. 
NextGen could offer the possibility of capacity relief, a curb in 
carbon dioxide emissions, and a significant economic growth in the 
industry. I am looking forward to learning more about the progress 
being made by JPDO, and hope the promise that NextGen offers to the 
aviation field and the Nation can become a reality.
    I would like to thank today's witnesses; Ms. Cox, Dr. Dillingham, 
Mr. Scovel, Dr. Kaminski, and Professor Waitz for taking the time to 
appear before us. I look forward to hearing your testimonies.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Today we will examine the status of the Next Generation Air 
Transportation System (NextGen) initiative.
    As demand for air travel continues to grow, and we search for ways 
to expand capacity, the deployment of new technology like NextGen is 
going to play an important part.
    The need for additional capacity is especially acute in the Phoenix 
metropolitan area. Sky Harbor Airport is already the Nation's eighth 
busiest, and the Federal Aviation Administration has already warned the 
Valley that it will need additional capacity to meet the expected 
increase in demand.
    Fortunately, the City Of Phoenix is joining other Valley 
communities to develop Phoenix-Mesa Gateway Airport on the site of the 
former Williams Air Force Base in Mesa.
    Just this week we learned that Gateway, while still in its infancy 
as a potential reliever for Phoenix Sky Harbor International Airport 
has an estimated economic impact that has grown to $500 million a year 
and supports more than 4,500 local jobs, according to a study by 
Arizona State University.
    I look forward to today's hearing. At this time I yield back.

    Chairman Gordon. At this time I would like to introduce our 
panel of witnesses today. First, we have Ms. Victoria Cox, the 
Senior Vice President for NextGen and Operations Planning in 
the Air Traffic Organization of the Federal Aviation 
Administration, Dr. Gerald Dillingham, who is a Director of 
Physical Infrastructure Issues at the Government Accountability 
Office, the Honorable Calvin Scovel, III, who is the Inspector 
General of the U.S. Department of Transportation, Dr. Paul 
Kaminski, who is the Chairman and CEO of----
    Dr. Kaminski. Technovation.
    Chairman Gordon. Technovation, and Dr. Ian Waitz, who is 
the Director of the FAA- and NASA-sponsored Center of 
Excellence PARTNER and the Head of the Department of 
Aeronautics and Astronautics at the Massachusetts Institute of 
Technology.
    Welcome all. And as our witnesses should know, spoken 
testimony is limited to five minutes each, after which the 
Members of the Committee will have five minutes each to ask 
questions, and we will start with you, Ms. Cox.

   STATEMENT OF MS. VICTORIA COX, SENIOR VICE PRESIDENT FOR 
  NEXTGEN AND OPERATIONS PLANNING, AIR TRAFFIC ORGANIZATION, 
                FEDERAL AVIATION ADMINISTRATION

    Ms. Cox. Good morning, Chairman Gordon. Thank you. It is a 
pleasure to address you and Congressman Hall and Members of 
this committee. I am Victoria Cox, the FAA's Senior Vice 
President for NextGen and Operations Planning.
    Congress has been direct in its charge to the FAA; improve 
the level of safety, security, efficiency, quality, and 
affordability of the Air Transportation System and reduce the 
production of noise and emissions.
    We are following that guidance as we develop and deploy the 
Next Generation Air Transportation System. NextGen will apply 
the same precision, automation, and access to information to 
aviation that already exists in other industries and in our 
daily lives. We can deliver it, and we intend to deliver first 
in the places that need it most. We are accelerating our 
efforts with focused deployment of NextGen precision aviation 
capabilities around our most congested airports. We are 
fostering partnerships with operators equipped to perform 
precision navigation procedures.
    These efforts are yielding big benefits and lessons 
learned, but the real punch comes in the form of immediate 
reductions to delays, fuel use, and emissions. We are still not 
where we want to be, but we are making progress.
    One of the early successes is the Atlantic Inter-
operability Initiative to Reduce Emissions or AIRE. It is a 
research and technology development venture among the FAA, the 
European Commission, and industry partners. It upgrades air 
traffic control standards and procedures in trans-Atlantic 
flights.
    When you make even small changes in fuel use on flights 
that are typically several hours long and cover thousands of 
miles, the results are dramatic. We have already seen a fuel 
savings of one percent in oceanic airspace. A typical oceanic 
flight might burn 13,000 gallons. Multiply that by the number 
of flights over the course of a year, and one percent is a lot 
of fuel saved and a lot of emissions reduced.
    We are planning similar demonstrations in the South 
Pacific. In fact, the first of three demonstration flights will 
occur tomorrow from New Zealand to San Francisco.
    We are using NextGen technology to make things more 
efficient on the ground as well. We are introducing state-of-
the-art surface management tools at JFK. These are based on 
Airport Surface Detection Equipment Model X or ASDE-X. Last 
summer at JFK a plane that had been holding on a ramp for hours 
might not have had an option to turn back to the gate readily 
because no one, not the airline and not air traffic control, 
had a common picture of where all other aircraft were located 
on the ramps and at the gates. As of last month much-needed 
information about aircraft location is available to airlines, 
controllers, and to FAA's command center in Herndon, Virginia.
    Service operations are no longer a black hole at JFK. Delta 
Airlines is already using this capability. This JFK initiative 
stems from a joint FAA, NASA research and development project 
in Memphis with Fed Ex and Northwest Airlines. With this 
capability Northwest has significantly improved their 
operations, lowered fuel consumption, and cut emissions.
    Progress is being made, but we know that NextGen 
implementation is a difficult and complex undertaking. And 
while it cannot be accomplished without cooperation across the 
entire FAA and the NextGen partner agencies, we understand that 
there must be a single point of accountability. To that end the 
FAA established the position of Senior Vice President for 
NextGen and Operations Planning. In that position I am directly 
responsible and accountable for all elements of NextGen and 
have decision authority over all matters related to NextGen 
integration and implementation in the FAA.
    The establishment of this office places the Joint Planning 
and Development Office, the Legacy Operations planning 
function, and the new office of NextGen Integration and 
Implementation under a common reporting structure. This 
restructuring is an indication of the changing focus of NextGen 
from purely planning and research to actual integration and 
implementation capabilities that will transform the National 
Airspace System. And it is also a recognition of the fact that 
implementation must occur in the operational environment.
    We are not losing sight of the future NextGen vision. Our 
Joint Planning and Development Office will continue to focus on 
long-term R&D and on cross agency cooperation. The FAA is 
placing its emphasis on near-term implementation and mid-term 
planning over a rolling 10-year timeframe.
    Given the impact on aviation, of aviation on the U.S. 
economy and the long-standing support from this committee, this 
Congress, and most of the aviation community, I sincerely 
believe that the impetus for NextGen and its program focus will 
continue and not suffer as transitions occur.
    In closing, I want to thank both this Administration and 
this Congress for supporting the FAA's NextGen budget request. 
Mr. Chairman, this concludes my testimony, and I would be happy 
to answer any questions the Committee may have.
    [The prepared statement of Ms. Cox follows:]

                   Prepared Statement of Victoria Cox

    Good morning, Chairman Gordon, Congressman Hall, and Members of the 
Committee. I am Victoria Cox, Senior Vice-President for NextGen and 
Operations Planning in the Air Traffic Organization at the Federal 
Aviation Administration. I thank you for the opportunity to testify 
today about the status of the work we are doing to develop and deploy 
the Next Generation Air Transportation System (NextGen) and to discuss 
how we are providing operational, environmental, and safety 
enhancements that deliver benefits to our customers today and into the 
future.
    As you know, NextGen is not a single capability or program to be 
delivered at some date in the future; it is a portfolio of capabilities 
and programs that we are beginning to deliver now--and will continue to 
provide in an evolutionary manner. It is also important to remember 
that NextGen is not simply about air traffic capabilities, but 
fostering improvements in ground infrastructure, aircraft technology, 
and alternative fuels.
    Much progress has been made during the past year. We have moved to 
accelerate initiatives that yield benefits to stakeholders in the near- 
and mid-term. We have also taken steps to ensure a more holistic 
approach to managing NextGen and related legacy programs. Last spring, 
the Secretary of Transportation and the NextGen Senior Policy 
Committee, which was established by Public Law 108-176 (Vision 100) and 
is chaired by Secretary Peters, asked us to take immediate action to 
accelerate the deployment of NextGen. In response to this call, the FAA 
and the other NextGen agencies have focused on accelerating deployment 
of operational improvements to address the greatest need and on 
developing the capabilities that will provide the greatest benefit. FAA 
has leveraged its research and development investments to accelerate 
targeted implementations and development of critical capabilities.
    The introduction and wide-spread use of precision navigation tools 
that deliver increased precision to our operations represent the first 
step in our transition to NextGen. We are focusing deployment of Area 
Navigation (RNAV) and Required Navigation Performance (RNP) around our 
most congested airports, using these tools to increase capacity and 
operational efficiency. Partnerships with operators equipped to perform 
these procedures are yielding the biggest benefits from increases in 
operational efficiency and reductions in fuel use and emissions. Today, 
87 percent of commercial operators are equipped to fly RNAV routes and 
procedures; and 39 percent are equipped to fly the RNP Special Aircraft 
and Aircrew Authorization Required (SAAAR) approaches that allow design 
of flight paths to achieve more optimal use of airspace. FAA has 
approved these types of approaches at Atlanta, Dallas/Fort Worth, 
Newark, Washington Dulles, LaGuardia, Chicago Midway, Miami, and San 
Francisco. To date this year, we have published 20 RNP SAAAR approach 
procedures at eight airports, including San Jose, Washington Reagan 
National, Indianapolis and Los Angeles. We have also published 63 RNAV 
Standard Instrument Departure (SID) and Standard Terminal Arrival 
(STAR) procedures at 45 airports, including Atlanta, Charlotte, 
Cincinnati, Newark, Orlando, Phoenix, Portland (OR), Santa Monica and 
Tucson.
    We are also seeing benefits today from the introduction of 
Optimized Profile Descents or OPD. The OPD lets pilots use the 
Continuous Descent Arrival (CDA) technique to fly a continuous descent 
path, rather than the traditional ``step downs'' typically flown today. 
Airplanes initiate descent from a high altitude with engines at low 
power and, ideally, maintain a continuous descent until cleared to 
land. Flight demonstrations at Louisville's Standiford Airport and 
testing at Atlanta Hartsfield have shown fuel savings averaging about 
50-60 gallons of fuel for the arrival portion of flights and a 
reduction of as much as 1,200 pounds of carbon dioxide per arrival. 
Significant noise reduction is also achieved through the later 
deployment of flaps and landing gear allowed by the CDA's gradual 
reduction in speed. Under its NextGen Demonstration program, FAA is 
continuing with targeted implementations of Optimized Profile Descent 
procedures at San Diego in addition to Atlanta and is cooperating with 
the United States Air Force Air Mobility Command to introduce OPD 
procedures with its C17 fleet in Charleston, SC. OPD procedures have 
been instituted in Los Angeles on a permanent basis and are delivering 
major benefits in terms of operational efficiency and the environment.
    Another NextGen-related demonstration program is the Atlantic 
Inter-operability Initiative to Reduce Emissions (AIRE), a research and 
technology development venture between FAA, the European Commission and 
industry partners. AIRE focuses on up-grading air traffic control 
standards and procedures for trans-Atlantic flights. A similar 
initiative in the Asia-Pacific region, the Asia and South Pacific 
Initiative to Reduce Emissions (ASPIRE) has also been initiated. In 
fact, tomorrow Air New Zealand is operating a flight, nicknamed ASPIRE 
I, from Auckland to San Francisco that will demonstrate some of the 
potential efficiencies. Our Vice President for Enroute and Oceanic 
Services will be on-board. Both of these initiatives will enhance fuel 
efficiency while reducing environmental impacts. Our first AIRE 
demonstrations showed one percent fuel savings in oceanic airspace--a 
significant amount of fuel and carbon emissions for these very long 
flights.
    Other near-term benefits stemming from targeted implementations of 
the NextGen acceleration initiative include the introduction of surface 
management tools at JFK with the accelerated introduction of the 
Airport Surface Detection Equipment--Model X (ASDE-X). FAA, in 
partnership with the Port Authority of New York and New Jersey and 
airlines, is providing information about surface traffic in both 
movement and ramp areas on the airport to Airline Operation Centers, 
air traffic controllers and the FAA Command Center. This information 
gives common situational awareness that will allow airlines to better 
manage movement of their aircraft in crowded ramp areas. The inability 
for airlines to know the exact location of their aircraft on the 
surface relative to other traffic contributes to surface gridlock and 
difficulty moving aircraft back to gates when required. As of last 
month, this much-needed information is available.
    This capability stems from a joint FAA/NASA research and 
development project at Memphis with FedEx and Northwest Airlines. The 
Memphis project is developing a surface traffic management system that 
employs a two-way, collaborative environment between the FAA and 
airlines to significantly improve the efficiency of ground operations 
and will be integrated with arrival and departure traffic to enable the 
most efficient use of airport and terminal facilities and reduce 
emissions that impact air quality.
    These and other demonstrations are providing valuable information 
that will assist FAA in developing standards and procedures for 
operations in the NextGen environment while providing immediate 
benefits to targeted areas. FAA plans to continue these activities in 
an integrated test bed approach that focuses on Florida, the east 
coast, Texas, and the Gulf of Mexico and takes advantage of early 
Automatic Dependent Surveillance-Broadcast (ADS-B) deployment. Upcoming 
demonstrations include tailored arrivals in Miami starting later this 
month with American Airlines and with Air France. We will also begin 
integrating predictive weather information as part of the Traffic 
Management Advisor (TMA) at Daytona Beach with Embry Riddle and a 
consortium of companies in November. We have over 20 partners from the 
airlines, industry, academia, and other government agencies that are 
involved in demonstrating the effectiveness and safety of integrated 
NextGen capabilities. We will model these and another demonstration in 
ways that enable more rapid, widespread deployment of these 
capabilities in the future.
    NextGen will bring major changes to the roles and responsibilities 
of all the participants in the NAS, especially the controller, as the 
NAS becomes more automated and some tasks are delegated to the pilots 
flying more sophisticated aircraft. A strategic job analysis has been 
initiated to examine how changes to technology, roles, responsibilities 
and procedures will impact the aptitudes, knowledge, skills and 
abilities that we will expect from controllers as NextGen matures. This 
will enable the NAS to go from a ``controlled'' airspace environment to 
a ``managed'' airspace environment, allowing automation to assist with 
decision-making.
    The human factors research program has also delivered products that 
enable the use of data communications in the en route domain and is now 
focused on the increased use of RNAV, limited self spacing, and novel 
modes of grouping aircraft to enable an increase in capacity while 
reducing controller workload and error potential.
    Another key NextGen transformation is the move from Forensic Safety 
Systems to Prognostic Safety Systems, as evidenced by the development 
of the Aviation Safety and Information Analysis and Sharing (ASIAS) 
system. The ASIAS program integrates a large number of previously 
unrelated data sources from both government and industry into a 
comprehensive safety picture that can assist in identifying emerging 
risks and enabling earlier interventions against these risks before 
they can lead to accidents.
    Research and development in the weather arena is providing advanced 
weather capabilities to improve NAS operations during adverse 
conditions. This requires improvements in weather forecasting and 
observation network capabilities as well as integration of weather into 
decision support tools. Improvements in forecasts and observations 
quality developed by the Aviation Weather Research Program (AWRP) are 
aimed at providing more accurate aviation weather forecasts for 
phenomena such as turbulence, convective activity, icing, and 
restrictions to visibility. The Weather Technology in the Cockpit 
(WTIC) program will facilitate the development of technologies 
necessary to integrate weather information into aircraft-based decision 
support systems. WTIC will enable pilots to access weather information 
similar to that being utilized by air traffic controllers and 
dispatchers on the ground.
    In Fiscal Year 2008, the wake turbulence research program completed 
prototype evaluations of the Wake Turbulence Mitigation for Departures 
tool, a product of NASA and FAA research and development, that permits 
increased departure capacity from airports with closely spaced parallel 
runways. Prototype evaluations of the system were conducted at Houston 
Intercontinental and Lambert St. Louis airports. Another application of 
research and development has been wake turbulence data collection and 
analysis in support of a National Rule Change which would allow the use 
of ILS procedures to Closely Spaced Runways for specific aircraft 
types, thus increasing capacity at five specific airports.
    The wake program, along with global partners, has evaluated 
separation standards for new aircraft (B-747-8, A380) and has re-
evaluated the B757 family of aircraft. We have also developed a 
methodology and optimization tools for the re-evaluation of wake 
turbulence categories and separation standards for today's aircraft 
fleet mix, which has changed significantly since the early 1990's. 
Working jointly with European Air Navigation Service Providers and 
aircraft manufacturers, FAA is seeking a harmonized set of wake 
categories and wake separation minima for the NAS and International 
fleet mixes.
    In an example of concept validation that shows great promise, FAA 
researchers are developing the concept for an Integrated Arrival/
Departure Control Service that we are calling ``Big Airspace.'' 
Employing modeling and simulation, including human-in-the-loop 
simulations, researchers used scenarios that incorporated a generic 
large metropolitan area, a major airport and three small airports into 
the same Terminal Radar Approach Control (TRACON) facility. The ``Big 
Airspace'' concept extends terminal procedures to a portion of en route 
transition airspace, increasing the number of RNAV routes, and 
incorporating dynamic resectorization (a fundamental NextGen concept) 
to allow airspace boundaries to be more flexible. A key element of 
``Big Airspace'' is the incorporation of all operations into one 
facility to reduce the amount of cross-facility coordination needed to 
safely manage traffic into and out of busy areas. Human-in-the-Loop 
simulations employed both terminal and en route controllers as well as 
pilots who flew simulated aircraft linked to the simulation. Results of 
the modeling and these simulations showed that controllers could handle 
up to 50 percent more traffic. With the introduction of data 
communications, controllers may handle up to 150 percent more traffic 
before performance degraded, all without a significant change in the 
number of operational errors and with a significant decrease in the 
number of conflicts.
    With 2012 projected traffic, ``Big Airspace'' simulations showed 
increased operational efficiencies of about a minute of flight time and 
five nautical miles in scenarios with weather present. To provide 
context for these savings, Southwest Airlines has indicated that for 
its operations a single minute of time saved on each flight contributes 
an annual savings of up to $25 million in fuel per year. Extend this to 
the number of flights operated by all carriers in major metropolitan 
areas and you can see that ``Big Airspace'' adds up to tremendous 
savings for all our airlines. FAA is building towards implementing 
``Big Airspace'' as its mid-term concept in high density metropolitan 
areas.
    Accelerating air traffic management improvements is leading to 
efficiencies and reducing fuel burn, but we are also pursuing other R&D 
strategies to mitigate NextGen environmental impacts. We are hastening 
the development of promising environmental improvements in aircraft 
technology. The President's budget funds a research consortium called 
Continuous Low Emissions, Energy and Noise (CLEEN) which will allow us 
to work with industry to accelerate the maturation of technology that 
will lower energy, emissions and noise. CLEEN offers a good example of 
FAA and NASA partnership in advancing the NextGen plan as we worked 
together closely in developing this initiative to mature technology 
with NASA's foundational research efforts.
    We are also exploring the potential of alternative fuels for 
aviation. Fuels that improve emissions performance at both the local 
and global level not only help the environment, but also enhance energy 
security and supplies. Issues of fuel supply and costs are having an 
increasing impact on the shape of the U.S. aviation system--as fuel 
costs now approach up to 40 percent of airline operating costs. To this 
end, the FAA helped form--and is an active participant in--the 
Commercial Aviation Alternative Fuels Initiative, or CAAFI. We have 
already seen coal-to-liquid and gas-to-liquid fuels in jets, and most 
recently completed a bio-fuel flight demonstration. Alternative fuels 
will be the ``game changer'' technology that gets us closer to carbon 
neutrality. Alternative fuels are a part of the CLEEN effort.
    Activities like these that consist of concept validation employing 
modeling and simulation, prototyping and field demonstrations in an 
operational environment can accelerate the transition from concepts and 
research and development to implementation of operational systems. FAA 
is employing this approach in an effort to accelerate NextGen 
implementation. Not only will this approach speed the development of 
NextGen operational improvements, it is also aimed at speeding their 
acquisition by accomplishing, in parallel, required steps in FAA's 
Acquisition Management System.
    Another way that FAA is accelerating transition from research to 
implementation is through Research Transition Teams (RTT) between NASA 
and FAA, facilitated by the JPDO. The goal of the RTTs is to ensure 
that R&D needed for NextGen implementation is identified, conducted, 
and effectively transitioned to the implementing agency. Four teams are 
successfully underway with NASA and FAA engagement.
    The approaches described above are mechanisms we have established 
to ensure that we retain the focus on the goals of NextGen while moving 
expeditiously to incorporate changes into the National Airspace System 
which support those goals and begin to achieve the benefits of a 
transformed system in a timely manner.
    This year has seen a shift in focus for NextGen from planning to 
action. The realignment of responsibilities for NextGen under a Senior 
Vice President for NextGen and Operations Planning is an indication of 
that changing focus of NextGen from purely planning and research to 
actual implementation and integration of technologies that will 
transform the National Airspace System. As we enter this new phase, the 
Agency decided to place accountability for all aspects of NextGen, 
including management of the NextGen investment portfolio, under one 
senior official.
    This realignment also responds to stakeholder requests for a single 
point of accountability for NextGen and addresses the suggestion raised 
by Industry, including members of JPDO Working Groups, that more 
focused oversight by FAA of JPDO deliverables would be desirable.
    With the establishment of the NextGen and Operations Planning 
organization under the leadership of a Senior Vice President, the Joint 
Planning and Development Office (JPDO), the Operations Planning 
function, and the new Office of NextGen Integration and Implementation 
have a common reporting structure. For the FAA this ensures that the 
Agency acts promptly to achieve the JPDO vision by accomplishing the 
right kind of R&D and that a steady stream of improvements taking us 
along the road to NextGen are delivered for implementation and 
coordination with legacy systems operations. This arrangement increases 
FAA support for JPDO Working Groups as well as cross-agency initiatives 
by closer linking of FAA to JPDO.
    The Senior Vice President for NextGen and Operations Planning is 
responsible for implementation of all elements of NextGen, most of 
which are executed by other service units in the Air Traffic 
Organization and other lines of business in the FAA, and has decision 
authority over all matters related to NextGen integration and 
implementation including allocation within the Agency of the $688 
million NextGen budget request for fiscal year 2009.
    NextGen implementation is a difficult and complex undertaking that 
cannot be accomplished without cooperation across the industry, the FAA 
and the NextGen partner agencies. The Senior Vice President for NextGen 
and Operations Planning has a direct and immediate path to the FAA 
Administrator and the Secretary of Transportation should their 
assistance be required.
    The highly successful FAA-wide Operational Evolution Plan (OEP) 
process is the basis for guiding NextGen integration and implementation 
and ensuring the cooperation of all elements within the FAA with 
NextGen responsibilities. This process includes all FAA organizations, 
within and outside of the ATO including the JPDO. The process tracks 
specific capability improvements through R&D, field demonstration, 
investment decision, acquisition and implementation, with clear 
objectives that result in specific commitments to the operating 
community outside FAA. An executive oversight board (NextGen Management 
Board) at the Associate Administrator level, chaired by the Deputy 
Administrator, oversees the process. A review board (NextGen Review 
Board) manages the flow of improvements from concept, through R&D, to 
investment decision, to implementation. Aviation community 
participation will be improved through a formal advisory process, 
Industry Days, and stepping up stakeholder participation at the SPC, 
which encourage feedback from users, operators, and developers.
    An important product of the process described above is the NextGen 
Implementation Plan, the latest version of which was published on June 
30, 2008. The plan details implementation commitments for the near-term 
(between 2009-2011), and describes more than 30 additional improvements 
targeted for introduction between 2012 and 2018. This version shows how 
FY09 research and development projects move us toward specific 
outcomes. The entire plan can be accessed on line at www.faa.gov/
nextgen.
    As directed by the Secretary of Transportation, who is Chair of the 
NextGen SPC, JPDO will continue to focus on long-term (beyond 10 years) 
research and development and cross-agency coordination with FAA placing 
emphasis on near-term implementation and mid-term planning over a 
rolling 10 year timeframe. FAA will ensure that the Agency's 
implementation plans and Integrated Work Plan are aligned for the near 
and mid-term, while keeping an eye to the future that JPDO is defining 
through the long-term R&D plan. The JPDO Integrated Work Plan (IWP), 
will also be published this month, is still a work in progress, and the 
elements in it have not yet been prioritized. That said, it represents 
a great amount of work across the NextGen agencies and industry to 
document their initial development work and planning.
    An overarching goal, and a clear responsibility of JPDO, is a long-
term R&D program, with well-defined and prioritized research goals and 
supporting activities and that responsibility will be clearly assigned 
to the Partner agencies. Success will depend on assuring that agency 
R&D budgets are linked. Research must be aligned to leverage cross-
agency investments and deliver products that will transition to 
implementation.
    We are confident that planned investments lead to the capabilities 
described out to 2018. These are investments in the five 
transformational programs discussed later, as well as to seven solution 
sets. In total, they fund research, engineering, analysis, 
demonstrations, concept validation and ATC infrastructure enhancements. 
The far-term, beyond 2018, is dependent on research that is ongoing or 
planned in coordination with the JPDO. The results of that research 
will be used to guide the far-term development. JPDO will continue to 
maintain the vision of NextGen and will update the Concept of 
Operations in accordance with results of the long-term research that it 
is charting.
    JPDO will also continue to produce a yearly Progress Report. This 
year's progress has been noteworthy. The Senior Policy Committee (SPC), 
chaired by the Secretary of Transportation, provides directed focus on 
important efforts including a government-wide Safety Management System; 
a collaborative weather initiative involving the Department of Commerce 
(DOC), FAA and the Department of Defense (DOD); an initiative for net-
centric aviation information sharing; and planning for integrated 
aviation surveillance with the DOD, Department of Homeland Security 
(DHS) and FAA.
    JPDO has formalized organizational relationships with partners to 
facilitate transfer of technology for NextGen application by 
establishing the previously described Research Transition Teams to 
facilitate smooth transition of research products from NASA to FAA. 
Additionally, the DOD has established a NextGen Joint Planning Office 
with the U.S. Air Force leading to coordinated DOD contributions and 
technology transfer. The DOD, DHS and FAA also jointly invested in a 
demonstration of Network Enabled Operations technology.
    JPDO completed a gap analysis of NextGen partner agency programs 
against the Integrated Work Plan. The gap analysis identified seven 
critical interagency focus areas, including various ATM research 
topics, research to mitigate environmental constraints, security risk 
management, and the verification and validation of complex systems. FAA 
was identified as the lead for three of the focus areas, NASA for two, 
DHS for one, and JPDO for one. Working with the partner agencies, the 
JPDO will incorporate operational improvements that address these gaps 
into the Integrated Work Plan and through the governance process, 
including the JPDO Board and SPC, will encourage partner agencies to 
include activities that support these operational improvements in their 
implementation plans and future year budgets.
    As we move forward with NextGen it is important for us to measure 
our progress by defining our near-term, mid-term, and long-term goals 
with suitable performance metrics. The right metrics will allow us to 
determine not only how well we are doing but also the impacts of events 
that reduce or delay progress. FAA plans to employ three methods of 
measurement. First, we will track progress against milestones 
established in the NextGen Implementation Plan. These are linked 
directly to the National Airspace System Enterprise Architecture 
decision points. We will also track investments, measuring whether 
specified products are delivered on time and on budget. We are also 
developing methods to measure and report on benefits accrued with the 
implementation of NextGen capabilities in an integrated fashion rather 
than the case by case approach that we take today.
    The FAA's National Aviation Research Plan (NARP) published in 
February 2008 identifies $740 Million for NextGen R&D in the 
President's Fiscal Year 2009-2013 budget with $83.5 Million requested 
in Fiscal Year 2009. Much of the other R&D work contained in the 2009 
request is NextGen enabling.
    My testimony has focused on R&D, Advanced Technology Development 
and Prototyping and Demonstration investments. Major NextGen 
transformational programs are making progress as well. ADS-B has 
continued to meet all the program milestones. Since the national 
contract was awarded last summer, the program has deployed the ground 
infrastructure in the Southern Florida key site area. The system has 
for the first time equipped pilots to receive traffic and weather in 
the cockpit for enhanced situational awareness. The system will reach 
an In Service Decision (ISD) for essential services for commissioning 
into the National Airspace System (NAS) in November 2008. Critical 
services IOC and ISD is planned for 2010.
    While the agency has been busy with deploying the ground equipment, 
we are also simultaneously working on the rule-making for ADS-B. The 
Notice of Proposed Rule-making (NPRM) was published in October 2007. 
The comment period closed in March 2008 and the agency is taking into 
account every single comment that was received. We have been working 
closely with all facets of the aviation community through the ADS-B 
Aviation Rule-making Committee (ARC). We will consider all the 
recommendations from the aviation community in developing the final 
rule, which we estimate will be published in spring 2010.
    The System-Wide Information (SWIM) Program recently awarded a $37M 
contract for commercial, off-the-shelf (COTS) software to Iona 
Technologies of Waltham, Massachusetts. This software will help FAA 
develop interfaces between systems more quickly and cheaply, and will 
help establish new connections between systems and with new users--just 
what's needed for NextGen.
    The Data Communications program and the NAS Voice Switch program 
have both completed development of initial program requirements, and 
the NextGen Network Enabled Weather (NNEW) program has begun analysis 
to develop standards for universal access to a weather data base, which 
will contain forecast information of interest to all national airspace 
participants including FAA, Department of Defense, National Weather 
Service and our European partners.
    I thank both this Administration and this Congress for supporting 
the FAA's NextGen budget requests and hope that issues surrounding the 
FAA's reauthorization are quickly resolved. Be assured that we will 
identify NextGen as a key programmatic and budgetary issue requiring 
decisions from policy-makers in the incoming Administration.
    Given the impact of aviation on the U.S. economy and the 
longstanding support from this committee, this Congress, and most of 
the aviation community, I sincerely believe that the impetus for 
NextGen and its program focus will continue and not suffer due to 
transition activities.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions the Committee may have.

                       Biography for Victoria Cox

    Vicki Cox was named the Air Traffic Organization's Senior Vice 
President for NextGen and Operations Planning in May 2008. She will 
serve as the FAA's focal point for the Next Generation Air 
Transportation System (NextGen), working across all lines of business 
to lead the transformation of the national airspace system using state 
of the art technologies to meet changing aviation demands.
    Cox previously served as the ATO's Vice President for Operations 
Planning since 2006, focusing on moving NextGen forward. She joined the 
FAA in 2003 as Program Director of the Aviation Research Division, 
where she made an immediate impact working on the Program Assessment 
Rating Tool (PART) that the Office of Management and Budget requires to 
assess and improve program performance. Cox then moved to Director of 
Flight Services Finance and Planning before heading the ATO's 
International Office.
    Prior to joining the FAA, Cox worked for the Department of Defense 
where she served as Director of International Technology Programs in 
the Office of the Director of Defense Research and Engineering. She has 
an extensive research and development and program management 
background, having supported the Deputy Under Secretary of Defense for 
Science and Technology as the DOD Laboratory Liaison to the Office of 
the Secretary of Defense. She also worked as a Program Manager for a 
number of ballistic missile defense technology programs for the U.S. 
Air Force.
    A physicist, Cox served as Chief of Physics and Scientific Director 
of the European Office of Aerospace Research and Development in London. 
She also worked as a scientist responsible for thermal vacuum 
conditioning and testing of the Hubble Telescope for NASA.
    Cox graduated from Converse College and received a Master's degree 
from East Carolina University. She has a certificate in U.S. National 
Security Policy from Georgetown University and is a DOD Level III 
Certified Acquisition Professional in Systems Planning, Research, 
Development and Engineering. She also earned her private pilot's 
license in 1985.

    Chairman Gordon. Thank you. Dr. Dillingham.

   STATEMENT OF DR. GERALD L. DILLINGHAM, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Mr. Chairman, Chairman Costello, 
Members of the Committee. I appreciate the opportunity to 
discuss the findings of the study that we undertook at your 
request [see Appendix 2: Additional Material for the Record] 
and respond to your questions about NextGen planning, research 
and development activities. I will also identify some 
challenges that I believe must be overcome to implement 
NextGen.
    The stakeholders I refer to in my statement are the 25 
aviation industry representatives we interviewed for our study 
before the ATO was reorganized this past June. They include 
avionics, aircraft, and ATC equipment manufacturers, ATC system 
users, and ATC system operators.
    I want to note that in contrast to last year when we 
testified before this committee, active air traffic controllers 
are now beginning to be participants in the NextGen activities.
    However, the safety technicians who will be involved in 
installing and maintaining NextGen systems have yet to become 
active stakeholders.
    You asked us about the status and usefulness of three key 
NextGen planning documents. A majority of the stakeholders told 
us that these documents were of limited usefulness. They said 
the documents provide high-level views of NextGen benefits but 
do not include specific details or a structured plan for 
achieving tangible results.
    However, our review of the JPDO's next version of the Work 
Plan shows progress in providing this kind of information and 
could make it more useful for monitoring and the oversight of 
NextGen.
    You asked us about the availability of R&D for NextGen 
planning and implementation. We found that steps have been 
taken to address some of the initial concerns about the so-
called R&D gap that resulted from changes in NASA's research 
emphasis and the expanding requirements of NextGen.
    As you know, the budget request for FAA has increased, 
which will provide the needed R&D funding for NextGen. JPDO, 
FAA, and NASA have also begun to move from proposing research 
to articulating a defined and prioritized R&D program using 
mechanisms such as the research transition teams.
    However, even if FAA's funding increases, some stakeholders 
question whether the agency has the R&D infrastructure, 
including the facilities and personnel, to adequately address 
NextGen's developmental research needs.
    Another of your questions related to the JPDO's capacity to 
coordinate the efforts of partner agencies and act as an honest 
broker. Since the recent reorganization, JPDO is no longer a 
separate, independent office within FAA and no longer reports 
directly to FAA's top management. Instead, JPDO is a part of 
ATO, reports to the Senior Vice President of NextGen, who in 
turn reports to the ATO Chief Operation Officer. It is still 
too soon to know if this governance structure will sufficiently 
address stakeholders' concerns about NextGen's leadership.
    Under an alternative governance structure that is included 
in the House FAA Reauthorization Bill, the Director of JPDO 
would be elevated to the Associate Administrator of NextGen, 
reporting directly to the Administrator. We believe this 
proposal comes closer to addressing concerns raised by 
stakeholders than ATO's action and could result in another 
reorganization and governance structure with the passage of a 
reauthorization bill.
    However, according to an FAA senior executive, the internal 
FAA stakeholders are knowledgeable about and supportive of the 
new governance structure. We have suggested that FAA consider a 
focused outreach and education initiatives to ensure that 
external stakeholders also buy in and support the 
reorganization and new governance structure.
    Mr. Chairman and Members of the Committee, in closing I 
would like to briefly turn to what I consider the other key 
challenges to NextGen implementation. First, to fully realize 
NextGen capabilities, a new configuration of ATC infrastructure 
will be needed. This means that FAA needs to give priority to 
developing a comprehensive facility consolidation and 
realignment plan.
    In addition, airports will need to have increased capacity. 
NextGen technologies and procedures will enhance capacity, but 
additions to currently-planned runway construction will be 
necessary to handle the expected increase in traffic. Runway 
construction can be a very long and contentious process.
    The final challenge remains for Congress. Strong 
Congressional support will be needed to advance a facility 
realignment proposal that may include closing or consolidating 
some individual facilities to streamline the entire system. And 
Congress will be challenged to quickly pass a reauthorization 
bill for FAA, confirm an FAA Administrator and a new Secretary 
of Transportation. Stable leadership at the top and adequate 
funding are necessary for the success of NextGen.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Dillingham follows:]

               Prepared Statement of Gerald L. Dillingham

Mr. Chairman and Members of the Committee:

    I appreciate the opportunity to participate in today's hearing to 
discuss the status of issues associated with the Next Generation Air 
Transportation System (NextGen)--the planned air traffic management 
system intended to address current and anticipated aviation congestion. 
Today, the Nation's air traffic control (ATC) system is experiencing 
some of the worst delays in recent times, with one in four flights 
delayed. Currently, the U.S. air transportation system handles roughly 
50,000 flights over a 24-hour period. By 2025, air traffic is projected 
to double or triple, increasing to 100,000 to 150,000 flights every 24 
hours. Stakeholders acknowledge that the current air transportation 
system will not be able to meet these air traffic demands.
    Recognizing the need to transform the current system and to prepare 
for the forecasted growth in air traffic, Congress in 2003 mandated the 
creation of the Joint Planning and Development Office (JPDO)\1\ to 
conceptualize and plan for NextGen. JPDO works in partnership with the 
Departments of Transportation, Commerce, Defense (DOD), and Homeland 
Security (DHS); the Federal Aviation Administration (FAA); the National 
Aeronautics and Space Administration (NASA); the White House Office of 
Science and Technology Policy; and the private sector. Housed within 
FAA--first as an independent office and now, following restructuring, 
as a component of FAA's Air Traffic Organization (ATO)--JPDO is 
responsible for coordinating the related efforts of these partners to 
plan the transformation to NextGen. JPDO initially prepared three basic 
planning documents for NextGen--the Concept of Operations, Enterprise 
Architecture, and Integrated Work Plan (IWP)--which, collectively, form 
the basis of the joint planning environment for NextGen.
---------------------------------------------------------------------------
    \1\ Vision 100--The Century of Aviation Reauthorization Act, Pub.L. 
No. 108-176,  709.
---------------------------------------------------------------------------
    My statement today responds to the six questions you raised about 
NextGen and JPDO and addresses two related challenges that we have 
identified in the course of our work--infrastructure issues associated 
with the configuration of ATC facilities and the capacity of airport 
runways and staffing issues related to FAA's in-house technical 
expertise. Your six questions are as follows:

        1.  Have the views of industry and active air traffic 
        controllers been adequately incorporated in NextGen plans, such 
        as those embodied in the Concept of Operations, Enterprise 
        Architecture, and IWP?

        2.  Is the current version of IWP sufficiently detailed and 
        prioritized for effective use in overseeing and managing the 
        NextGen-related research of multiple agencies?

        3.  How confident should Congress be that progress in meeting 
        the research, development, and testing activities set out in 
        IWP will provide a sufficient basis for achieving NextGen's 
        goals and timetable for quieter, cleaner, and more efficient 
        air traffic operations?

        4.  Can the other partner agencies continue to view JPDO as an 
        ``honest broker'' in light of FAA's recent restructuring 
        action?

        5.  What needs to be done to move JPDO from proposing research 
        and development (R&D) for NextGen to articulating a clear R&D 
        program with defined and prioritized tasks?

        6.  What metrics should Congress use to evaluate the progress 
        of the NextGen initiative?

    This statement is based on recent related GAO reports and 
testimonies, including a report to this committee and other 
congressional requesters we are issuing today.\2\ Our work on this most 
recent report included interviewing 25 key NextGen stakeholders about 
the progress of and challenges to planning for and achieving the 
transition to NextGen. We conducted this work in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the work to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \2\ Next Generation Air Transportation System: Status of Systems 
Acquisition and the Transition to the Next Generation Air 
Transportation System, GAO-08-1078 (Washington, D.C.: Sept. 11, 2008); 
Aviation and the Environment: NextGen and Research and Development Are 
Keys to Reducing Emissions and Their Impact on Health and Climate, GAO-
08-706T (Washington, D.C.: May 6, 2008); Aviation and the Environment: 
FAA's and NASA's Research and Development Plans for Noise Reduction Are 
Aligned but the Prospects of Achieving Noise Reduction Goals Are 
Uncertain, GAO-08-384 (Washington, D.C.: Feb. 15, 2008); Next 
Generation Air Transportation System: Status of the Transition to the 
Future Air Traffic Control System, GAO-07-784T (Washington, D.C.: May 
9, 2007); Joint Planning and Development Office: Progress and Key 
Issues in Planning the Transition to the Next Generation Air 
Transportation System, GAO-07-693T (Washington, D.C.: Mar. 29, 2007); 
and Federal Aviation Administration: Key Issues in Ensuring the 
Efficient Development and Safe Operation of the Next Generation Air 
Transportation System, GAO-07-636T (Washington, D.C.: Mar. 22, 2007).

Background

    NextGen is a multi-decade, multi-agency effort to transform the 
current ATC system to the next generation air transportation system by 
moving from relying largely on ground-based radars to using precision 
satellites; digital, networked communications; and an integrated 
weather system. Often characterized as ``curb to curb,'' NextGen 
involves every aspect of air transportation, from arrival at the 
airport to departure from the destination airport, and it is expected 
to increase the safety and enhance the capacity of the air transport 
system. JPDO was charged with coordinating the research activities of 
the federal partner agencies with the goal of developing a 20-year R&D 
agenda for NextGen. FAA will play the central role in implementing 
NextGen, since it will be responsible for acquiring, integrating, and 
operating the new ATC systems. Industry stakeholders will also play a 
key role in implementing NextGen because they are expected to develop, 
finance, and operate many of the new NextGen systems that will need to 
be installed in aircraft. FAA plans to spend roughly $5.4 billion from 
fiscal years 2009 through 2013 on NextGen development and capital 
costs. JPDO estimated that total federal spending for NextGen may range 
from $15 billion to $22 billion through 2025. The agency also noted 
that it expects system users to incur $14 billion to $20 billion in 
costs to equip themselves with the advanced avionics necessary to 
realize the full benefits of some NextGen technologies.
    JPDO's authorizing legislation requires the office to create an R&D 
plan for the transition to NextGen. This requirement led JPDO to 
develop initial versions of the Concept of Operations, Enterprise 
Architecture, and IWP. The Concept of Operations is the fundamental 
planning document from which the other two documents flow. Version 2 of 
the Concept of Operations, issued in June 2007, describes how the 
NextGen system is envisioned to operate in 2025. Version 2 of the 
Enterprise Architecture, issued in July 2007, is a technical 
description of the NextGen system, akin to blueprints for a building. 
The Enterprise Architecture provides a means for coordinating among the 
partner agencies and private sector manufacturers, aligning relevant 
R&D activities, and integrating equipment. Version 0.2 of IWP describes 
the integrated framework needed to transition to NextGen from the 
current system to the end state and will continually be refined and 
enhanced to reflect current priorities, budgets, and programs. It is 
JPDO's plan for achieving NextGen. Version 1.0 of IWP is scheduled to 
be released at the end of this month.

Have the Views of Industry and Air Traffic Controllers Been Adequately 
                    Incorporated in NextGen Planning Documents?

    JPDO, FAA, and industry stakeholders have different perspectives on 
whether the views of industry and air traffic controllers have been 
adequately incorporated in NextGen planning. JPDO's organizational 
structure and processes provide for industry representatives and, to a 
lesser extent, air traffic controllers to participate in NextGen 
planning, but nearly all the industry stakeholders we spoke with 
questioned both the meaningfulness of their involvement and the 
usefulness of the NextGen planning documents. Furthermore, active air 
traffic controllers maintain that they have not participated in NextGen 
development activities. According to FAA, however, their involvement 
will increase as NextGen efforts shift from planning to implementation.
    JPDO includes several organizations with industry participants, and 
industry representatives have reviewed and provided input to key JPDO 
planning documents. For example, JPDO's NextGen Institute serves as a 
vehicle for incorporating the expertise of industry, State and local 
governments, and academia into the NextGen planning process. 
Additionally, the Institute Management Council, composed of top 
officials and representatives from the aviation community, including 
air traffic controllers, oversees the policies, recommendations, and 
products of the Institute and provides a means for advancing consensus 
positions on critical NextGen issues. JPDO also includes nine working 
groups,\3\ through which federal and private sector stakeholders come 
together to plan for and coordinate the development of NextGen 
technologies. JDPO created the working groups in early 2007 to replace 
its integrated product teams and, in part, to address concerns 
expressed by stakeholders about their participation. Unlike the 
previous teams, which were chaired by a representative from a federal 
agency, the working groups, which have the same members as the previous 
teams, are jointly led by government and industry officials. (See Table 
1.) JPDO expected the working groups to be more efficient and output- 
or product-focused than the integrated product teams. Currently, 265 
industry representatives participate in JPDO. In addition, JPDO 
provided a draft of the Concept of Operations and IWP to industry 
representatives for review and comment. For example, version 0.2 ofIWP 
was circulated to stakeholders and, according to a senior JPDO 
official, the office received about 1,100 stakeholder comments, which 
were addressed and incorporated in version 1.0 of the document.
---------------------------------------------------------------------------
    \3\ The nine working groups are Airport, Security, Air Navigation 
Services, Aircraft, Net-centric Operations, Safety, Environment, 
Weather, and Global Harmonization.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With these efforts, JPDO has sought to obtain participation from 
industry stakeholders and air traffic controllers in its planning 
activities, and we have reported that many stakeholders felt they did 
have an opportunity to participate.\4\ In fact, one industry 
stakeholder group told us that it worked closely with JPDO to help 
revise an early version of the Concept of Operations. However, other 
stakeholders said they frequently attended meetings, but were 
frustrated by a lack of tangible products being developed and a lack of 
progress being made during these meetings. Furthermore, 13 of 15 
stakeholders who discussed the issue stated that they did not feel that 
their level of participation in either JPDO's planning for or FAA's 
implementation of NextGen allowed for sufficient or meaningful input 
toward decision-making. Some stakeholders expressed concern that JPDO 
and FAA did not include their input in planning documents and other 
products. In their view, critical issues they raised are not being 
addressed or incorporated in NextGen plans. In particular, some 
stakeholders noted that planning documents were drafted by JPDO staff 
and then provided to them for review and comment. This approach, one 
industry stakeholder noted, did not take full advantage of 
stakeholders' capabilities. Others were critical of FAA's decision-
making structure for implementing NextGen and indicated they felt that 
FAA and JPDO should lay out the broad plans and schedules for NextGen 
and then obtain industry input on the best ways to accomplish the 
technical changes for NextGen. Another stakeholder indicated it had the 
opportunity to provide input to FAA on decisions such as the deployment 
of ADS-B technology, but did not feel its input was considered by the 
agency. Still others felt that FAA provided sufficient briefings on 
NextGen activities, but allowed no opportunity for their input or 
comments.
---------------------------------------------------------------------------
    \4\ GAO-08-1078.
---------------------------------------------------------------------------
    A number of stakeholders also expressed concerns about the 
usefulness of JPDO's three planning documents and of FAA's 
implementation plan for NextGen (a document previously known as the 
Operational Evolution Partnership and now called the NextGen 
Implementation Plan). Nineteen of 21 industry stakeholders who 
discussed the issue said that these planning documents lack the 
information that industry participants need for successful planning. 
Many of the stakeholders we interviewed said that while the planning 
documents provide a high-level view of NextGen benefits, they do not 
provide specific details such as a catalog of critical needs, clearly 
defined and prioritized intermediate objectives, and a structured plan 
for achieving tangible results. According to stakeholders who 
manufacture aviation equipment, the plans lack specific details to 
inform them about the types of technology they need to design for 
NextGen or to provide insights to market, build, and install systems 
that support NextGen. Some industry stakeholders further noted that the 
current planning does not identify all of the key research for NextGen, 
establish priorities for R&D, or show how to obtain those results. In 
addition, several stakeholders characterized the documents as long and 
confusing--qualities that detracted from their usefulness. We agree 
that the latest publicly available versions of these documents lack 
information that various stakeholders need. For example, the documents 
do not include key elements such as scenarios illustrating NextGen 
operations; a summary of NextGen's operational impact on users and 
other stakeholders; and an analysis of the benefits, alternatives, and 
trade-offs that were considered for NextGen. Our review of the upcoming 
version of IWP confirmed that it is to have information that is lacking 
in the current document. According to JPDO and FAA officials, it 
includes schedule information that has been updated to reflect newly 
available information, coordination with FAA's schedule and plans, and 
revisions in response to public comments received on the previous 
version. In addition, a senior JPDO official noted and we agree that 
these documents are not the appropriate place for some of the detailed 
information stakeholders would like and need, such as specific 
information on the types of technology stakeholders need to design or 
install.
    Active air traffic controllers are represented on JPDO's Institute 
Management Council, and other controllers and aviation technicians 
participate in certain JPDO efforts. However, stakeholders from the 
National Air Traffic Controllers Association--an FAA employee union--
have indicated that although the union participates in FAA meetings and 
briefings related to NextGen, it does so as a recipient of information 
rather than an equal party in the development of NextGen. Technicians 
in another FAA employee union--the Professional Aviation Safety 
Specialists--have indicated that they do not participate in NextGen 
planning or development activities. Although air traffic controllers 
and technicians will be responsible for a major part of the 
installation, operations, and maintenance of the systems that NextGen 
will comprise, our work has shown that these stakeholders have not 
fully participated in the development of NextGen. Insufficient 
participation on the part of these employees could delay the 
certification and integration of new systems and result in increased 
costs, as we have seen in previous ATC modernization efforts.
    FAA officials, however, note that both unions are represented on 
its NextGen Management Board, a decision-making body for resolving 
emerging NextGen implementation issues. Furthermore, FAA has indicated 
that air traffic controllers, pilots, and airline operations center 
personnel will be a part of the extended team that is directly involved 
in the planning and execution of a gradual roll-out of NextGen 
technologies and procedures in a Florida demonstration. In addition, 
according to FAA, these stakeholders will continue to be heavily 
involved in NextGen throughout its life cycle through their 
participation on advisory committees such as RTCA,\5\ the Air Traffic 
Management Advisory Committee,\6\ the Performance-Based Operations 
Aviation Rule-making Committee,\7\ and the Research, Engineering and 
Development Advisory Committee.\8\
---------------------------------------------------------------------------
    \5\ Once called the Radio Technical Commission for Aeronautics, 
RTCA is a private, not-for-profit corporation that develops consensus-
based performance standards for ATC systems.
    \6\ The Air Traffic Management Advisory Committee, a component of 
RTCA, provides FAA with consensus-based, recommended investment 
priorities that are expected to improve the safety, capacity, and 
efficiency of the air transportation system.
    \7\ The Performance-Based Operations Aviation Rule-making Committee 
was established by FAA to provide a forum for the U.S. aviation 
community to discuss, prioritize, and resolve issues; provide direction 
for U.S. flight operations criteria; and produce U.S. consensus 
positions for global harmonization.
    \8\ The Research, Engineering and Development Advisory Committee 
advises the FAA Administrator on R&D issues and coordinates FAA's 
research, engineering, and development activities with industry and 
other government agencies.
---------------------------------------------------------------------------
    FAA and JPDO have established mechanisms for obtaining stakeholder 
views. However, given the large number of NextGen stakeholders and the 
evolution of opportunities for participation in NextGen, we believe 
that stakeholders will continue to differ on how adequately their views 
have been incorporated in NextGen planning.

Is the Current Version of IWP Sufficiently Detailed for Effective Use 
                    in Overseeing and Managing NextGen?

    Our work indicates that the current version of the IWP lacks 
critical information and is not sufficiently ``user friendly'' to be 
effectively used to oversee and manage NextGen activities. For 
instance, 19 of the 21 stakeholders who discussed the issue said that 
the planning documents did not provide specific details such as a 
catalog of critical needs, clearly defined and prioritized intermediate 
objectives, and a structured plan for achieving tangible results. 
However, the next version of the plan, to be released at the end of 
September, is to have further details and research priorities that 
should be useful for NextGen oversight. According to senior JPDO 
officials, this next version will identify the specific operational 
improvements and capabilities that NextGen will incorporate and will 
show what policies, research, and other activities are needed to enable 
those improvements and capabilities, when they are needed, and what 
entities are responsible for them. Moreover, this version includes 
schedule information that has been updated to reflect newly available 
information, coordination with FAA schedules and plans, and public 
comments received on the previous version, according to JPDO and FAA 
officials. Our review of the upcoming version--which is an automated, 
searchable, user-friendly database--verified that it will have the 
capability to track dates and identify programs that are behind 
schedule, making it useful, but not sufficient, for oversight.
    Senior JPDO officials expect subsequent versions of IWP to include 
cost information and more detail on which programs are responsible for 
completing particular actions. We believe that JPDO's upcoming version 
of the work plan shows progress in providing needed details and making 
the document more useful than earlier versions. With cost information, 
subsequent versions of the plan should be even more useful for NextGen 
oversight.

How Confident Should Congress Be that IWP Will Provide a Sufficient 
                    Basis for Achieving NextGen's Goals?

    The research, development, and testing activities set out in the 
current IWP do not provide a sufficient basis for Congress to be 
confident that the goals of NextGen will be achieved. However, the 
enhanced information that is planned for inclusion in the upcoming 
version will provide a firmer basis for congressional confidence. The 
current plan can best be viewed as a necessary but not a sufficient 
step in the planning and early implementation of NextGen. However, 
additional issues that are not part of the current plan will have to be 
addressed to achieve NextGen goals, such as obtaining the necessary 
funding, establishing the infrastructure to support the scope of needed 
R&D, and filling the gap that may exist between basic research and the 
research needed to bring technologies far enough along for transfer to 
industry for further development.
    JPDO and FAA have determined that research gaps now exist because 
of cuts in NASA's aeronautical research funding and NextGen's expanded 
research requirements. In the past, NASA performed a significant 
portion of aeronautics R&D. However, NASA's aeronautic research budget 
declined from about $959 million in fiscal year 2004 to $511 million in 
fiscal year 2008. While NASA still plans to focus some of its research 
on NextGen needs, the agency has moved toward a focus on fundamental 
research and away from developmental work and demonstration projects. 
As a result, in some cases, NASA's research focuses on developing 
technologies to a lower--and therefore less readily adopted--maturity 
level than in the past.
    Budget requests for FAA have increased to help provide the needed 
R&D funding for NextGen. According to FAA, the agency will spend an 
estimated $740 million on NextGen-related R&D during fiscal years 2009 
through 2013. The administration's proposed budget for fiscal year 2009 
requests $56.5 million for FAA R&D to support the integration and 
implementation of NextGen programs, a substantial increase over the 
$24.3 million authorized for fiscal year 2008. The actual and projected 
increase in FAA's overall R&D funding reflects the expected increases 
in NextGen research funding. (See Fig. 1.) In addition, increased 
funding for NextGen R&D is contained in proposed legislation to 
reauthorize FAA, although that legislation has not been enacted.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    If FAA is authorized to receive increased R&D funding for NextGen, 
some observers believe that the agency lacks the R&D infrastructure to 
adequately address the developmental research needed for NextGen. 
According to a draft report by the Research, Engineering and 
Development Advisory Committee, establishing the infrastructure within 
FAA to conduct the necessary R&D could delay the implementation of 
NextGen by five years. Unless an adequate R&D infrastructure is in 
place as funds become available, the implementation of NextGen could be 
delayed.
    One critical area in which an R&D gap has been identified is the 
environmental impact of aviation. According to a JPDO analysis, 
environmental impacts will be the primary constraint on the capacity 
and flexibility of the national airspace system unless these impacts 
are managed and mitigated. FAA's Continuous Lower Energy, Emissions, 
and Noise (CLEEN) initiative, in which NASA would participate as an 
adviser, is intended to address the gap between NASA's fundamental 
research in noise reduction and the need for near-term demonstrations 
of technology. This program would establish a research consortium of 
government, industry, and academic participants that would allow for 
the maturation of these technologies via demonstration projects.\9\ In 
proposed legislation reauthorizing FAA, $111 million for fiscal years 
2008 through 2011 may be used for a new FAA program to reduce aviation 
noise and emissions.\10\ This program would, over the next 10 years, 
facilitate the development, maturation, and certification of improved 
airframe technologies.
---------------------------------------------------------------------------
    \9\ GAO-08-384.
    \10\ H.R. 2881,  505.
---------------------------------------------------------------------------
    The CLEEN program would be a step toward further maturing emissions 
and noise reduction technologies, but experts agree that the proposed 
funding is insufficient to achieve needed emissions reductions. While 
acknowledging that CLEEN would help bridge the gap between NASA's R&D 
and manufacturers' eventual incorporation of technologies into aircraft 
designs, aeronautics industry representatives and experts we consulted 
said that the program's funding levels may not be sufficient to attain 
the goals specified in the proposal. According to these experts, the 
proposed funding levels would allow for the further development of one 
or possibly two projects. Moreover, in one expert's view, the funding 
for these projects may be sufficient to develop the technology only to 
the level that achieves an emissions-reduction goal in testing, not to 
the level required for the technology to be incorporated into a new 
engine design. Although we believe that this level of funding is a step 
in the right direction, additional funds would permit the agency to 
``buy down'' R&D risks--that is, the more projects that can be funded, 
the greater the chance that at least one of the projects will yield a 
product for the next stage of development. FAA recognizes the 
implications of the proposed funding structure for CLEEN and 
characterizes the program as a ``pilot.''
    We are guardedly optimistic that the NextGen goals and timetable 
for quieter, cleaner, and more efficient air traffic operations can be 
achieved.
    The administration has requested increased funding for NextGen R&D 
and FAA and JPDO recognize the need to establish an R&D infrastructure 
and fill any gaps that may exist between basic research and the 
transfer to industry for further development.

Can JPDO Continue to Be Viewed as an ``Honest Broker'' in Light of 
                    FAA's Recent Restructuring?

    Prior to May 2008, when FAA restructured ATO, JPDO reported 
directly to both the Chief Operating Officer (COO) of ATO and the FAA 
Administrator. Figure 2 shows FAA's management structure as of November 
2007, with the shaded boxes showing offices with responsibilities for 
NextGen activities. We expressed concerns about this dual reporting 
status, suggesting that it might keep JPDO from interacting on an equal 
footing with ATO and the other partner federal agencies.\11\ We 
recognized that JPDO needed to counter the perception that it was a 
proxy for ATO and, as such, was not able to act as an ``honest broker'' 
between ATO and the partner federal agencies, but we also understood 
that JPDO must continue to work with ATO and its partner agencies in a 
partnership in which ATO is the lead implementer of NextGen. Therefore, 
we reported that it was important for JPDO to have some independence 
from ATO and pointed out that, to address this issue, the JPDO Director 
could report directly to the FAA Administrator. We observed that such a 
change could also lessen what some stakeholders perceived as 
unnecessary bureaucracy and red tape associated with decision-making 
and other JPDO and NextGen processes.
---------------------------------------------------------------------------
    \11\ GAO, Responses to Questions for the Record; Hearing on the 
Future of Air Traffic Control Modernization, GAO-07-928R (Washington, 
D.C.: May 30, 2007).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since ATO was reorganized in May 2008, JPDO has been housed within 
the new NextGen and Operations Planning Office and reports through the 
Senior Vice President for NextGen and Operations Planning only to ATO's 
COO. (See Fig. 3.) Now that JPDO is no longer a separate, independent 
office within FAA and no longer reports directly to the FAA 
Administrator, its organizational position within FAA has declined. 
Nonetheless, we believe that it is too early to tell whether JPDO will 
be able to act as an ``honest broker'' between FAA and the other 
federal partner agencies. Currently, according to a senior JPDO 
official, JPDO's partner agencies are cooperating with JPDO, indicating 
that the office is apparently maintaining its status as an honest 
broker.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, it is also too early to tell if ATO's reorganization 
sufficiently addresses concerns that many industry stakeholders 
expressed about the adequacy of the previous organizational 
relationship between FAA and JPDO--when JPDO reported directly to both 
the COO and the Administrator--for the transition to NextGen. Proposed 
legislation reauthorizing FAA would address the earlier concern of 
stakeholders by designating the Director of JPDO as the Associate 
Administrator for the Next Generation Air Transportation System, 
appointed by and reporting directly to the Administrator.\12\ The 
proposed legislation would also address observations we have made about 
JPDO's organizational placement within FAA.
---------------------------------------------------------------------------
    \12\ H.R. 2881,  202.
---------------------------------------------------------------------------
    Finally, it is too early to tell if the reorganization of FAA's 
management structure addresses concerns that stakeholders have 
expressed about the fragmentation of management responsibility for 
NextGen activities. Specifically, some industry stakeholders expressed 
frustration that a program as large and important as NextGen does not 
follow the industry practice of having one person authorized to make 
key decisions. They pointed out that although FAA's COO is nominally in 
charge of FAA's NextGen efforts, the COO must also manage the agency's 
day-to-day air traffic operations and may therefore be unable to devote 
enough time and attention to managing NextGen. In addition, these 
stakeholders noted that many of NextGen's capabilities span FAA 
operational units both within and outside ATO. The reorganization does 
not address concerns about this fragmentation, since other offices in 
ATO and FAA continue to have responsibility for parts of NextGen and 
the division of responsibility for NextGen efforts among them is not 
clear. A senior FAA official noted that ATO executives are 
knowledgeable and supportive of the reorganization, but that the agency 
could better communicate the changes to stakeholders outside of FAA. A 
focused outreach to industry stakeholders would help to get their buy-
in and support of FAA's efforts.

What Needs to Be Done to Move JPDO from Proposing R&D to Articulating a 
                    Clear R&D Program with Defined and Prioritized 
                    Tasks?

    To articulate a clear R&D program with defined and prioritized 
tasks, JPDO must continue to collaborate with its partner agencies--
FAA, NASA, DOD, DHS, and Commerce--to identify and prioritize the R&D 
needed for NextGen. As it issues new versions of IWP, JPDO continues to 
update the R&D plans of the partner agencies. However, JPDO has not yet 
determined what NextGen R&D needs to be done first and at what cost to 
demonstrate and integrate NextGen technologies into the national 
airspace system. The next version of IWP, scheduled to be released 
later this month, is to identify the sequence of research activities 
that the partner agencies must complete before specific NextGen 
capabilities can be implemented. The plan should serve as a useful tool 
in prioritizing and tracking NextGen research. In addition, JPDO has 
worked with the Office of Management and Budget (OMB) to develop a 
process that allows OMB to identify NextGen-related research and 
acquisition projects across the partner agencies and consider NextGen 
as a unified, cross-agency program. Under this process, JPDO and its 
partner agencies can jointly present OMB with business cases for the 
partner agencies' NextGen-related efforts, and these business cases can 
be used as inputs to funding decisions for NextGen research and 
acquisitions across the agencies.
    In addition, JPDO needs to continue to leverage the R&D programs of 
the partner agencies, which will conduct and define the research. For 
example, JPDO monitors NASA's and FAA's efforts to coordinate their 
research. NASA and FAA have developed a strategy to identify, conduct, 
and transfer to FAA the R&D needed for NextGen. The strategy 
establishes four ``research transition teams'' \13\ that align with 
JPDO's planning framework and outlines how the two agencies will 
jointly develop research requirements--FAA will provide user 
requirements and NASA will conduct the research and provide an 
understanding of the engineering rationale for design decisions. In 
addition, the strategy calls for clearly defining metrics for 
evaluating the research. According to JPDO, as of August 2008, four 
teams had been established and have conducted initial meetings.
---------------------------------------------------------------------------
    \13\ The four teams are organized along the framework for near-, 
mid-, and long-term research goals established in JPDO's IWP. The teams 
are Separation Management, Trajectory Management, Flow Contingency 
Management, and Capacity Management.
---------------------------------------------------------------------------
    JPDO has begun to move from proposing research to articulating a 
defined and prioritized R&D program. In addition, JPDO, FAA, and NASA 
have established mechanisms, such as research transition teams, to 
define and prioritize R&D. We believe, however, that it is still too 
early to assess the adequacy of these efforts.

What Metrics Should Congress Use to Evaluate the Progress of NextGen?

    Version 1.0 of IWP, scheduled to be released later this month, will 
provide a baseline for measuring NextGen progress. Congress can use the 
information contained in the plan to help evaluate whether the actions 
needed to achieve NextGen are on schedule and whether the specific 
operational improvements and capabilities that will make up NextGen are 
being accomplished. Specifically, subsequent versions of the plan will 
allow the development of metrics to show progress, by agency, in (1) 
achieving key activities and deploying technology, (2) issuing policies 
and guidance, and (3) prioritizing resources.
    Furthermore, subsequent versions of IWP are expected to include 
cost information that decision-makers can use to help understand the 
rationale for budget requests, monitor costs, and improve future cost 
estimates for acquisitions. This information will be helpful to 
decision-makers when budget constraints do not allow all system 
acquisitions to be fully funded at planned and approved levels and they 
must decide which programs to fund and which to cut or delay according 
to their priorities.

Two Related Challenges

    At this point, Mr. Chairman, I would like to briefly discuss two 
additional issues that present challenges to realizing the full 
potential of NextGen. The first, an infrastructure challenge, is to 
implement NextGen plans for a new configuration of ATC facilities and 
enhanced runway capacity. The second, a human capital challenge, is to 
ensure that FAA staff have the knowledge and skills needed to implement 
NextGen.
    To fully realize NextGen's capabilities, a new configuration of ATC 
facilities and enhanced runway capacity will be required to go along 
with new technologies and procedures. According to a senior ATO 
official, the agency plans to report on the cost implications of 
reconfiguring its facilities in 2009. However, FAA has no comprehensive 
plan for reconfiguring its facilities. Until the cost analysis is 
completed and a plan for facilities reconfiguration has been developed, 
the configurations needed for NextGen cannot be implemented and 
potential savings that could help offset the cost of NextGen will not 
be realized. Some FAA officials have said that planned facility 
maintenance and construction based on the current ATC system are 
significant cost drivers that could, without reconfiguration, 
significantly increase the cost of NextGen. Additionally, some of the 
capacity and efficiency enhancements expected from the implementation 
of NextGen maybe curtailed if the system's infrastructure needs are not 
fully addressed.
    In the meantime, FAA faces an immediate task to maintain and repair 
existing facilities so that the current ATC system continues to operate 
safely and reliably. The agency is currently responsible for 
maintaining over 400 terminal facilities. While FAA has not assessed 
the physical condition of all of these facilities, the agency rated the 
average condition of 89 of them as ``fair.'' Based on its assessment of 
these 89 facilities, FAA estimated that a one-time cost to repair all 
400 terminal facilities would range from $250 million to $350 million. 
Two FAA employee unions (NATCA and PASS) contend that many of the 400 
facilities are deteriorating for lack of maintenance and that working 
conditions are unsafe because of leaking roofs, deteriorating walls and 
ceilings, and obsolete air-conditioning systems. According to FAA 
officials, while some of these facilities can accommodate NextGen's new 
technologies and systems, many of them are not consistent with the 
configurations that will be needed under NextGen. Once FAA develops and 
implements a facility consolidation plan, the costs of facility repairs 
and maintenance may be reduced. In the meantime, FAA will have to 
manage its budgetary resources so that it can maintain legacy systems 
and legacy infrastructure while configuring the national airspace 
system to accommodate NextGen technologies and operations.
    The transformation to NextGen will also depend on the ability of 
airports to handle greater capacity. While NextGen technologies and 
procedures will enhance this ability, new or expanded runways will 
likely be needed also to handle the expected increases in traffic. FAA 
has developed a rolling 10-year plan for capacity improvements at the 
Nation's 35 busiest airports, and some airports are building new 
runways. However, even with these planned runway improvements, FAA 
analyses indicate that 14 more airports will still need additional 
capacity. Moreover, without significant reductions in emissions and 
noise around some of the Nation's airports, efforts to expand their 
capacity could be stalled or the implementation of NextGen delayed. We 
believe that this is a significant issue that FAA and JPDO will have to 
address.
    To manage the implementation of NextGen, FAA will need staff with 
technical skills, such as systems engineering and contract management 
expertise. Because of the scope and complexity of the NextGen effort, 
the agency may not currently have the in-house expertise to manage the 
transition to NextGen without assistance. In November 2006, we 
recommended that FAA assess the technical and contract management 
skills FAA staff will need to define, implement, and integrate the 
numerous complex programs that will be involved in the transition to 
NextGen.\14\ In response to our recommendation, FAA contracted with the 
National Academy of Public Administration (NAPA) to determine the mix 
of skills and number of skilled persons, such as technical personnel 
and program managers, needed to implement NextGen and to compare those 
requirements with FAA's current staff resources. NAPA expects to 
complete its assessment in September 2008. We believe this is a 
reasonable approach that should help FAA begin to address this issue, 
recognizing that once the right skills have been identified, it may 
take considerable time to select, hire, and integrate what FAA 
estimates could be 150 to 200 more staff. This situation could 
contribute to delaying the integration of new technologies and the 
transformation of the national airspace system.
---------------------------------------------------------------------------
    \14\ GAO, Next Generation Air Transportation System: Progress and 
Challenges Associated with the Transformation of the National Airspace 
System, GAO-07-25 (Washington, D.C.: Nov. 13, 2006.)
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Committee may have.

                   Biography for Gerald L. Dillingham

    Dr. Dillingham is currently serving as the Director of Civil 
Aviation Issues for the U.S. Government Accountability Office (GAO) in 
Washington, D.C. GAO is the investigative and research arm of the U.S. 
Congress. He is responsible for directing program evaluations and 
policy analyses related to all aspects of civilian aviation, including 
safety, finance, environment, air traffic control, airport development, 
and international aviation issues.
    Dr. Dillingham received his Master's and doctorate from the 
University of Chicago and was a postdoctoral scholar in program 
evaluation at the University of California-Los Angeles. He is a 
recognized expert in program evaluation, policy analyses, and aviation 
issues. He has managed research teams, conducted national and 
international evaluation studies, and published studies in a wide 
variety of subject areas. He served on the National Commission on 
Terrorist Attacks Upon the United States (9/11 Commission)--Aviation 
and Transportation Security Team. He has testified as an expert witness 
before numerous committees of the U.S. Congress.

    Chairman Gordon. Thank you for that view. Mr. Scovel.

  STATEMENT OF THE HONORABLE CALVIN L. SCOVEL III, INSPECTOR 
           GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman Gordon, Ranking Member Hall, Members 
of the Committee, we appreciate the opportunity to discuss the 
status of FAA's efforts to develop NextGen. This is a high-risk 
effort involving billion dollar investments from the government 
and air space users who will be expected to equip with new 
avionics. Today we will address four points.
    First, FAA is at a crossroads with modernizing the National 
Airspace System. The agency faces challenges to keep existing 
systems on track, maintain aging facilities, and develop and 
implement NextGen initiatives. As we reported in April, 30 
existing projects form platforms for NextGen, and over 20 
critical decisions need to be made over the next two years that 
have enormous budgetary implications.
    To help bridge the transition from today's system to a 
vastly different NextGen, we recommended that FAA conduct a gap 
analysis of the current NextGen Systems and develop an interim 
architecture for the 2015 timeframe. FAA is taking steps to 
address our recommendations.
    Second, significant issues related to resource alignment, 
research priority, and policy questions that will materially 
affect the cost and schedule for NextGen need to be addressed. 
A key issue focuses on NASA's work to develop advanced NextGen 
software for boosting controller productivity.
    NASA R&D is fairly well aligned with JPDO plans but falls 
short with respect to validating new software and linking 
airport arrival and departures. We found that FAA, DOD, and DHS 
need to reach an agreement on NextGen security and surveillance 
issues. Work is also needed to reconcile differences on new 
weather systems including the new 4-D Weather Cube, a simple 
database for weather observations.
    In addition, attention is needed to make sure human factors 
research for controllers and pilots is effectively linked to 
ensure that NextGen capabilities can be safely implemented.
    Third, how FAA is organized to manage and execute NextGen 
is an important matter. FAA's decision to place the JPDO within 
the ATO could help in implementing NextGen. It has the benefit 
of placing developmental efforts much closer to the people who 
will use new systems.
    However, it gives the appearance that JPDO has been reduced 
in status and importance. We think it's premature to judge the 
change, but we found that FAA needs to clarify roles and 
responsibilities among offices, the JPDO and the new ATO 
NextGen Office for implementation and integration.
    Further, budget authority for NextGen efforts remains 
fragmented among FAA lines of business. How to best organize 
FAA is a policy call for Congress. We think FAA will have to 
revisit the governance of NextGen once it has a clearer picture 
of what it will take to deliver NextGen.
    Finally, a number of actions are needed from FAA going 
forward to help NextGen efforts from research to 
implementation. NextGen will be a front and center issue for 
the next Congress and a top management challenge for the new 
Administration. We have made numerous recommendations to FAA 
aimed at reducing risks with NextGen. They focused on funding 
targeted human factors research and acquiring the skill sets 
needed to execute NextGen.
    At this juncture a number of additional actions are needed, 
and I will highlight five. Action item number one. Establish 
priorities and reflect them in budgets and plans. Decision-
makers do not have a clear understanding of what to invest in 
first. FAA should provide this committee with its priorities 
for NextGen R&D, how research gaps will be addressed, and how 
priorities will be updated as they evolve.
    Action item two. Develop a strategy for technology 
transfer. This is critical to the JPDO's mission. FAA has 
established research transition teams for NASA work but not for 
other areas. Our work shows that this needs more attention. 
Clearly-defined exit criteria and hand-off points would help 
transition new technologies into day-to-day use.
    Action item three. Focus attention on airport issues and 
how NextGen technologies can unlock already congested airports. 
This should be a top priority, and an important metric for 
NextGen must be the extent to which FAA can improve airport 
arrival rates under all weather conditions. FAA recognizes the 
importance and is shifting resources to this issue, however, 
much work remains, and stakeholders need to know how NextGen 
elements, new satellite-based systems, new automation, data 
link communications can boost airport capacity.
    Action item four. Develop a realistic plan for ADS-B, a 
centerpiece of NextGen. FAA has a $1.8 billion contract in 
place for this ground system and has published a proposed rule 
for the new satellite-based surveillance system. FAA plans call 
for users to equip with ADS-B OUT in the 2020 timeframe, but it 
is unclear when ADS-B IN and the related capacity related 
benefits can be realized. Concerns have been raised about 
requirements, the cost to equip, and the lack of clear 
benefits, all legitimate issues that need to be addressed.
    Action item five. Assess implementation band width and 
develop transition benchmarks. FAA's ability to implement 
multiple capabilities in a given time period needs to be 
assessed. FAA and industry need realistic transition benchmarks 
that point to when new training for controllers and pilots, 
equipment, and procedures need to be in place at specific 
locations.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer your questions, you or other Members of the Committee 
may have.
    [The prepared statement of Mr. Scovel follows:]

               Prepared Statement of Calvin L. Scovel III

Mr. Chairman and Members of the Committee:

    We appreciate the opportunity to discuss the status of the Federal 
Aviation Administration's (FAA) efforts to develop the Next Generation 
Air Transportation System (NextGen), which is targeted for the 2025 
timeframe. In response to congressional direction, FAA created the 
Joint Planning and Development Office (JPDO) to develop a vision for 
NextGen and leverage research at other federal agencies.
    As the Committee is aware, there are a number of compelling reasons 
for moving forward with NextGen. The current air transportation system 
has served the Nation well over the years, but ``business as usual'' 
will not be sufficient to meet the anticipated demand for air travel or 
significantly reduce delays at already congested airports.
    Currently, the U.S. airline industry is facing considerable 
financial uncertainty due to a softening economy and skyrocketing fuel 
prices. In response, airlines are reducing schedules and taking 
aircraft out of service. Notwithstanding the state of the industry, it 
is important to move forward with NextGen. FAA is revising its forecast 
but still projects that the demand for air travel will grow to more 
than one billion passengers by 2016.
    NextGen goals are ambitious but important to the health of the U.S. 
air transportation system and the Nation's economy. NextGen is expected 
to triple capacity, boost controller productivity, reduce FAA operating 
costs, lessen impact of high energy costs, and reduce the environmental 
impact of aviation.
    Developing NextGen is one the biggest challenges facing FAA. It is 
a high-risk effort involving billion-dollar investments from both the 
Government (for new ground systems) and airspace users (for new 
avionics). FAA plans to spend $18 billion for its capital programs 
between fiscal years (FY) 2008 and 2013, including $5.6 billion 
specifically for NextGen. The challenges are multi-dimensional and 
involve complex software development and integration, adjustments to 
existing air traffic systems, technology transfer, workforce changes, 
and policy questions about aircraft equipage.
    This past year, some stakeholders expressed concern that NextGen 
efforts lacked a sense of urgency and a clear plan for what could be 
done in the near-, mid-, and long-term. The Secretary of Transportation 
is working to clarify NextGen benefits, accelerate efforts, and focus 
resources.
    To its credit, FAA is working on what can be done in the near-term. 
As part of these efforts, FAA is planning to use new routes that rely 
on existing avionics on-board aircraft and various demonstration 
projects. FAA has also made some organizational changes, which included 
establishing a new Senior Vice President for NextGen Implementation and 
Operations Planning.
    Costs for NextGen remain uncertain, however, and much work remains 
to set research agendas and priorities for a multi-agency approach, 
establish requirements for software-intensive acquisitions, determine 
steps to deliver NextGen capabilities, and develop realistic transition 
plans. The development and execution of NextGen will require sustained 
oversight and will therefore be a key issue for the next Congress and a 
top management challenge for the next administration.
    My remarks today will focus on four points:

        <bullet>  First, FAA is at a crossroads with modernizing the 
        National Airspace System (NAS) and faces considerable 
        challenges in keeping existing systems on track, maintaining 
        aging facilities, and developing and implementing NextGen 
        initiatives. As we reported in April,\1\ approximately 30 
        existing projects form ``platforms'' for NextGen, and FAA must 
        make more than 20 critical decisions over the next two years 
        that will have significant budgetary implications. For example, 
        FAA will have to address what changes are needed to modernize 
        its terminal facilities and whether it will pursue a ``common 
        automation platform'' for terminal and en route environments in 
        the future.
---------------------------------------------------------------------------
    \1\ OIG Report Number AV-2008-049, ``Air Traffic Control 
Modernization: FAA Faces Challenges in Managing Ongoing Projects, 
Sustaining Existing Facilities, and Introducing New Capabilities,'' 
April 14, 2008. OIG reports and testimonies are available on our 
website: www.oig.dot.gov

           FAA faces complex integration issues (e.g., linking legacy 
        and new systems) as it must manage interdependencies among 
        diverse programs. To reduce risk and help bridge the transition 
        from today's system to a vastly different NextGen environment, 
        we recommended that FAA conduct a ``gap analysis'' of the 
        current and NextGen systems and develop an interim architecture 
        (i.e., technical blueprint) for the 2015 timeframe. FAA is 
---------------------------------------------------------------------------
        taking steps to address our recommendations.

        <bullet>  Second, progress has been made in coordinating 
        budgets and plans among JPDO partner agencies. However, FAA and 
        its partner agencies need to address significant issues related 
        to resource alignment, research priorities, and policy 
        questions that will materially affect the cost and schedule for 
        NextGen. These issues focus on developing advanced NextGen 
        software for boosting controller productivity; reaching 
        agreement between FAA, the Department of Defense (DOD), and the 
        Department of Homeland Security (DHS) on NextGen security and 
        surveillance issues; reconciling differences on new weather 
        systems; and effectively linking human factors research for 
        controllers and pilots to ensure that NextGen capabilities can 
        be safely implemented.

        <bullet>  Third, how FAA is organized to manage and execute 
        NextGen is an important matter given the high-risk nature of 
        the effort and FAA's past problems with developing new 
        technologies. While FAA's decision to place the JPDO within the 
        Air Traffic Organization (ATO) could help in implementing 
        NextGen capabilities, it also appears to reduce the JPDO in 
        stature and importance. It is premature to judge the 
        effectiveness of this change, but we found that FAA needs to 
        clarify roles and responsibilities among offices (the JPDO and 
        the new NextGen Office for Implementation and Integration). We 
        also note that budget authority for NextGen efforts remains 
        fragmented among FAA lines of business.

           How best to organize FAA is a policy call, but we believe 
        that clear lines of accountability and authority will be 
        critical for managing NextGen. FAA will have to revisit the 
        overall governance of NextGen once it has a better picture of 
        what it will ultimately take to deliver NextGen capabilities.

        <bullet>  Finally, a number of actions are needed from FAA 
        going forward to help shift NextGen efforts from research to 
        implementation. To focus budgetary resources and set 
        expectations for NextGen, FAA must (1) establish priorities and 
        include them in budget and planning documents, (2) focus much 
        needed attention on technology transfer issues, (3) clearly 
        define the roles of the ATO and JPDO and effectively use in-
        house resources, (4) place a high priority on relieving already 
        congested airports, and (5) examine what can reasonably be 
        implemented in given time increments.

    I would now like to discuss these four areas in further detail.

CHALLENGES FACING FAA IN MODERNIZING THE NATIONAL AIRSPACE SYSTEM

    FAA is at a crossroads with its efforts to modernize the National 
Airspace System. The Agency will be challenged to keep ongoing projects 
on track, maintain aging facilities, and develop and implement NextGen 
initiatives. For FY 2009, FAA is requesting $2.7 billion for capital 
funding--an increase of eight percent over last year's enacted level.
    FAA is starting a new chapter in modernization with NextGen, and 
the Agency's capital account is now being shaped by these initiatives. 
Between FY 2008 and FY 2013, FAA plans to spend $18 billion for capital 
efforts, including $5.6 billion specifically for NextGen. We note that 
much of the projected funding for NextGen will focus on developmental 
efforts, which are funded through the Engineering, Development, Test, 
and Evaluation portion of the capital account. These efforts are 
projected to amount to $3.4 billion through FY 2013--a significant 
portion of the amount dedicated to NextGen spending.
    In FY 2009, more than $630 million will be dedicated to NextGen-
related programs, which include Automatic Dependent Surveillance-
Broadcast (ADS-B) and System-Wide Information Management (SWIM). Of 
this amount, $203 million is dedicated to eight new developmental 
initiatives, including NextGen system development, trajectory-based 
operations, and flexible terminals and airports. The figure below 
illustrates FAA's planned investments in ongoing projects and NextGen 
initiatives from FY 2008 to FY 2013.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to capital spending, FAA also plans to spend $374 
million in research, engineering, and development funds through FY 2013 
for NextGen. These include air-ground integration, wake turbulence, and 
environmental research.

Progress and Problems With FAA Acquisitions

    In our April 2008 report, we examined progress and problems with 18 
major acquisitions valued at $17.5 billion. Overall, we are not seeing 
the significant cost growth and schedule slips with FAA major 
acquisitions that occurred in the past. This is because FAA has taken a 
more incremental approach to managing major acquisitions. When 
comparing revised baselines, only two of the eighteen projects we 
reviewed have experienced additional cost growth ($53 million) and 
delays (five years) since our last report in 2005.\2\ However, from 
program inception, six programs have experienced cost growth of nearly 
$4.7 billion and schedule delays of one to twelve years.
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2005-061, ``Status of FAA's Major 
Acquisitions: Cost Growth and Schedule Delays Continue To Stall Air 
Traffic Modernization,'' May 26, 2005.
---------------------------------------------------------------------------
    While FAA's incremental approach may reduce risk in the near-term, 
it has left several programs with no clear end-state and less 
visibility into how much they will ultimately cost. A case in point 
involves modernizing facilities that manage traffic in the vicinity of 
airports, which is commonly referred to as ``terminal modernization.''
    In 2004, faced with cost growth of over $2 billion for the Standard 
Terminal Automation Replacement (STARS) program, FAA rethought its 
terminal modernization approach and shifted to a phased process, 
committing STARS to just 50 sites at an estimated cost of $1.46 
billion. FAA's original plan was to deploy the system to 172 sites for 
$940 million. FAA renamed this modernization effort the Terminal 
Automation Modernization-Replacement (TAMR) initiative.
    In 2005, FAA approved modernizing displays through the TAMR program 
(referred to as TAMR Phase 2) by replacing legacy equipment at five 
additional small sites and replacing the aging displays at four large, 
complex facilities. However, this leaves over 100 sites still in need 
of modernization. FAA has not decided how it will modernize these 
sites, and costs remain uncertain. For FY 2009, FAA is requesting $31.2 
million for terminal modernization efforts.
    There is no defined end-state for terminal modernization, and past 
problems with developing and deploying STARS leave FAA in a difficult 
position to begin introducing NextGen capabilities. Future terminal 
modernization costs will be shaped by (1) NextGen requirements, (2) the 
extent of FAA's terminal facilities consolidation, and (3) the need to 
replace or sustain existing (legacy) systems that have not been 
modernized.

Challenges With Key NextGen Programs
    FAA has established initial cost and schedule baselines for the 
first segments of two key NextGen initiatives: ADS-B and SWIM. Both 
programs face considerable risks and require significant oversight as 
FAA begins integrating them with existing systems.

ADS-B: This program provides satellite-based technology that allows 
aircraft to broadcast their position to other aircraft and ground 
systems. For FY 2009, FAA is requesting $300 million for ADS-B. In 
August 2007, FAA awarded a service-based contract for the ADS-B ground 
infrastructure worth $1.8 billion (if all options are exercised). FAA 
estimates that ADS-B will cost about $1.6 billion in capital costs for 
initial implementation segments through 2014. These include completing 
a nationwide ground system for receiving and broadcasting ADS-B 
signals.
    A key challenge facing FAA--and NextGen implementation--is 
realizing the full benefits of ADS-B. FAA plans to implement ``ADS-B--
Out'' in the 2020 timeframe, which will require aircraft to broadcast 
their position to ground systems. However, most capacity and safety 
benefits from the new system will come from ``ADS-B--In,'' which will 
display information in the cockpit for pilots. The requirements for 
ADS-B--In are still evolving and have not been finalized.
    FAA must address several risks to realize the benefits of ADS-B. 
These include: (1) gaining stakeholder acceptance and aircraft 
equipage, (2) addressing broadcast frequency congestion concerns, (3) 
integrating with existing systems, (4) implementing procedures for 
separating aircraft, and (5) assessing potential security 
vulnerabilities in managing air traffic.
    ADS-B implementation is a long-term effort that will require 
significant investment from the government and industry. Given FAA's 
history with developing new technologies and its approach to ADS-B, in 
which the government will not own the ground infrastructure, we believe 
this program will require a significant level of oversight. We will 
report on ADS-B later this year.

SWIM: This program provides FAA with a web-based architecture that 
allows information sharing among airspace users. For FY 2009, FAA is 
requesting $41 million for SWIM. In June 2007, FAA baselined the first 
two years of segment 1 (planned to occur between FY 2009 and 2010) for 
$104 million. FAA's latest Capital Investment Plan cost estimate for 
SWIM is $285 million.
    Current challenges include the work to determine requirements and 
interfaces with other FAA systems, including the En Route Automation 
Modernization (ERAM) and Air Traffic Management programs. Moreover, FAA 
must integrate SWIM with other federal agencies' operations to realize 
NextGen benefits and develop a robust cyber security strategy and 
design. While FAA has begun initial efforts, it still needs to 
establish the architecture, strategy, and design. Additional SWIM 
segments have yet to be determined, and the cost to fully implement 
SWIM is unknown. Last month, we began a review of SWIM, which will 
focus on the strengths and weaknesses of FAA's approach for developing 
the new system and assess risks that could affect nationwide 
deployment.

Much Work Remains To Determine How To Transition Existing Projects to 
        NextGen
    In February 2007, we recommended that FAA examine existing projects 
to determine if they were still needed and, if so, what adjustments 
would be required. FAA concurred with our recommendation and stated 
that it has begun this assessment. To date, however, FAA has not made 
major adjustments to modernization projects to accelerate NextGen.
    According to FAA, approximately 30 existing capital programs will 
serve as ``platforms'' for NextGen. For example, the $2.1 billion ERAM 
program, which provides new hardware and software for facilities that 
manage high-altitude traffic, is a lynchpin for the NextGen system. 
Because ERAM is expected to serve as a foundation for NextGen, any 
program cost increases or schedule delays will affect the pace of 
introducing new capabilities. Currently, ERAM software requirements 
related to NextGen are still uncertain, but costs are expected to be in 
the billions of dollars.
    Over the next two years, FAA must make more than 25 critical 
decisions about ongoing programs. These decisions have significant 
budget implications and will affect all major lines of the 
modernization effort with respect to automation, communications, 
navigation, and surveillance. For example, FAA will have to address 
what changes are needed to modernize its terminal facilities and 
whether it will pursue a ``common automation platform'' for terminal 
and en route environments in the future.
    Sound investment decisions for NextGen can only be accomplished 
through a comprehensive enterprise architecture (i.e., technical 
blueprint) that outlines how the system will work and what changes to 
existing programs will be required. The enterprise architecture must 
establish a transition plan for existing NAS systems that identifies 
how each system currently functions and it will transition to NextGen. 
A central element will be outlining a path to develop both existing and 
proposed automation systems.
    FAA has made progress in developing the NextGen Enterprise 
Architecture, which is planned to be implemented by 2025.\3\ FAA has 
also progressed towards technical roadmaps for the automation, 
communications, navigation, and surveillance lines of effort. However, 
planning documents we reviewed, including the NextGen Enterprise 
Architecture, lack detail with respect to requirements, particularly 
for automation, that could be used to develop reliable cost estimates 
and schedule. As we noted in our April report, in most cases, 
information in the NextGen Enterprise Architecture remained at too high 
a level to be effective.
---------------------------------------------------------------------------
    \3\ The NextGen Enterprise Architecture is a blueprint that links 
FAA's core programs and systems to the Agency's mission. This includes 
the transition from the ``as-is'' to the ``to-be'' environment.
---------------------------------------------------------------------------
    To help bridge the transition from the current NAS to NextGen, we 
recommended several actions to FAA in April, including the following:

        <bullet>  Conduct a gap analysis of the current NAS and 
        NextGen. FAA's NextGen architecture does not yet fully detail 
        how FAA will transition from the present NAS and the future 
        NextGen architectures, which are considerably different. 
        Understanding this gap is important because one industry 
        analysis we have seen suggests that FAA could face a $50 
        billion software development effort with NextGen. Until FAA 
        completes a gap analysis, it will not be possible to determine 
        technical requirements that translate into reliable cost and 
        schedule estimates for major acquisitions. The ATO has begun an 
        analysis of existing modernization efforts and expects to 
        complete it by February 2009.

        <bullet>  Develop an interim architecture for what can be 
        accomplished by 2015. Because of the significant differences 
        between the current system and the NextGen architecture and 
        concept of operations, FAA should develop an interim 
        architecture or ``way-point'' for the 2015 timeframe that is 
        consistent with current NextGen plans. This would help to 
        bridge the gap between current systems and plans for the 
        future. It would also help FAA to determine reasonable goals, 
        establish priorities, fully identify adjustments to existing 
        projects, refine requirements for new systems, and understand 
        complex transition issues. FAA has a mid-term requirements team 
        that is due to report on its activities next summer.

FAA Needs To Address Significant Issues in Coordinating and Aligning 
                    JPDO Partner Agencies' Budgets and Plans

    The JPDO was mandated by law to coordinate research among diverse 
federal agencies to develop NextGen in the 2025 timeframe. This is an 
important mission given that FAA conducts very little long-term air 
traffic management research. Central to making the JPDO an effective 
multi-agency vehicle is alignment of resources. This is a complex task, 
and the JPDO has no authority to adjust or redirect the research 
budgets of other federal agencies.
    We have seen some progress with the various ``mechanisms of 
alignment,'' including the NextGen Concept of Operations, the NextGen 
Enterprise Architecture, and the Integrated Work Plan\4\ since our 
February 2007 report.\5\ In addition, the JPDO now has a signed 
Memorandum of Agreement with all partner agencies and has published a 
NextGen research and development plan. An exhibit to our statement 
details the various mechanisms of alignment we reviewed.
---------------------------------------------------------------------------
    \4\ The JPDO's Integrated Work Plan is akin to a project plan and 
is meant to describe the capabilities needed to transition to NextGen 
from the current system and provide the research, policy, regulation, 
and acquisition timelines necessary to achieve NextGen by 2025.
    \5\ OIG Report Number AV-2007-031, ``Joint Planning and Development 
Office: Actions Needed To Reduce Risks With the Next Generation Air 
Transportation System,'' February 12, 2007.
---------------------------------------------------------------------------
    However, the NextGen Enterprise Architecture and Integrated Work 
Plan continue to evolve and remain at a very high level. These 
documents are not yet mature enough to drive investment decisions or 
generate requirements for major NextGen acquisitions, particularly for 
new software-intensive systems. As noted by the National Research 
Council,\6\ these efforts still reflect a lack of top-level system 
engineering and clearly established priorities. JPDO officials told us 
that it will take a year or more for the documents to be effective 
tools for driving agency budgets, setting priorities, and managing 
research efforts.
---------------------------------------------------------------------------
    \6\ National Research Council of the National Academies, 
``Assessing the Research and Development Plan for the Next Generation 
Air Transportation System,'' July 31, 2008.
---------------------------------------------------------------------------
    FAA and its partner agencies need to address several fundamental 
issues related to policy questions and research priorities to ensure 
that research and development efforts are aligned and successfully 
transferred to the NAS. An internal JPDO assessment identified 27 
single agency and cross-agency disconnects or gaps that will materially 
affect the cost and timeframes for developing NextGen. These include 
the following areas.

Development of Advanced Software and Flexible Airspace: The National 
Aeronautics and Space Administration (NASA) is taking the lead role in 
developing new software algorithms that will help boost controller 
productivity and provide more flexible airspace; these are key elements 
and cost drivers for NextGen. As we noted in our February 2007 report, 
NASA is spending less on aeronautics research than in the past and is 
concentrating on ``fundamental research'' instead of prototype 
development. This is in sharp contrast to NASA's support of FAA's Free 
Flight Phase 1 initiative, which introduced new automated controller 
tools at select locations in the 1998 to 2002 timeframe. FAA's Research 
Engineering Development Advisory Committee\7\ suggested that $100 
million would be needed by FAA annually to accommodate changes in NASA 
investments and address this gap.
---------------------------------------------------------------------------
    \7\ The Research, Engineering and Development Advisory Committee 
was established in 1989 and advises the Administrator on research and 
development issues and coordinates the FAA's research, engineering, and 
development activities with industry and other Government agencies. The 
committee considers aviation research needs in air traffic services, 
airport technology, aircraft safety, aviation security, human factors, 
and environment and energy.
---------------------------------------------------------------------------
    To address this concern, we recommended that FAA assess the 
maturity of NASA research and develop a contingency plan for how to 
conduct, manage, and pay for this research and development. FAA 
concurred and has established ``research transition teams'' to 
determine how best to advance NASA research.
    The JPDO's internal assessment showed that NASA research is fairly 
well-aligned. However, NASA research efforts fall short with respect to 
integrating weather information into new systems, validating new 
software algorithms, linking airport arrivals and departures, and 
creating flexible airspace in the vicinity of airports. Further, 
fundamental questions about how requirements should be allocated to 
ground automation systems and the cockpit remain unresolved.
    NASA officials told us that they will consider advancing some 
NextGen research to a higher technology level on a case-by-case basis. 
Notwithstanding these efforts, the transition from NASA research to 
prototype development and ultimately implementation remains a key watch 
item and cost driver. We are assisting the NASA Office of Inspector 
General in examining NASA's contribution to NextGen, including the 
management of research projects and contracting vehicles. The NASA 
Office of Inspector General expects to complete its report later this 
year.

Surveillance and Airspace Security: FAA is developing new systems, such 
as ADS-B, that will decrease reliance on ground-based radar and instead 
rely on on-board systems to broadcast aircraft positions. While the new 
systems will be useful to DOD and DHS, they will not meet all of their 
needs with respect to identifying and monitoring unlawful flights. DOD 
is funding research and development for future radar and surveillance 
sensors. The JPDO assessment cautioned that surveillance and security 
efforts are not as synchronized as they should be and stated that the 
best methods for meeting the needs and requirements of various agencies 
have yet to be determined. Without networking and integration among 
different agencies, there is potential for duplicative efforts, gaps in 
airspace coverage, and inefficiency that could impede the integrated 
surveillance and security capabilities envisioned for NextGen.

Net-Centric Operations and Sharing Information: A key element of 
NextGen is sharing a wide range of information (weather information, 
flight data, and aircraft position) securely and seamlessly. The JPDO 
is seeking to leverage DOD's extensive experience in this area, and 
demonstrations have shown the potential for linking various agency 
systems--both old and new--for sharing data. However, several factors 
are impeding progress. As the JPDO's internal assessment points out, 
plans, standards, and execution paths for FAA, DOD, DHS, and the 
Department of Commerce to connect various networks do not yet exist. 
Further, no cross-agency plan exists for integrating agencies' net-
centric efforts to ensure seamless operations.

Development of New Weather Tools and Concepts: The Department of 
Commerce has the lead role in developing the ``4-D Weather Cube,'' \8\ 
which is expected to provide a single authoritative source for weather 
observations and analysis. This tool is also expected to provide a 
common picture of weather for all airspace users.
---------------------------------------------------------------------------
    \8\ The 4-D Weather Cube is expected to be a distributed database 
on weather observations for the continental United States. It is 
expected to include observations with respect to latitude, longitude, 
altitude, and time.
---------------------------------------------------------------------------
    The JPDO's assessment found that there is disagreement on 
synchronizing weather observations, forecasts, and dissemination 
efforts. This threatens current plans to implement the 4-D Weather Cube 
in the 2013 timeframe. The assessment also noted that several policy 
and funding issues need to be addressed; specifically, most of the 
Department of Commerce efforts that JPDO expects to rely on are not 
funded. In addition, there is disagreement on the legal 
responsibilities for providing weather information and requirements for 
new weather systems.

Human Factors for Controllers and Pilots: As we have noted in the past, 
a focused human factors research effort for NextGen is needed to ensure 
that new concepts and technologies can be safely implemented. This is 
important because the NextGen concept of operations calls for 
significant changes to the roles of controllers and pilots. We note 
that insufficient attention to human factors with STARS resulted in 
significant cost increases and schedule slips. Key issues for NextGen 
human factors research focus on what can reasonably be expected from 
new automation systems and cockpit displays.
    This remains a major risk area for NextGen. The JPDO assessment 
noted a lack of linkage between planned human factors research and key 
issues that needs to be resolved. This includes the impact of highly 
automated systems on controllers. We are concerned because there is no 
cross-cutting, interagency plan for identifying and addressing NextGen 
human factors issues that (1) establishes an agreed-upon set of initial 
focus areas for research, (2) inventories existing facilities for 
research, and (3) capitalizes on past and current research.

Observations on FAA's Recent Reorganization of NextGen Efforts

    The question of whether or not FAA is properly organized to 
implement NextGen is important because it will drive the success of the 
effort. As we have previously noted, the development of NextGen cuts 
across all lines of the ATO. It also involves FAA's airport and 
certification offices. Further, NextGen efforts will need to be managed 
as integrated ``portfolios'' to achieve expected benefits. We believe 
that clear lines of accountability and budget authority will be 
essential for managing NextGen.
    The overall governance of the NextGen effort has been the subject 
of debate, and stakeholders have raised concerns that FAA is not 
properly organized to manage or execute a multi-billion-dollar effort. 
Furthermore, there has been--and continues to be--friction between the 
ATO and JPDO, which is due in part to vastly different planning 
horizons. The ATO is an organization that operates constantly but has a 
short planning horizon. The JPDO, on the other hand, is focused on 
introducing cutting-edge technologies and transforming the NAS by the 
2025 timeframe. It will be important to reconcile these differences to 
successfully implement NextGen.
    In May 2008, FAA announced a reorganization of its NextGen efforts, 
which included establishing a Senior Vice President for NextGen and 
Operations Planning within the ATO; this individual reports to the FAA 
Chief Operating Officer. FAA is also establishing an office for NextGen 
Implementation and Integration to support the Senior Vice President.
    Under this framework, the JPDO now reports to the Senior Vice 
President for NextGen and Operations Planning. In the past, the JPDO 
reported directly to the FAA Administrator and the Chief Operating 
Officer. While FAA believes the change will help move NextGen concepts 
closer to implementation, it could also give the appearance that the 
JPDO has been reduced in stature and importance.
    This recent reorganization is still undergoing changes, and it is 
too early to determine its effectiveness; however, we do have the 
following initial observations:

        <bullet>  First, the roles and responsibilities of the JPDO and 
        the ATO office for NextGen Implementation and Integration are 
        not clearly defined. According to FAA, the JPDO will focus on 
        long-term planning and interagency cooperation while the ATO 
        will focus on more short-term efforts and other implementation 
        issues. However, it will be difficult to establish clear 
        demarcation lines because implementing NextGen capabilities 
        depends heavily on modifying existing modernization projects. 
        Both offices will have budget functions, considerable modeling 
        and simulation capabilities, and architecture staffs. Because 
        both offices will help to shape research and development plans, 
        it will be important to establish clearly defined roles and 
        responsibilities.

        <bullet>  Second, while the ATO's Senior Vice President for 
        NextGen and Operations Planning will manage demonstration 
        projects, other ATO Vice Presidents will manage major 
        modernization projects considered to be essential platforms for 
        NextGen. For example, the Vice President for En Route Services 
        manages multi-billion-dollar efforts like ERAM and ADS-B. SWIM, 
        however, will be managed by the Vice President for Technical 
        Operations. Similarly, the Vice President for Terminal Services 
        manages efforts to modernize controller displays and computer 
        equipment located in the vicinity of airports. However, 
        airports--which play a key role in NextGen--are managed by a 
        different FAA office that is outside the ATO. Thus, budgetary 
        authority for FAA modernization efforts remains fragmented 
        across various offices.

           The Senior Vice President for NextGen and Operations 
        Planning stated that she will be responsible for the 
        integration and implementation of all NextGen elements even 
        though most elements will be managed and executed by other ATO 
        service units and lines of business. The NextGen and Operations 
        Planning Office will rely on coordination and a commitment 
        monitoring process across multiple areas. This approach, 
        however, has not been fully implemented or tested for linking 
        budgets and plans for diverse programs. Given the complex 
        nature of NextGen development, FAA's approach to determining 
        budget authority and managing interdependencies among legacy 
        and new programs will be important watch items for this 
        committee.

        <bullet>  Third, the new structure will be challenged to deal 
        with complex, cross-cutting government issues. In our opinion, 
        it will be difficult for an office within the ATO to work out 
        agreements with DOD and DHS on major decisions affecting 
        surveillance and airspace security.

    It remains to be seen how DOD, NASA, Commerce, and other JPDO 
partner agencies will view the reorganization and how it will affect 
participation in NextGen efforts. FAA must clearly demonstrate that 
this change is neither a demotion for the JPDO nor a decrease in the 
Agency's commitment to a multi-agency approach for developing NextGen.
    FAA will likely have to revisit the question of NextGen governance 
once it has a better picture of what will be required to develop and 
implement NextGen. As we have noted in the past, FAA will have to 
address other NextGen management issues, such as deciding whether a 
``lead systems integrator'' will be needed to address the complex 
system engineering challenges in linking legacy and new systems.
    We note that the House Reauthorization proposal (H.R. 2881) would 
establish an Associate Administrator for NextGen who would report 
directly to the FAA Administrator. How to organize FAA is a policy call 
for Congress, but we believe such an approach has merit as the cross-
cutting nature of the NextGen effort will require close coordination of 
multi-billion-dollar investments from industry and other federal 
agencies.

Several Actions Are Needed Going Forward To Help Focus NextGen Efforts

    Moving forward with NextGen will be a central issue for the next 
Congress and a top management challenge for the new administration. FAA 
is at a critical juncture with its NextGen efforts and needs to set 
expectations and budgetary priorities.
    This chapter in air traffic modernization is different from 
previous efforts because NextGen concepts rely heavily on airspace 
users to invest billions of dollars in new avionics. The current state 
of the airline industry requires FAA to determine where investments in 
new technology can have the most benefit in reducing costs and 
alleviating delays, the underlying causes of consumer dissatisfaction 
with air travel.
    We have made numerous recommendations to FAA and the JPDO to help 
them move forward with NextGen. These include developing an interim 
architecture, assessing the skill mix with respect to necessary systems 
integration and contracting, and focusing human factors research to 
ensure concepts can be safely implemented. FAA agreed with all of our 
recommendations and has begun addressing our concerns. At this time, we 
believe FAA needs to take the following actions.

        <bullet>  Establish priorities and reflect them in budget 
        requests and plans. It remains difficult for decision-makers to 
        determine what to invest in first from the wide range of 
        operational improvements in NextGen planning documents. FAA has 
        taken some steps to begin shaping priorities, such as 
        integrating weather data into new systems. Nevertheless, more 
        work is required to set priorities and identify the proper 
        sequencing of efforts. FAA should provide this committee with a 
        clear understanding of how it will prioritize research and 
        development, how it is addressing various research gaps, and 
        how it will update priorities when research results become 
        available or when national priorities change.

        <bullet>  Develop a strategy for transferring technology. As we 
        noted in our February 2007 report, the movement of technology 
        from one organization to another is critical given the JPDO's 
        mandate. However, the JPDO's internal assessment noted that 
        mechanisms and funding to transition research into the NAS may 
        be inadequate. To address technology transfer issues with NASA, 
        FAA has established ``research transition teams.'' FAA has not, 
        however, formed similar teams for other agencies, such as the 
        Departments of Commerce and Defense. JPDO officials pointed out 
        that ``entrance and exit'' criteria with clearly defined hand-
        off points for research projects would aid in determining what 
        it will take to transition new concepts and technologies into 
        daily operations.

        <bullet>  Clearly define the roles of the ATO and JPDO and 
        focus the considerable resources at the Agency's disposal. 
        Agency resources that are key to NextGen development include 
        the MITRE Corporation (FAA's federally funded Research and 
        Development Center), the NextGen Institute\9\ (a mechanism for 
        the private sector to cooperate with the JPDO on NextGen), and 
        RTCA (an industry/Government forum that functions as Federal 
        Advisory Committee for FAA). Because there is considerable 
        potential for duplicative efforts, FAA officials agree that it 
        is an appropriate time to re-examine work plans, assess 
        resources, and review roles of these various organizations.
---------------------------------------------------------------------------
    \9\ The NextGen Institute was established in March 2005 by joint 
agreement between the National Center for Advanced Technologies (NCAT) 
and the Federal Aviation Administration ``as the mechanism through 
which the JPDO will access private sector expertise, tools, and 
facilities for application to NextGen activities and tasks.''

           All of these organizations can help validate NextGen 
        concepts and establish requirements. Understanding the impact 
        of many changes will require extensive analysis, modeling, 
        simulation, and work with airspace users to examine trade-offs 
        and assess benefits. Clearly defined roles for each of these 
        organizations would help better define investment decisions and 
---------------------------------------------------------------------------
        foster consensus among stakeholders.

        <bullet>  Focus attention on airport issues and the relief that 
        various NextGen technologies can provide to already congested 
        airports in major metropolitan areas, like New York and 
        Chicago. Reducing congestion at airports should be a top 
        priority for FAA. An important metric for NextGen is to what 
        extent FAA can improve airport arrival rates under various 
        weather conditions. FAA recognizes the importance of this and 
        is shifting resources to this issue. However, FAA's efforts to 
        examine ``high density operations'' are in the very early 
        stages, and planning documents and budget requests thus far do 
        not detail how individual NextGen systems can specifically 
        boost airport capacity and reduce delays. Decision-makers and 
        stakeholders need to know what elements--ADS-B, new routes, and 
        data link communications for controllers and pilots--are 
        essential for improving capacity at already congested airports.

        <bullet>  Develop a realistic plan for implementing ADS-B and 
        realizing the air-to-air benefits of the new technology. This 
        is important because FAA has a contract in place and has 
        published a Notice of Proposed Rule-making (NPRM). The NPRM 
        calls for users to equip with ADS-B--Out in the 2020 timeframe. 
        FAA has received comments from 177 organizations or individuals 
        about the details of the NPRM. While most agree that ADS-B is 
        an important part of the future, some raised concerns about 
        requirements, the cost of equipage, and lack of clear 
        benefits--all legitimate issues that will need to be resolved. 
        FAA will likely have to make significant changes to its plans 
        for implementing ADS-B in the United States.

        <bullet>  Assess ``implementation bandwidth'' and develop 
        transition benchmarks. FAA's ability to implement multiple 
        capabilities in a given time period needs to be assessed. There 
        are limits to what can be accomplished given the scope of 
        change envisioned and efforts currently underway. For example, 
        FAA has staggered key NextGen capabilities, such as data link 
        communications, to wait for the completion of ERAM in the 2012 
        timeframe. FAA must clearly identify how various efforts will 
        be sequenced. Further, FAA and industry need realistic 
        transition benchmarks that point to when new training (for 
        controllers and pilots), equipment (new avionics and ground 
        systems), and procedures need to be in place at specific 
        locations.

    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or other Members of the Committee might 
have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Calvin L. Scovel III

    Calvin L. Scovel III is the Inspector General of the U.S. 
Department of Transportation (DOT).
    Mr. Scovel was nominated by President Bush on July 13, 2006, 
confirmed by the Senate on September 29, 2006, and sworn in on October 
27, 2006.
    Scovel joined DOT after 29 years of active service in the U.S. 
Marine Corps, from which he retired as a Brigadier General. His last 
military assignment was as a senior judge on the U.S. Navy-Marine Corps 
Court of Criminal Appeals. He previously served as Assistant Judge 
Advocate General of the Navy for Military Justice, the principal 
advisor to the Secretary of the Navy and the Judge Advocate General on 
all criminal justice policy matters. Mr. Scovel also commanded a 
military police battalion that provided all security and law 
enforcement services for Marine Corps Base, Quantico, Virginia.
    Mr. Scovel served as senior legal advisor for the 4th Marine 
Expeditionary Brigade, which included all Marine amphibious forces in 
Operation Desert Storm, and later in a NATO exercise in Norway. He had 
previously served as legal advisor for a Marine amphibious unit 
deployed to the Western Pacific and Indian Oceans, where it conducted 
exercises in Japan, the Philippines, Kenya, and Australia.
    He was prosecutor or defense counsel in 250 courts-martial that 
included charges of murder, rape, child sexual assault, and drug 
trafficking.
    As an adjunct faculty member for the Defense Institute of 
International Legal Studies, Mr. Scovel led instruction teams in the 
rule of law and civilian control of the military for senior civilian 
and military officials in Honduras, Mauritius, Albania, and Serbia. Mr. 
Scovel, who was in the Pentagon on September 11, 2001, has received 
military awards including the Legion of Merit (four awards) and the 
Combat Action Ribbon.
    Mr. Scovel received his Bachelor's degree from the University of 
North Carolina at Chapel Hill and his Juris Doctor degree from Duke 
University. He also received a Master's degree from the Naval War 
College.
    Mr. Scovel and his wife, Cathy, have two sons: Carey, a 2006 
graduate of Elon University who is a police officer in Charlotte, North 
Carolina, and Thomas, a midshipman at the U.S. Naval Academy.
    Mr. Scovel is the sixth person to serve as DOT Inspector General. 
The Office of Inspector General (OIG) was established by law in 1978 to 
provide the Secretary and Congress with objective and independent 
reviews of the efficiency and effectiveness of DOT operations and 
activities.
    The OIG carries out its mission by issuing audit reports, 
evaluations, and management advisories with findings and 
recommendations to improve program delivery and performance. In Fiscal 
Year 2007, OIG issued 81 audit reports, which identified more than $900 
million in financial recommendations.
    By statute, the Inspector General also conducts investigations into 
whether federal laws and regulations were followed and must report 
suspected civil and criminal violations to the Attorney General. In 
Fiscal Year 2007, OIG investigations resulted in 112 indictments, 142 
convictions and $183 million in fines, restitutions and recoveries.

    Chairman Gordon. Thank you. Dr. Kaminski, you are next.

     STATEMENT OF DR. PAUL G. KAMINSKI, CHAIRMAN AND CEO, 
TECHNOVATION, INC.; AIA MEMBER OF NEXTGEN INSTITUTE MANAGEMENT 
                           COMMITTEE

    Dr. Kaminski. Thank you, Mr. Chairman. My name is Paul 
Kaminski. I am the Chairman and CEO of Technovation 
Incorporated, but I am here today representing the Aerospace 
Industries Association.
    Since January of this year I have been representing AIA on 
something called the Institute Management Council, which works 
with the Next Generation Institute that oversees the industry 
participation in the JPDO. Prior to that I had served on a 
Senior Review Committee for the JPDO, having been appointed by 
then Secretary Mineta.
    I last testified before this committee in June of 2006, 
when I chaired the National Research Council's first decadal 
survey of civil aeronautics technology. In that testimony I 
said that the U.S. Air Transportation System is a key 
contributor to the economic vitality, public well-being, and 
national security of the United States. I strongly endorsed the 
need to improve our Air Transportation System then, and I 
believe that need is even more important today considering 
issues such as the high cost of fuel and our growing concerns 
about the environment.
    NextGen, with its capacity, efficiency, energy, 
environmental, and safety benefits, must be a strong and urgent 
priority for this nation. Marion Blakey, former FAA 
Administrator and now President of the Aerospace Industries 
Association, sought my assistance in the IMC in January of this 
year because she knew of my strong commitment to improving and 
actually executing on NextGen, and she also was aware of the 
experience I had serving as Under Secretary of Defense dealing 
with the development and acquisition of very large and complex 
systems such as NextGen.
    Working with AIA I have developed a proposal to deal with 
many of the issues that have been raised in previous statements 
and accelerate the development, acquisition, and integration of 
the NextGen System. This approach is based on the techniques 
that are used to accelerate the development and fielding of our 
first stealth system, the F-117 in the Department of Defense.
    I found this method to be very effective in dealing with 
large, complex systems that depend upon the effective 
integration of numerous enabling technologies and complex 
procedures. I am prepared to address this in some more detail 
in a briefing which follows if there is interest or in pursuing 
that further because it deals with many of the questions that 
you posed to me.
    But before getting into that detail, I would like to 
highlight a few other points briefly. One, system engineering 
and integration is going to be critical to the success of 
NextGen, and that is the lynchpin of the proposal that I have 
developed. I expect our nation's efforts on NextGen to continue 
for a long time as new technology enablers will continue to 
appear, and we must continue to consider the costs and benefits 
of continuing advancing technology.
    We must also consider the cost and benefits of maintaining 
legacy systems that will become obsolete over time. In a sense, 
NextGen will be like painting the Golden Gate Bridge. When we 
finish the north end, it will be time to come back around to 
the south end and begin again. So we should prepare a 
foundation with this extended process in mind. We are going to 
be at this on a continuing basis.
    But that doesn't mean we shouldn't move with dispatch to 
begin to implement this capability. The AIA proposal that I 
have made allows us to begin now to do what I describe as build 
a little and test a little, layering and linking capabilities. 
It will help us to better define and prioritize the essential 
NextGen R&D for both the FAA and for our JPDO partner agencies. 
It will also provide critically-important domain experience to 
key personnel in government and industry. We need this personal 
experience base to be able to execute this kind of a system.
    This domain experience in government industry is a 
requisite for the system engineering and integration required 
in such large-scale and complex programs. I recently chaired 
another national research council review, this one on the 
subject of system engineering, which clearly recognized the 
importance of strengthening system engineering skills to avoid 
the problems associated with the acquisition of large and 
complex systems that we have seen in DOD and other agencies.
    The good news here is that the FAA in an effort led by 
Vicki Cox has initiated a program to begin to enhance our 
system engineering education, a good first step, more yet is 
required.
    The third point, AIA believes that the JPDO role as an 
honest broker with partner agencies can be enhanced by the 
recent FAA restructuring. As planning melds into 
implementation, the operating agency, with all responsibility 
and at the end of the day all the accountability, will be the 
FAA. And JPDO-participation agencies need to be engaged and 
ensured that their work will be closely integrated and aligned 
with key milestones and measured under a new structure.
    And we have two recommendations for metrics for success. 
The first is implementation of this incremental plan that I am 
prepared to describe in more detail. The second is that FAA and 
industry, possibly through our Institute Management Council, 
develop NextGen measures of success and milestones. For NextGen 
we believe the industry does have valuable process expertise as 
well as subject matter expertise to offer.
    We also note the recent developments in energy and its 
impact on NextGen can't be ignored. But consideration of 
NextGen benefits must be expanded beyond capacity improvements 
to include NextGen's energy and environmental benefits.
    AIA is encouraged at FAA's response in this arena, as they 
have begun integrating modeling of energy and environmental 
consequences such as fuel burn and noise, with the modeling of 
aircraft operations.
    We also have an idea for incentivising early NextGen 
equipage. With the significant energy and environmental 
benefits of NextGen we believe Congress should consider energy 
tax credits for early NextGen equipage. We do it for cars, home 
improvements, and appliances. Why not aviation, at least for 
early equipage?
    And finally, while FAA can speak more authoritatively about 
this, we believe the lack of an FAA budget will seriously 
hamper NextGen development and progress. And industry is on 
record as strongly endorsing the integration of NextGen with 
day-to-day air system operations and JPDO long-term planning.
    Because AIA members populate all of the working groups and 
co-chair seven of our nine groups, we are in a good position to 
evaluate FAA restructuring. Our members uniformly support this 
change, for it keeps the work plan where it belongs, closer to 
the implementing agency, and keeps longer-term planning within 
divisionary construct of JPDO.
    [The prepared statement of Dr. Kaminski follows:]

                 Prepared Statement of Paul G. Kaminski

    Good afternoon Chairman Gordon, Ranking Member Hall, and Members of 
the Committee. Thank you for the opportunity to testify before you 
today. My name is Paul Kaminski. I am the Chairman and Chief Executive 
Officer of Technovation, Inc., and a senior partner in Global 
Technology Partners--but I am here today representing the Aerospace 
Industries Association (AIA). Since January, I have been representing 
AIA on the Institute Management Council of the NextGen Institute that 
oversees industry participation in the JPDO.
    Representing nearly 300 manufacturing companies with more than 
642,000 high-wage, highly skilled employees, AIA operates as the 
largest aerospace trade association in the United States across three 
sectors: civil aviation, space systems, and national defense. AIA 
member companies export 48 percent of their total output and they 
routinely post the Nation's largest manufacturing trade surplus, at a 
level approaching $60 billion in 2007. The aerospace industry continues 
to look to the future, investing heavily in R&D and spending more than 
$50 billion over the last 15 years.
    I last testified before you in June of 2006 when I chaired the 
National Research Council's Committee on the Decadal Survey of Civil 
Aeronautics. Then I said: ``The U.S. air transportation system is a key 
contributor to the economic vitality, public wellbeing, and national 
security of the United States.'' I endorsed the need to improve our air 
transportation system then, and I believe that need is even more 
important today with the high cost of fuel and the growing concerns 
about the environment.
    NextGen--with its capacity, efficiency, energy, environmental and 
safety benefits--must be a strong and urgent priority for the Nation.
    Marion Blakey, former FAA Administrator and now President of AIA, 
sought my assistance with the IMC in January of this year because of my 
commitment to improving NextGen, and my experience in the development 
and acquisition of large, complex systems in the Department of Defense.
    Working with AIA, I proposed a method to accelerate the 
development, acquisition, integration and implementation of the NextGen 
System based on the techniques that we used to accelerate development 
and fielding of the F-117 program. This method is very effective in 
dealing with large, complex systems that depend upon effective 
integration of numerous enabling technologies and complex operating 
procedures.
    But before I get into detail about this AIA proposal for 
development and acquisition, I want to highlight a few other important 
points:

        1.  Systems engineering and integration will critical to the 
        success of NextGen--and that's the lynchpin to this proposal 
        I'll discuss shortly. I expect our nation's efforts on NextGen 
        to continue for a long time, as new technology enablers will 
        continue to appear and we must consider the cost and benefits 
        of advanced technology within our systems engineering 
        foundation. We must also continue to consider the cost and 
        benefits of maintaining legacy systems that will become 
        obsolete. In a sense, NextGen will be like painting the Golden 
        Gate bridge--when we finish the north end, it will be time to 
        come back and begin at the south end. So we should prepare the 
        foundation with that extended process in mind. But that doesn't 
        mean that we shouldn't move with dispatch.

        2.  This AIA proposal allows us to begin now to build a little 
        and test a little, layering and linking capabilities. It will 
        help to better define and prioritize the essential NextGen R&D 
        for both FAA and JPDO partner agencies. It will also provide 
        critically important ``domain experience'' to key personnel in 
        both government and industry. This domain experience in both 
        government and industry is a requisite for the systems 
        engineering and integration required in large scale, complex 
        programs such as NextGen. I recently chaired a National 
        Research Council review of systems engineering which recognized 
        the importance of strengthening systems engineering skills to 
        avoid problems associated with the acquisition of large and 
        complex systems. The FAA has recently initiated a program to 
        enhance systems engineering education--a good first step.

        3.  AIA believes that JPDO's role as an honest broker with 
        partner agencies can be enhanced by the recent FAA 
        restructuring. As planning melds into implementation, the 
        operating agency--with all the responsibility and, at the end 
        of the day, all the accountability--is the FAA. JPDO 
        participating agencies should be engaged and assured that their 
        work will be more closely integrated, aligned with key 
        milestones and measured under the new structure.

        4.  AIA has two recommendations for metrics of success--and 
        they are not exclusive. The first--as I will elaborate soon--is 
        implementation of NextGen incremental leave-behind capabilities 
        using a rigorous implementation schedule. Second, we suggest 
        that FAA and industry--possibly through the IMC--develop 
        NextGen measures of success and milestones. For NextGen, 
        industry has valuable process expertise, as well as subject 
        matter expertise, to offer.

        5.  Recent developments with energy and its impact on NextGen 
        cannot be ignored. The consideration of NextGen benefits must 
        be expanded beyond capacity improvement to include NextGen's 
        energy and environmental benefits. AIA is encouraged at FAA's 
        quick response, as they have begun integrating modeling of 
        energy and environmental consequences--such as fuel burn and 
        noise--with modeling of aircraft operations and systemwide 
        operations. This will help quantify energy and environmental 
        benefits of NextGen improvements to strengthen the NextGen 
        business case.

        6.  We also have an idea for incentivizing early NextGen 
        equipage. With the significant energy and environmental 
        benefits of NextGen, Congress should consider energy tax 
        credits for early NextGen equipage. We do it for cars, home 
        improvements and appliances, why not aviation--at least for 
        early equipage?

        7.  While FAA can speak more authoritatively about this, lack 
        of a new FAA budget will seriously hamper NextGen development 
        and progress. And industry is on record as strongly endorsing 
        the integration of NextGen with day-to-day air system 
        operations and JPDO long-term planning. Because AIA members 
        populate all of the working groups and co-chair seven of the 
        nine groups, we are in a good position to evaluate the FAA 
        restructuring: Our members uniformly support this change for it 
        keeps the work plan where it belongs--closer to the 
        implementing agency--and keeps longer-term planning within the 
        visionary construct of JPDO.

    Now, to discuss how we can accelerate the transition from NextGen 
system concepts and R&D to implementation. See attached briefing 
charts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Paul G. Kaminski

    Paul G. Kaminski is Chairman and CEO of Technovation, Inc., a 
consulting company dedicated to fostering innovation, and to the 
development and application of advanced technology. He is also a Senior 
Partner in Global Technology Partners, a consulting firm specializing 
in business strategy and investments in technology, defense and 
aerospace-related companies.
    Dr. Kaminski served as the Under Secretary of Defense for 
Acquisition and Technology from October 3, 1994 to May 16, 1997. He was 
responsible for all Department of Defense (DOD) research, development, 
and acquisition programs. He also had responsibility for DOD logistics, 
environmental security, international programs, the defense industrial 
base, and military construction. The annual budget for these entities 
exceeded $100 billion.
    Dr. Kaminski has had a continuing career involving large program 
management, and the development and application of advanced technology 
in both the private and public sectors. He served as Chairman and Chief 
Executive Officer of Technology Strategies and Alliances, a technology 
oriented investment banking and consulting firm. He has served as 
Chairman of the Defense Science Board and was a member of the Defense 
Policy Board. In addition, he has served as a consultant and advisor to 
a wide variety of government agencies and as a director and trustee of 
several defense and technology oriented companies.
    His previous government experience includes a 20-year career as an 
officer in the Air Force. During 19811984, he served as Director for 
Low Observables Technology, with responsibility for directing the 
development, production and fielding of the major ``stealth'' systems 
(e.g., F-117, B-2). Prior to that, he served as Special Assistant to 
the Under Secretary of Defense for Research and Engineering. He also 
led the initial development of a National Reconnaissance Office space 
system and related sensor technology. Early in his career, he was 
responsible for test and evaluation of inertial guidance components for 
the Minuteman missile and terminal guidance systems for our first 
precision guided munitions.
    Dr. Kaminski is a member of the National Academy of Engineering, a 
Fellow of the Institute for Electrical and Electronics Engineers, a 
Fellow of the American Institute of Aeronautics & Astronautics, and a 
Senior Fellow of the Defense Science Board. He is Chairman of the Board 
of both Exostar and HRL Labs, and a Director of Bay Microsystems, 
CoVant Technologies, General Dynamics, and RAND. He serves as an 
advisor to the Johns Hopkins Applied Physics Lab, LynuxWorks, Inc., and 
MIT Lincoln Laboratory. He is a member of the Senate Select Committee 
on Intelligence Technical Advisory Board, the National Reconnaissance 
Office Technology Advisory Group, the FBI Director's Advisory Board, 
and the Atlantic Council. He has authored publications dealing with 
inertial and terminal guidance system performance, simulation 
techniques, Kalman filtering and numerical techniques applied to 
estimation problems.
    Dr. Kaminski has received the following awards: National Medal of 
Technology 2006, Department of Defense Medal for Distinguished Public 
Service (3 awards), Defense Distinguished Service Medal, Director of 
Central Intelligence Director's Award, Defense Intelligence Agency 
Director's Award, Legion of Merit with Oak Leaf Cluster, Air Force 
Academy 2002 Distinguished Graduate Award, the International Strategic 
Studies Association Stefan T. Possony Medal for Outstanding 
Contributions to Strategic Progress through Science and Technology, the 
AOC Gold Medal, the Netherlands Medal of Merit in Gold, the French 
Republic Legion d'Honneur, and the Air Force Systems Command Scientific 
Achievement Award. He has been recognized as a Pioneer of National 
Reconnaissance and a Pioneer of Stealth.
    Dr. Kaminski was born in Cleveland, Ohio. He received a Bachelor of 
Science from the Air Force Academy, Master of Science degrees in both 
Aeronautics and Astronautics and in Electrical Engineering from the 
Massachusetts Institute of Technology, and a Ph.D. in Aeronautics and 
Astronautics from Stanford University. He and his wife, Julie, have two 
children, and four grandchildren.

    Chairman Gordon. Thank you, Dr. Kaminski, and we welcome 
additional information that you want to provide us. We will put 
that for our review, and we will also be having more informal 
type round-table discussions to follow up.
    Dr. Waitz, you are next.

  STATEMENT OF DR. IAN A. WAITZ, PARTNER DIRECTOR; JEROME C. 
   HUNSAKER PROFESSOR OF AERONAUTICS AND ASTRONAUTICS; HEAD, 
   DEPARTMENT OF AERONAUTICS AND ASTRONAUTICS, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Dr. Waitz. Chairman Gordon and Members of the Committee, 
thank you for the opportunity to comment on the status of 
NextGen with regard to impacts on the environment. I am the 
head of the Department of Aeronautics and Astronautics at MIT 
and Director of the Partnership for AiR Transportation Noise 
and Emissions Reduction, also known as PARTNER. I would like to 
note that I have also provided a more-detailed written 
statement.
    At PARTNER, an FAA/NASA/Transport Canada-funded Center of 
Excellence, we focus on energy aviation and the environment. We 
have more than 50 graduate students working with faculty 
members at a dozen universities. More than 50 U.S. and 
international organizations collaborate with us and are 
represented on our advisory board.
    In 2004, we wrote a report to Congress on aviation and the 
environment on behalf of the Secretary of Transportation and 
the Administrator of NASA. The report put forward a national 
vision for aviation in the environment that specifies absolute 
reductions in significant health and welfare impacts from 
aviation noise and air quality and reduced uncertainty in 
understanding other emissions or other impacts such as climate.
    Since 2004, when we wrote the report, the challenges facing 
us have grown more significantly. Aircraft noise affects five 
million people in the United States. It is the single greatest 
barrier to adding new runways and expanding airport operations, 
and through the constraints it places on the growth of our Air 
Transportation System, it produces significant negative impacts 
on our national economy.
    Further, we spend hundreds of millions of dollars on a 
band-aid approach of soundproofing homes around airports rather 
than investing in the technology which is the only long-term 
solution.
    In terms of air quality, aircraft are responsible for less 
than one percent of health impacts associated with poor air 
quality in the United States as a whole, yet these impacts are 
still very important, one to 200 perhaps more premature deaths 
each year.
    In regards to climate change, most estimates suggest that 
per unit of fuel burned the impact of aircraft on climate is 
more significant than that impact from land-based sources. 
Climate is also an area where there is a vigorous international 
debate. For example, around EU plans to include international 
aviation in an emissions trading program.
    Unfortunately, this is also an area where the United States 
most significantly lags our European colleagues. Our entire 
portfolio of research is likely less than $1 million per year. 
This for the most uncertain and potentially most damaging 
environmental impact of aviation.
    In terms of jointly addressing the challenges of noise, air 
quality, and climate change, and achieving absolute reductions 
in impacts at the same time the system is growing, history 
provides a lesson. In the '70s, '80s, and '90s, we had a 95 
percent reduction in the number of people impacted by aircraft 
noise. At the same time we had a six-fold increase in passenger 
miles traveled.
    And at that very same time we had a 60 percent improvement 
in energy efficiency, more than any other mode of transport. 
All of those remarkable improvements came from technology that 
was derived from strong FAA, NASA, industry, university 
research programs.
    Today further improvements are possible, improvements that 
can enable us to achieve absolute reductions while we grow. 
However, achieving these improvements is dependent on making 
the right decisions, and that requires a healthy scientific 
research program and also on sufficient sustained investments 
in the development of new technologies, NextGen operations, and 
alternative fuels.
    So what has changed since we wrote the 2004 report to 
Congress on aviation and environment? The most important change 
is that the challenges we are facing have gotten even more 
significant. In particular, if we were writing the report 
today, we would likely add contributions to climate change to 
the list of impacts we would seek to reduce in absolute terms, 
and there would be much greater focus on energy dependence.
    There have also been some successes in the last four years 
since we wrote the report to Congress. The FAA Office of 
Environment and Energy headed by Carl Burleson and Chief 
Scientist Dr. Lourdes Maurice, have led a sea change in the 
FAA. They have adopted a rigorous science-based approach to 
understanding aviation's impacts and making policy decisions 
based on that. Under their leadership with the participation of 
many others, I believe the environmental working group of JPDO 
is regarded as one of the best.
    Today the two most critical issues that we must address are 
first to accelerate the FAA/NASA Aviation Climate Change 
Research Initiative and second, to significantly increase the 
focus, technology, operations, and alternative fuels programs 
in NASA and FAA that are required to effectively bridge 
fundamental aeronautics research and industrial development 
programs.
    This is consistent with the pending FAA and NASA 
Reauthorization Bills, and I sincerely thank this committee for 
its efforts in that regard. It is the right thing to do for the 
health of the planet and for the health of the public. It is 
the right thing to do for the economy.
    The constraints on the system are sufficiently strong that 
they can impede realizing the potential of NextGen. If we do 
not achieve significant advances in environmental performance, 
there will be increasing impacts on health and welfare and 
increasing constraints on the National Air Transportation 
System with the negative economic impacts that come with both.
    Thank you very much, Mr. Chairman and Members of this 
committee for the opportunity to address you. I will be pleased 
to respond to your questions.
    [The prepared statement of Dr. Waitz follows:]

                   Prepared Statement of Ian A. Waitz

    Chairman Gordon and Members of the Committee, thank you for the 
opportunity to comment on the status of the Next Generation Air 
Transportation System initiative (NextGen) with regards to the impacts 
of aviation on the environment. I am the Head of the Department of 
Aeronautics and Astronautics at the Massachusetts Institute of 
Technology and Director of the Partnership for AiR Transportation Noise 
and Emissions Reduction (PARTNER). For 17 years I have conducted 
research directed towards understanding and reducing the environmental 
impacts of aviation. This work has spanned climate change, air quality, 
noise, and economic effects, and has included technological, 
operational, and policy dimensions. I work closely with the FAA Office 
of Environment and Energy.
    My written testimony is organized in six sections. Section I 
briefly describes PARTNER. Section 2 summarizes the key findings from 
the 2004 Report to Congress on Aviation and the Environment. Section 3 
provides an overview of noise, air quality, and climate change issues 
related to the national air transportation system. Within this section, 
I make several comments on current FAA and NASA programs and plans. In 
Section 4 I draw from the discussions of the Section 3 noise, air 
quality, and climate change overview and summarize what has changed 
since the 2004 Report to Congress on Aviation and the Environment. In 
Section 5 I share my views on the progress of the NextGen initiative 
and the Joint Planning and Development Office (JPDO). Section 6 
concludes with the issues that I feel most urgently need to be 
addressed.
    My main message is that the United States must accelerate efforts 
to address the environmental impacts of aviation. It is the right thing 
to do for the health of the public and the planet. It is also the right 
thing to do for the economy. If we do not achieve significant advances 
in environmental performance there will be increasing impacts on health 
and welfare, and increasing constraints on the national air 
transportation system--with the attendant negative economic impacts 
that come with both. The constraints are sufficiently strong that they 
can impede realizing the potential of the Next Generation Air 
Transportation System. I therefore strongly support increases in 
funding for environmental research, development, and demonstration 
programs, such as those described in the pending FAA and NASA 
Reauthorizations. The priority must be on appropriating funds to 
programs that address aviation's environmental impacts starting with 
the FY09 budget. Thereafter, authorization and appropriation of funding 
for more significant programs are required.

1. PARTNER

    PARTNER is an FAA/NASA/Transport Canada-funded Center of 
Excellence, founded in 2003, that focuses on improving the scientific 
understanding of aviation's environmental impacts, and on assessing, 
developing, and implementing technological, operational, and policy 
options for mitigating these environmental impacts. Educating future 
researchers and leaders in aviation and environment is an overarching 
goal. We have more than fifty graduate students working with leading 
faculty members at the Georgia Institute of Technology, Harvard 
University School of Public Health, Massachusetts Institute of 
Technology, Pennsylvania State University, Purdue University, Stanford 
University, Missouri University of Science and Technology, University 
of North Carolina, York University in Canada, and University of Reading 
and University of Cambridge in the United Kingdom.
    One of PARTNER's greatest strengths is our advisory board. More 
than 50 U.S. and international organizations are represented including 
aerospace manufacturers, airlines, airports, national, State and local 
government, professional and trade associations, non-governmental 
organizations and community groups.
    Hundreds of PARTNER investigators, students, and advisory board 
members have worked collaboratively over the last five years under the 
sponsorship of the FAA, NASA, Transport Canada, DOD, and the Airports 
Cooperative Research Council (ACRD) to advance understanding of the 
relationship between aviation and environment. This work has included:

        <bullet>  designing and testing alternate descent patterns as a 
        no/low-cost means to reduce aircraft landing noise, fuel 
        consumption, and pollutant emissions

        <bullet>  three significant measurement campaigns at U.S. 
        airports to assess and understand the formation of particulate 
        matter from aircraft

        <bullet>  collaborating with NASA and industry studying noise 
        acceptability of supersonic flight over land

        <bullet>  examining land use, noise, and local development 
        dynamics related to airport encroachment

        <bullet>  assessment of the human health and welfare risks of 
        aviation noise, local air quality, and climate change impacts

        <bullet>  analyses of the costs and benefits of alternative 
        fuels for aviation

        <bullet>  development of aircraft and air transportation system 
        simulations to assess policies, technologies and operational 
        options for enabling environmentally responsible air 
        transportation growth

        <bullet>  online resource development to better inform the 
        public about aircraft noise issues.

2.  2004 Report to Congress on Aviation and the Environment

    One of the first collaborative endeavors undertaken by PARTNER was 
to draft a report to the United States Congress on behalf of the 
Secretary of Transportation and the Administrator of NASA. The report, 
which is titled Aviation and the Environment: A National Vision 
Statement, Framework for Goals, and Recommended Actions, represents the 
collective views of a broad range of stakeholders. Thirty-eight 
organizations participated, spanning the aerospace industry, NASA, FAA, 
the Environmental Protection Agency, Department of Commerce, Department 
of Defense, academia, State and local governments, and community 
activists. It was my privilege to be the lead author of the report 
(http://mit.edu/aeroastro/partner/reports/
congrept<INF>-</INF>aviation<INF>-</INF>envirn.pdf).
    The report's most important element is a proposal for a National 
Vision Statement for Aviation and the Environment. This vision 
statement was supported by every one of the 59 stakeholders who 
participated in drafting it. The National Vision specifies absolute 
reductions in significant health and welfare impacts from aviation 
noise and air quality emissions--notwithstanding growth, reduced 
uncertainty in understanding other impacts, and global leadership for 
the U.S. aerospace enterprise in addressing aviation mobility and 
environmental needs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To achieve this challenging vision, the 2004 Report to Congress on 
Aviation and the Environment recommends three actions. The first is to 
promote coordination and communication among stakeholders. This should 
be interpreted as a call for a structure like the Joint Planning and 
Development Office. The second is to develop more effective tools and 
metrics for guiding policy decisions and for planning research 
investments. This is the area where some of the most important advances 
are occurring within FAA, but also where further work is required in 
the area of climate change. The third recommended action is to 
establish a vigorous program to develop specific technological, 
operational and policy options that support a balanced approach to 
long-term environmental improvements. My concerns are greatest with 
regard to progress on this third action.
    This vision and the recommended actions have been adopted as the 
basis for the environmental objectives and plans of the NextGen 
Initiative,\1\ the FAA's National Aviation Research Plan,\2\ and the 
National Science and Technology Council's National Plan for Aeronautics 
Research and Development.\3\
---------------------------------------------------------------------------
    \1\ http://www.jpdo.gov/iwp.asp
    \2\ http://www.faa.gov/about/office<INF>-</INF>org/
headquarters<INF>-</INF>offices/ato/publications/oep/plans/images/
2007NARP.pdf
    \3\ http://www.ostp.gov/galleries/default-file/
Final%20National%20Aero%20RD%20Plan%20HIGH%20RES.pdf
---------------------------------------------------------------------------
    I will return to the findings of this report later in my testimony. 
In particular, as you have requested, I will comment on what has 
changed since the report's publication (Section 4), share my views on 
the progress of the NextGen initiative and the JPDO (Section 5), and 
identify the issues I believe most urgently need to be addressed 
(Section 6).

3. Aviation, Environment and Mobility

    Before commenting specifically on the NextGen initiative, it is 
useful to describe what we know and do not know about the environmental 
impacts of the U.S. air transportation system, and to set these impacts 
in the context of environmental impacts from other sources. I start by 
sharing two quotes:

         ``Flying--the worst thing,to do . . . The dirtiest industry in 
        the world.''
                 B. Sewill, Fly Now, Grieve Later, 2005

         ``. . . unrelenting carbon-efficient improvement is business 
        as usual for commercial airlines . . . We are the greenest form 
        of mass transportation.''
                 J.C. May, ATA President and CEO, Congressional 
                Testimony, 2007

    What are we to make of these differences of opinion? In Europe for 
example, sentiments in the press, and those held by many in the public, 
are quite negative. It is ``common knowledge'' for some that aviation 
is a dirty business. This common knowledge is not consistent with 
scientific assessments. There are certainly important impacts on human 
health, welfare, and ecological systems from aviation that must be 
addressed (I detail many of these below). However, it is equally true 
that the air transportation industry has made, and can continue to 
make, significant improvements. For example, in the last 30 years, 
there was a 60 percent reduction in energy intensity in air 
transportation, a reduction that is larger than that of any other mode 
of transportation. Indeed, between 2000 and 2007, fuel use and CO<INF>2</INF> 
emissions from U.S. commercial aviation have decreased by three percent 
in absolute terms despite 12 percent more passenger movements and 22 
percent more freight flown.\4\
---------------------------------------------------------------------------
    \4\ During the same period, CO<INF>2</INF> emissions from aviation 
in Europe rose approximately 30 percent.
---------------------------------------------------------------------------
    More importantly, further improvements are possible with new 
technologies and new fuels--improvements that will enable aviation to 
remain a small, and possibly even decreasing, contributor to the 
overall environmental burden of human activities. However, achieving 
these improvements is dependent on making the right decisions (which 
requires healthy scientific research programs), and on sufficient, 
sustained investments in the development of new technologies, 
operational procedures and alternative fuels. Thus, while it is 
possible for aviation's impacts on the environment to be reduced in 
absolute terms, it is more probable at our current levels of investment 
that aviation environmental impacts will grow--contributing to greater 
detriments on health and welfare, and further constraints on our air 
transportation system and the economic growth it enables.
    I started with the two quotes, ``Flying--the worst thing to do,'' 
and ``. . . the greenest form of mass transportation,'' to focus your 
attention to the value of knowledge, knowledge that can be used to make 
rational judgments about what matters, why it matters, and to whom it 
matters. Aircraft, and the air transportation systems in which they 
operate are highly optimized complex systems. As such, there are 
important tradeoffs and interdependencies. For example, if one designs 
an airplane to minimize noise, impacts on climate and air quality can 
worsen and vice versa. Further, there are almost always important 
safety and economic implications that come with design changes. How 
should one decide what is more or less important?
    The issues highlighted by the quotes I shared go well beyond 
posturing in the press. The public and political views in Europe and 
the United States, and the policies to which they may lead, will affect 
us all--for better or for worse. Aviation is a global business, with 
airplanes designed by a small number of suppliers, largely for a single 
global market. If policies are imposed in one part of the world that 
push aircraft design in a certain direction, all of us will fly on 
those airplanes. Therefore, there is a premium on getting the answer 
right when assessing tradeoffs and interdependencies. This is 
especially true because new airplane development times are as long as a 
decade, and airplane usage in the fleet is as long as three decades. In 
aviation, when we make decisions, they tend to be expensive, and we 
must live with them for a long time.
    It is in this area, the area of developing the knowledge and tools 
to make rational decisions about environmental impacts, where the FAA, 
in particular its Office of Environment and Energy, has been leading 
the world. The FAA has adopted a rigorous, rational, science-based 
approach to understanding what matters, why it matters, and to whom it 
matters. This is the most critical first step to taking action, 
especially for a system as complex as our national air transportation 
system. A detailed plan for research aimed at further developing this 
understanding is contained within the latest draft of the NextGen 
Integrated Work Plan.\5\ I was one of many people who participated in 
developing the plan, and I strongly support it.
---------------------------------------------------------------------------
    \5\ Working draft version dated August 12, 2008.
---------------------------------------------------------------------------
    In the next three subsections, I describe in turn issues related to 
aviation noise, air quality impacts, and climate change. Many of the 
estimates of impacts I describe come from research programs funded in 
the last five years by the FAA Office of Environment and Energy. Many 
of the significant technological advances that I describe were enabled 
and promoted by NASA Aeronautics research and development programs of 
the 1970s-1990s.

3.1 Noise

    There are approximately one-half million people in the United 
States who live in regions near airports with high levels of aircraft 
noise, noise levels such that more than 12 percent of the impacted 
population will be highly annoyed.\6\ People are awakened at night, 
housing values are depreciated, learning in schools is reduced. An 
estimated five million people live in areas with moderate airplane 
noise, but still, where greater than three percent of the population 
will be highly annoyed.\7\ Adding these groups together (those in 
significant and moderate noise areas), there are perhaps 200,000 people 
in the United States who are highly annoyed by commercial aircraft 
noise. Despite the magnitude of the number, it is small compared to the 
number of people living in homes in city centers, and along all of the 
highways and railways in the United States, where residents suffer 
similarly from high noise levels.
---------------------------------------------------------------------------
    \6\ 65dB and higher Day-Night Noise levels.
    \7\ 55dB and higher Day-Night Noise levels.
---------------------------------------------------------------------------
    Further, we have seen dramatic 95 percent reductions in the number 
of people impacted by aircraft noise over the last 35 years (while the 
population impacted by highway and railway noise is estimated to have 
increased), and this is despite a six-fold growth in aviation 
passenger-miles traveled. However, most projections suggest that 
advances in aircraft technology will barely be able to keep up with 
growth in order to keep aircraft noise impacts in the United States 
constant. Meanwhile, we spend hundreds of millions of dollars each year 
on soundproofing homes (which is little more than a band-aid), local 
authorities continue to make poor land-use decisions (allowing 
residential development in high noise regions), and we burn extra fuel 
for some noise abatement procedures at airports (and suffer the 
associated economic, climate, and air quality detriments). Most 
importantly, the very valid complaints of residents around airports 
have almost halted the airport expansion that could be so vital to our 
economy. The limits on airport expansion lead to further congestion of 
our airspace, more flight delays, economic losses, and even more 
environmental impacts. The Chinese are in the process of building some 
50 airports, and expanding another 70. In contrast, consider Boston 
where I live: efforts to add a third runway to Logan Airport started in 
the 1970s. The runway was only half-completed when community opposition 
led to a court injunction halting construction. The injunction was not 
lifted until 2003--30 years of less efficient, less productive 
operations that to a large extent were due to concerns about aviation 
noise.
    With this as context, it is useful to understand what led to the 
dramatic reductions in aviation noise impact that occurred in the 1980s 
and 1990s. These were a direct result of technological advancements 
(especially the introduction of the high bypass ratio turbofan engine) 
and policy incentives (accelerated phase-out of older, noisier 
aircraft--a phase-out that is estimated to have cost the industry 
between $5 billion and $10 billion). These technological advancements 
were founded on robust NASA-FAA-industry-university research and 
development activities.
    In the last several years, funding for the NASA Aeronautics Program 
has been insufficient to support such robust research and development 
activities. As a result, NASA Aeronautics has shifted its focus 
relatively more towards long-term, fundamental research, with 
relatively less emphasis on the more costly, system-level technology 
acceleration and implementation programs. This is an appropriate 
strategy given the limited funding--fundamental research is the 
foundation upon which all the other efforts are built. However, it is 
not a strategy that is promoting the development and implementation of 
low noise technology to the degree that is required. While the modest 
augmentations in recent NASA Aeronautics budgets have been welcome, 
they have varied from year to year, making it difficult to launch the 
multi-year programs that are necessary for success. I note that the 
NASA programs are strongly driven by the NextGen goals, and are 
explicitly incorporated in the NextGen Integrated Work Plan. The team 
is well coordinated. The missing element is an increased and sustained 
funding commitment. The FAA FY09 budget request also includes funds to 
more rapidly develop and implement low noise technology and procedures 
(as one component of the Continuous Lower Energy, Emissions, and Noise 
Program, CLEEN). This program, with a proposed budget of $22M per year 
(for all objectives, not just noise reduction) can be an important 
contributor to an effective, vertically-integrated national research 
and development program. But here too, funds must be appropriated.
    Thus, while we underfund the research and development that is the 
only pathway to long-term improvement, we continue to spend hundreds of 
millions of dollars each year on the band-aid approach of soundproofing 
homes and purchasing land around airports. Because we have under-
invested in research and development, this band-aid is indeed, the only 
option for residents near airports, residents who justifiably have had 
enough with bearing the burden of the high noise environments. The 
national strategy for addressing aircraft noise is broken. New 
technology can change the equation and significantly reduce the 
requirements for soundproofing and the hundreds of millions of dollars 
it drains from the Airport and Airway Trust Fund through the Airport 
Improvement Program.\8\ We must challenge the Nation's government-
industry-university research enterprise to do this and we must 
appropriately fund it. This will break the logjam between aircraft 
noise and airport expansion, promote economic growth, reduce health and 
welfare impacts on residents living near airports, and contribute to 
scientific and technological advancement.
---------------------------------------------------------------------------
    \8\ For Greener Skies, Reducing the Environmental Impacts of 
Aviation, NRC, 2003.

3.2 Air Quality

    Commercial aviation is responsible for between two percent and 
three percent of U.S. energy consumption, almost all of it from 
petroleum. The competitiveness of the industry and the high fraction of 
costs related to fuel, have led to a level of penny-pinching for energy 
efficiency that is unparalleled. Airlines make decisions about 
seemingly minute items to optimize their financial performance (such as 
evaluating whether or not to limit the availability of ice cubes as 
part of the drink service to improve fuel efficiency). The incentives 
for fuel efficiency are extreme. However, as with other users of fossil 
fuels, the combustion of these fuels leads to gaseous and particulate 
matter emissions that can adversely affect human health. Only those 
emissions emitted below 3,000 feet above ground level are traditionally 
considered in EPA national inventories and in air quality evaluations, 
although emerging work suggests that emissions at higher altitudes may 
also be important for surface air quality. The aviation emissions below 
3,000 feet represent between 0.03 percent and 0.4 percent of the total 
National Emissions Inventory levels depending on the particular 
pollutant.\9\ However, in many U.S. counties the contribution to 
county-level inventories can be as high as several percent (rising to 
as high as 20 percent to 50 percent for some pollutants in four 
counties only). Moreover, there are 148 airports located in non-
attainment areas that do not meet National Ambient Air Quality 
Standards for one or more pollutants. So small contributions can still 
be quite important.
---------------------------------------------------------------------------
    \9\ For a one year period in 2005-2006, operations at 325 U.S. 
airports, including approximately 95 percent of operations for which 
flight plans were filed, represent the following percentages of the 
total 2001 U.S. National Emissions inventory for anthropogenic sources: 
0.17 percent of carbon monoxide (CO) emissions, 0.40 percent of oxides 
of nitrogen (NOX) emissions, 0.23 percent of emissions of volatile 
organic compounds (VOCs), 0.06 percent of oxides of sulfur (SOX) 
emissions, and 0.03 percent of fine particulate matter 
(PM<INF>2</INF>.<INF>5</INF>) emissions.
---------------------------------------------------------------------------
    To my knowledge, the FAA is the only organization in the world that 
is specifically funding research to understand the health impacts that 
are attributable to these aviation emissions. It should be commended 
for this. It is another example of the FAA's rational, rigorous 
approach to understanding what matters and why it matters. It is 
important to do so, because even within the different pollutant 
emissions, there are important trade-offs. For example, high 
temperature engines that reduce carbon dioxide (CO<INF>2</INF>) 
emissions can increase emissions of oxides of nitrogen (NOX). A second 
example is related to emissions of hazardous air pollutants. At the 
time when we wrote the 2004 Report to Congress, we listed these as one 
of the highest areas of uncertainty for aviation. Four years later, 
research funded by the FAA and the Airports Cooperative Research 
Council is showing that hazardous air pollutants from aviation are not 
a source of significant health impacts.
    Of aviation emissions, those that contribute to ambient fine 
particulate matter (PM<INF>2</INF>.<INF>5</INF>) are the most 
significant source of adverse heath consequences. More than 95 percent 
of total health impacts attributable to aviation are estimated to come 
from exposure to increased levels of ambient particulate matter. The 
emissions that contribute include sulfur oxides, nitrogen oxides, 
volatile organic emissions (these three groups of emissions are mostly 
emitted as gases, but later in the atmosphere they lead to secondary 
formation of particulate matter), and also primary particulate matter 
emissions (soot). In recent studies, the average contribution of 
aircraft to ambient levels of PM<INF>2</INF>.<INF>5</INF> in the United 
States was estimated to be less than one-tenth of one percent: 0.08 
percent for all counties and 0.06 percent for counties in air quality 
non-attainment areas. The aircraft contributions to county-level 
ambient PM<INF>2</INF>.<INF>5</INF> concentrations ranged from 0 
percent to 0.5 percent. However, this is likely an underestimate since 
only emissions below 3,000 feet were considered and the geographical 
resolution of the models was limited.
    Although the impacts are quite small relative to all human impacts 
on air quality, they are important. Using standard health risk 
assessment approaches, approximately 160 yearly incidences of premature 
mortality can be attributed to the aviation emissions below 3,000 feet. 
These health impacts of aviation very likely constitute less than 0.6 
percent of the total adverse health impacts due to poor air quality 
from all anthropogenic emissions sources in the United States--
underscoring the overall significance of the health risk associated 
with poor air quality in the United States which very likely 
contributes to more than 25,000 premature mortalities each year.
    The benefits that NextGen can provide for improving air quality may 
be significant. Air traffic management inefficiencies, congestion, and 
delay result in increased fuel burn and emissions. We have all 
experienced unacceptably long taxi operations, waiting in long lines to 
take-off, or for an airport gate to become available--all the while 
with engines running, burning fuel, generating emissions, and wasting 
time and money.\10\ Approximately 10 percent of the fuel burn and 
emissions below 3,000 feet in today's system are a direct result of 
delays and inefficient operations. It will only get worse. The air 
transportation system is a traffic jam waiting to happen. Without the 
development of an efficient next generation system, small numbers of 
additional operations (much smaller than the 2x to 3x growth that is 
anticipated) will increasingly cause gridlock, especially in conditions 
with poor weather. There is thus, a potential for significant adverse 
environmental and economic consequences. This is an area where NextGen 
planning and initiatives are appropriately targeted. Moreover, the 
modelling and planning tools used by the NextGen program now explicitly 
incorporate the latest results from air quality health impacts 
analyses. Although many important scientific questions remain, and it 
is likely that the estimates of health impacts will change, the 
research programs have been initiated, and the linkages are in place so 
that these effects can be appropriately considered in NextGen planning 
and development.
---------------------------------------------------------------------------
    \10\ The Joint Economic Committee estimated that flight delays in 
2007 cost the U.S., economy $41 billion. Your Flight Has Been Delayed 
Again: Flight Delays Cost Passengers, Airlines, and the U.S. Economy 
Billions in 2007. JEC, 2008.
---------------------------------------------------------------------------
    In addition to NextGen operational improvements, there are also 
options to reduce air quality impacts through the adoption of low 
sulfur fuels and alternative fuels. Recognition of the potential role 
of alternative fuels is one of the key changes since the writing of the 
2004 Report to Congress on Aviation and the Environment. The FAA is 
moving aggressively to pursue the assessment (including the full life 
cycle impacts), testing, and certification of low sulfur and low carbon 
alternative fuels. It is not yet clear what the costs and benefits of 
these options will be, but FAA has put in place a thoughtful, effective 
research program to develop and assess these options. The work is a 
component of a larger work program within the Commercial Aviation 
Alternative Fuels Initiative (CAAFI), a broad government-industry-
academic consortium.
    While the work on operational improvements and new fuels is 
proceeding well, programs to develop aircraft and engine technologies 
for mitigating air quality impacts are not well supported. As with the 
development of low noise technologies, the reduced levels of funding 
for NASA Aeronautics in the last decade have left the Nation without 
sufficiently strong focused technology programs that are important for 
bridging fundamental research and industrial development, and thereby 
promoting more rapid advancement of aircraft and engine technology. 
Here too, the recent augmentations to the NASA Aeronautics budget have 
been helpful, but they are not enough--and they are not sustained, 
therefore making them less effective for contributing to long-term 
development programs. The FAA can also play an important role in 
addressing the gap with its Continuous Lower Energy, Emissions, and 
Noise Program, CLEEN. However, as I noted previously, this program, 
with a FY09 budget request of $22M per year for all objectives, is not 
sufficient to promote the technological advances that will be required 
to reduce air quality impacts simultaneously with the anticipated 
growth of operations.

3.3 Climate Change

    Aircraft emissions contribute to climate change by increasing the 
levels of greenhouse gases in the atmosphere. Commercial aviation is 
responsible for approximately 2.7 percent of U.S. greenhouse gas 
emissions (roughly 10 percent of the greenhouse gas emissions from the 
transportation sector). Because of the altitude at which aircraft fly, 
the effects on climate are unique among all greenhouse gas emitters. 
There are effects related to the formation of condensation trails 
(contrails) and clouds, and positive and negative impacts of NOX 
emissions that can be more pronounced than those from surface-level NOX 
emissions. These effects cannot simply be added to the effects of the 
CO<INF>2</INF> emissions; they depend on time of day, time of year, 
altitude of the emissions, and region of the globe. Although the 
impacts of aviation CO<INF>2</INF> are well understood, and are the 
same as those from CO<INF>2</INF> emitted from other sources, many of 
the other effects are poorly understood. All of them involve complex 
chemical and atmospheric processes. However, when these effects are 
taken together, most estimates suggest that the impact of aviation on 
climate is greater per unit of fuel burn than that from surface-based 
combustion sources.
    As we wrote in the 2004 Report to Congress, this is the area of 
greatest scientific uncertainty for aviation, and the area with the 
greatest potential for environmental impacts. It is also an area where 
there is a vigorous international debate on measures that should be 
taken to mitigate the impacts--for example, the debate surrounding the 
European Union plans to include commercial aviation in an emissions 
trading program. There are also examples closer to home like the 
petition California and other states filed with the EPA to regulate 
greenhouse gas emissions from aviation.
    Perhaps nowhere in the area of aviation and the environment is 
there a greater premium on pursuing a rigorous program of scientific 
study that is closely tied to national and international decision-
making needs. This is also the area where the United States most 
significantly lags our European colleagues. The United States had a 
robust, vibrant research program (the Atmospheric Effects of Aviation 
Program). This program was discontinued around the year 2000. Since 
that time, most of our understanding of the impacts of aviation on 
climate has come from the excellent programs in Europe. Much of the 
U.S. academic community has disbanded and gone on to focus on other 
things. Although work continues, it is not well funded or well 
connected. Today in the United States, the entire portfolio of funded 
research focusing on aviation and climate is likely less than $1 
million per year--for the most uncertain, and potentially most 
damaging, environmental impact of aviation. We are now in a position of 
being insufficiently prepared to contribute to national and 
international discussions of climate policy for aviation--the latter of 
which are likely to move ahead with or without us. This is a failure.
    To address this critical need, this year the FAA and NASA launched 
the Aviation Climate Change Research Initiative. With 
optimistically\11\ only $2 million to $3 million of funding per year, 
this effort must be expanded. Without this, we will be unable to 
evaluate the complex trade-offs among aviation's climate effects--let 
alone balance them against other objectives for noise, air quality, 
safety, and economic performance of the industry. This is a case where 
engine, aircraft, and operational design trades are quite possible, and 
industry is asking, ``what really matters?'' but we do not have an 
answer for them. All the while, airplanes continue to be built, 
airplanes with a 30-year lifetime in the fleet. We must change the path 
we are on, and to do so, we must move more forcefully than we are 
moving today.
---------------------------------------------------------------------------
    \11\ It is waiting funding in the FY09 Budget.

4.  What has changed since the 2004 Report to Congress on Aviation and 
---------------------------------------------------------------------------
Environment?

    I have addressed several points regarding changes since the 2004 
Report to Congress in Section 3; I will now summarize them. The report 
recommended three actions to achieve a National Vision of absolute 
reductions in significant health and welfare impacts from aviation 
noise and air quality emissions, reduced uncertainty in understanding 
other impacts, and global leadership for the U.S. aerospace enterprise 
in jointly addressing aviation mobility and environmental needs. In the 
last four years there have been some successes in responding to this 
vision, and some failures.

Changes relative to recommendation 1: Promoting coordination and 
communication among stakeholders.

        <bullet>  The National Vision for Aviation and the Environment 
        and Recommended Actions drafted by a broad group of 
        stakeholders was accepted and acted upon by FAA and NASA, and 
        incorporated into the National Plan for Aeronautics Research 
        and Development and Related Infrastructure (January 10, 
        2008).\12\
---------------------------------------------------------------------------
    \12\ The National Plan was developed in response to Executive Order 
13419 which implemented the National Aeronautics R&D Policy. The 
National Plan establishes high priority national aeronautics research 
and development challenges, goals and supporting objectives to guide 
the conduct of U.S. aeronautics R&D activities through 2020.

        <bullet>  The Environmental Working Group of the JPDO is 
        regarded as one of the most effective groups within the JPDO. 
        This is evidenced in the 2005 National Research Council Report, 
        Technology Pathways: Assessing the Integrated Plan for a Next 
        Generation Air Transportation System, where the activities of 
        the group were highlighted and put forward as an exemplar for 
---------------------------------------------------------------------------
        other components of the JPDO to follow.

        <bullet>  NASA Aeronautics programs and plans are closely 
        aligned with the needs of the NextGen initiative.

        <bullet>  FAA and NASA have cultivated several open, 
        collaborative research enterprises focused on environment and 
        energy including the Partnership for AiR Transportation Noise 
        and Emissions Reduction, the Aviation Climate Change Research 
        Initiative, the Commercial Aviation Alternative Fuels 
        Initiative, the Aviation Emissions Characterization Roadmap, 
        the NASA Fundamental Aeronautics N+1, N+2 and N+3 research 
        programs, and the Research Consortium for Continuous Lower 
        Energy, Emissions, and Noise (CLEEN).

Changes relative to recommendation 2: Developing more effective tools 
and metrics for guiding policy decisions and for planning research 
investments.

        <bullet>  The FAA has led the world in supporting research to 
        understand the air quality impacts of aviation resulting in 
        several seminal contributions.

        <bullet>  The FAA and NASA have led the world in developing 
        tools to characterize and quantify the interdependencies among 
        aviation-related noise and emissions, impacts on health and 
        welfare, and industry and consumer costs, under different 
        policy, technology, operational, and market scenarios.

        <bullet>  One of the most significant changes since the 2004 
        Report to Congress is the greater recognition of the importance 
        of energy efficiency, and the potential value of alternative 
        fuels for reducing the climate change impacts of aviation and 
        reducing our dependence on non-replenishable resources. The FAA 
        and the DOD have excellent programs in place to rigorously 
        evaluate the full life cycle costs and benefits of alternative 
        fuels for aviation.

        <bullet>  Despite laudable efforts this year to launch the 
        Aviation Climate Change Research Initiative on the part of FAA 
        and NASA, the gap in technical credibility with regard to 
        aviation climate impacts has widened between the United States 
        and Europe in the last four years. Most of the significant 
        research findings are coming from Europe.

Changes relative to recommendation 3: Establishing a vigorous program 
to develop specific technological, operational, and policy options that 
support a balanced approach to long-term environmental improvements.

        <bullet>  The FAA is well positioned to develop specific 
        operational and policy options (with the notable exception of 
        the aviation climate area) to support long-term environmental 
        improvements. One highlight is its vigorous development and 
        implementation of Continuous Descent Arrival procedures that 
        reduce noise, reduce emissions, and save fuel.

        <bullet>  Since the writing of the 2004 Report, four more years 
        have passed without sufficient funding for the critical NASA-
        FAA-industry-university technology development programs that 
        will be required to address the environmental impacts of 
        aviation while enabling growth in air service.

        <bullet>  Moreover, even the more modest programs proposed in 
        current FAA plans (such as the Continuous Lower Energy, 
        Emissions, and Noise Program, the Aviation Climate Change 
        Research Initiative, expansion of the environmental work in the 
        Airports Cooperative Research Program, and funding for 
        environmental demonstration programs at airports) will not move 
        forward unless funds are appropriated to support them.

5.  What steps should the NextGen initiative be taking to mitigate 
                    impacts? How satisfied are you with the JPDO's 
                    efforts to date?

    I have reviewed a working draft of the environmental section of the 
latest Integrated Work Plan for NextGen (draft dated Aug. 12th 2008). 
The plans in the environmental section are impressive--rigorous, 
science-based, detailed, and well coordinated. The extent to which 
these will be effectively integrated with the overall JPDO work program 
is still to be determined, but I commend the Environmental Working 
Group of the JPDO for its efforts. It has truly aspired to put in place 
a program that will enable an absolute reduction in aviation's 
environmental impacts notwithstanding growth of the aviation system. 
Quoting from the draft Integrated Work Plan:

         ``Therefore, the NextGen challenge is to reduce aviation's 
        environmental footprint, even with projected aviation growth. 
        This includes reducing the impacts of aviation noise, and air 
        quality and greenhouse gas emissions in a cost-beneficial 
        manner.''

    The draft Work Plan further describes their path to achieving this:

         ``NextGen must achieve a balance between aviation's 
        environmental impacts and other societal objectives, both 
        domestically and internationally. NextGen can meet these 
        challenges by eliminating system-induced congestion and delay, 
        accelerating the aircraft technology development/penetration 
        cycle and by advancing alternative fuels to manage aviation's 
        environmental impacts.''

    This is a useful framework for summarizing my thoughts on NextGen 
and JPDO. First, as I have highlighted several times, the rational, 
rigorous, science-based approach adopted by the FAA to evaluate the 
costs and benefits of various options is exceptional. Second, the 
efforts to eliminate system-induced congestion and delay are sorely 
needed. Even today we see significant environmental impacts from these 
factors. These impacts will occur to an even greater extent if the 
number of operations is increased without improving the system. The 
efforts to carefully assess the full life cycle costs of alternative 
fuels are also very appropriate.
    However, it is the area of accelerating the aircraft technology 
development/penetration cycle that most concerns me. The plans and 
programs developed by FAA and NASA are excellent. They are well 
coordinated. The national capabilities in government, industry and 
academia are excellent. However, the current funding levels in this 
area are insufficient to support the national vision for absolute 
reductions in impacts notwithstanding the projected growth.

6.  The most critical issues

    The two most urgent needs are:

        1)  To accelerate the FAA-NASA Aviation Climate Change Research 
        Initiative. This will enable a careful evaluation of the 
        complex trade-offs among aviation's climate impacts, and a 
        balancing of these impacts against other objectives for noise, 
        air quality, safety, and economic performance of the industry.

        2)  To significantly increase and accelerate the focused 
        technology, operations, and alternative fuels programs in NASA 
        and FAA that are required to effectively bridge fundamental 
        aeronautics research and industrial development programs. This 
        will have the single greatest leverage on our ability to 
        achieve long-term environmental improvements in the aviation 
        industry. This can start immediately: important programs have 
        been planned and proposed by the FAA and NASA. However, they 
        are on hold waiting FY09 funding. I encourage you to support, 
        and indeed to expand, these programs.

    Accelerating efforts to address the environmental impacts of 
aviation is the right thing to do for the health of the public and the 
planet. Commercial aviation is estimated to be responsible for two to 
three percent of U.S. CO<INF>2</INF> emissions, 160 or more yearly 
premature mortalities associated with poor air quality, and 200,000 
people who are highly annoyed by aircraft noise. While these impacts 
are small relative to the sum of human environmental impacts, they are 
nonetheless important. Accelerating efforts to address the 
environmental impacts of aviation is also the right thing to do for the 
economy. The constraints on the system are sufficiently strong that 
they can impede realizing the potential of NextGen. If we do not 
achieve significant advances in environmental performance there will be 
increasing impacts on health and welfare, and increasing constraints on 
the national air transportation system--with the attendant negative 
economic impacts that come with both.
    The priority must be on appropriating funds to programs that 
address aviation's environmental impacts starting with the FY09 budget. 
Thereafter, authorization and appropriation of funding for more 
significant programs are required.
    Thank you very much, Mr. Chairman and Members of this committee for 
this opportunity to address you. I will be pleased to respond to your 
questions.

                       Biography for Ian A. Waitz

Born January 25, 1964, Ann Arbor, Michigan; U.S. Citizen

Education:

Ph.D., 1991, Aeronautics, California Institute of Technology

M.S., 1988, Aeronautics, George Washington University

B.S., 1986, Aerospace Engineering, Pennsylvania State University

History of MIT Appointments:

Charles Stark Draper Assistant Professor, July 1991-October 1991

Rockwell International Assistant Professor, November 1991-November 1994

Assistant Professor, December 1994-June 1997

Associate Professor w/o tenure, July 1997-June 1998

Associate Professor with tenure, July 1998-June 2001

Full Professor, July 2001-present

Associate Head, Aero and Astro, August 2002-December 2003

Deputy Head, Aero and Astro, January 2003-June 2005

Department Head, Aero and Astro, February 2008-present

Overview:

    Ian A. Waitz is the Jerome C. Hunsaker Professor and Head of the 
Department of Aeronautics and Astronautics at MIT. He is also the 
Director of the Partnership for AiR Transportation Noise and Emissions 
Reduction (PARTNER), an FAA/NASA/Transport Canada-sponsored Center of 
Excellence. His principal areas of interest are the modeling and 
evaluation of climate,local air quality and noise impacts of aviation, 
including the assessment of technological,operational and policy 
options for mitigating these impacts. He has written approximately 70 
technical publications including a report to the U.S. Congress on 
aviation and the environment,holds three patents and has consulted for 
many organizations. During 2002-2005 he served as Deputy Head of the 
Department of Aeronautics and Astronautics. He has also served as an 
associate editor of the AIAA Journal of Propulsion and Power. In 2003 
Professor Waitz received a NASA Turning Goals Into Reality Award for 
Noise Reduction. He was awarded the FAA 2007 Excellence in Aviation 
Research Award. He is a Fellow of the AIAA, and an ASME and ASEE 
member. He teaches graduate and undergraduate courses in the fields of 
thermodynamics and energy conversion, propulsion, and experimental 
projects. He was honored with the 2002 MIT Class of 1960 Innovation in 
Education Award and appointment as an MIT MacVicar Faculty Fellow in 
2003.

Teaching Experience:

Environmental Aerospace Engineering. Developed to address the growing 
impact of environmental concerns on aerospace systems. Concentration on 
aircraft emissions and noise is set within a broad contextual backdrop, 
including discussions of ethics, regulatory measures, environmental 
assessment, global change, economics, urban planning, and policy.

Aircraft Propulsion and Gas Turbines. Graduate level course devoted to 
        performance and characteristics of aircraft engines and 
        industrial gas turbines as determined by the thermodynamic and 
        fluid mechanic behavior of components: inlets, compressors, 
        combustors, turbines and nozzles.

Internal Flows in Turbomachines. Advanced graduate level course 
        covering concepts of rotational flows, inherent unsteadiness of 
        turbomachines, boundary layers, and wakes and losses in 
        turbomachines.

Thermal Engineering. Junior level undergraduate course in 
        thermodynamics and heat transfer.

Experimental Projects I and II. Selection and detailed planning of an 
        individual research project during the first semester, is 
        followed by construction and experimentation during the second 
        semester. Formal written and oral presentations are made by 
        each of the students.

Unified Engineering. Sophomore level undergraduate course presents the 
        fundamentals of solid mechanics, fluid mechanics, dynamics, 
        thermodynamics and propulsion, and forms the foundation for all 
        other courses taught by the department. The course is the 
        equivalent of four semester-long courses, and is cooperatively 
        taught over the period of a year by several faculty.

Research Interests:

Aviation Environmental Portfolio Management Tool: Working with an 
        international team of researchers under FAA sponsorship to 
        develop an aviation system environmental-economic model to 
        better inform national and international policy-making. The 
        model will enable better assessment of the interdependencies 
        between aviation-related noise and emissions effects, and will 
        provide comprehensive cost analyses of aviation environmental 
        impacts under different technology, operations, policy, market 
        and environmental scenarios. Participants include Georgia 
        Institute of Technology Aerospace Systems Design Laboratory, 
        Harvard School of Public Health, BB&C, ICF, MVA, Vital Link 
        Policy Analysis, MITRE, Volpe National Transportation Systems 
        Center, and Wyle Laboratories. (Active)

Environmental Design Space: Working with researchers from the Georgia 
        Institute of Technology Aerospace Systems Design Laboratory 
        under FAA sponsorship to develop aircraft system-level tools 
        for assessing tradeoffs and interdependencies among 
        technological and operational strategies for minimizing noise, 
        local air quality and climate change impacts of aircraft. 
        (Active)

Alternative Fuels for Aviation: Sponsored by FAA and DOD to explore the 
        potential to reduce aviation environmental impacts via 
        alternative fuels while taking into account the full life cycle 
        of these fuels. (Active)

Impacts of Aircraft Emissions on Air Quality and Public Health: Working 
        with researchers at Cambridge University, University of North 
        Carolina, Boise State University, Harvard School of Public 
        Health, Stanford University, and the University of Houston 
        under FAA and other sponsorship to perform air quality 
        simulations and health impacts assessments of aviation 
        emissions. The work includes a study with FAA and EPA of U.S. 
        air quality impacts in response to the Energy Policy Act of 
        2005, assessments of the impacts of low sulfur and alternative 
        fuels, analyses of the global effects of cruise level 
        emissions, and development of reduced order models for use in 
        policy analyses. (Active)

Chemical and Microphysical Processes in the Turbine, Exhaust Nozzle, 
        and Plume: To aid in assessing the atmospheric effects of 
        current and future aircraft, working with Aerodyne Research 
        Incorporated under FAA, NASA and DOD sponsorship to conduct 
        numerical investigations of the chemistry and microphysics of 
        primary pollutant species, short-lived radicals, and 
        particulate matter, downstream of the combustor, in the 
        turbine, exhaust nozzle, and plume. (Active)

The Value of Environmental Technology in Commercial Aviation: 
        Developing probabilistic valuations for comparing aviation 
        climate, noise, and air quality impacts based on uncertain 
        health and welfare impacts and technological and operational 
        performance. (Active)

System for Assessing Global Aviation Emissions: Worked with researchers 
        from the MIT International Center for Air Transportation and 
        the Volpe National Transportation Systems Center through 
        funding from the FAA to develop an internationally-accepted 
        model for assessing emissions from aircraft (SAGE). (Inactive)

Operational Strategies for Contrail Mitigation: Used an aviation system 
        model to assess the costs and benefits of aircraft trajectory 
        and routing changes as a means to reduce contrail and aviation-
        induced cirrus cloudiness. (Inactive)

The Economic Value of Silence: Worked with researchers from Cambridge 
        University on the Silent Aircraft Initiative to assess the 
        impact of low noise technology and operational procedures on 
        airline financial performance and regional economic 
        performance. (Inactive)

Robust Aerothermodynamic Design of Gas Turbine Engines. Worked with a 
        group of researchers within the Gas Turbine Laboratory to 
        develop methods for designing gas turbine cycles and components 
        to minimize performance variability in response to operating 
        and manufacturing variability. (Inactive)

Micro-Engines: Conducted experimental and numerical research in micro-
        scale combustion systems to support the development of a 
        1mm<SUP>2</SUP> inlet area micro-gas turbine generator using 
        silicon microfabrication technology. (Inactive)

High Fuel-Air Ratio Combustor and Turbine Research: Conducted numerical 
        and experimental work to understand unique reacting flow 
        physics and heat transfer effects within very high temperature 
        gas turbine cycles. (Inactive)

Reduction of turbomachinery fan noise: Numerical simulations and 
        experiments to investigate the impact of various blade wake 
        management strategies on rotor-stator interaction tone noise. 
        (Inactive)

Ejectors for jet noise reduction: Advanced mixer/ejector devices were 
        studied both computationally and experimentally to provide 
        insight into basic fluid mechanics and acoustics in an effort 
        to develop design procedures for these devices. (Inactive)

Consulting:

9/91-11/92--California Institute of Technology, Pasadena, California; 
        Supersonic combustion, testing and analysis

3/93-1/95--PRC Inc., Mt. Laurel, New Jersey; Internal flow design and 
        analysis

7/94-3/95--Thermo Energy Systems Corporation, Waltham, Massachusetts; 
        Analysis of novel fluid-dynamic power generation scheme

11/94-3/95--Cummins Engine Company, Inc., Columbus, Indiana; Analysis 
        of gas-turbine technology trends for power generation markets

3/95-1/96--Visidyne, Inc., Burlington, Massachusetts; Analysis of flow 
        diagnostic techniques

1/96-10/98--General Electric, Aircraft Engines Group, Lynn, 
        Massachusetts; Gas turbine test facility evaluation

12/95-6/97--Allison Advanced Development Company, Indianapolis, 
        Indiana; Conducted wind-tunnel experiments

8/96-8/96--Volvo Aero, Trollhattan, Sweden; Professional development 
        course

2/96-3/96--Rasor Associates, Inc., Sunnyvale, California; Evaluation of 
        combustion process

12/96-2/97--CFD Research Corporation, Huntsville, Alabama; Micro-
        combustion processes

8/27-9/27--Russell & DuMoulin, Vancouver B.C., Canada; Aircraft noise

3/95-5/98--Telectro-Mek, Inc., Fort Wayne, Indiana; Development of 
        thrust measuring systems for aircraft

2/96-present--United Technologies Corporation, East Hartford, 
        Connecticut; Gas turbine combustion, noise and professional 
        development courses

9/97-10/97--Deka Research and Development Corp., Manchester, New 
        Hampshire; Combustor design

10/97-2/00--Skadden, Arps, Slate, Meagher & Flom LLP, Los Angeles, CA; 
        Gas turbine combustion processes

3/98-9/98--WorkSmart Energy Enterprises, Inc., Chevy Chase, MD; 
        Evaluated the technical feasibility of utilizing company's 
        invention to improve heat engine efficiency

8/98-5/04--U.S. Environmental Protection Agency; Aircraft technology 
        for low emissions

4/99-9/02--Naval Facilities Engineering Service Center; Pollution 
        prevention technology development

10/99-6/02--Institute for Defense Analyses; Defense Science Study Group

4/00-12/00--Universal Technology Corporation; Joint Strike Fighter 
        Independent Technical Review Team (Air Quality & Noise)

6/01-9/01--Tamarac, LLC; Gas turbine durability

11/01-12/03--Meggitt Avionics, Inc.; Engine diagnostics

5/02-12/02--U.S. General Accounting Office; Aircraft emissions

8/02-12/02--Raytheon Missile Systems

8/02-present--Rolls-Royce, plc; Chair, Environmental Advisory Board

9/02-1/04--Alstom Power, Inc.; Gas turbine design and performance

9/07-present--Wyle Laboratories; Consultant for ACRP 02-06, Greenhouse 
        Gas Emissions Inventories for Airports

Professional Activities:

Associate Editor, AIAA Journal of Propulsion and Power, 1996-99

AIAA Fellow (2005), Chair of Turbine Engine Committee 1996-98; AIAA 
        Air-Breathing Propulsion Technical Committee 1995-1999

Member, ASME Turbomachinery Committee

Member, American Society of Engineering Education

Lead Author, United Nations Environment Programme, Intergovernmental 
        Panel on Climate Change, Special Report on Aviation and the 
        Global Atmosphere, 1999

Defense Sciences Study Group, Class of 2000-2001

Joint Strike Fighter Independent Technical Review Team for Air Quality 
        and Noise, 2000

NRC Committee on Aeronautics Research and Technology for Environmental 
        Compatibility, 2000-2001

NASA Aircraft Engine Emissions Characterization and Inventory 
        Committee, 2001-2003

NASA Quiet Aircraft Technology Technical Working Group, 2001-2003

Duke University Mechanical Engineering Undergraduate Advisory Board, 
        2001-present

Defense Science Board Task Force on B-52 Re-Engining, 2002

Member of U.S. Delegation to ICAO Committee on Aviation and 
        Environment/6 (as an advisor), 2004

FAA National Particulate Roadmap, Impacts Team lead, 2004-present

Director of Partnership for AiR Transportation Noise and Emissions 
        Reduction (PARTNER), an FAA/NASA/Transport Canada-sponsored 
        Center of Excellence, 2004-present

Director, Congressional Study on Long-Term Environmental Improvements 
        for Aviation, 2004-2005

NRC Committee to Assess the Integrated Plan for a Next Generation Air 
        Transportation System (JPDO), 2004-2005

National Academy of Engineering, Steering Committee for Technology for 
        a Quieter America Study, Chair Cost-Benefit Analysis 
        Subcommittee, 2006-present

Transportation Research Board/National Academy of Sciences Study on 
        Transportation and Greenhouse Gas Reduction, Committee member, 
        2007-present

Honors and Awards:

Raymond L. Bisplinghoff Faculty Fellow, July 2000-June 2003

MIT Class of 1960 Innovation in Education Award, 2002

MIT MacVicar Faculty Fellow, 2003-present

    NASA 2003 Turning Goals Into Reality Award For Noise Reduction, 
2003

Elected Fellow, AIAA, 2006

FAA 2007 Excellence in Aviation Research Award, 2007

Publications:

Combustion and Emissions
``Assessment of the Impact of Reduced Vertical Separation Minimum 
        (RVSM) on Aircraft-Related Fuel Burn and Emissions for the 
        Domestic United States,'' A. Malwitz, S. Balasubramanian, G. 
        Fleming, T. Yoder and I.A. Waitz, to appear in AIAA J. of 
        Aircraft, 2008.

``Microphysical Modeling of Ground-Level Aircraft-Emitted Aerosol 
        Formation: Roles of Sulfur-Containing Species,'' H.-W. Wong, 
        P.E. Yelvington, M.T. Timko, T.B. Onasch and R.C. Miake-Lye, J. 
        Zhang and I.A. Waitz** to appear in AIAA Journal of Propulsion 
        and Power, 2008.

``Assessing the Impact of Aviation on Climate,'' K. Marais, S.P. 
        Lukachko, M. Jun, A. Mahashabde, and I.A. Waitz, 
        Meteorologische Zeitschrift, April 2008.

``System for assessing Aviation's Global Emissions (SAGE): Model 
        Description and Inventory Results,'' B.Y. Kim, G.G. Fleming, 
        J.J. Lee, I.A. Waitz, J.-P. Clarke, S. Balasubramanian, A. 
        Malwitz, K. Klima, M. Locke, C.A. Holsclaw, L.Q. Maurice and 
        M.L. Gupta, Transportation Research, Part D, Vol. 12, pp. 325-
        346, 2007.

``System for assessing Aviation's Global Emissions (SAGE): Uncertainty 
        Assessment,'' J.J. Lee, I.A. Waitz, B.Y. Kim, G.G. Fleming, 
        L.Q. Maurice and C.A. Holsclaw, Transportation Research, Part 
        D, Vol. 12, pp. 381-395, 2007.

``A Comparison of Two Methods for Predicting Emissions from Aircraft 
        Gas Turbine Combustors,'' D.L. Allaire, I.A. Waitz, K.E. 
        Willcox, GT2007-28346, Proceedings of the ASME Turbo Expo 2007: 
        Power for Land, Sea and Air, May 14-17, 2007.

``The evolution of carbonaceous aerosol and aerosol precursor emissions 
        through a gas turbine engine,'' K. Brundish, A. Clague, C. 
        Wilson, R.C. Miake-Lye, R. Brown, J. Wormhoudt, S.P. Lukachko, 
        A. Chobot, C. Yam, I. Waitz, D. Hagen, P.D. Whitefield, AIAA 
        Journal of Propulsion and Power, Volume 23, Number 5, 
        September-October, 2007.

``Impact of Manufacturing Variability on Combustor Liner Durability,'' 
        S.D. Bradshaw and I.A. Waitz, GT2006-91098, Proceedings of the 
        ASME Turbo Expo, May 2006, to appear in ASME J. of Engineering 
        for Gas Turbines and Power, March 2009.

``Aviation and the Environment: A National Vision Statement, Framework 
        for Goals and Recommended Actions,'' I.A. Waitz, J. Townsend, 
        J. Cutcher-Gershenfeld, E.M. Greitzer and J.L. Kerrebrock, 
        Report to the United States Congress, on behalf of the U.S. 
        DOT, FAA and NASA, December 2004 (delivered to Congress, 
        December 2005).

``Water Injection: Could it Reduce Airplane Maintenance Costs and 
        Airport Emissions?'' D.L. Daggett, R.C. Hendricks, A. 
        Mahashabde and I.A. Waitz, ISABE-2005-1249, 17th International 
        Symposium on Airbreathing Engines, Munich, Germany, September 
        4-9, 2005.

``Engine Design and Operational Impacts on Particulate Matter Precursor 
        Emissions,'' S.P. Lukachko, I.A. Waitz, R.C. Miake-Lye and R.C. 
        Brown, GT2005-69112, Proceedings of the ASME Turbo Expo, June 
        2005, Journal of Engineering for Gas Turbines and Power, Vol. 
        130, Issue 2, February 2008.

``Post Combustion Evolution of Soot Properties in an Aircraft Engine,'' 
        P.M. Dakhel, S.P. Lukachko, I.A. Waitz, R.C. Miake-Lye and R.C. 
        Brown, GT2005-69113, Proceedings of the ASME Turbo Expo, June 
        2005, AIAA Journal of Propulsion and Power, Volume 23, Number 
        5, September-October, 2007.

``NO and NO<INF>2</INF> Emissions Ratios Measured from in Use 
        Commercial Aircraft During Taxi and Take-Off,'' S.C. Herdon, 
        J.H. Shorter, M.S. Zahniser, D.D. Nelson, Jr., J. Wormhoudt, J. 
        Jayne, R.C. Brown, R.C. Miake-Lye, I.A. Waitz, P. Silva, T. 
        Lanni, K. Demerjian, and C.E. Kolb, Environmental Science and 
        Technology, Vol. 38, pp. 6078-6084, American Chemical Society, 
        2004.

``Aviation Emissions and Abatement Policies in the United States: A 
        City-Pair Analysis,'' S. Jamin, A. Schafer, M.E. Ben-Akiva, and 
        I.A. Waitz, Journal of Transportation Research, Part D, Volume 
        9, No. 4, pp. 294-314, July, 2004.

``Gas Turbine Engine Durability Impacts of High Fuel-Air Ratio 
        Combustors: Near Wall Reaction Effects on Film-Cooled Backward-
        Facing Step Heat Transfer,'' D. Milanes, D.R. Kirk, K. 
        Fidkowski and I.A. Waitz, GT2004-53259, Proceedings of ASME 
        Turbo Expo, June 2004, Journal of Engineering for Gas Turbines 
        and Power, Volume 128, Issue 2, pp. 318-325, April, 2006.

``Aircraft and Energy Use,'' J.J. Lee, S.P. Lukachko and I.A. Waitz, 
        invited chapter in Encyclopedia of Energy, by Academic Press/
        Elsevier Science, San Diego California, 2003.

``Military Aviation and the Environment: Historical Trends and 
        Comparison to Civil Aviation,'' I.A. Waitz, S.P. Lukachko, and 
        J.J. Lee, AIAA-2003-2620, invited contribution to AIAA/ICAS 
        International Air and Space Symposium and Exposition, Dayton, 
        Ohio, July 1417, 2003; AIAA Journal of Aircraft, Vol. 42 No.2 
        (pp. 329-339) 2005.

``Historical Fuel Efficiency Characteristics of Regional Aircraft from 
        Technological, Operational, and Cost Perspectives,'' R. 
        Babikian, S.P. Lukachko and I.A. Waitz, Journal of Air 
        Transport Management, Volume 8, No. 6, pp. 389-400, Nov. 2002.

``Gas Turbine Engine Durability Impacts of High Fuel-Air Ratio 
        Combustors. Part 1: Potential for Oxidation of Partially-
        Reacted Fuel,'' S.P. Lukachko, D.R. Kirk and I.A. Waitz, GT-
        2002-30077, Proceedings of ASME Turbo Expo, Amsterdam, The 
        Netherlands, June 2002. Journal of Engineering for Gas Turbines 
        and Power, Vol. 125, July 2003.

``Gas Turbine Engine Durability Impacts of High Fuel-Air Ratio 
        Combustors. Part 2: Near-Wall Reaction Effects on Film-Cooled 
        Heat Transfer,'' D.R. Kirk, G.R. Guenette, S.P. Lukachko and 
        I.A. Waitz, GT-2002-30182, Proceedings of ASME Turbo Expo, 
        Amsterdam, The Netherlands, June 2002. Journal of Engineering 
        for Gas Turbines and Power, Vol. 125, July 2003.

``Historical and Future Trends in Aircraft Performance, Cost and 
        Emissions,'' Lee, J.J., Lukachko, S.P., Waitz, I.A., and 
        Schafer, A., (invited contribution) Annual Review of Energy and 
        the Environment, Volume 26, 2001.

``Mobility 2001,'' Marks, D., et al., World Business Council for 
        Sustainable Development, Switzerland, 2001.

``Aviation and Climate Change,'' R.C. Miake-Lye, I.A. Waitz, D.W. 
        Fahey, C.E. Kolb, H.L. Wesoky, and C.C. Wey, Aerospace America, 
        September, 2000.

``Heterogeneous Reactions in Aircraft Gas Turbine Engines,'' R.C. 
        Brown, R.C. Miake-Lye, S.P. Lukachko and I.A. Waitz, 
        Geophysical Research Letters, Vol. 29, No. 10, February, 2002.

``Turbine and Nozzle Effects on Emissions,'' I.A. Waitz et al., Part 7 
        of Chapter 7 (Aircraft technology and relation to emissions) of 
        Part 2 (Aviation technology and emissions mitigation) of UN-
        sponsored Intergovernmental Panel on Climate Change (IPCC) 
        Special Report on Aviation and the Global Atmosphere, 1999.

``Confined Swirling Flows with Heat Release and Mixing,'' D. Underwood, 
        I.A. Waitz, and E.M. Greitzer, Journal of Propulsion and Power, 
        Volume 16, Number 2, March-April, 2000, pp. 169-177.

``Production of Sulfate Aerosol Precursors in the Turbine and Exhaust 
        Nozzle of an Aircraft Engine,'' S.P. Lukachko, I.A. Waitz, R.C. 
        Miake-Lye, R.C. Brown, and M.A. Anderson, Journal of 
        Geophysical Research, Volume 103, No. D13, July 10, 1998.

``Effects of Engine Aging on Aircraft NOX Emissions,'' S.P. Lukachko, 
        I.A. Waitz, Paper 97-GT-386, ASME Turbo Expo, Orlando, Florida, 
        June 2-5, 1997.

``Chemical Processes in the Turbine and Exhaust Nozzle,'' S.P. 
        Lukachko, I.A. Waitz, R.C. Miake-Lye, R.C. Brown, and M.R. 
        Anderson, M.R., presented at the International Colloquium on 
        the Impact of Aircraft Emissions upon the Atmosphere, Paris, 
        France, October 15-18, 1996.

``Streamwise Vorticity Enhanced Mixing in a Reacting Shear Layer,'' 
        D.S. Underwood, and I.A. Waitz, AIAA Journal of Propulsion and 
        Power, Volume 12, No. 4, July-August, 1996.

``Investigation of a Contoured Wall Injector for Hypervelocity Mixing 
        Augmentation,'' I. Waitz, F. Marble, and E. Zukoski, AIAA 
        Journal, Vol. 31, no. 6, June 1993.

``Vorticity Generation by Contoured Wall Injectors,'' I. Waitz, F. 
        Marble, and E. Zukoski, presented at the AIAA/SAE/ASME 28th 
        Joint Propulsion Meeting, Nashville, Tennessee, July 6-8, 1992.

``A Systematic Experimental and Computational Investigation of a Class 
        of Contoured Wall Fuel Injectors,'' I. Waitz, F. Marble, and E. 
        Zukoski, AIAA 92-0625 presented at the AIAA 30th Aerospace 
        Sciences Meeting, Reno, Nevada, January 6-9, 1992.

``Planar Rayleigh Scattering Results in Helium-Air Mixing Experiments 
        in a Mach 6 Wind Tunnel,'' B. Shirinzadeh, I.A. Waitz, J. 
        Balla, M.E. Hillard, J.B. Anders, and R.J. Exton, Applied 
        Optics, Vol. 31, No. 30, October, 1992.

``Shock Enhancement and Control of Hypersonic Mixing and Combustion,'' 
        F. Marble, E. Zukoski, J. Jacobs, G. Hendricks, and I. Waitz, 
        AIAA 90-1981, presented at the AIAA/SAE/ASME/ASEE 26th Joint 
        Propulsion Conference, Orlando, Florida, July 16-18, 1990.

Aircraft Noise

``Challenges and Promises in Mitigating Transportation Noise,'' I.A. 
        Waitz, R.J. Bernhard, C.E. Hanson, The Bridge, National Academy 
        of Engineering, Vol. 37, Fall 2007.

``Assessment of Silent Aircraft-Enabled Regional Development and 
        Airline Economics in the UK,'' R. Tam, P. Belobaba, K.R. 
        Polenske, I.A. Waitz, 45th AIAA Aerospace Sciences Meeting and 
        Exhibit, 8-11 Jan 2007.

``Trailing Edge Blowing for Reduction of Turbomachinery Fan Noise,'' 
        J.M. Brookfield and I.A. Waitz, AIAA Paper 98-2321, 4th AIAA/
        CAES Aeroacoustics Conference, Toulouse, France, June 2-4, 
        1998, AIAA Journal of Propulsion and Power, Volume 16, Number 
        1, January-February 2000, pp. 57-64.

``Aeroacoustic Measurement of Transient Hot Nozzle Flows,'' D.R. Kirk, 
        D.O. Creviston and I.A. Waitz, 5th AIAA/CAES Aeroacoustics 
        Conference Proceedings, 1999, AIAA Journal of Propulsion, 
        Volume 17, Number 4, July-August 2001, pp. 928-935.

``A Mixer-Ejector Noise-Suppressor Model,'' D. Tew, and I. Waitz, AIAA 
        Paper 97-1682, AIAA Aeroacoustics Conference Proceedings, May 
        1997, AIAA Journal of Propulsion and Power, Volume 14, No. 6, 
        November-December 1998.

``Transient Testing Techniques for Jet Noise Measurements,'' J.M. 
        Kerwin, I.A. Waitz, AIAA Paper 97-1684, AIAA Aeroacoustics 
        Conference Proceedings, May 1997.

``Impact of Compressibility on Mixing with Large-Scale Streamwise 
        Vortices,'' D. Tew, and I. Waitz, AIAA Paper 97-2637, AIAA 
        Joint Propulsion Conference, June 1997. AIAA Journal, Vol. 42, 
        Number 11, pp. 2393-2396, 2004.

``Preliminary Assessment of Wake Management Strategies for Reduction of 
        Turbomachinery Fan Noise,'' I.A. Waitz, J.M. Brookfield, J. 
        Sell, and B.J. Hayden, CEAS/AIAA 95-102, AIAA Journal of 
        Propulsion and Power, Volume 12, Number 4, July-August, 1996.

``The Role of Streamwise Vorticity in Compressible Mixing Downstream of 
        Lobed Mixers,'' D. Tew, I. Waitz, J. Hermanson, and E. 
        Greitzer, AIAA 95-2746, presented at the 31st AIAA/ASME/SAE/
        ASEE Joint Propulsion Conference, San Diego, CA, July 10-12, 
        1995.

Gas Turbine Engines

``Impact of Compressibility on Mixing Downstream of Lobed Mixers,'' 
        D.E. Tew, J.C. Hermanson and I.A. Waitz,'' AIAA Journal, Vol. 
        42, Number 11, pp. 2393-2396, 2004.

``Endwall Blockage in Axial Compressors,'' S.A. Khalid, A.S. Khalsa, 
        I.A. Waitz, E.M. Greitzer, C.S. Tan, N.A. Cumpsty, J. Adamczyk, 
        and F.E. Marble, ASME Turbo Expo, Stockholm, Sweden, June 1998, 
        ASME J. of Turbomachinery, Vol. 121, No. 3, pp. 499-511, July, 
        1999.

``Rotor Wake Decay: Effect of Swirl,'' J.M. Brookfield, I.A. Waitz, J. 
        Sell,'' ASME Paper 96-GT-495, ASME Turbo Expo, Orlando, 
        Florida, June 2-5, 1997, and AIAA Journal of Propulsion and 
        Power, Volume 14, No. 2, March-April, 1998.

``Enhanced Mixing with Streamwise Vorticity,'' I.A. Waitz, J.K. Elliot, 
        A.K.S. Fung, J.M. Kerwin, J.K. Krasnodebski, M.N. O'Sullivan, 
        Y.J. Qiu, D.E. Tew, E.M. Greitzer, F.E. Marble, C.S. Tan, and 
        T.G. Tillman, Progress in Aerospace Sciences, Vol. 33, Number 
        5/6, May/June 1997.

``A Computational Study of Viscous Effects on Lobed Mixer Flow Features 
        and Performance,'' M.N. O'Sullivan, I.A. Waitz, E.M. Greitzer, 
        C.S. Tan, and W.N. Dawes, AIAA Journal of Propulsion and Power, 
        Volume 12, Number 2, March-April 1996.

``Vortices in Aero-Propulsion Systems,'' I. Waitz, E. Greitzer, and C. 
        Tan, in Fluid Vortices, ed. S. Green, Kluwer Academic 
        Publishing, 1994.

``Enhanced Mixing in Gas Turbine Propulsion Systems,'' I.A. Waitz, T.G. 
        Tillman, D.C. McCormick, Global Gas Turbine News, International 
        Gas Turbine Institute, August 1993.

Micro Heat Engines

``Microcombustion,'' C. Spadaccini and I.A. Waitz, chapter in 
        Comprehensive Microsystems, eds. Y.B. Gianchandani, O. Tabata, 
        and H. Zappe, Elsevier, New York, NY, 2007.

``Catalytic Combustion Systems for Micro-Scale Gas Turbine Engines,'' 
        C.M. Spadaccini, J.-W. Peck, and I.A. Waitz, GT2005-68382, 
        Proceedings of the ASME Turbo Expo, June 2005, Journal of 
        Engineering for Gas Turbines and Power, Volume 129, Issue 1, 
        pp. 49-60, January 2007.

``High Power Density Silicon Combustion Systems for Micro Gas Turbine 
        Engines,'' C.M. Spadaccini, A. Mehra, J. Lee, X. Zhang, S. 
        Lukachko, and I.A. Waitz, GT-2002-30082, Proceedings of ASME 
        Turbo Expo, Amsterdam, The Netherlands, June 2002. Journal of 
        Engineering for Gas Turbines and Power, Vol. 125, July 2003.

``Development of a Catalytic Silicon Micro-Combustor for Hydrocarbon-
        fueled Power MEMS,'' C.M. Spadaccini, X. Zhang, C.P. Cadou, N. 
        Miki, and I.A. Waitz, Sensors and Actuators A 103 (2003) 219-
        224.

``Igniters and temperature sensors for a micro-scale combustion 
        system,'' Xin Zhang, Amit Mehra, Arturo A. Ayon, Ian A. Waitz, 
        Sensors and Actuators A 103 (2003) 253-262.

``Centimeter-Diameter Gas Turbine Generators for Compact Power,'' A.H. 
        Epstein, S.A. Jacobson, Y. Gong, R. Khanna, J. Lang, H. Li, L. 
        Liu, C. Livermore, H.-S. Moon, J. Protz, N. Savoulides, M. 
        Schmidt, C. Spadaccini, M. Spearing, C.J. Teo, I. Waitz, D. 
        Ward, Proceedings of the 2003 Power & Energy Collaborative 
        Technology Alliance Symposium.

``Development of Polysilicon Ignitors and Temperature Sensors for a 
        Micro Gas Turbine Engine,'' X. Zhang, A. Mehra, A.A. Ayon, and 
        I.A. Waitz, IEEE 15th International Micro Electro Mechanical 
        Systems Conference, Las Vegas, Nevada, January 20-24, 2002.

``A 6-Wafer Combustion System for a Silicon Micro Gas Turbine Engine,'' 
        Mehra, A., Zhang, X., Ayon, A., Waitz, I., and Schmidt, M., 
        Spadaccini, C., Journal of Microelectromechanical Systems, 
        Volume 9, Number 4, December 2000, pp. 517-527.

``A Through-Wafer Electrical Interconnect for Multi-Level MEMS 
        Devices,'' Mehra, A., Zhang, X., Ayon, A., Waitz, I., and 
        Schmidt, M., Journal of Vacuum Science & Technology B, Volume 
        18, No. 5, September/October 2000.

``Combustion Tests in the Static Structure of a 6-Wafer Micro Gas 
        Turbine Engine,'' A. Mehra, I.A. Waitz and M.A. Schmidt, 1999 
        Solid State Sensor and Actuator Workshop, June 2-4, 1999.

``Microfabrication of High-Temperature Silicon Devices Using Wafer 
        Bonding and Deep Reactive Ion Etching,'' A. Mehra, A.A. Ayon, 
        I.A. Waitz, and M.A. Schmidt, Journal of Microelectromechanical 
        Systems, pp. 152-160, Volume 8, Number 2, June 1999.

``Development of a Hydrogen Combustor for a Microfabricated Gas Turbine 
        Engine,'' A. Mehra and I. A. Waitz, 1998 Solid State Sensor and 
        Actuator Workshop, Hilton Head Transducers Conference, June 2-
        4, 1998.

``Combustors for a Micro Gas Turbine Engines,'' I.A. Waitz, G. Gautam, 
        Y.-S. Tzeng, (Invited paper) International Symposium on Micro-
        Electro-Mechanical Systems (MEMS), ASME 1996 International 
        Engineering Congress and Exposition, 17-22 November, Atlanta, 
        Georgia, 1996, ASME Journal of Fluids Engineering, Volume 120, 
        March 1998.

``Power MEMS and Microengines,'' Epstein et al., IEEE Transducers '97 
        Conference, Chicago, IL, June 1997.

``Micro-Heat Engines, Gas Turbines, and Rocket Engines--The MIT 
        Microengine Project,'' Epstein et al., AIAA Paper 97-1773, 28th 
        AIAA Fluid Dynamics Conference, Snowmass, CO, June 29-July 2, 
        1997.

Other Publications

``Integrated Teaching of Experimental and Communication Skills to 
        Undergraduate Aerospace Engineering Students,'' I.A. Waitz and 
        E.C. Barrett, presented at the 1996 ASEE Annual Conference and 
        Exposition, June 1996, ASEE Journal of Engineering Education, 
        July 1997.

``Experimental Investigation of Wing/Fuselage Integration Geometries,'' 
        M. Maughmer, D. Hallman, R. Ruszkowski, G. Chappel, and I. 
        Waitz, Journal of Aircraft, Vol. 26, No. 6, August, 1989.

``Rotating Disk Transition Due to Isolated Roughness with Intense 
        Acoustic Irradiation,'' I. Waitz and S. Wilkinson, AIAA 88-
        3761, presented at the First National Fluid Dynamics Congress, 
        Cincinnati, Ohio, July 24-28, 1988.

Patents:

``Reduction of Turbomachinery Noise''
I.A. Waitz, J.M. Brookfield, J. Sell, K.U. Ingard, and B.J. Hayden
U.S. Patent #6,004,095 issued December 21, 1999.

``Microturbomachinery''
A.H. Epstein, S.D. Senturia, I.A. Waitz, J.H. Lang, S. Jacobson, F.F. 
Ehrich, M.A. Schmidt, G.K. Ananthasuresh, M.S. Spearing, K.S. Breuer, 
S.F. Nagle
U.S. Patent #5,932,940 issued August 3, 1999.

``Microturbomachinery''
A.H. Epstein, S.D. Senturia, I.A. Waitz, J.H. Lang, S. Jacobson, F.F. 
Ehrich, M.A. Schmidt, G.K. Ananthasuresh, M.S. Spearing, K.S. Breuer, 
and S.F. Nagle
U.S. Patent #6,392,313 issued May 21, 2002.

                               Discussion

    Chairman Gordon. Thank you, Dr. Waitz. I am very 
sympathetic to your suggestions. This committee has tried to in 
various capacities authorize that R&D. It is very important to 
the country. We have got to get the funding to follow up, which 
means we need Presidential leadership and help in that regard.
    So at this point I am going to open up the first round of 
questions. I will be recognized for five minutes and following 
up on that topic let me just say that it is clear that all of 
you agree that it is important that NextGen be successful, and 
I think it is important that we have a President who is 
supportive, provides funding and leadership. We are going to 
have an election soon and a new President here in just a few 
months, and so we are trying to put together as a Committee 
some recommendations for the next President, whomever that 
might be, in areas of our jurisdiction.

                 Recommendations to the Next President

    So I would like to take a quick couple of minutes here to 
get your recommendations on what we should then make to the 
next President concerning NextGen. Why don't we start, well, 
Dr. Waitz, you want to start with yourself?
    Dr. Waitz. Certainly. I would be pleased to. My primary 
recommendation would be to recognize that mobility and 
environment are both public goods, and right now they are 
standing in the way of one another. And a small amount of 
investment in the area resolving these problems could have a 
major payoff. So I think it is an excellent area for us to 
invest in terms of advancing our scientific understanding, as 
well as our ability to develop and advance the Air 
Transportation System.
    Chairman Gordon. Anyone else have any recommendations that 
you would like for us to include? Yes, sir.
    Dr. Dillingham. Mr. Chairman, I think you hit the nail on 
the head when you talked about having the President or the new 
Administration recognize that this is a very crucial issue for 
the Nation in terms of the role that transportation plays both 
in the global economy as well as domestically. And I think it 
is also important that the identification and confirmation 
process for the Cabinet level as well as the FAA Administrator 
be high on the list, because right now we are at a situation 
where there is, you know, that leadership is very important as 
champions for NextGen and transportation.
    Chairman Gordon. Hopefully that confirmation process will 
make that clear. Does anyone else like to--yes, sir.
    Dr. Kaminski. Mr. Chairman, I think the important word here 
really is execution, for us to begin to get on with the 
implementation of this program and with the kind of foundation 
plan that I have put in the statement for the record I think it 
is a way to actually achieve this, to get on with the program 
and to also build the personnel skills that are going to be 
needed for this kind of key development. And that ought to be 
highlighted to an incoming President.
    Chairman Gordon. Mr. Scovel.
    Mr. Scovel. Thank you, Mr. Chairman. Let me, there have 
been general comments. Let me highlight one specific 
observation for the Committee's consideration.
    And that is keeping in mind your jurisdiction over NASA. As 
the Committee well knows, NASA has reduced its funding for JPDO 
and NextGen and has chosen to focus more on fundamental 
research than on its customary role in the past of not only 
research but also developing prototypes which it could hand up 
to the FAA when they were appropriately ready.
    Our office in conjunction with the NASA IG has undertaken a 
study of specific areas where NASA has made reductions in 
funding, has cut back to fundamental research. It may well be 
wise for this committee, if I may suggest, that you consider 
recommending to the President that NASA receives sufficient 
funding to not only conduct its fundamental research but to 
bring prototypes to FAA so that NextGen can get that added 
boost.
    Chairman Gordon. We have put that in our authorization, 
unfortunately, we have seen across-the-board reductions in 
aeronautics research.
    Ms. Cox, do you want to finish up on this one?
    Ms. Cox. Yes. Thank you. The FAA would also welcome the 
national attention and the focus on NextGen. We have quite a 
few plans underway, and we are, as you can see from my 
testimony, we have made some great progress that we would like 
to see continue.
    Our budget request for '09, and beyond represents 
significant increases over past years, and we think that it is 
important to continue to support the program in a carefully-
aligned and consistent way. And so we would ask for that. Thank 
you.
    Chairman Gordon. Thank you. We are on a timeline, so let me 
just try to quickly get through one more question.
    I have a variety of other questions, particularly for Ms. 
Cox that I am going to submit for the record and but let me 
just finish up here.

                           FAA Reorganization

    Dr. Dillingham, as you have pointed out, provisions were 
included in the House-passed FAA Authorization Bill to 
strengthen the JPDO by having its director report directly to 
the FAA Administrator. In addition, I am responding to a 
request for the record from the Aviation Subcommittee Chairman 
Costello on the extent to which moving JPDO out of the FAA's 
air traffic organization and how it would give the JPDO greater 
visibility and authority. GAO stated, and I quote GAO that, 
``JPDO's dual reporting status hinders its ability to interact 
on an equal footing with ATO and the other partner agencies.'' 
GAO also said, and I quote, ``JPDO must counter the perception 
that it is a proxy for the ATO and as such is not able to act 
as an honest broker.'' And finally, GAO added that it is 
important for JPDO to have some independence from ATO, one 
exchange that, or one change that could, again, to address this 
issue would be to have the JPDO Director report directly to the 
FAA Administrator.
    And Dr. Dillingham, after the FAA's recent reorganization, 
the JPDO Director has two ATO management layers above him 
before he can reach the Administrator. Are you concerned that 
JPDO lacks sufficient independence from ATO as a result of this 
restructure? What would be the potential consequences of the 
lack of independence?
    And Mr. Scovel, from your perspective what is the impact of 
FAA's reorganization on the NextGen development implementation 
effort? And can you elaborate on how you would characterize in 
your statement as friction between the JPDO and ATO?
    Dr. Dillingham. Thank you, Mr. Chairman. You certainly got 
our words correct from the last time we talked. I guess our 
bottom line on this is the jury is still out in terms of how 
this new governance, new organizational structure is going to 
play with the external stakeholders. We, as you correctly said, 
we have said that we believe that a direct report to the 
Administrator was the best arrangement. It was similar to what 
was in the House Reauthorization.
    And the reason, part of the reason we said that is because 
if JPDO is going to be seen by the partner agencies as an 
objective, independent facilitator of multi-agency activities, 
then it seems to be important that they are on equal footing 
with some of the other parts of FAA and have a direct report 
that it doesn't have to go through.
    We, when we talked to FAA to about this, one of the 
concerns, and we have talked to Chairman Costello about the 
same things and we didn't get the sense that the stakeholders 
had been allowed to comment on this, that it was more presented 
to them as a fait accompli. FAA has since told us that the 
internal stakeholders within FAA are supportive of this new 
arrangement, and we suggested that they go and talk to the 
external stakeholders and see if they are feeling the same way.
    And, you know, I guess one of the big things and something 
that you mentioned, Mr. Chairman, is when these major 
reorganizations take place, it seems that Congressional 
consultation should be a part of that as well.
    Chairman Gordon. Chairman Costello is itching to follow up 
on this, and he will have his chance here in just a moment.
    Let me just, to be brief, and as you said, the jury is out 
on whether this is going to be successful. I would add to that 
that the burden of proof is on the FAA to determine that this 
change of operation is successful when it is against most all 
the advice.
    I would like to go further, but I can't. I now recognize 
Mr. Hall for five minutes.
    Mr. Hall. If Mr. Costello has a problem with staying, I 
will yield some of my time to you now.
    Chairman Gordon. I think his problem is sitting still in 
his seat.

                            NextGen Funding

    Mr. Hall. Okay. Well, my first question will be to Ms. Cox, 
and you know, this is the time of year we go to hearing about 
CRs and at the end of every session CRs are pitched around, and 
I guess if the people, the voters ever really realized and 
understand what a CR is, that they are going to empty the 
capital of everybody, Republicans and Democrats up here that 
yield to the use of CRs. CRs to me is simply saying we are 
going to do next year what we did last year because we can't 
get together this year. And it narrows right down to that.
    But, Ms. Cox, I wanted to ask you if FAA is funded through 
a continuing resolution for all of the FY '09, what impact 
would it have on NextGen and the JPDO? You know what this year 
and what last year did.
    Ms. Cox. Correct. Our interest is in maintaining a 
continuous funding stream for NextGen so that we can continue 
the plans that we have in place. We are concerned about a CR, a 
year-long CR is particularly concerning in terms of our ability 
to carry out our plans that we have laid for NextGen and the 
requirements.
    We are sufficiently aligned to make use of the funding in a 
prompt manner as it comes on board. A concern is, as I 
mentioned earlier, we have a rather large increase in our 
budget request for fiscal year '09, that we need to get this 
rolling. So the language around the CR will be important to us 
as we move forward.
    Mr. Hall. And I thank you for that.
    Dr. Dillingham or Mr. Scovel, how would you assess OMB's 
record up to this time of coordinating and aligning research 
budgets among participating federal agencies, and how has OMB 
been effective, if they have been effective? And a lot of times 
we question their effectiveness. A lot of times.
    Dr. Dillingham. Mr. Hall, I think that in this case the 
efforts have been noteworthy. Early on because this is a multi-
agency enterprise, the idea of working together and ensuring 
that resources that are aimed for NextGen are, in fact, 
considered as a portfolio in OMB's consideration I think is a 
step forward that JPDO and FAA has been able to achieve. It is 
very hard to, or at least historically it has been very 
difficult to marshal cross-agency projects, particularly when 
you are talking about five or six different Cabinet-level 
organizations.
    Mr. Hall. Thank you. And Mr. Scovel.
    Mr. Scovel. Thank you, Mr. Hall.
    Mr. Hall. Your opinion on that.
    Mr. Scovel. Yes, if I may. Thank you. My statement, sir, 
speaks to disconnects between FAA and other agencies which 
might well be remedied through greater OMB attention to FAA's 
NextGen effort. Specifically, I have mentioned earlier between 
FAA and NASA and the fundamental research question. Our 
statement also speaks to the disconnect between FAA and DOD and 
DHS on surveillance efforts between FAA and DOD on Net Centric 
Operations efforts and most tellingly I think and the clearest 
example of all of this is between FAA and the Department of 
Commerce and specifically NOAA on the weather capabilities 
question, the so-called 4-D Weather Cube. There is a great 
difference between the budget request that Department of 
Commerce has submitted for NOAA to coordinate weather and what 
FAA on the other hand expects, and it requires some great 
attention and resolution at the OMB level.

                The Development of Alternative Jet Fuels

    Mr. Hall. I thank you for that. Dr. Waitz, there is a lot 
of talk today about coal to liquid and a lot of questions and 
differences on drilling and when we drill and why don't we 
drill and all that.
    You suggest that aviation's impact on the climate might be 
reduced through the development of alternative jet fuels. I 
think such as coal to liquid. What other types of fuels are 
under study, and I guess more importantly than that, including 
production and distribution, will they produce substantially 
less carbon than the conventional petroleum-based fuels? And 
will they have a similar carbon footprint, and any estimates on 
costs compared to petroleum-based fuels?
    Dr. Waitz. You have identified all of the right issues. The 
production of fuels from alternative sources is something that 
we know how to do. Coal to liquid is only a good solution for 
the environment if we can find a way to sequester the CO<INF>2</INF> 
as part of that, and that is a huge grand challenge.
    Mr. Hall. We have more coal than any--more usable coal I am 
told than any other nation in the world.
    Dr. Waitz. Understood. That tends to increase the 
production of CO<INF>2</INF> rather than decrease it on going 
coal to liquid. I think the most promising things to look to 
are bio sources, particularly those that do not compete with, 
you know, food crops and things, because there can be some 
friction between the two. I expect that there would be very 
limited amounts of resources for doing that to make significant 
changes, at least initially, but there is also a very healthy 
research enterprise that is looking at that topic, and it is 
one of the, you know, things that we have to pay a lot of 
attention to because if we could solve that problem and really 
produce fuels from bio sources that had no net CO<INF>2</INF> 
impact, it would change the equation. So it is an important 
thing to pursue.
    Mr. Hall. My time is up or I would ask you about the cost 
estimates, but I will get back to that.
    Chairman Gordon. You can submit any questions for the 
record, Mr. Hall.
    And really, the Congressional leader in, concerning 
FutureGen is, well, FutureGen and NextGen, is Congressman 
Costello. Chairman Costello, and he is recognized for five 
minutes.

                      General Comments on NextGen

    Mr. Costello. Mr. Chairman, thank you, and I thank you for 
your kind words in your opening statements, and I thank Mr. 
Hall for offering to yield to me as well.
    You know, we could get into a lot of issues here concerning 
NextGen, but we have limited time. Let me say that it is an 
important project. Everyone recognizes that, all of the 
stakeholders. This is a huge project for the FAA to handle. 
Frankly, we need to move from a radar-based system to satellite 
technology that will increase the safety and efficiency and 
environmental capacity of our Air Transport System.
    But I have to tell you, and I have said this at the T&I 
Committee, I have said it in briefings, I have said it in round 
tables, I have said it in meetings with Ms. Cox and many others 
from the FAA. I really question if the FAA has the capability 
and the capacity to manage a project of this magnitude. And I 
say that for the record with Members of the Science Committee.
    I want to clarify a point as well, and Members should 
understand, I think Members of the T&I Committee, certainly the 
Aviation Subcommittee understand, the restructuring of how the 
acting Administrator handled the restructuring of JPDO within 
the FAA, I still have questions as to if it is the most 
efficient way to go about and prioritize and to make NextGen a 
real priority within FAA.
    You know, we held a number of hearings, a lot of meetings, 
a lot of round-table discussions not only with the FAA but also 
all of the stakeholders. The people in the end will have to run 
the system, the people in the end who will be affected by the 
system and the airlines, general aviation, many others. And we 
came up with what I thought was a very good bill in the H.R. 
2881, which passed the Committee unanimously, both 
Subcommittee, Full Committee, and passed through the House of 
Representatives.
    And one of the things that we did in that bill was to 
elevate the head of the JPDO and to have that person report 
directly to the FAA Administrator, and we did it not based upon 
what we thought was best but based upon what all of the 
stakeholders thought was best, including, I don't want to speak 
for Dr. Dillingham and the IG, but others, with all of their 
input we felt that if we are going to get this major project 
done, that the JPDO person had to report directly to the FAA 
Administrator.
    Not only did that not happen, after the bill passed the 
House on September 20 of 2007, there was a restructuring within 
FAA that we found out about by reading it in the newspaper as 
Members of this committee did. We were not consulted, either 
the Majority or the Minority in the Aviation Subcommittee or 
the Full Committee.
    And when we had a meeting to determine why the FAA would 
move in this direction, which is contrary to what the 
stakeholders told us was the best system to move to and what 
the will of the House was by voting for H.R. 2881, we were told 
that they thought internally that this was the best way to move 
forward. At that meeting I must tell you the head of the JPDO, 
who is sitting right here in the front row, Mr. Leader, I asked 
him the question, I said, were you consulted about this? You 
are the head of the JPDO, and he said, no. No one talked to me 
about it.
    So I asked Mr. Krakowski, who is now the head of the Air 
Traffic Organization, I said, you didn't consult with the head 
of JPDO to find out what their input would be, how it would 
affect them, what they thought? No. And I said, why not? He 
said, because Mr. Leader was out of town. And I said, so, how 
long was he out of town, and he said, for the last week. I 
asked Mr. Leader. He said I was out of town for the last week. 
So I said, so you put all of this reorganization together in 
five working days? Well, no, they had been working on it for a 
few months.
    And it is one of the problems that we are facing, not only 
with NextGen but with a number of other problems and issues 
within the FAA. They have a long record of not consulting with 
stakeholders, people who run the system, people who, in fact, 
are affected by the system.
    So I wanted to clarify that. It is not a question for Ms. 
Cox. She is not the person who made those decisions, but I want 
to tell you that I think it was a major mistake the way that it 
was restructured, and I believe that if, in fact, we are going 
to get this job done, to go to a satellite-based system, that 
the JPDO head should be reporting directly to the FAA 
Administrator. I think all of the stakeholders would tell you 
that. They told us that, and that is the reason that we put it 
in the reauthorization bill.
    I am pleased on a positive note that as Dr. Dillingham 
indicated that for the longest time the FAA, they were moving 
forward, putting NextGen together without consulting the air 
traffic controllers and others who in the end will have to run 
the system. It was a recommendation by I think Dr. Dillingham 
and General Scovel, it was a recommendation certainly of the 
Subcommittee, and finally, they are now consulting with some of 
the stakeholders.
    But I have to tell you that we have a lot of questions 
about where we go from here, questions about the agency's 
ability to undertake a project of this magnitude. You are 
talking about a project that the estimates run all the way up 
to $20, $25 billion to implement between now and the year 2025. 
The IG back in April of this year said to the FAA, you have 
long-term goals. We know where you are today, we know where you 
want to be in 2025, but what are your short-term goals and give 
us some reports as to where we are today. Give us a gap 
analysis, give us an interim architecture, and that was the 
IG's recommendation.
    So we had at a meeting yesterday very briefly with Ms. Cox, 
and she tells me that both the gap analysis and interim 
architecture should be done by the end of the year.
    But I have major concerns about how we are headed. I think 
that we have to provide very aggressive oversight, both this 
committee and the Aviation Subcommittee, in order to not only 
make certain that the project stays on track but that we 
monitor it in a proper way and not from the standpoint of is it 
on track, is it moving to the goal that we want to achieve. But 
also the cost.
    This project has been going on for many, many years, not 
only under this Administration but previous Administrations. A 
lot of time and billions of dollars have been spent on this 
project, and we have very few results to show for it.
    So it is my hope that this Full Committee as well as the 
T&I Committee will continue to provide aggressive oversight and 
to work with the FAA on NextGen.
    And with that, Mr. Chairman, I know I exceeded my time. 
Thank you.
    Chairman Gordon. Thank you, Mr. Costello. I certainly 
concur with you. And Dr. Gingrey is recognized.
    Mr. Gingrey. Mr. Chairman, thank you. I will address my 
question to Ms. Cox.
    In your written testimony you raise I think two very 
interesting points, and I would like to explore those with the 
Committee. First, you testified that NextGen is not simply 
about air traffic capabilities but also about fostering 
improvements in ground infrastructure, aircraft technologies, 
and most importantly I think, alternative fuels. And then later 
on you note that the airline industry sees about 40 percent of 
its overall costs spent on fuel. Maybe it is more than that 
now, growing all the time, and the FAA, of course, has taken a 
very active role in Commercial Aviation Alternative Fuels 
Initiative, which includes testing on both coal to liquid fuels 
and gas to liquid fuels.
    Our Ranking Member Hall, of course, discussed that a little 
bit with Dr. Waitz in regard to coal to liquid technology. And 
saying that, I find it troubling that this Congress seems to 
handcuff these efforts with a section in the Energy 
Independence and Security Act of 2007, which was passed last 
year, and I am referencing, Ms. Cox, Section 526. I am sure you 
are familiar with that section, but it explicitly prevents the 
Federal Government, any agency actually, any agency of the 
Federal Government, including, Dr. Waitz, the Department of 
Defense and within the Department of Defense the United States 
Air Force, which is using most of the fuel in our air fleet.
    But this section prevents any agency of the Federal 
Government from contracting for the purchase of any alternative 
fuel if it results in one scintilla increase in the carbon 
dioxide footprint. Dr. Waitz has great concerns about that, and 
it seems to me in his testimony to be sympathetic with maybe 
the EU's approach to climate change and the Kyoto Protocol and 
that sort of approach.
    It seems to me that that kind of policy is misguided 
especially when we are on a time of great dependency, great 
dependency on other countries for our fuel. And that it, indeed 
would stymie the efforts of the FAA in undertaking with NextGen 
and developing alternative fuels. And so to that end let me ask 
you two specific questions. First, because of these high fuels 
costs can you provide the Committee with the progress of 
testing coal to liquid fuels within its role in NextGen?
    And the second question I have for you is this. Please 
answer this one yes or no if you will. If the Federal 
Government is supposed to take the lead on alternative fuels, 
then isn't Section 526 of the Energy Independence and Security 
Act of 2007, a roadblock to innovation for NextGen? And if 
there is time remaining, I would like to ask maybe Dr. Waitz to 
comment on that as well.
    Ms. Cox. Thank you for the question. In terms of progress 
in alternative fuels, the FAA continues its investment in the 
program through the CAAFI work that we are doing that Dr. Waitz 
referenced. I would defer to his superior knowledge on the 
progress of testing in the coal to liquid fuels. I am not an 
expert in that area, and I know that Dr. Waitz is the expert in 
that area.
    We remain committed to finding an alternative fuel that 
does reduce the carbon footprint, and to that end we have 
increased our investment overall in the environment with our 
R&D budget by a great deal between '08, and '09. Over our 
environmental investment has gone up 135 percent, and of the 
total R&D budget our investment in the environment is a full, a 
little over 10 percent of our entire R&D budget, which this 
committee is very familiar with.
    So we remain committed to--and we are encouraged by the 
progress that is being made, and in fact, we think that 526 
sets a bar that we probably need to meet in terms of carbon 
dioxide. But, again, I defer to----
    Mr. Gingrey. Well, let me just say this, and I know my time 
is limited and maybe won't get back to Dr. Waitz and maybe we 
can in a second round. But when you tell the agency, the 
Federal Government, particularly the Department of Defense that 
don't bother to contract for any alternative fuels other than 
conventional bubble-up petroleum jet fuel, that they are not 
going to be able to use it, so that certainly puts a damper on 
their enthusiasm for conducting the research on things like 
coal to liquid, carbon sequestration as Dr. Waitz said. That is 
the very research that we are trying to do within NASA and 
Department of Defense. And it is just counterproductive.
    So I see my time has expired, Mr. Chairman. I, maybe I will 
have some time in the second round.
    Chairman Gordon. Thank you, Dr. Gingrey. I do have some 
good news for you. In that same act that you pointed out, this 
committee put in that Energy Bill an extensive program on 
carbon capture and sequestration, which is the basis for any 
type of coal to liquid or anything else as Dr. Waitz pointed 
out.
    So the first step is being taken. You can't do the second 
until you get the carbon sequestration. This Committee played a 
big role in that program.
    Ms. Edwards, you are recognized.
    Ms. Edwards. Thank you, Mr. Chairman.

                  NextGen Budget and Education Issues

    Dr. Kaminski, in your testimony you advocated securing 
systems acquisition, systems engineering, and integrated 
management talent at FAA and other agencies as part of 
accelerating NextGen. And so I am really curious given today's 
competitive environment, competing needs at other agencies, 
what you think the FAA can do to distinguish itself and 
particularly looking, and then to Ms. Cox, looking at the 
budget allocations for projections for the current fiscal year 
and the out years, a doubling and then a tripling of the budget 
for NextGen and what the plans really are within the FAA to be 
able to both acquire the talent in house that it needs to 
oversee this kind of project, and you know, where the plans 
might be, particularly Dr. Kaminski, for reaching that kind of 
talent, given the competition from other agencies and even in 
the private sector.
    Dr. Kaminski. That is a very good and important question, 
and when we look at the funding that the country is going spend 
for this program over a 20-year period, my estimate would be 
something approaching $100 billion when we start to look at all 
of our equipage issues, including the private sector 
investments that will be made in a corresponding way.
    So this is a big deal. This is a big and important and 
large, complicated program. And to get to your question to 
training the people, what I proposed in the briefing that I 
submitted for the record, is an approach that involves building 
a little, testing a little, developing, modeling, and 
simulation tools to be able to predict how this system will 
work.
    Those are going to be a very important foundation for us to 
have as we look at new capabilities over time. We also have the 
problem of what I would describe as changing the tire on the 
car that is going 60 miles an hour, because we are going to 
have to implement these improvements as we are moving along, 
having modeling and simulation that we validated by 
demonstrations is going to be very critical for us to be able 
to do that.
    The modeling and simulation and the demonstrations that I 
propose also are a superb training ground for people to gain 
some domain experience in what is going on. Education is 
required, but domain experience is also required in this 
process.
    So it is going to be very important for us to build that 
base. I do not believe that entire base is present today at the 
FAA. I think the FAA is planning to try to build that base, but 
it will be a challenge.
    And then to your last question, one of the incentives to 
attract people to this kind of activity, I don't believe they 
are only going to be financial incentives. In my experience in 
the DOD what I have found is that it is possible to attract 
best and brightest people to government and to industry and 
this kind of activity, but keeping them depends upon providing 
them with real challenges, providing them with the tools to 
address those challenges, and most importantly allowing them to 
see that they can make a difference, that they can change the 
world, they can change the infrastructure of our country in 
important ways. That is the fundamental attractor.
    Ms. Edwards. Well, it certainly has to be interesting work, 
and then Ms. Cox, can you address the budget concerns? Because 
I am just, I think that kind of growth is really significant, 
and I am not really sure what you have in house to manage that 
kind of growth.
    Ms. Cox. Yeah. Thank you for the question. It is a very 
good one. In response to the systems engineering issue, I can 
say that we are growing some of that talent in house. Fifty-
seven employees in the air traffic organization have received 
certificates in graduate systems engineering disciplines, and 
we have 60 employees who are currently enrolled in certificate 
programs in systems engineering. So we gain some in that way.
    We are concerned about systems engineering and other 
technical skills such as information technology specialists, 
automation specialists that we will need going forward to 
support the level of work that you point out that we have. We 
have hired within the NextGen and operations planning 
organization over the past year 78 new employees, most of whom 
came from outside the FAA. One way we attract people is as Dr. 
Kaminski has pointed out through the very, this is a very 
exciting program. This is a real opportunity to make a 
difference, and I think that is very attractive to folks, 
especially recent graduates just entering the workplace, and 
that is a group that we do want to attract.
    We believe that we are going to need to hire on the level 
of 300 more in-house professionals in addition to the 
assistance that we can get through external sources such as 
federally funded research and development corporations and 
other external opportunities to bring people on board.
    And we are working closely with our human resources 
organization to be sure that they have the resources on hand to 
help us recruit and bring in those people. And as Dr. Kaminski 
points out, the methods to retain the people once we get them.
    Chairman Gordon. Thank you, Ms. Edwards and Ms. Cox.
    Dr. Ehlers, you are recognized.
    Mr. Ehlers. Thank you, Mr. Chairman. I think I have spent 
entirely too much time with some of you in the past two days, 
but I enjoyed it.

                               FAA Hiring

    Ms. Cox, continuing with some of this discussion, I voiced 
yesterday in one of the two meetings we had my concern about 
NASA involvement and that they don't seem to have the funding 
or the personnel to do it. Now, you are taking on more and 
greater research and development responsibilities as a result, 
aren't you, in the FAA? And your last comment about the number 
of people you are adding, is that to fill that gap? Is it 
specifically directed to what NASA might ordinarily have done, 
or are there other factors here as well?
    And I am also wondering if you have the flexibility you 
need to do the hiring? I know how convoluted hiring practices 
can become in the Federal Government. Obviously you need these 
people fairly quickly, and I am wondering if you are having any 
difficulties with that and whether you will be able to find the 
mix of skills that you need in the time that you need them.
    Would you just give me some idea on that?
    Ms. Cox. Well, as we pointed out, we do need people to help 
us manage the work that the budget request reflects that we 
will need to be doing to achieve NextGen. So the hiring is 
around that, and that includes the additional R&D work that we 
anticipate doing to support NextGen. We have been working 
closely with the human resources organization at the FAA to 
address this issue of the difficulty of bringing people on 
board.
    We had pretty good success. Seventy-eight people in just 
our organization in the course of a year, most of them coming 
from outside, is a pretty good record for the Federal 
Government in hiring. The FAA, as you know, has some 
flexibilities in that area that we are looking at how to 
utilize and take best advantage of.
    I am not sure that we have always taken best advantage of 
those efforts in the past, but we are looking at, we have lots 
of room for innovation and moving ahead. So we hope to do that.
    Mr. Ehlers. Well, if I lose my election, I may be applying 
as well.

                         Gap Analysis Findings

    Also, the gap analysis that you mentioned. You stated that 
JPDO completed a gap analysis. Could you expand just a little 
bit on the findings? What areas need focus, how will you handle 
it, how will the partner agencies handle it?
    Just if you can give me sort of an overall picture of what 
the gap analysis revealed and how you are going to handle it.
    Ms. Cox. Well, the gap analysis was an effort by the Joint 
Planning and Development Office, and they work closely with 
MITRE to assess what was in the Integrated Work Plan and what 
is in the plans of the partner agencies of JPDO. They found 
seven critical areas that they believe require additional 
focus. Those include the environment, and we have had quite a 
bit of conversation about those issues today. Security risk 
management is another area. Validation and verification of 
complex systems. You know, we are introducing something kind of 
new and different with this, and it is a very complex 
undertaking. Validation and verification of what we are doing 
is going to be extremely important. Then they looked at some 
air traffic issues that go to kind of specific areas.
    One is closely spaced parallel runways. Ten of the 35 OEP 
airports have closely-spaced parallel runways, and we need to 
get greater capacity out of those. So that was another key area 
that they identified.
    How to integrate arrival and departure traffic with surface 
traffic was another area that they identified, and also this 
issue of air to ground functional allocation. What is the role 
of the pilot, what is the role of the controller in the NextGen 
environment? That needs more work to be addressed, particularly 
with the human factors issues that are involved with that.
    And finally, the JPDO or the NextGen Enterprise 
Architecture, the Enterprise Architecture that rolls up the 
work of all the individual partner agencies into a single 
architecture for NextGen, the validation of that and developing 
a business case around that was another issue.
    Obviously, the air traffic issues fall under the province 
of the FAA and NASA in terms of some of those it required the, 
some research and development to move us forward. DHS with 
security risk management and the JPDO with the Enterprise 
architecture issue.
    Chairman Gordon. Thank you, Ms. Cox, and----
    Mr. Ehlers. May I just make a comment?
    Chairman Gordon. Okay. Yes.
    Mr. Ehlers. I just want to say I have been very, very 
concerned about the entire NextGen Project, and I wasn't sure 
that we were going to, that you and we were going to be able to 
pull it off in a timely fashion at a reasonable cost. I must 
say I am pleased with the progress made, and I am starting to 
feel much better about the project now, and I am addressing 
that not just to Ms. Cox but to all of you.
    I think you are making substantial progress in the right 
direction. I still have a lot of concerns but I would be crazy 
if I didn't have concerns about a project of this magnitude.
    Thank you for the work that you are doing.
    Chairman Gordon. Thank you, Dr. Ehlers. You know, there has 
been a lot of discussion about costs, so I think it is 
appropriate that we talk to an appropriator here and so Mr. 
Rothman, let me just say, again, there is a 9/11 memorial 
getting ready to start, and so Mr. Rothman will be our last 
witness. Our other--our last Member to ask questions. Any other 
Members that have questions they can be submitted for the 
record.
    Mr. Rothman. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing. I want to, I am speaking quickly. 
I have five minutes. I want to acknowledge and express my 
appreciation to the panel for their expertise and for their 
service to our country. You have distinguished careers, each 
and every one of you.
    I want to say a couple of things real fast. It was noted 
that air traffic controllers are being a part of the NextGen, 
and that is a great thing. Please keep that up. If there, in 
fact, is a need for more input from safety technicians, I hope 
the people responsible will address that.
    I also would hope that citizens groups who are involved in 
quality of life issues and noise in particular, but also 
emissions over their homes and their barbecue grills will also 
be consulted as NextGen is developed.
    One other pet peeve, wondering why small trainers or 
propeller planes are still permitted to fly over densely-
crowded populated areas. I don't think we are allowed to bring 
horses and buggies into, through tunnels and bridges into the 
major density populated areas of a country. So I don't think--I 
think these trainers and small prop planes should be prohibited 
from flying over densely-populated areas.
    So I hope that those who will have jurisdiction over that 
area will address it.

                       Overcrowding of the Skies

    But here is the point I or the question I want you, the 
panel, to consider. I would like to hear first from Dr. Waitz, 
but I would be interested in everyone's views assuming there is 
time. And I am very grateful that you are working on noise 
issues and emissions issue. It is really important, and as Dr. 
Waitz said, that is a limiting factor on expansion of airports 
but beyond that it has to do with the lives of five million 
people, and I think that number is rather low.
    So thank you, keep that up, and I will be paying attention.
    Let us assume that we make a quiet airplane, perfectly 
silent, and God willing that will happen some day. How do we 
feel about the sky over our head being filled with aircraft? 
You know those pictures of World War II, the bombing of Dresden 
and the sky filled with aircraft. Now, granted, I understand 
that the effort is to have the planes fly higher and so all of 
that, but let us reduce it to the extreme or the absurd if you 
will. To find out the nature of your thinking, do we want a 
society or a world where our skies are completely filled with 
aircraft, even if they are silent and there is no dangerous 
emissions coming from them?
    Dr. Waitz. I remember the first airplane my dad bought me 
when I was four. So you are asking the wrong person. Blue with 
yellow wings. I look up every time I see one. I think it is 
just an important part of providing, you know, goods and 
services and movement of people. And the sky is not so filled 
with airplanes when you look at how much sky there is.
    Mr. Rothman. Where do you live, Dr. Waitz?
    Dr. Waitz. I live in Boston. Yeah. So, no, my feeling is 
that, you know, airplanes are an important part of our modern 
life, and I value them.
    Mr. Rothman. Anyone else have any comments?
    Dr. Dillingham. Mr. Rothman, I think that there is a 
recognition of the concern about a situation that you 
described, and to address that there is also initiatives or 
thinking about an intermodal approach to transportation. So, 
you know, your concerns are widely shared, and there is, there 
are efforts about to do something about them.
    Mr. Rothman. Great. I just can say that there will be 
resistance to filling the sky with planes.
    Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Rothman. Although Mr. Hall 
wanted me to point out that in Texas you can bring horses and 
buggies in on the roads and into the bridges, again, thanks to 
our witnesses. I am sorry we had to be somewhat abbreviated 
today. I know I have some and I think other Members will have 
some additional questions for you, and I would like to now pass 
the gavel to Mr. Hall to adjourn us for this session of 
Congress.
    We are adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Victoria Cox, Senior Vice President for NextGen and 
        Operations Planning, Air Traffic Organization, Federal Aviation 
        Administration

Questions submitted by Chairman Bart Gordon

Q1.  Automatic Dependent Surveillance Broadcast (ADS-B) is intended to 
be a cornerstone of the NextGen system. However, I understand that FAA 
received strong criticism in response to its proposed ADS-B rule-making 
for user equipage. Users expressed concern that mandating equipment on 
board aircraft would provide only the ADS-B ``out'' service, where 
signals transmitted would be used primarily by the air traffic control 
system to get new data on aircraft positions. Some operators viewed the 
mandated ADS-B ``out'' equipage as providing them with little or not 
benefit, either operationally or financially. While FAA no doubt will 
benefit from ADS-B, push back from the intended users shows that they 
have yet to be persuaded.

Q1a.  What commitments, such as a reduction in delays or lower fuel 
consumption, could FAA make to convince users of the positive benefits 
of equipping with ADS-B ``out''?

A1a. The following table summarizes the benefits for the Air Transport 
community (note: ADS-B `Out' benefits are highlighted in yellow, ADS-B 
`In' benefits are highlighted in green, and both `In'/`Out' benefits 
are highlighted in orange):

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The following table summarizes the benefits for the General 
Aviation community (note: ADS-B `Out' benefits are highlighted in 
yellow, ADS-B `In' benefits are highlighted in green, and both `In'/
`Out' benefits are highlighted in orange):

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Reduction in delays or lower fuel consumption:
    United Parcel Service (UPS) has been an early adopter of ADS-B 
technology; they have equipped some of their aircraft and have seen 
both increased efficiency and lower fuel burn in their operations. For 
example, they have seen a 30 percent reduction in noise, a 34 percent 
reduction in nitrous oxide emissions and 250 to 465 pounds less fuel 
burn per flight.
    Additionally, the agency is working to develop performance routes 
in the National Airspace System (NAS) for ADS-B equipped aircraft. This 
would enable direct routing which translates into increased efficiency 
for the airline/aircraft operations. By providing these routes it would 
also lower fuel burn since the aircraft would be flying at optimal 
altitudes and optimal routes.

Q1b.  When will ADS-B ``in'' become available, especially given its 
potential for helping prevent runway incursions?

A1b. ADS-B is available today and the FAA is encouraging users to equip 
by providing ADS-B in applications such as advisory services. The FAA 
is currently providing Traffic Information Service--Broadcast (TIS-B) 
and Flight Information Service--Broadcast (FIS-B) to ADS-B equipped 
aircraft in Southern Florida. TIS-B will show pilots the same display 
of air traffic that controllers see. The FIS-B products will provide 
graphical displays of National Weather Service products and essential 
flight information, such as special-use airspace and temporary flight 
restrictions. TIS-B and FIS-B are a part of the service that supports 
ADS-B `In.'
    As a part of segment one deployment the FAA will be providing these 
services (TIS-B and FIS-B) along the east and west coasts, and portions 
of the mid-west by 2010. As for segment two, the plans are to provide 
the same services everywhere there is radar coverage today by 2013.

Q1c.  What specifically is FAA doing to accelerate transition to early 
equipage of ADS-B? When could we see the job completed?

A1c. The FAA has been working with Industry through the ADS-B Aviation 
Rule-making Committee (ARC) to accelerate early equipage of ADS-B. 
Specifically, two of the ARC recommendations focus on benefits/
equipage:

        <bullet>  Recommendation #9: Leverage the benefits of ADS-B 
        information to incentivize equipage by establishing agreements 
        with specific operators.

        <bullet>  Recommendation #10: Continue to establish agreements 
        with local and State governments to leverage the benefits of 
        ADS-B

    Since that time, the FAA has held the following meetings to 
determine potential incentive mechanisms to include in potential 
agreements:

        <bullet>  January 2008: NetJets, American Airlines, FedEx

        <bullet>  April 2008: Continental Airlines, DayJet, Wisconsin 
        Department of Transportation, Minnesota Department of 
        Transportation

        <bullet>  May 2008: DayJet Follow-up

        <bullet>  June 2008: Follow-up with American Airlines, 
        California Department of Transportation

        <bullet>  July 2008: Additional Follow-up with American 
        Airlines, United Airlines

        <bullet>  October 2008: USAirways

    The following table incorporates the feedback from these meetings 
to show what may incentivize users to equip early.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  The terrible events of September 11, 2001 remind us of the 
potential consequences of the malicious misuse of the Nation's aviation 
system. As you know, by using ADS-B, NextGen will be able to monitor 
the precise location of aircraft in the national airspace, but only if 
those aircraft cooperate and emit the needed signal.

Q2a.  In the NextGen era, will there be a continuing need for DOD and 
DHS to maintain radar surveillance to guard against a situation where a 
terrorist-operated aircraft does not transmit ADS-B signals so that it 
can fly unobserved?

A2a. The surveillance requirements for the national air transportation 
system are continuing to evolve. While ADS-B will offer considerable 
benefits in terms of system operations there are additional security 
and national defense concerns that require consideration. The 
Department of Homeland Security (DHS) and the Department of Defense 
(DOD) have both expressed the need for continued primary, non-
cooperative radar capabilities.

Q2b.  If so, have the FAA and other agencies determined how that radar 
surveillance capability will be provided? How will it be provided?

A2b. Successfully addressing this issue requires a multi-agency 
perspective. In its cross-agency coordination role NextGen's Joint 
Planning and Development Office (JPDO) has established a joint 
Interagency Surveillance Study Team (ISST) with the DOD, the DHS, the 
Department of Transportation, the Federal Aviation Administration, and 
the Department of Commerce to address the issue.

Q2c.  What requirements are DOD and DHS levying on the NextGen system 
for radar surveillance?

A2c. The ISST has recommended the establishment of a formal and 
institutionalized mechanism for the management and ownership of the 
Nation's integrated surveillance capabilities. Under this approach 
future national aviation surveillance information requirements can be 
analyzed holistically. This comprehensive approach will ensure that the 
responsibilities and requirements of key stakeholders are addressed.
    These proposals have been presented to the JPDO's Board of 
Directors and will shortly be considered by the NextGen Senior Policy 
Council.

Q3.  A few weeks ago, an internal software processing error in FAA's 
NADIN system grounded hundreds of flights. Evidently an aging back up 
system got overwhelmed and hundreds of planes could not get off the 
ground. In drafting H.R. 2698--legislation authorizing FAA's R&D--this 
committee explicitly singled out the need for contingency plans in 
designing NextGen. Specifically, the Director of JPDO was directed to 
develop contingency plans for dealing with the degradation of the air 
traffic control system in the event of a natural disaster, major 
equipment failure, or act of terrorism.

     In developing NextGen, which is a system of systems, how is the 
need for redundancy and backup capability being addressed?

A3. Business Continuity is a fundamental requirement in NextGen. The 
limitations imposed on our systems, such as computer processing, 
communications over copper phone lines, and old protocols for exchange 
of information, are being removed. Air traffic management, 
communications, navigation, surveillance services are provided in a 
more seamless, flexible fashion than today. Network enabled services 
will provide greater system resilience, and the opportunity to handle 
demand more effectively. The flexibility these systems provide for 
reliability and backup also provide the flexibility to better manage 
weather events and other perturbations to the NAS that cause delays and 
reduce service levels.
    The NextGen transformational programs especially System Wide 
Information Management and NAS Voice Switch, along with FTI, provide 
much of the infrastructure needed to move networked enabled services 
forward. These systems enable the information sharing between 
facilities that is an essential element of NextGen: dramatically 
improving situational awareness, maximizing collaborative planning, and 
minimizing the impacts of weather and system outage on capacity. Air 
traffic services will no longer be directly tied to a legacy, static 
information infrastructure.

Q4.  How is budgetary and program accountability assigned in the new 
ATO restructuring? In other words, who has control over the budget of 
an acquisition such as ADS-B or SWIM that will be critical to the 
success of the NextGen initiative? Who is in charge of those programs?

A4. The Sr. Vice President for NextGen and Operations Planning has 
responsibility for all elements of the NextGen portfolio, including the 
transformational programs (i.e., ADS-B, SWIM, NNEW, Datacomm, and NVS). 
The NextGen Integration and Implementation (I&I) Office, reporting to 
the Sr. Vice President for NextGen and Operations Planning, is 
responsible for developing and managing the FAA NextGen Implementation 
Plan, and the budget that supports it. Individual NextGen programs such 
as ADS-B and SWIM are assigned to program offices as part of the 
investment decision. The individual program offices retain the 
responsibility for meeting program expectations and for managing their 
programs in accordance with timelines and milestones established with 
the I&I Office and the FAA's Acquisition Management System. The Senior 
Vice President for NextGen and Operations Planning is responsible for 
overall management and alignment of all NextGen projects.

Q5.  The DOT OIG recommended earlier this year that FAA develop an 
interim architecture or ``way-point'' that is manageable and executable 
for what is expected in 2015. The OIG report says that FAA concurred 
with this recommendation.

Q5a.  When will such an interim architecture be completed?

A5a. The FAA concurs with the recommendation to develop an interim 
National Airspace System (NAS) architecture that defines a way-point on 
the path to realizing NextGen and the ``To Be'' enterprise 
architecture. The development of an interim architecture and the 
associated requirements will provide a mid-term goal for the 
implementation of key NextGen capabilities that reduces far-term 
schedule risk.
    The annual update of the FAA's NAS Enterprise Architecture Roadmaps 
will be published in January 2009. These architectural updates will be 
reflected in the next version of the FAA's NextGen Implementation Plan, 
which is also scheduled for release in January 2009. These documents 
outline the FAA's activities for implementing near-term and mid-term 
NextGen capabilities into the NAS.
    As part of this year's roadmap updates, several new activities and 
features are being incorporated to enhance the usability and 
effectiveness of the roadmaps and to support the definition of the mid-
term architecture.
    First, we worked with the JPDO to ensure alignment of the 
Operational Improvements between the JPDO's planning documents and the 
FAA's Enterprise Architecture. Each of the Operational Improvements 
were then mapped to functions and projects by phase: near-, mid-, and 
far-term. The results of this mapping activity are being transferred to 
the roadmaps as part of this year's update process. This alignment work 
will allow a more precise definition of the mid-term architecture, 
capabilities and functions, and the associated projects necessary to 
realize the NextGen benefits including the critical capabilities to be 
realized in the mid-term.
    Second, we initiated efforts to integrate key supporting activities 
such as research and development, prototypes and demonstrations, 
international initiatives, and other activities into the EA roadmaps. 
This will provide greater insight into schedule dependencies, policy 
issues, transition readiness criteria and associated risks, and 
identify any gaps between these supporting activities and Agency 
projects and programs that need to be addressed to reduce 
implementation risk for NextGen. We are also ensuring that we fully 
capture all legacy systems in the EA so that we can properly identify 
convergence strategies as we migrate from the current portfolio of 
systems to NextGen.
    Third, new roadmaps are being developed to provide greater 
visibility into key areas of the NextGen mid-term architecture such as 
airspace design and procedures, service oriented architecture, network-
centricity and inter-operability, as well as to identify impacts on 
personnel, security, and safety. These new architecture ``views'' will 
be aligned with existing EA products to provide a more complete 
definition of the mid-term architecture.
    These initiatives taken together will provide the basis for a 
complete definition of the mid-term architecture and enhanced insight 
into the evolution of NAS changes necessary to realize NextGen.

Q5b.  How will it affect the long-term NextGen implementation schedule?

A5b. A more complete definition of the mid-term architecture based on 
the initiatives described in the previous response will enhance our 
ability to accomplish long-term objectives. Therefore, it will 
positively affect the long-term plans for NextGen and reduce far-term 
schedule and implementation risk.
    As previously mentioned, we worked this year to align the 
Operational Improvements between the JPDO's planning documents and the 
FAA's NAS Enterprise Architecture. Early next year, we have plans to 
continue this effort by focusing on the far-term Operational 
Improvements and the associated research activities needed to reduce 
far-term schedule risk. We will continue the efforts initiated this 
year to align R&D activities within the EA roadmaps and look for gaps 
and opportunities to more closely align R&D with project acquisition 
strategies.
    In addition, we have plans over the next several months to 
supplement the existing enterprise architecture with new views that 
will provide greater insight into the ``To Be'' architecture. These 
views will provide additional information and detail into important 
aspects of the architecture needed to reduce long-term implementation 
and schedule risk.

Q5c.  Are you still committed to the release of an updated Integrated 
Work Plan by the end of September 2008?

A5c. This action is complete. The Joint Planning and Development Office 
(JPDO) released The Next Generation Air Transportation System 
Integrated Work Plan: A Functional Outline (Version 1.0) in September 
2008 as planned. The Integrated Work Plan (IWP) provides a tool to 
support the collaborative planning and deliberation needed among 
partners and stakeholders to prioritize needs, establish commitments, 
coordinate efforts, and focus resources on the work needed to achieve 
the Next Generation Air Transportation System (NextGen). The IWP is a 
functional plan that outlines the proposed building blocks towards 
achieving the NextGen vision. NextGen will be realized through the 
research, development, and implementation investments that are funded 
and managed by each NextGen Partner. The JPDO works with all NextGen 
Partners to align their investments towards achieving the overall 
NextGen vision. IWP Version 1.0 conveys the JPDO's current 
understanding of Partner efforts and presents the suggested alignment 
of NextGen planning elements with each Partner's mission areas. It is 
important to note that the IWP is an unconstrained plan and does not 
seek to define prescriptive implementation activities, nor does it 
address priorities of activities at this time. It proposes a path to 
realize the IWP elements but not the specific program steps, resources 
or implementation elements such as facility roll-out, training, or 
decommissioning. The detailed planning for each IWP element is the 
responsibility of the NextGen Partner that has accepted the element as 
part of their overall mission. For more information and to view the IWP 
Version 1.0, visit www.jpdo.gov.

Q6.  I understand that DOD and DHS have failed to identify their 
respective future NextGen-related FY09 budgets to JPDO.

Q6a.  Has this issue been broached at Senior Policy Committee meetings?

A6a. The issue of shared responsibility between the Department of 
Commerce and the FAA for NextGen weather initiatives has been discussed 
at the SPC. The Department of Defense is sharing weather information 
already funded and underway as part of their core program. Joint 
weather programs are by far the most mature of the JPDO's interagency 
collaborations.

Q6b.  Why have these agencies not identified their expected 
contributions?

A6b. The DOD and DHS have both been working with the Joint Planning and 
Development Office to identify their respective NextGen requirements. 
The DOD, with the Air Force as the lead service agency, is now actively 
involved in the development of NextGen. This includes net-centric 
operations development, weather research, and demonstration efforts 
planned for 2009. The Air Force leads the net-centric division at the 
JPDO and will shortly be assigning a senior executive who will be 
responsible for the DOD-wide NextGen initiative. The DOD has provided 
fiscal year 2008 funding in support of the net-centric effort.
    DHS also maintains a full time presence at the JPDO and contributed 
to the ConOps by developing a separate Security Annex. They also 
provided substantial input to the NextGen Integrated Work Plan (Version 
1.0). DHS is also providing funding, along with the FAA and DOD, for 
the Network Based Operations Demonstration. Further, in an effort to 
accelerate its participation in NextGen, DHS is using the Florida area 
(also a site for several FAA airspace related NextGen demonstrations) 
to demonstrate its ``Project 6'' which involves a number of closely 
related evolutionary checkpoint security initiatives. This includes a 
perimeter intrusion detection system, an emergency management 
operations controls system, and unified air cargo tracking. The intent 
of this work, which supports the JPDO goal of a curb-to-gate approach, 
is to expand capabilities to other locations and then throughout the 
United States.

Q6c.  How have their omissions impacted NextGen plans and schedules?

A6c. To date NextGen plans and schedules have not been impacted.

Q7.  Estimated costs for FAA investments needed to reach NextGen's end 
state in 2025 have been identified by the JPDO as being in the range of 
$15 billion to $22 billion. Regarding the cost of equipping aircraft 
with NextGen's avionics, the JPDO said ``the most probable range of 
total avionics costs to system users'' is $14 billion to $20 billion.

Q7a.  How credible are these numbers?

A7a. The $15-$22 billion mentioned in the question was developed 
several years ago by a special JPDO/Industry team. These estimates are 
preliminary and were useful in gauging the initial magnitude of NextGen 
costs. Further, it should be noted that these estimates represented 
capital expenditures and not life cycle costs.

Q7b.  What are the confidence levels associated with these estimates?

A7b. Because of the preliminary nature of both sets of estimates 
confidence levels were not used.

Q7c.  If confidence levels were not used, what was the basis for the 
cost estimate ranges?

A7c. The data relied on broad estimates and approximations based on the 
level of operator participation.

Q7d.  When will these numbers be updated and what confidence levels 
will they have?

A7d. As the requirements, program definition and scope of NextGen have 
continued to evolve, more accurate and comprehensive estimates are 
being developed. The same can be said of the estimates, noted above, 
regarding avionics costs.
    Estimates now under development represent a much more structured 
and verifiable cost estimating process. All known NextGen programs and 
activities are being identified, their costs gathered or developed, 
adjustments, in terms of program maturity are being applied, and then 
the overall data is being evaluated for completeness. There will also 
be sensitivity analysis to account for changes in the aviation 
environment, demand, and funding levels. On this basis, it will be 
possible to apply useful confidence levels to programs with known 
requirements. It should be noted that requirements for many key NextGen 
programs such as Data Communications and System Wide Information 
Management as well as requirements for a common automation platform 
have not been established. This means that a final, highly accurate 
cost estimate will not be available until these programs have fully 
developed requirements.

Q8.  I understand the FAA plans to stand up an integrated test bed of 
NextGen technology near Miami to accelerate NextGen implementation.

A8. Background: We are already utilizing NextGen capabilities that have 
been established in the region such as the ADS-B infrastructure and 
capabilities established by Embry Riddle Aeronautical University and 
its partners. In addition, the test bed will include the use of 
performance-based navigation tools to obtain valuable information that 
will assist FAA in developing additional requirements, standards and 
procedures for operations in the NextGen environment while providing 
immediate benefits to targeted areas. These efforts will focus on 
Florida, the east coast, Texas and the Gulf of Mexico.

Q8a.  Which NextGen R&D initiatives will be accelerated?

A8a. Provided below are the names, descriptions, associated NextGen 
Solution sets and the anticipated benefits for seven programs and 
projects we are demonstrating to accelerate NextGen implementation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q8b.  By how much time will they be accelerated?

A8b. The total time saved will be dependent on the success of these 
NextGen demonstrations (i.e., did the demonstration validate the 
procedure or new technology), and can the procedure or technology be 
successfully inserted in the National Airspace System (NAS) based on 
related legacy technologies, procedures, equipment and automation; and 
the arrival of newer NextGen technologies, procedures, equipment and 
automation. To the extent possible, every effort will be made to 
``bundle'' developmental successes with other implementation efforts.

Q8c.  What user benefits are being achieved earlier?

A8c. The anticipated benefits for the seven NextGen demonstration 
programs and projects are provided above. All of these have been 
accelerated.

Q8d.  How will this translate into faster nationwide implementation?

A8d. The initial NextGen demonstration effort is directed at 
accelerating operational procedures in conjunction with established 
programs as follows:

        <bullet>  Establishing criteria for use of Continuous Descent 
        Arrivals in higher density airports increases the individual 
        development and effective use in a national roll-out

        <bullet>  Traffic Management Advisor (TMA), Conflict Probe, and 
        RNAV/RNP for Tailored Arrival (TA) (also includes future 
        domestic Data Communications) and 3-Dimensional Path Arrival 
        Management (3-D PAM),

        <bullet>  Advanced Technology and Oceanic Procedures (ATOP) for 
        Oceanic Trajectory-Based Operations (TBO) proof of concept 
        demonstration,

        <bullet>  TMA and Enhanced Winds Aloft Product to provide 
        Weather integration into TMA,

        <bullet>  Airport Surveillance Detection Equipment Model-X 
        (ASDE-X) and multi-lateration with Surface Decision Support 
        System (SDSS) development to provide ``Shared Situational 
        Awareness'' and ``Collaborative Decision-Making'' between air 
        navigation service providers (ANSPs) and airline ramp towers, 
        and

        <bullet>  Development and/or leveraging innovative, effective 
        and efficient system-to-system operational architecture with 
        supporting procedures to provide the FAA and its partners with 
        an agile, high connective network for shared situational 
        awareness through the System-Wide Information Management (SWIM) 
        network.

Q9.  Two years ago, following a hearing on the National Academies' 
Decadal Plan for Aeronautics, Dr. Kaminski, in an answer for the 
record, characterized certification of new technologies as a key 
barrier. He said:

         ``As systems become more complex and non-deterministic, 
        methods to certify new technologies become more difficult to 
        validate. Core research in methods and models for assessing the 
        performance of large-scale systems, human interactive systems, 
        and non-deterministic systems, and complex, software-intensive 
        systems, including safety and reliability in all relevant 
        operating conditions, is essential for NASA, because such 
        research is currently beyond the capabilities of regulators 
        such as the FAA.'' He further added that ``Certification issues 
        can be show-stoppers if not addressed early in the R&T 
        process.''

     Do you agree with Dr. Kaminski's concern and if so, what research 
will you have to facilitate future certifications, especially for human 
interactive systems? When will this research begin and when are 
significant results anticipated?

A9. The FAA believes it either has the appropriate standards in place 
or has the appropriate R&D and standards-development activities 
underway to develop the necessary certification standards to support 
the insertion of NextGen technologies over the next ten years. Examples 
include electronic flight bags, ADS-B, Data Communications, enhanced 
flight vision systems, and complex software and digital systems. The 
FAA works closely with industry advisory groups, such as RTCA and 
Aviation Rule-making Committees (ARCs), in developing the new 
standards.
    The FAA also continues to explore longer-term advanced NextGen 
concepts beyond the ten year horizon in partnership with other partner 
agencies, including NASA. As these concepts mature, the FAA will work 
with these agencies to transition the technology into use. These 
transitional activities will include research into the appropriate 
means to certify technologies that extend beyond the bounds of existing 
certification standards.

Q10.  One of the biggest challenges for the FAA in implementing NextGen 
will be to not only add or change technologies, but also change the 
operations of the system.

Q10a.  How will you integrate implementation of these technology 
programs, like ADS-B, and the operations that will take advantage of 
the improved technology?

A10a. The FAA has developed and maintains an updated NAS Enterprise 
Architecture which provides the framework and technical strategy for 
the integration and transition of NextGen capabilities. NextGen 
capabilities are implemented by applying the principles of System 
Engineering both to define the requirements for each system and to 
align implementation schedules across programs.

Q10b.  Who in FAA will be responsible for integrating and meeting the 
schedules for providing these operational capabilities?

A10b. The Sr. Vice President for NextGen and Operations Planning is 
responsible for the integration and implementation of all NextGen 
elements, which are executed by program offices and other organizations 
dispersed throughout the agency. Within NextGen and Operations 
Planning, the NextGen Integration and Implementation (I&I) Office has 
been established to develop and manage the FAA NextGen Implementation 
Plan, and the budget that supports it. Working with the programs and 
other performing organizations, the I&I Office orchestrates the 
execution of major portfolios of work and is responsible for the 
integrated program planning necessary to achieve NextGen capabilities. 
The I&I Office is working across all service units and programs 
necessary to make NextGen successful to ensure all the activities 
needed to realize a capability are aligned, funded, and on track.

Q11.  In the House-passed Reauthorization Bill, specific direction was 
given to FAA to develop a comprehensive plan to safely integrate 
commercial unmanned aircraft systems into the national airspace system. 
Has the JPDO made progress in establishing:

Q11a.  What research needs to be conducted to address the safe 
integration of commercial unmanned aircraft systems into the National 
Airspace System?

A11a. Developing a strategy for the further integration of unmanned 
aircraft systems into the national airspace system will require 
extensive research and analysis before any recommendations can be 
developed.

Q11b.  How acceptable standards for operations and certification of 
commercial unmanned aircraft systems would flow from research?

A11b. The discussion on acceptable standards will require the 
involvement of the agencies that perceive a need for possible UAS 
operations in controlled airspace. The JPDO is engaged in multi-agency 
discussions regarding various collaborative approaches to addressing 
this issue.

Q12.  In the recently completed JPDO comparison of NextGen and its 
European counterpart SESAR, it was noted that:

         ``Probably the most easily recognized difference in the two 
        concepts is the breadth of scope. The NextGen ConOps includes a 
        full `curb-to-curb' approach that includes passenger and 
        intermodal security considerations.''

A12. The recently released NextGen Integrated Work Plan (IWP), Version 
1.0 includes a range of security operational improvements that directly 
address the needs of the ``curb to curb'' concept. The IWP was 
developed with the direct input of all of the JPDO government and 
industry partners to include the Department of Homeland Security.

Q12a.  What are some examples of R&D tasks in the Integrated Work Plan 
that address ``curb-to-curb'' aspects such as security, passenger delay 
at gates, etc.?

A12a. The key operational improvements that directly address ``curb-to-
curb'' needs include integrated passenger screening, credentialing and 
identification as well as enhanced and integrated screening and 
credentialing for airport personnel.

Q12b.  What priority is actually being given to those R&D tasks in 
dollars--or manpower--terms?

A12b. The IWP will continue to evolve to provide DHS, and the airport 
community, as well as other participating agencies, with important 
guidance to assist them in developing their priorities, plans and 
budgets. As for priority, DHS, through the Transportation Security 
Administration, is currently researching and testing, in an operational 
environment, various technologies that will improve passenger screening 
and allow for the integrated flow of data and information in the 
airport environment. The DHS is allocating $128 million in 2009 for the 
testing and deployment of new technology for use in screening airline 
passengers.

Q13.  You indicate in your statement that the Integrated Work Plan 
(IWP) will be ``published this month'' [i.e., September 2008]. That 
said, when will the ``prioritization of elements'' you allude to in 
your statement be completed?

A13. The JPDO Integrated Work Plan (IWP) published in September 2008 
provides initial guidance to NextGen partner agencies on the steps 
necessary to achieve the NextGen vision. It does not address priorities 
of activities.
    Each NextGen partner is responsible for developing detailed plans 
for the implementation and execution of the NextGen needs within their 
respective areas of responsibility and for prioritizing their 
respective tasks. The JPDO has committed to working closely with each 
of its partners to facilitate alignment between the NextGen partner 
plans and the IWP. FAA's near and mid-term plans have been aligned with 
the IWP. The FAA's detailed plans are provided in the NextGen 
Implementation Plan scheduled to be published in January 2009. JPDO 
will not be able to reflect cross-agency prioritization in its IWP 
until all agency detailed NextGen plans are final.

Questions submitted by Representative Ralph M. Hall

Q1a.  With the upcoming change in Administrations, do you foresee 
difficulties maintaining program continuity during the transition?

A1a. Civil aviation is a critical engine for economic growth and 
regardless of the change in Administrations, the inefficiencies of the 
current ground based air traffic control system result in delays that 
already cost operators and consumers billions of dollars each year. We 
believe that the new Administration will proceed with replacing the 
aging air traffic control infrastructure. The industry needs NextGen to 
provide operational, environmental, and safety enhancements that 
deliver benefits to stakeholders today and prepare the way for the 
future. The Congressionally authorized approach to NextGen utilizes a 
multi-agency effort to create and carry out an integrated plan for the 
NextGen system.

Q1b.  Does NextGen have enough traction among its partner agencies to 
maintain momentum in the months ahead?

A1b. There is some concern about remaining under a Continuing 
Resolution for the entire fiscal year since the FAA would be 
essentially operating at Fiscal Year 2008 funding levels. The Fiscal 
Year 2009 President's Budget included a significant increase for 
NextGen over Fiscal Year 2008 levels. This funding is required to keep 
NextGen on track with the published Implementation Plan and is 
necessary to achieve the mid-term capacity and environmental goals 
integral to the National Airspace System mid-term architecture.

Q2.  The Joint Planning and Development Office is a planning and 
coordinating body that relies on the cooperation of its federal 
partners to provide the expertise and resources needed to accomplish 
NextGen.

Q2a.  With slightly more than four years of experience, how would you 
rate the effectiveness of the JPDO, especially with regard to engaging 
and sustaining the cooperation of the participating federal agencies?

A2a. The interaction has very been promising in many aspects. With the 
FAA there has been consistent interaction on the Concept, Enterprise 
Architecture (EA) and Integrated Work Plan (IWP). This effort has 
included alignment of the FAA's NAS EA with JPDO's NextGen EA and the 
FAA's NextGen Implementation Plan with JPDO's NextGen IWP. Engagement 
with NASA has also been very successful. NASA has been very active in 
supporting the concept and integrated work plan and, with the NASA 
Airspace Program, mapping its research to the IWP. JPDO has also 
sponsored the creation of FAA/NASA Research Transition Teams to support 
the technology transfer of products to the FAA for implementation and 
the support of the FAA to NASA researchers in areas of operational 
expertise and system integration.
    With the Department of Commerce and Department of Defense there has 
been very good engagement on the evolution of aviation weather with 
specific actions identified to improve collaboration on aviation 
weather products. A new effort with DOC, DOD and the Department of 
Homeland Security has recently been established to examine Multi-
function Phased Array Radar for potential use for weather and 
surveillance purposes.
    With FAA, DOD and DHS the JPDO has had good cooperation on Net-
Enabled Operation (NEO) demonstrations, which have been successfully 
fostered by JPDO. JPDO has also been successful this year in getting 
DOD commitment to expand its role in NextGen with a large emphasis on 
enabling net-centric operations, a core requirement for all the member 
agencies to move NextGen forward.

Q2b.  What concerns, if any, do you have about the JPDO's effectiveness 
following the reorganization?

A2b. Collaboration among the JPDO partner agencies has continued to 
increase since the reorganization. The reorganization will continue to 
strengthen the effectiveness of JPDO as the agencies begin to move from 
planning to implementation. Even in early implementation activities 
such as NEO or weather or tech transfer from NASA to FAA, there is a 
shift from activity leader to facilitator on the part of JPDO. With 
focus on implementation activities growing, the inclusion of JPDO 
closer to that action will improve JPDO's ability to facilitate cross-
agency cooperation for the near and mid-term while not diminishing its 
continuing role as long-term definition leader.

Q3.  FAA is taking on greater research and development responsibility 
for NextGen, notably in disciplines that had been conducted by NASA.

A3. The FAA has been evaluating the resources that will be required to 
support NextGen research and development (R&D) during this past year 
and the following are the results to date.

Q3a.  Where will these new research capabilities be housed?

A3a. The FAA has conducted a gap analysis to assess how existing NAS 
modeling, simulation, and test facilities support the R&D necessary for 
design and implementation of NextGen. This analysis has identified 
shortfalls in existing capabilities, the need for some new simulation 
capabilities, and opportunities to leverage external ATC, flight deck, 
and software assurance capabilities. As a result, the FAA is upgrading, 
co-locating, and integrating existing ATM and CNS simulation 
capabilities to support NextGen concept validation and integration 
studies. Also, the FAA, DOD and NASA are participating in a year long 
examination of the national research and development infrastructure. 
This study, directed by the Office of Science and Technology Policy, is 
comparing existing research facilities across the Federal Government to 
requirements identified in the National Aeronautics Research Plan and 
will report on both shortfalls and duplications.
    Traditionally, the FAA has evaluated concepts and technologies 
through the use of modeling, simulation (both fast time and real time 
human in the loop), engineering analysis, field prototypes, and 
operational demonstrations. For NextGen, we are establishing 
partnerships with industry, academia, and the airlines to develop three 
NextGen demonstration capabilities in New York, Texas, and Florida.

Q3b.  Will FAA have to build new facilities?

A3b. The FAA continues to maintain our 30+ year relationship with NASA 
through the FAA Research Field Offices at NASA Langley and NASA Ames 
Research Centers, with researchers also on-site at NASA Glenn and NASA 
Kennedy Space Center. Through ongoing Interagency Agreements, FAA can 
use NASA facilities and personnel to augment our research capabilities. 
Moreover, the FAA is accelerating transition from research to 
implementation through Research Transition Teams (RTT) between NASA and 
FAA, facilitated by the JPDO. The goal of the RTTs is to ensure that 
R&D needed for NextGen implementation is identified, conducted, and 
effectively transitioned to the implementing agency
    While considerable attention must be given to the research needed 
to develop NextGen, we must also note that the FAA is maintaining a 
healthy research program in our core research areas of aircraft safety, 
airport technology, fire safety, fuels and propulsion, human factors, 
weather, wake turbulence, atmospheric hazards, airworthiness assurance, 
and the environment and energy. We maintain a cadre of world class 
scientists and engineers supported by unique national facilities at the 
FAA William J. Hughes Technical Center.

Q3c.  Does FAA have the scientists, engineers and project managers to 
carry out the research?

A3c. The FAA is adding scientists, engineers and project managers to 
its workforce. To ensure that we have aligned the right capabilities, 
the FAA has enlisted the National Academy of Public Administration to 
assess the skill sets required to implement NextGen and develop a 
strategy to obtain this expertise. Internally, staffing needs continue 
to be assessed corporately and, over the past two years, the NextGen 
and Operations Planning Office have hired 178 new employees within the 
technical and programmatic disciplines. Training programs in the areas 
of project management, system engineering, safety management, human 
factors, and modeling and simulation are available. In 2004, the ATO 
Systems Engineering Program was established offering certificates in 1) 
System Design and Architecture and 2) Supportability and Logistics. To 
date, 57 graduate certificates have been earned by ATO employees and 60 
more employees are currently enrolled in the program.
    Additionally, 75 universities augment our internal resources 
through our congressionally mandated Air Transportation Centers of 
Excellence (COE) long-term partnerships. The university members and 
their industrial affiliates conduct research, education and training in 
the following mission critical focus areas: airport technology, 
operations research, general aviation, noise and emissions mitigation, 
advanced materials, and research in the intermodal transportation 
environment. In addition to providing access to their research 
facilities throughout the country, more than 100 world-class faculty 
and 300 graduate students are currently available and prepared to 
support ongoing aviation research requirements.

Q4a.  Will FAA decommission its network of ground-based radars once 
NextGen is fully implemented, and if so, how will our government track 
non-cooperating targets?

A4a. The FAA maintains and uses two types of radars--primary radars 
which do not require cooperation, they ``skin paint,'' and the radio 
based secondary radars which do require the aircraft to cooperate. The 
NextGen implementation of ADS-B is directly related to the cooperative 
secondary surveillance radars.
    While ADS-B will offer considerable benefits in terms of system 
operations there are additional security and national defense concerns 
that need to be considered. Both the Department of Homeland Security 
(DHS) and the Department of Defense (DOD) have expressed the need for 
continued primary, non-cooperative radar capabilities.
    The FAA also recognizes that a back-up system is needed in case of 
problems with the GPS satellite system In 2006, a team from the FAA, 
industry, and the military performed an analysis and the agency adopted 
the recommendation to maintain about half the current network of 
secondary radars as an ADS-B back-up system.
    The table below highlights the plan to reduce the existing 365 
Secondary Surveillance Radars (SSRs) used for both terminal and en 
route surveillance to 190 SSRs (40 terminal and 150 en route).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4b.  Who will have principal responsibility to detect and monitor 
unfriendly aircraft?

A4b. The FAA does not plan to remove any primary radar systems and 
continues to use primary radar to mitigate single-aircraft avionics 
failures. Primary radar data remains available to the DOD and DHS to 
detect and monitor unfriendly aircraft.
    The long-term strategy for non-cooperative surveillance requires a 
multi-agency perspective. As part of its cross-agency role, NextGen's 
Joint Planning and Development Office (JPDO) has established a joint 
Interagency Surveillance Study Team (ISST) working with the DOD, the 
DHS, the Department of Transportation, the Federal Aviation 
Administration, and the Department of Commerce to address the issue.
    The ISST has recommended the establishment of a formal and 
institutionalized mechanism for the management and ownership (to 
include funding) of the Nation's integrated surveillance capabilities. 
Under this approach all future national aviation surveillance 
information requirements are analyzed holistically. This JPDO led 
approach will ensure that the needs and responsibilities of the key 
stakeholders are addressed.
    These proposals have been presented to the JPDO's Board of 
Directors and will shortly be considered by the NextGen Senior Policy 
Council.

Q4c.  To what extent will the introduction of NextGen-related 
capabilities lead to the closure of other (non-radar) obsolete FAA 
facilities?

A4c. As we evolve to NextGen, we anticipate that fewer facilities will 
be needed to operate the National Airspace System in a safe and 
efficient manner. As the FAA and the aviation community transitions to 
satellite-based navigation capabilities, the number of ground 
navigation systems can be significantly reduced with the extent and 
time-frame for this reduction dependent upon the speed which aircraft 
owners equip with new avionics. Up to a 50 percent reduction in legacy 
en route navigation facilities is considered reasonable in the NextGen 
time frame. In addition, a significant number of ground-based approach 
and landing systems in the airport environment (ILS, Terminal VOR's) 
can eventually be decommissioned and replaced with GPS-enabled 
capabilities.

Q5.  The ADS-B program is fundamental to NextGen. What are the major 
risks with ADS-B in terms of capabilities, schedule, cost, and industry 
acceptance?

A5. The FAA has a rigorous risk management process required on every 
program. As part of that process, the ADS-B program has identified its 
high risks, developed mitigation plans for those risks, and maintained 
a status report on the progress of those mitigation activities. These 
are the high risks:

Industry Acceptance:
    Risk Statement: If National Airspace System users demonstrate 
active opposition to avionics related airspace mandates (ADS-B), there 
may be delays in required rule-making activities and/or the program may 
experience a reduction in benefits.
    Planned Mitigation: This is a four pronged approach: 1) getting the 
right implementation and benefits message out (measure this with 
feedback, user surveys, etc.), 2) quickly move to resolve community 
issues through accelerated rule-making activities, 3) delivering a 
legacy transitioning plan, and 4) working with the Air Traffic 
Management Advisory Committee (ATMAC). The ATMAC provides a forum for 
user interface.
    Status on Mitigation Plans: The Notice of Proposed Rule-making 
comment period closed in March 2008; An Aviation Rule-making Committee 
(ARC) was chartered to review benefits of early equipage and to review 
comments received on the NPRM. The ARC submitted its recommendations on 
the NPRM comments on September 26, 2008. The FAA is currently drafting 
plans for responding to the ARC recommendations on early equipage. In 
addition, the program office has been actively engaged in user 
community outreach activities, including industry days and user 
community conferences.

ADS-B broadcasting on 1090 MHz:
    Risk Statement: Without proper control of the 1090 MHz spectrum, 
the addition of SBS (Surveillance and Broadcast Services) to the 
current environment may reduce the performance of ADS-B and other 1090 
MHz systems, reducing benefits and system performance.
    Planned Mitigation: To mitigate this risk of spectrum saturation, 
two parallel approaches are underway: 1) 1090 MHz Spectrum Risk Panel 
is looking into the technical effectiveness of implementing various 
proposed solutions to reduce the individual 1090 MHz systems usage of 
1090 MHz , and 2) 1090 MHz Spectrum Alternatives Analysis team is to 
provide a low-risk, cost effective solution to be implemented to reduce 
the congestion problem.
    Status on Mitigation Plans: The Spectrum Risk Panel provided a 
final report to the FAA program office in August 2008. Additional 
assessments and recommendations for mitigations are underway. The 
Alternatives Analysis team defined their objectives and requirements 
and will develop final alternatives and definitions based on the August 
Spectrum Risk Panel report.

Displaying ADS-B Data in the current automation platforms and their 
        related displays:
    Risk Statement: Currently the automation platform (MEARTS) does not 
process and display ADS-B data provided by ITT. If MEARTS is not 
modified to support that data set by April 2010, the Surveillance and 
Broadcast Services Juneau IOC will be delayed.
    Planned Mitigation: Establish an automation requirements work 
group. Coordinate with computer human interface work group, separation 
standards work group, and system test and evaluation work group. 
Conduct alternatives analysis to determine preferred means to integrate 
the ADS-B data on each automation platform. Develop prototypes and 
conduct simulations on automation systems, and develop final automation 
requirements.
    Status of Mitigation Plans: The final visual specification for use 
of multiple surveillance sources in Air Traffic Control has been 
provided by program office. Agreements on plans to resolve the computer 
human interface requirements and automation requirement issues have 
been reached. The program office is currently finalizing an integrated 
schedule for the automation platform.

Q6.  You testified that JPDO's gap analysis identified seven critical 
areas that require additional focus. For the record please: (1) 
identify them; (2) designate the partner agency having primary 
responsibility; and (3) describe how each of these critical areas will 
be addressed.

A6. According to the JPDO's analysis there are seven critical areas 
that require additional focus. The following are the issues involved:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Question submitted by Representative Laura Richardson

Q1.  What are your thoughts on concerns conveyed April 1-2, 2008 at the 
National Academies workshop?

A1. The National Academies workshop provided interesting perspectives 
that highlighted some shortfalls regarding the JPDO, NextGen and the 
NextGen R&D Plan. There was significant discussion regarding the 
importance of system level modeling to support NextGen planning, 
research, and investment. This discussion was particularly timely and 
validated a JPDO focus in that at the time of the workshop, JPDO was in 
the process of developing a much more rigorous modeling capability 
based on its determination of this shortfall.
    Another major point was the limited scope of R&D programs that has 
been reviewed and considered to date. This was a valuable insight. The 
workshop discussion highlighted the need to look beyond FAA and NASA, 
and consider other agencies, the private sector (especially the airport 
community) and international bodies. The JPDO has increased its efforts 
with respect to each of these sectors and the workshop discussion was 
helpful in guiding that effort. The newly established multi-agency, DOD 
led, net-centric initiative is a good example of the JPDO increased 
scope and leadership.
    Finally, there was substantial discussion centered on 
implementation. While the participants acknowledged that the JPDO is 
not an implementation entity, they expressed concern that the plans did 
not provide the community with a clear view of a structured pathway to 
implementation. The recent FAA reorganization makes this connection 
clear with the creation of an integration and implementation entity 
within the Air Traffic Organization.

Questions submitted by Representative Paul C. Broun

Q1.  On October 5, 2007, the FAA issued a proposed rule requiring 
aircraft in controlled airspace be equipped with ADS-B by 2020.

A1. Background:
    An Aviation Rule-making Committee (ARC) was chartered in July 2007 
to support the ADS-B rule-making. The ARC's membership covers every 
sector of the aviation industry, and includes members from the 
government and academia. The ARC was tasked to:

        <bullet>  Serve as a platform for developing a report in 
        optimizing operational benefits of ADS-B prior to implementing 
        a nationwide ADS-B airspace rule. (This report was delivered in 
        October 2007. The FAA is currently developing plans to address 
        the report.)

        <bullet>  Make specific recommendations to the FAA concerning 
        the NPRM requirements (this report was delivered in September 
        2008).

Q1a.  What is the FAA doing or what is the FAA's plan to encourage 
voluntary ADS-B equipage? It seems that the FAA is too focused on the 
equipage mandate, and that a better approach would be to focus on the 
avionics and incentives to encourage voluntary equipage.

A1a. The FAA is engaging with the community to encourage equipage, and 
many of the recommendations cited in the ARC's October 2007 report 
demonstrate that there is a willingness by the airlines to equip early, 
provided that the FAA creates the environment (infrastructure, routes 
and procedures) that enables early benefits to airline operations. 
Specifically, two of the ARC recommendations focus on agreements:

        <bullet>  Recommendation #9: Leverage the benefits of ADS-B 
        information to incentivize equipage by establishing agreements 
        with specific operators.

        <bullet>  Recommendation #10: Continue to establish agreements 
        with local and State governments to leverage the benefits of 
        ADS-B.

    Since that initial ARC report, the FAA has held the following 
meetings to determine incentive mechanisms that might be included in 
potential agreements:

        <bullet>  January 2008: NetJets, American Airlines, FedEx

        <bullet>  April 2008: Continental Airlines, DayJet, Wisconsin 
        Department of Transportation, Minnesota Department of 
        Transportation

        <bullet>  May 2008: DayJet Follow-up

        <bullet>  June 2008: Follow-up with American Airlines, 
        California Department of Transportation

        <bullet>  July 2008: Additional Follow-up with American 
        Airlines, United Airlines

        <bullet>  October 2008: USAirways

    The following table summarizes the feedback from these meetings and 
shows what may be an incentive to users to equip early.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  The ADS-B equipage mandate is extremely costly and provides no 
benefit to general aviation.

Q2a.  The majority of the benefits are in the high-altitude airspace or 
for aircraft landing at the Nation's 35 OEP airports. So, why is the 
mandate so broad?

A2a. While it is true that many of the advanced applications of ADS-B 
In and Out will be of benefit to the high altitude major metro area 
customers, the initial benefits of ADS-B have and will support the low 
altitude user group by providing traffic and flight information to ADS-
B equipped aircraft. The provision of radar-like services and the 
increased situational awareness for the pilot have supported aircraft 
operating in more remote areas and aircraft operating under visual 
flight rules. Specific low altitude user groups that have and will 
benefit from ADS-B include operators in Alaska, helicopters, especially 
in the Gulf of Mexico where a significant number of daily operations 
take place, and General Aviation aircraft across NAS especially with 
the related traffic and flight advisory information, and support timely 
search and rescue.

Q2b.  Has the FAA considered limiting the ADS-B equipage mandate to 
aircraft operating above FL180 or landing at the Nation's 35 OEP 
airports?

A2b. Background: The ADS-B Aviation Rule-making Committee (ARC) was 
formed in July 2007 to support the ADS-B rule-making. The ARC's 
membership covers every facet of the aviation industry, and includes 
members from the government and academia. The ARC was organized to 
provide the agency the broadest perspective possible as it advances the 
ADS-B rule-making. The committee had the following two tasks:

        <bullet>  As an initial tasking before the publication of the 
        Notice of Proposed Rule-making (NPRM), the ARC should serve as 
        a platform for the development of a report on how operational 
        benefits of ADS-B could be optimized before compliance with a 
        nationwide ADS-B mandate. The report was delivered to the FAA 
        in October 2007.

        <bullet>  Once the NPRM is published and reviewed by the ARC, 
        the ARC should make specific recommendations to the FAA about 
        any changes that should be made to the proposed language in the 
        NPRM. The ARC provided these recommendations to the FAA on 
        September 26, 2008.

    The ARC, as a part of its work on its second task, evaluated a 
phased approach to implementing ADS-B which would have required ADS-B 
sooner in Class A airspace and at the Nation's 35 OEP airports. The ARC 
was unable to reach a consensus on this approach and, therefore, 
recommended that the FAA retain the 2020 compliance date in the 
original Notice of Proposed Rule-making (NPRM).
    To further address the issue of low altitude equipage, the ARC 
identified additional measures that would benefit the low altitude 
community and recommended that the FAA take advantage of the 
opportunity to provide a positive business case for that large segment 
of the aviation community. Specifically, Recommendation #9 requests:

         The FAA should implement the necessary incentives to create a 
        positive business case for low altitude airspace users. This 
        requires the FAA to make changes that result in lower 
        investment costs and increased benefits, and provide economic 
        incentives to offset costs when benefits are insufficient for a 
        particular operator segment. If the ADS-B mandate results in 
        the low altitude segment of the aviation community investing 
        more into the system than the benefits enabled, the FAA should 
        not mandate ADS-B Out for that segment of the community.

    In addition, Recommendation #18 suggests:

         The ARC, based upon analysis it has performed, urges the FAA 
        to allow non-diversity antenna installations for visual flight 
        rules (VFR) aircraft flying through high-density airspace, for 
        example class B and C and below 15,000 feet (1090) or below FL 
        180 (UAT) but not landing at the primary airports. 
        Additionally, the FAA should continue to resolve the barriers 
        (as identified by the ARC) to permit single-antenna 
        installations on low altitude, slow moving aircraft. The ARC 
        recommends that the FAA conduct the necessary testing to 
        identify appropriate solutions.

    The Surveillance and Broadcast Services program office is currently 
evaluating these recommendations from the ARC and will determine how to 
proceed for the final rule on ADS-B equipage.

Q3.  The DOT Inspector General, GAO and others have testified that 
stakeholder acceptance is going to be key to a successful ATC 
modernization and transition to a satellite-based system.

A3. The ADS-B Aviation Rule-making Committee (ARC) was formed in July 
2007 to support the ADS-B rule-making. The ARC's membership covers 
every facet of the aviation industry, and includes members from the 
government and academia.\1\ The ARC was organized to provide the agency 
the broadest perspective possible as it advances the ADS-B rule-making.
---------------------------------------------------------------------------
    \1\ The ARC had participation from the following stakeholder 
organizations: Joint Planning and Development Office (JPDO), Air 
Transport Association (ATA), Aircraft Owners and Pilots Association 
(AOPA), Airbus, Air Line Pilots Association, Alaska Airlines (ALPA), 
Aviation Communication and Surveillance Systems (ACSS), Boeing, Cessna, 
Department of Defense, Federal Express, Garmin, General Aviation 
Manufacturers Association (GAMA), International Air Transport 
Association (IATA), Massachusetts Institute of Technology (MIT), MITRE/
CAASD, National Air Traffic Controllers Association (NATCA), National 
Business Aviation Association (NBAA), Regional Airline Association 
(RAA), Rockwell Collins, Southwest Airlines, United Airlines and UPS.

Q3a.  While the entire aviation industry supports modernization, as far 
as I can tell, the FAA's strategy and implementation plan has little 
---------------------------------------------------------------------------
(possibly no) support from stakeholders.

A3a. In the September 26, 2008 report, the ARC emphasized its support 
for ADS-B Out implementation by 2020.

Q3b.  How is the FAA handling the comments submitted from aviation 
stakeholders?

A3b. The ARC reviewed 1,423 comments on the Notice of Proposed Rule-
making (NPRM) submitted to the docket by 165 entities, categorized the 
comments for further analysis, and studied the issues underlying 1,101 
of the 1,423 comments. The ARC was tasked with resolving these comments 
and making a final recommendation to the FAA, which was provided on 
September 26, 2008. The committee focused on the link implementation 
strategy, programmatic issues, performance requirements and an avionics 
transition plan. The ARC made 36 summary recommendations regarding the 
ADS-B link strategy, program, business case, required equipment, 
security, and privacy.
    The Surveillance and Broadcast Services (SBS) program office is 
reviewing this report and will determine how to proceed with the 
recommendations prior to finalizing the rule. In addition, the SBS 
program office is reviewing the remaining 322 comments not addressed in 
the ARC submittal. These comments focus on general opposition, 
editorial comments, safety, extension of the comment period, impact to 
small businesses, regulatory evaluation edits, testing and maintenance, 
and military/DOD comments.
    The FAA's Rule-making Council is tentatively planning to approve 
the Phase 3 Rule-making Project Record (RPR) in January 2009.

Q3c.  Does the FAA intend to issue a supplemental notice of proposed 
rule-making or does the FAA intend to proceed forward with a final 
rule?

A3c. At this time, the FAA does not intend to issue a Supplemental 
Notice of Proposed Rule-making (SNPRM). The FAA is proceeding with the 
development of a final rule which will be issued in April 2010.

                   Answers to Post-Hearing Questions

Responses by Gerald L. Dillingham, Director, Physical Infrastructure 
        Issues, Government Accountability Office

Questions submitted by Chairman Bart Gordon

Q1.  Some observers have commented that the degree of participation by 
the partner agencies seems to run on a continuum from a significant 
amount of participation to seemingly not very much at all. The Federal 
Aviation Administration (FAA) and National Aeronautics and Space 
Administration (NASA) are consistently indicated as the most involved 
participants.

Q1a.  In your opinion, to what extent are the partner agencies 
participating in the vision and work of the Next Generation Air 
Transportation System (NextGen)?

A1a. The partner agencies' participation in the vision and work of 
NextGen has varied to date and will continue to evolve over time. 
Interagency partnerships mature slowly because it takes time to forge 
working relationships and establish accountability. While FAA and NASA 
have been the most involved in the planning and coordination of 
NextGen, the other agencies are also participating. The Department of 
Defense, for example, is transferring to NextGen the technology it has 
developed for sharing information across networks, establishing a 
program office to coordinate all of its NextGen activities, and 
collaborating with FAA and the Department of Commerce to develop and 
implement NextGen's weather forecasting capability.
    Furthermore, the Joint Planning and Development Office (JPDO), 
which was created to plan for and coordinate the NextGen activities of 
federal and non-federal stakeholders, has established some practices 
that are important to institutionalizing a collaborative process. For 
example, a memorandum of understanding, signed by the Secretary or 
another high-ranking official from each partner agency, defines the 
partner agencies' roles and responsibilities. In addition, some NextGen 
goals and activities have been incorporated in partner agencies' key 
planning documents such as FAA's NextGen Implementation Plan, and JPDO 
and the Office of Management and Budget (OMB) have developed a process 
for identifying NextGen-related research programs in the partner 
agencies' budgets.

Q1b.  How could the role of the partner agencies be changed to enhance 
their participation or positively affect the development of NextGen?

A1b. We believe that the partner agencies' participation in NextGen 
could be enhanced by further incorporating NextGen goals and activities 
in the agencies' key planning documents and research agendas. For 
example, FAA has refocused one of its key planning documents--the 
Operational Evolution Partnership--making it into the NextGen 
Implementation Plan. Formerly a plan for enhancing airport capacity, 
the NextGen Implementation Plan has been expanded and revamped to 
become a comprehensive description of how FAA will implement NextGen. 
We believe that similar efforts by the other partner agencies could 
increase their participation in NextGen.

Q2.  In your opinion, how successful has JPDO been in developing 
conceptual and technical descriptions of what NextGen will consist of? 
How about in developing a plan for the coordinated implementation of a 
transformed future system?

A2. JPDO has made progress in developing planning documents that 
provide conceptual and technical descriptions of NextGen. However, 
further iterations of these documents will be needed as NextGen 
technologies are developed. JPDO's authorizing legislation requires the 
office to create a research and development (R&D) plan for the 
transition to NextGen. This requirement led JPDO to develop initial 
versions of the Concept of Operations, Enterprise Architecture, and 
Integrated Work Plan (IWP). The Concept of Operations is the 
fundamental planning document from which the other two documents flow. 
Version 2 of the Concept of Operations, issued in June 2007, describes 
how the NextGen system is envisioned to operate in 2025. Version 2 of 
the Enterprise Architecture, issued in July 2007, is a technical 
description of the NextGen system, akin to blueprints for a building. 
The Enterprise Architecture provides a means for coordinating among the 
partner agencies and private-sector manufacturers, aligning relevant 
R&D activities, and integrating equipment. IWP, the most recent version 
of which was issued in September 2008, is JPDO's plan for achieving 
NextGen. It describes the integrated framework needed to transition to 
NextGen and will continually need to be refined and enhanced to reflect 
current priorities, budgets, and programs.
    Our work indicated that the previous version of IWP lacked critical 
information and was not sufficiently ``user friendly'' to be used 
effectively as a plan for coordinating the partner agencies' 
implementation of NextGen. Our review of the most recent version of the 
plan indicates that it is more detailed, contains further research 
plans, and shows interrelationships among activities that should be 
useful for coordinating those activities. This version of IWP is an 
automated, searchable, user-friendly database--that we found will have 
the capability to track dates and identify programs that are behind 
schedule, making it useful, but not sufficient, for oversight. 
According to senior JPDO officials, this version identifies the 
specific operational improvements and capabilities that NextGen will 
incorporate and shows what policies, research, and other activities are 
needed to enable those improvements and capabilities; when they are 
needed; and what entities are responsible for them. Moreover, this 
version includes schedule information that has been updated to reflect 
newly available information, coordination with FAA schedules and plans, 
and public comments received on the previous version, according to JPDO 
and FAA officials. This version also identifies the sequence of 
research activities that the partner agencies must complete before 
specific NextGen capabilities can be implemented. The plan should serve 
as a useful tool in prioritizing and tracking NextGen research.
    Furthermore, subsequent versions of IWP are expected to include 
cost information that decision-makers can use to help understand the 
rationale for budget requests, monitor costs, and improve future cost 
estimates for acquisitions. This information will be helpful to 
decision-makers when budget constraints do not allow all system 
acquisitions to be fully funded at planned and approved levels and they 
must decide which programs to fund and which to cut or delay according 
to their priorities.
    In addition, coordination is enhanced by JPDO's efforts to work 
with OMB to develop a process that allows OMB to identify NextGen-
related research and acquisition projects across the partner agencies 
and consider NextGen as a unified, cross-agency program. Under this 
process, JPDO and its partner agencies jointly present OMB with 
business cases for the partner agencies' NextGen-related efforts, and 
these business cases are used as inputs to funding decisions for 
NextGen research and acquisitions across the agencies.

Q3.  In the transformed NextGen, I understand that roles and 
responsibilities of key players will change dramatically. Pilots will 
take on more separation responsibilities and automation will enable air 
traffic controllers to manage larger numbers of aircraft while 
improving safety.

Q3a.  What are the key aspects from human factors research that FAA and 
NASA need to get right before we can have confidence that this 
delegation of decision-making duties is both feasible and safe?

A3a. Our work indicates that the key aspect from human factors research 
that FAA and NASA must address is how changes in the roles and 
responsibilities of both air traffic controllers and pilots will affect 
the safety and efficiency of the national airspace system. According to 
an FAA official, verbal communication is an example of a human factors 
area that requires further R&D. Currently, air traffic controllers 
primarily rely on verbal communication to direct aircraft. Because 
NextGen will rely more on automated communications, controllers will 
require training in both understanding and operating in an automated 
communications environment. The research to support such training has 
not been conducted, according to FAA.

Q3b.  Are the needed R&D programs in place and adequately funded to get 
that research done?

A3b. While not all of the needed human factors R&D programs are 
currently in place, FAA plans to increase its investment in human 
factors research from fiscal year 2009 through fiscal year 2013. Over 
that period, FAA's human factors research would total $180.4 million. 
In contrast, NASA started to reduce the size of its human factors 
research staff in fiscal year 2005, reassigning some staff to other 
programs and reducing the contractor and academic technical support for 
human factors research. However, according to NASA, human factors 
research continues to be a critical component of its aeronautics 
research program, with activity focused at the foundational level. It 
remains to be seen if FAA's planned R&D in this area will offset NASA's 
reductions, since FAA's research is typically at a more applied level.

Q4.  In describing FAA's Continuous Lower Energy, Emissions, and Noise 
(CLEEN) environmental R&D program, your statement indicates that FAA 
and the JPDO recognize the need to ``fill any gaps that may exist 
between basic research and the transfer to industry for further 
development.'' But you also conclude that ``the research might prove 
more difficult and take longer than planned.''

Q4a.  Can you elaborate on why this might be more difficult and time-
consuming than envisioned and how FAA can minimize this problem?

A4a. Filling gaps that may exist between conducting basic research and 
transferring technologies and tools to industry may be more difficult 
and time consuming than envisioned for several reasons. CLEEN 
illustrates this challenge. The House reauthorization bill for FAA is 
seeking funding for CLEEN.\1\ CLEEN would establish a research 
consortium of government, industry, and academic participants that 
would allow for the maturation of aviation noise technologies via 
demonstration projects for further refinement by the aviation industry 
and eventual incorporation into new aircraft designs. The CLEEN program 
would support the development, maturation, and certification of engine 
and airframe technologies for aircraft over the next 10 years to reduce 
aviation noise and emissions. While acknowledging that CLEEN would help 
bridge the gap between NASA's R&D and manufacturers' eventual 
incorporation of technologies into aircraft designs, aeronautics 
industry representatives and experts we consulted said that the 
program's funding levels may not be sufficient to attain the goals 
specified in the proposal. According to these experts, the proposed 
funding levels would allow for the further development of one or 
possibly two projects. Moreover, in one expert's view, the funding for 
these projects may be sufficient only to develop the technology to the 
level that achieves an emissions-reduction goal in testing, not to the 
level required for the technology to be incorporated into a new engine 
design. According to FAA and some experts we consulted, however, the 
CLEEN program amounts to a pilot project, and if it results in the 
development of emissions-reduction technologies that can be introduced 
into aircraft in the near future, it could lead to additional funding 
from the government or industry for such efforts.
---------------------------------------------------------------------------
    \1\ H.R. 2881, 110th Cong.  505 (2007).
---------------------------------------------------------------------------
    Filling R&D gaps may also be more difficult and time-consuming than 
envisioned because of uncertainties about the ability of aircraft 
engine and aircraft manufacturers to incorporate new noise reduction 
technologies into new engine and aircraft designs. NASA officials 
stressed that when NASA's research ends, it will be up to engine and 
aircraft manufacturers to take the next steps to integrate the noise 
reduction technologies into engine and aircraft designs, and the 
manufacturers' willingness to do so is not guaranteed. An expert we 
consulted noted that if manufacturers do take the steps to integrate 
noise reduction technologies into new designs, the pace of noise 
reduction will also depend on the pace of development for new aircraft 
and aircraft engine designs.
    Moreover, technical challenges may further complicate efforts to 
close the gap between agencies' research and manufacturers' development 
of technologies for incorporation into products. In particular, it may 
be technically challenging to design aircraft with reduced noise while, 
at the same time, achieving significant reductions in greenhouse gases 
and other emissions that will be required to address global warming and 
improve air quality. Although it is possible to design engines that 
produce less noise and fewer greenhouse gas emissions, the reductions 
in greenhouse gases could be limited in engines that produce 
substantially less noise. Furthermore, engines that produce less noise 
typically burn more fuel and are therefore more costly to operate. As a 
result, air carriers may not be inclined to buy jets with engines that 
reduce noise but may be more expensive to operate.

Q4b.  Should NASA be playing a bigger role in this area, as it did in 
its previous innovative aircraft engine technology development 
programs?

A4b. It would be useful for NASA to conduct the type of intermediate 
R&D and demonstration projects that NASA previously conducted and that 
will be needed for the NextGen program. NASA, however, is now focusing 
on longer-term fundamental research on noise and emissions and its 
current aeronautics research budget is about half of what it was in the 
mid-1990s. Moreover, the budget request for aeronautics R&D for fiscal 
year 2009 is $447 million, or about 25 percent less than the $594 
million provided in fiscal year 2007. Nonetheless, according to NASA, 
about $280 million of the proposed $447 million would contribute to 
NextGen. In addition, according to NASA officials, a significant 
portion of the funding for subsonic fixed-wing aircraft is directed 
toward emissions-related research, and many other research efforts 
contribute directly or indirectly to potential emissions-reduction 
technologies.

Q5.  In your February report to the Subcommittee, you indicated that 
noise reduction technologies may be limited by concerns about global 
warming as advances in these technologies could make it more difficult 
to also achieve reductions in emissions of greenhouse gases. Is GAO 
saying that reductions in noise and emissions are mutually exclusive or 
could high fuel prices spur technological innovations we have yet to 
envision?

A5. I do not think that efforts to achieve reductions in noise and 
emissions are mutually exclusive, but finding the right balance between 
them does pose a significant challenge for the partner agencies and 
private stakeholders. It is technologically challenging to design 
aircraft that can reduce one environmental concern without increasing 
another. Since the aviation industry must consider economic as well as 
environmental concerns, research must consider the trade-offs between 
noise reduction, emissions reduction, and fuel economy. Engine 
technology has been relatively successful in increasing fuel 
efficiency, reducing most types of emissions, and lowering noise, but 
has not been able to achieve comparable reductions in nitrogen oxide 
(NOX), which is a primary source of local air pollution. NOX has 
increased because new engines operate at higher temperatures, producing 
more power with less fuel and lower carbon dioxide and carbon monoxide 
emissions, but also producing higher NOX levels, especially at takeoff 
and landing when engine power settings are at their highest.

Q6.  The JPDO was established to plan and coordinate the R&D for 
NextGen. You testified that the three key planning documents have been 
developed and that JPDO has been pretty much absorbed into the Air 
Traffic Organization (ATO). How long do you think the JPDO ought to 
continue to exist and what would it do?

A6. JPDO was established to plan and coordinate the development of 
NextGen and should exist for the duration of those tasks. JPDO has 
developed the key planning documents for NextGen, but further 
iterations of these documents will be needed as NextGen technologies 
are developed and implemented. For example, JPDO officials expect to 
issue annual revisions to the IWP. JPDO also has a central role in 
coordinating and facilitating the NextGen activities of the partner 
agencies. For example, JPDO serves as the principal point of contact 
with OMB in coordinating the multi-agency budgets for NextGen, and its 
working groups facilitate coordination with industry stakeholders. If 
JPDO ceased to exist, another entity would have to assume 
responsibility for these planning and coordinating activities.
    JPDO's role could evolve to include additional coordination and 
oversight activities. For example, JPDO could establish a program 
oversight capacity that would enable it to perform such functions as 
(1) coordinating the R&D, systems-engineering, and integration 
activities of the partner agencies and industry; (2) overseeing multi-
agency projects; (3) overseeing, with FAA, the selection of products or 
outcomes of R&D that would be moved to the next stage of a 
demonstration project through the Joint Resources Council (JRC);\2\ (4) 
overseeing the fundamental research activities that support the long-
term strategic investments of NextGen by managing a portfolio of 
research conducted by NASA, academia, federally funded R&D centers, and 
industry; and (5) maintaining a modeling and simulation capability for 
testing and evaluating alternative NextGen concepts that provide input 
to such oversight.
---------------------------------------------------------------------------
    \2\ FAA's Joint Resources Council establishes and manages 
acquisition program baselines which define cost, schedule, performance, 
and benefit parameters for programs over their full life cycle.

---------------------------------------------------------------------------
Questions submitted by Representative Ralph M. Hall

Q1.  With the upcoming change in Administrations, do you foresee 
difficulties maintaining program continuity during the transition? Does 
NextGen have enough traction among its partner agencies to maintain 
momentum in the months ahead?

A1. There is a risk that the upcoming change in Administration will 
contribute to difficulties in maintaining continuity for NextGen. As 
FAA begins to implement new systems and transition to NextGen, it is 
possible that other demands of a new Administration will compete for 
the attention of FAA's senior leadership. Moreover, FAA, which 
currently has an Acting Administrator, and its partner agencies face 
the loss of today's leaders as the new Administration makes its own 
appointments. Although FAA has implemented many of the financial, 
management, and acquisition improvements in recent years that will be 
needed for the transition to NextGen, FAA's new leaders will need to 
sustain this commitment to provide a firm foundation for continuing to 
implement NextGen.
    It remains to be seen whether NextGen has enough traction with 
JPDO, FAA, and the other partner agencies to maintain momentum in the 
coming months. JPDO, however, has established some practices that are 
important to institutionalizing collaboration among the partner 
agencies. For example, a memorandum of understanding, signed by the 
Secretary or another high-ranking official from each partner agency, 
defines the partner agencies' roles and responsibilities. In addition, 
some NextGen goals and activities have been incorporated in the 
agencies' key planning documents such as FAA's NextGen Implementation 
Plan, and JPDO and OMB have developed a process for identifying 
NextGen-related research projects in the partner agencies' budgets. 
Nonetheless, this is a complex multifaceted, multi-decade project and 
the partner agencies' participation in NextGen can be expected to 
evolve and vary over time as its requirements change and agencies' 
mission priorities change.

Q2.  JPDO is a planning and coordinating body that relies on the 
cooperation of its federal partners to provide the expertise and 
resources needed to accomplish NextGen. With slightly more than four 
years of experience, how would you rate the effectiveness of the JPDO, 
especially with regard to engaging and sustaining the cooperation of 
the participating federal agencies? What concerns, if any, do you have 
about JPDO's effectiveness following the reorganization?

A2. JPDO has made progress in obtaining the cooperation of 
participating federal agencies, but the extent of participation has 
varied. Interagency partnerships mature slowly because it takes time to 
forge working relationships and establish accountability. While FAA and 
NASA have been the most involved in the planning and coordination of 
NextGen, the other agencies are also participating. The Department of 
Defense, for example, is transferring to NextGen the technology it has 
developed for sharing information across networks, establishing an 
office to coordinate its NextGen activities, and collaborating with FAA 
and the Department of Commerce to develop and implement NextGen's 
weather forecasting capability. The Department of Homeland Security is 
participating by contributing ``in-kind'' services in the form of 
personnel and research. Furthermore, JPDO has been successful in 
helping to establish mechanisms to sustain cooperation among the 
participating federal agencies. In June 2008, a memorandum of 
understanding was signed by the Secretary or another high-ranking 
official from each partner agency, defining each agency's role and 
responsibilities. In addition, as part of the annual budget request, 
JPDO prepares an Exhibit 300 form for NextGen, which allows JPDO to 
present OMB with a joint business case for the partner agencies' 
NextGen-related efforts.\3\ This business case is used as input to 
funding decisions for NextGen research and acquisitions across the 
agencies.
---------------------------------------------------------------------------
    \3\ Section 300 of OMB Circular No. A-11, Preparation, Submission, 
and Execution of the Budget (Nov. 2, 2005), sets forth requirements for 
federal agencies for planning, budgeting, acquiring, and managing 
information technology capital assets.
---------------------------------------------------------------------------
    Since ATO was reorganized in May 2008, JPDO has been housed within 
the new NextGen and Operations Planning Office and the JPDO Director 
reports through the Senior Vice President for NextGen and Operations 
Planning to ATO's Chief Operating Officer. Previously, the JPDO 
Director reported directly to both the Chief Operating Officer and the 
FAA Administrator. Now that JPDO is no longer a separate, independent 
office within FAA and its head no longer reports directly to the FAA 
Administrator, its organizational position within FAA has declined. 
This reorganization does not address the concerns of some industry 
stakeholders that JPDO's reporting status might keep it from 
interacting on an equal footing with ATO and the other partner federal 
agencies. In 2007, we reported that it was important for JPDO to have 
some independence from ATO to counter the perception that it was a 
proxy for ATO and, as such, not able to act as an ``honest broker'' 
between ATO and the partner federal agencies. We pointed out that, to 
address this issue, the JPDO Director could report directly to the FAA 
Administrator.\4\ Nonetheless, we believe it is too early to tell 
whether the reorganization has diminished the effectiveness of JPDO, 
especially in terms of its ability to sustain the cooperation of the 
partner federal agencies, or if the new governance structure will be 
acceptable in practice and address the concerns that have been raised. 
Ultimately, the effectiveness of JPDO will have to be measured by the 
efforts of the partner agencies to implement policies and procedures, 
conduct research, and acquire systems that support NextGen.
---------------------------------------------------------------------------
    \4\ GAO, Responses to Questions for the Record; Hearing on the 
Future of Air Traffic Control Modernization, GAO-07-928R (Washington, 
D.C.: May 30, 2007).

Q3.  The Automatic Dependent Surveillance-Broadcast (ADS-B) program is 
fundamental to NextGen. What are the major risks with ADS-B in terms of 
---------------------------------------------------------------------------
capabilities, schedule, cost, and industry acceptance?

A3. ADS-B is a satellite-based aircraft navigation system that allows 
aircraft to broadcast their position to air traffic controllers, other 
aircraft, and ground systems. FAA plans to implement ADS-B over the 
next 15 to 20 years as a key NextGen system. FAA awarded a contract 
worth up to $1.8 billion for acquiring the ground infrastructure for 
ADS-B in August 2007 and is developing an ADS-B rule-making, scheduled 
for issuance in 2010. FAA's initial deployment plans focus on areas of 
the Nation that do not have radar surveillance, such as Alaska and the 
Gulf of Mexico, and individual airlines, such as United Parcel Service, 
which is installing ADS-B on all of its Boeing 757 and 767 aircraft.
    Several risks are associated with implementing ADS-B including the 
cost to industry to equip, incomplete specifications for ADS-B 
capabilities, and broadcast frequency congestion concerns. Full use of 
ADS-B depends not only on government efforts, but also involves 
decisions by the aviation industry about what equipment to purchase and 
when to purchase it. With ADS-B, for example, an official of RTCA's\5\ 
ADS-B working group noted that the cost and expected benefits of 
equipping aircraft to take full advantage of ADS-B is a key issue for 
the aviation industry. The official said that equipping existing 
aircraft to communicate with the ground stations may not be cost 
prohibitive for regional and large commercial airlines, but further 
equipping these aircraft so they can use ADS-B's full capabilities 
could require cost-prohibitive modifications. Consequently, the 
official noted that carriers plan to install equipment to use ADS-B's 
full capabilities only as they order new aircraft. He also said that 
carriers could have full-capability ADS-B installed on new aircraft 
that they are ordering now, except that specifications do not yet 
exist. In addition, the official believed that some air carriers were 
hesitant to equip with ADS-B because of concerns that FAA might not 
follow through with the deployment of full ADS-B capabilities. We have 
reported\6\ that a demonstration of NextGen capabilities, such as ADS-
B, and of efficiencies resulting from their use would give airlines an 
incentive to equip their aircraft with NextGen technologies. They could 
then lower their costs by reducing their fuel consumption and decrease 
the impact of their operations on the environment. Our research 
indicates that by establishing benefits early in a program's 
development, demonstrations can increase stakeholders' confidence in an 
initiative. A demonstration of ADS-B could provide incentives for the 
aviation community to equip aircraft with compatible technology.
---------------------------------------------------------------------------
    \5\ RTCA is a private, not-for-profit corporation that develops 
consensus-based performance standards for air traffic control (ATC) 
systems. RTCA serves as a federal advisory committee, and its 
recommendations are the basis for a number of FAA's policy, program, 
and regulatory decisions. RTCA includes an ADS-B working group within 
its air traffic management advisory committee. The ADS-B Working Group 
includes representatives of air transport, avionics manufacturers, 
business aviation, Department of Defense, and general aviation.
    \6\ GAO-08-1078.
---------------------------------------------------------------------------
    In addition, concerns have been raised about broadcast frequency 
congestion related to ADS-B. FAA plans to establish two data links for 
the system. Commercial aircraft and other aircraft operating at high 
altitudes would send their position to ground stations by transmitting 
on 1090 MHz while general aviation would use Universal Access 
Transceivers operating on 978 MHz. On September 26, 2008, FAA's ADS-B 
Aviation Rule-making Committee called for an urgent study of congestion 
on 1090 MHz, indicating the frequency is becoming crowded in some 
airspace with high-density air traffic.

Question submitted by Representative Laura Richardson

Q1.  In your testimony you referenced closing and consolidating 
systems, what do you mean?

A1. To fully realize NextGen's capabilities, FAA will have to 
reconfigure its air traffic control (ATC) facilities to make them 
compatible with new technologies and procedures. According to a senior 
ATO official, the agency plans to report on the cost implications of 
reconfiguring its facilities in 2009. However, FAA has no comprehensive 
plan for reconfiguring its facilities. Until the cost analysis is 
completed and a reconfiguration plan has been developed, the 
configurations needed for NextGen cannot be implemented and potential 
savings that could help offset the cost of NextGen will not be 
realized. Some FAA officials have said that implementing plans for 
facility maintenance and construction that are based on the current ATC 
system and do not incorporate the configurations needed for NextGen 
could, without reconfiguration, significantly increase the cost of 
NextGen. Additionally, some of the capacity and efficiency enhancements 
expected from the implementation of NextGen may be curtailed if the 
system's infrastructure needs are not fully addressed.

                   Answers to Post-Hearing Questions

Responses by Calvin L. Scovel III, Inspector General, U.S. Department 
        of Transportation

Questions submitted by Chairman Bart Gordon

Q1.  In your statement, you recount FAA's difficulties in implementing 
the Standard Terminal Automation Replacement System (STARS) program. 
You say that the original program for 172 sites costing $940 million 
became one for just 50 sites costing $1.46 billion. So let's look at 
the math. We reduce the number of sites by two-thirds and pay 50 
percent more. Why should such a performance by FAA give the Congress 
any confidence that NextGen won't suffer the same cost problems?

A1. FAA modernization projects, including STARS, have a long history of 
cost growth, schedule slips, and performance shortfalls. These problems 
have translated into reduced benefits to FAA and airspace users, 
reliance on costly interim systems, and loss of confidence in FAA's 
ability to manage large-scale acquisitions. As we have noted in reports 
and testimonies, it will be important for FAA to avoid these problems 
in developing various NextGen efforts.
    The development and implementation of NextGen is a high-risk effort 
that will require sustained oversight. It will be a top management 
challenge for the next Administration. To help reduce risk with 
NextGen, we have made several recommendations to FAA, including the 
following:

        <bullet>  Reporting NextGen costs to Congress and stakeholders 
        along three vectors, which include developmental efforts, 
        adjustments to existing projects, and NextGen implementation.

        <bullet>  Determining what skill sets and expertise with 
        respect to software development, contract oversight, and 
        systems integration that will be needed to manage NextGen.

        <bullet>  Funding targeted human factors research to ensure 
        that the changes envisioned for pilots and controllers can be 
        safely accommodated.

        <bullet>  Developing and reporting on a new set of metrics for 
        measuring progress with NextGen initiatives that focus on the 
        delivery of a new capability with respect to enhancing 
        capacity, boosting productivity, or reducing Agency operating 
        costs.

        <bullet>  Developing an interim architecture for the 2015 
        timeframe to help bridge the gap between current systems and 
        NextGen.

    FAA has concurred with these recommendations and is taking action. 
We will continue to monitor FAA's efforts in these areas.

Q2.  How successful has the JPDO been developing conceptual and 
technical descriptions of what NextGen will consist of? How about in 
developing a plan for the coordinated implementation of a transformed 
future system?

A2. The JPDO has been successful in developing conceptual and technical 
descriptions of NextGen. These are outlined in the NextGen Concept of 
Operations and Integrated Work Plan. JPDO plans call for a system that 
relies heavily on satellite-based systems, data link communications for 
pilots and controllers, new automation systems, and robust and secure 
information sharing. However, planning documents remain at a very high 
level and are unconstrained and not mature enough to translate into 
specific requirements for new automation or data link communication 
systems.
    The JPDO has not been successful thus far in developing a 
coordinated implementation plan for NextGen. FAA and the JPDO have much 
work to do to develop a realistic transition plan for Congress and 
airspace users. This is important because NextGen will require airspace 
users to purchase and install a wide range of avionics at an estimated 
cost of $15 billion. This is why we believe FAA needs to assess 
``implementation bandwidth'' to determine what reasonably can be 
accomplished with respect to equipage as well as controller and pilot 
training in given timeframes.

Q3.  Your statement characterizes the JPDO foundational documents such 
as the Enterprise Architecture as not yet mature enough to drive 
investment decisions or generate requirements for major NextGen 
acquisitions. You said that JPDO officials told your office that it 
will take a year or more for the documents to be effective tools for 
driving agency budgets, setting priorities, and managing research 
efforts.

        a.  In your opinion, is JPDO's response reasonable?

        b.  Should we expect these foundational documents to take time 
        to mature as advocated by the JPDO?

        c.  Does this further complicate the research that needs to be 
        done?

A3. As we noted in our statement, some progress has been made with key 
NextGen foundational documents, such as the NextGen Enterprise 
Architecture and Integrated Work Plan. However, they remain at a high 
level and, as FAA points out, are unconstrained with respect to cost. 
As was noted by the National Research Council, these efforts reflect a 
lack of top-level system engineering and clearly established 
priorities. We agree with the National Research Council's assessment.
    FAA's statements that it will take a year or more for the planning 
documents to mature enough to drive investment decision, set 
priorities, and manage research appear reasonable. It is an unfortunate 
but accurate assessment of progress to date. We recognize that many 
stakeholders are frustrated by a lack of progress with the NextGen 
Enterprise Architecture and overall efforts to move forward with 
NextGen. Therefore, we believe that FAA should take steps to accelerate 
these efforts where possible.
    We note that it is reasonable to expect these documents to take 
time to mature and be modified as NextGen concepts and requirements are 
more clearly defined. Further, these documents will have to be adjusted 
to reflect the results of ongoing research projects.
    Without question, the lack of maturity of the NextGen Enterprise 
Architecture and Integrated Work Plan complicate the execution of 
research needed for NextGen. We think FAA and the JPDO need to 
establish research priorities to help decision-makers understand which 
investments need to be made first from the wide range of operational 
improvements discussed in planning documents. As noted in our 
statement, FAA should provide this Committee with a clear understanding 
of how it will prioritize research and development, address various 
research gaps, and update priorities when research results become 
available or when national priorities change.

Q4.  Your office recommended earlier this year that FAA develop an 
interim architecture or ``waypoint'' that is manageable and executable 
for what is expected in 2015. The OIG report says that FAA concurred 
with this recommendation. Please describe the key attributes that would 
make this interim architecture both manageable and executable.

A4. We recommended that FAA develop an interim architecture in the 2015 
timeframe to reduce risk and help bridge the gap between the current 
system and the vastly different NextGen. This interim architecture 
should have a number of attributes to help make it manageable and 
executable.
    First, the interim architecture should clearly define the expected 
benefits for stakeholders and FAA. Currently, FAA does not articulate 
the expected benefits of NextGen investments in planning or budget 
documents. The benefits should focus on enhancing capacity and reducing 
delays and operating costs.
    Second, the interim architecture should show a clear path for how 
existing systems will transition to NextGen and identify what 
adjustments will be needed. This is important because over 30 existing 
systems form platforms for NextGen. Thus, the pace of NextGen will be 
dictated by progress with existing systems. An integrated approach to 
software development and integration will be essential to reduce the 
potential for cost growth, schedule delays, and shifting requirements.
    Third, the interim architecture should highlight and publish the 
timeframes for making the procedural changes needed to get the expected 
benefits from new systems or a combination of systems. For example, FAA 
will need to make sure that new procedures that rely on data link 
communications for controllers and pilots, new routes that rely on on-
board aircraft avionics, and new automation capabilities for boosting 
capacity are in place at specific locations.

Q5.  What is the impact of FAA's reorganization on the NextGen 
development and implementation effort? Can you elaborate on what you 
characterize in your statement as ``friction'' between the ATO and 
JPDO?

A5. As stated in our testimony, it is too soon to evaluate FAA's recent 
reorganization on NextGen development and implementation. While FAA 
believes the change will help with implementation, it gives the 
appearance that the JPDO has been significantly reduced in stature and 
importance. We do have some concerns that could impact NextGen 
implementation.

        <bullet>  First, the roles and responsibilities of the JPDO and 
        ATO are not clearly defined. According to FAA, the JPDO will 
        focus on long-term planning and interagency cooperation while 
        the ATO's new NextGen Implementation office will concentrate on 
        short-term efforts. However, it will be difficult to establish 
        clear demarcation lines because implementing NextGen 
        capabilities depend heavily on modifying existing modernization 
        projects. In addition, both offices will have considerable 
        modeling and simulation capabilities for assessing NextGen 
        initiatives.

        <bullet>  Second, while the Senior Vice President for NextGen 
        will be responsible for managing NextGen demonstration 
        projects, major efforts for essential NextGen platforms, such 
        as ERAM and Terminal Modernization, will continue to be managed 
        by other ATO vice presidents. We also note that airports--which 
        play a key role in NextGen--are managed by an FAA office 
        outside of the ATO. Thus, budgetary authority for FAA 
        modernization efforts remains fragmented.

        <bullet>  Third, the new structure will be challenged to deal 
        with complex, cross-cutting agency issues that will need to be 
        resolved. For example, we think it will be difficult for an 
        office within the ATO to work out agreements with DOD, DHS, or 
        NOAA on major decisions affecting surveillance, airspace 
        security, and weather systems.

    Further, there has been--and continues to be--friction between the 
ATO and JPDO that is due in part to vastly different planning horizons. 
The ATO is an organization that operates the National Airspace System 
24 hours a day, seven days a week. The ATO does this very well but it 
has a short planning horizon. The JPDO, on the other hand, is focused 
on introducing cutting-edge technologies and transforming the National 
Airspace System by the 2025 timeframe. It will be important to 
reconcile these differences to successfully implement NextGen.

Q6.  You indicated in your statement that FAA needs to focus attention 
on airport issues and how NextGen technologies can unlock already 
congested airports. Can you elaborate on how FAA would do that and how 
it differs from that already accomplished in it's planning documents?

A6. A top priority for NextGen should focus on enhancing capacity at 
already congested metropolitan areas, such as the New York airports. An 
important metric for NextGen is to what extent efforts can increase 
airport arrival rates under various weather conditions.
    Currently, FAA planning documents and budget requests do not detail 
how individual NextGen efforts can specifically increase airport 
arrival rates and thereby boost capacity. It would help decision-makers 
and stakeholders if FAA would show how individual NextGen efforts; like 
Automatic Dependent Surveillance-Broadcast, data link communications 
for controllers and pilots, and new ground automation systems; can 
boost airport capacity. This information will help target solutions to 
specific airports, set expectations, and help shape consensus among 
stakeholders about how to move forward with NextGen.

Q7.  In response to a question from Ranking Member Hall on OMB's 
coordination and alignment of research budgets among participating 
federal agencies, you noted the ``great'' difference between the budget 
request submitted by the Department of Commerce for NOAA on weather 
capabilities and what FAA had expected. What was the magnitude of the 
difference and what was the basis for FAA's expectation?

A7. The Department of Commerce has the lead role in developing the 4-D 
Weather Cube, which is expected to provide a single authoritative 
source for weather observations and analysis. This tool is also 
expected to provide a common picture of weather for all airspace users. 
However, there are significant differences between FAA and NOAA 
regarding how new weather systems will be used.
    An internal JPDO assessment found that there is disagreement on 
synchronizing weather observations, forecasts, and dissemination 
efforts. This threatens current plans to implement the 4-D Weather Cube 
in the 2013 timeframe. The assessment also noted that several policy 
and funding issues need to be addressed; specifically, most of the 
Department of Commerce efforts that the JPDO expects to rely on are not 
funded.
    Development for the 4-D Weather Cube is estimated to cost more than 
$300 million and implementation costs, though uncertain, have been 
estimated at three times as much as to develop the cube. It is 
difficult to assess FAA's expectations because the Agency has not 
finalized NextGen weather-related requirements. FAA and Commerce are 
working to resolve issues and reach some level of agreement in time for 
the FY 2010 budget submission. The development of the 4D Weather Cube, 
funding levels, and the evolution of requirements will require 
sustained oversight.

Q8.  In your statement, you note FAA's difficulties with its ADS-B 
Notice of Proposed Rule-making and call on FAA to ``develop a realistic 
plan for implementing ADS-B and realizing the air-to-air benefits of 
the technology.''

        a.  What are the components of a realistic plan?

        b.  Do the air-to-air benefits you have in mind require both 
        ADS-B ``out'' and ``in'' capabilities?

A8. A top priority for the next Administration will be developing a 
realistic plan for implementing ADS-B. Currently, there is no consensus 
regarding how to move forward with ADS-B.
    The elements of a realistic plan for ADS-B include a clear, lucid 
articulation of requirements, benefits, and costs for airspace users to 
purchase and install new avionics. This plan should also include 
milestones for completing a number of critical efforts, including the 
following:

        <bullet>  Modifying existing controller automation systems.

        <bullet>  Finalizing technical requirements for ADS-B ``Out'' 
        and ADS-B ``In.''

        <bullet>  Certifying ADS-B related equipment on the aircraft in 
        the United States.

        <bullet>  Approving separation standards for using ADS-B to 
        manage traffic.

        <bullet>  Completing controller training programs for relying 
        on ADS-B systems.

    The air-to-air benefits of ADS-B are significant but rely on both 
ADS-B ``Out'' and ADS-B ``In.'' FAA's proposed rule only mandates ADS-B 
``Out,'' or the broadcast of information to ground systems. The 
potential for ADS-B ``In'' relies on the fact that information on 
nearby aircraft will be delivered to the cockpit. This gives the pilot 
a second set of eyes, thereby enhancing situational awareness and 
safety in the air and on the ground. Therefore, we believe FAA needs to 
accelerate efforts to finalize requirements for ADS-B ``In.''

Questions submitted by Representative Ralph M. Hall

Q1.  With upcoming change in Administrations, do you foresee 
difficulties maintaining program continuity during the transition? Does 
NextGen have enough traction among participating agencies to maintain 
momentum in the months ahead?

A1. It will be a challenge to maintain program continuity during the 
upcoming transition. This is the case for major initiatives across the 
Federal Government. In our forthcoming report on the top management 
challenges facing the department, we will highlight the importance of 
managing and reducing risk with NextGen. It will be important for FAA 
and the JPDO to complete several actions, including establishing 
funding priorities for NextGen.
    To maintain traction with NextGen and continue cooperation among 
JPDO's partner agencies, the next Administration will have to emphasize 
its commitment to a multi-agency approach. This will be important given 
the cross-cutting nature of NextGen, resource constraints facing the 
government, and the expected sharp competition for funds. As noted in 
our statement, much work remains to be done to fully link and integrate 
agency budgets and address research gaps for the development and 
execution of NextGen.

Q2.  The joint Planning and Development Office is a planning and 
coordinating body that relies on the cooperation of its federal 
partners to provide the expertise and resources needed to accomplish 
NextGen. With slightly more than four years of experience, how would 
you rate the effectiveness of the JPDO, especially with regard to 
engaging and sustaining the cooperation of participating federal 
agencies? What concerns, if any, do you have about the JPDO's 
effectiveness following the reorganization?

A2. The JPDO has been effective in engaging and cooperating with 
participating agencies, including the National Aeronautics and Space 
Administration and the Department of Defense. The JPDO's efforts to 
leverage research at other federal agencies are critical given that FAA 
conducts very little long-term air traffic management research.
    Central to making the JPDO an effective multi-agency vehicle is the 
alignment of resources. This is a complex task, and the JPDO has no 
authority to adjust or direct the research efforts of other federal 
agencies.
    As noted in our statement, we have seen progress with various 
mechanisms of alignment, including the publication of a NextGen Concept 
of Operations and NextGen Research and Development Plan. However, FAA 
and the JPDO partner agencies need to address several fundamental 
issues to ensure that research efforts are aligned and successfully 
transferred to the NAS. For example, there are 27 ``disconnects'' or 
``gaps'' that need to be addressed, which will fundamentally affect the 
cost and schedule for NextGen. We provide details on these issues in 
our statement.
    It is premature to evaluate the effectiveness of the recent 
organizational changes that places the JPDO within the FAA Air Traffic 
Organization. However, it gives the appearance that the JPDO has been 
reduced in stature and importance. We are concerned about the 
fragmentation of budget authority and accountability as well as how the 
new organization will deal with cross-cutting agency issues. We think 
FAA will have to revisit how the Agency is organized once it has a 
clearer picture of what it will take to deliver NextGen capabilities.

Q3.  The ADS-B program is fundamental to NextGen. What are the major 
risks with ADS-B in terms of capabilities, schedule, cost, and industry 
acceptance?

A3. The implementation of ADS-B and cockpit displays offer significant 
potential to enhance safety and boost capacity. However, the 
introduction of this technology faces the following risks.

        <bullet>  Stakeholder acceptance and aircraft equipage--FAA 
        plans to mandate ADS-B but unresolved questions exist about the 
        cost of new avionics and the lack of benefits.

        <bullet>  Frequency congestion concerns--There are real 
        concerns that the frequency planned for large commercial 
        aircraft will become over crowded. This is particularly a 
        concern for high activity airspace in the Northeast United 
        States.

        <bullet>  Finalizing requirements for ADS-B and cockpit 
        displays--FAA must finalize requirements for both ADS-B ``Out'' 
        (the broadcast of information to ground systems) and ADS-B 
        ``In'' (the display of information in the cockpit).

        <bullet>  Integrating ADS-B with existing systems--FAA must 
        successfully integrate ADS-B with existing controller displays 
        and computers across the National Airspace System.

        <bullet>  Addressing security concerns--Because ADS-B could 
        make the position of aircraft generally available, security 
        risks need to be fully explored and mitigated.

    FAA published a notice of proposed rule-making for ADS-B in October 
2007 and received over 170 comments from organizations or individuals. 
FAA is reviewing the comments and working with industry to resolve 
several complex issues and risks. We plan to issue a report on ADS-B 
early next year.

Question submitted by Representative Laura Richardson

Q1.  Has the gap analysis been conducted that you referenced on April 
14, 2008?

A1. FAA is conducting the gap analysis as recommended in our April 14, 
2008, report. According to FAA officials, the analysis of ``gaps'' 
between current systems and NextGen is expected to be completed by 
February 2009. We will continue to monitor FAA's efforts in this area.

                   Answers to Post-Hearing Questions

Responses by Paul G. Kaminski, Chairman and CEO, Technovation, Inc.; 
        AIA Member of NextGen Institute Management Committee

Questions submitted by Chairman Bart Gordon

Q1.  How challenging is the JPDO's role in consolidating and focusing 
the research and development work of so many agencies without having 
budgetary control over their work? How does this compare with your 
experience at DOD?

A1. From my experience, I know how challenging budgetary control issues 
can be, and this is especially so with a multi-agency endeavor such as 
JPDO. Each JPDO partner agency has its own executive mission, and I 
doubt that--given JPDO actions to date--providing direct JPDO budgetary 
authority over partner agencies' R&D is realistic. However, some level 
of oversight of participating agencies budgets for NextGen R&D to 
support the critically needed planning, system engineering, and 
integration of R&D efforts might be helpful.

Q2.  In the transformed NextGen, I understand that roles and 
responsibilities of key players will change dramatically. Pilots will 
take more separation responsibilities and automation will enable air 
traffic controllers to manage larger numbers of aircraft while 
improving safety.

A2. Reallocation of airborne and ground responsibilities is an issue 
that FAA had anticipated, and it directed its efforts accordingly. One 
factor in this is the extent of equipage which will determine where, 
when, and how responsibility will be delegated. Pilots and controllers 
have to be consulted and trained for their new missions involving new 
technology and new approaches to improve efficiency and safety. There 
will also be new responsibilities in a world of substantially different 
aircraft types such as Unmanned Aerial Systems.

Q2a.  What are the key aspects from human factors research that FAA and 
NASA need to get right before we can have confidence that this 
delegation of decision-making duties is both feasible and safe?

A2a. In support of the relevant human factors research that you raised, 
I believe that we need to develop the modeling and simulation 
capabilities that I described in the briefing attached to my statement. 
These capabilities will allow us to validate our models by using live 
demonstrations, to include ``humans in the loop'' so we can validate 
operational performance in realistic environments. This will be 
critical to development and implementation of the policies and 
certification standards that are needed to obtain the efficiency and 
safety benefits associated with the enhanced automation enabled by new 
technology and new system approaches.

Q2b.  Are the needed R&D programs in place and adequately funded to get 
that research done?

A2b. Many of the R&D programs are in place. But I believe additional 
programs are needed to fill voids and, most importantly, we need a 
better integration of our modeling and simulation capabilities and 
related demonstrations across the entire NextGen domain. It will be 
important for this Committee to review the next budget for modeling and 
simulation capabilities in this context.

Q3.  You advocate bolstering demonstration with modeling and simulation 
to gain a better understanding of benefits and limitations from 
anticipated technology improvements. Since FAA does not currently have 
a significant indigenous modeling and simulation capability, when do 
you see the agency being capable of performing such research? Or should 
this research be carried out by NASA or another entity?

A3. FAA, as the implementing agency that does near- and mid-term 
planning, should direct and coordinate NextGen modeling and simulation 
activities, and oversee the validation of models and simulations with 
demonstrations. From my extended and ongoing discussions with FAA, the 
agency officials are very aware of current limitations in this arena. 
There is extensive modeling and simulation capability at the FAA 
Technical Center in Atlantic City. I have met with the Director of that 
facility, and look forward to making a visit in the near-term to obtain 
a better understanding of the capabilities and limitations. NASA also 
has capabilities which should be exploited. Representing AIA, I am 
continuing to explore ways to assist FAA's expansion and refinement of 
its capabilities (both internally and externally) by working with NASA, 
DOD, and industry. The briefing that I provided along with my statement 
outlines the approach which I believe is needed both to execute the 
development and implementation of NextGen and to exploit the 
substantial long-term benefits that can be provided to the Nation. 
Accelerating NextGen applications is the goal, and my proposal would 
enhance current FAA efforts.

Questions submitted by Representative Ralph M. Hall

Q1.  With the upcoming change in Administration, do you foresee 
difficulties maintaining program continuity during the transaction? 
Does NextGen have enough traction among its particular agencies to 
maintain momentum in the months ahead?

A1. Since the FAA restructuring bringing closer coordination with JPDO, 
NextGen is now better positioned to maintain program continuity during 
an Administration transition. This more efficient integration of JPDO 
and FAA allows NextGen implementation and near-term planning to be 
aligned with NextGen R&D and daily air traffic operations into a 
cohesive whole. This integration will effectively support FAA--the 
implementing agency--in its responsibility for meeting a challenging 
R&D and implementation timetable.
    JPDO partner agencies are already working with FAA to leverage 
applicable R&D and facilitate technology transfer in a timely manner. 
With continued NextGen near-term planning as it transitions to 
implementation, JPDO participating agencies will be reassured by 
integration with the implementing agency that will enhance 
productivity. This closer FAA role will ensure that planning and R&D 
are prioritized and directly relevant to near-term operational 
applications. Additionally, partner agencies' participation will be 
under the rigor and structure of the implementing federal agency to 
ensure planning is productive and relevant, valuable and appropriate.

Q2.  The Joint Planning and Development Office is a planning and 
coordinating body that relies on the cooperation of its federal 
partners to provide the expertise and resources needed to accomplish 
NextGen. With slightly more than four years of experience, how would 
you rate the effectiveness of the JPDO, especially with regard to 
engaging and sustaining the cooperation of the participating federal 
agencies? What concerns, if any, do you have about JPDO's effectiveness 
following the reorganization?

A2. The JPDO was tasked with an extremely challenging mission and has 
made a start with issuance of the requisite planning documents. 
However, these documents do not yet provide the level of detail and the 
decision-making foundation that were expected and needed by government 
and industry stakeholders. Consequently, we have lost time and, aside 
from participating agencies' own planning, JPDO's planning needs more 
definition. External organizations that have reviewed JPDO documents, 
such as the National Research Council and the FAA Research, 
Engineering, and Development Advisory Committee (REDAC), have expressed 
concern that the documents do not sufficiently define R&D for agencies' 
action. This concern was amplified by the recently released JPDO 
Integrated Work Plan that was officially re-characterized as a 
``planning tool,'' i.e., not a plan, and presented as one of several 
approaches to achieve NextGen. However, it was expected that this 
document would integrate and direct NextGen activities. Participating 
agencies and companies have been generally disappointed with JPDO 
progress, with the belief that their efforts have been less than 
productive. JPDO working groups, led by government and industry co-
chairs, have asked that their work be integrated under a unified lead, 
as most complex development projects are. It was only now, when FAA has 
been receptive to this request, that their request may be met. This is 
illustrative of the value that can accrue to JPDO's efforts under 
closer coordination with FAA: Industry believes that, under closer FAA 
guidance, it's efforts can be integrated and directed by established 
planning goals.
    I would like to remind the Committee that I would be pleased to 
provide any further assistance that could be of value, including an 
informal presentation of my plan to accelerate NextGen development and 
applications.

            How to Accelerate NextGen: What needs to be done

                        By Dr. Paul G. Kaminski
To accelerate NextGen implementation, there are clusters of essential 
modifications that must be realized:

        <bullet>  NextGen foundational programs need near-term 
        demonstrations linked with modeling and simulation, and 
        validated by testing;

        <bullet>  The demonstrations can then be expanded and extended 
        in an integrated environment;

        <bullet>  We need to begin now with operational demonstrations 
        (building on existing FAA Test Beds) with stay-behind 
        capabilities that are then replicated and integrate; and

        <bullet>  We need to build an acquisition and system 
        engineering base for people to gain domain experience at test 
        bed demonstration locations.

    We also need to attain consensus on selection criteria for near-
term demonstrations. I suggest criteria such as capacity enhancement, 
energy efficiency, improved safety and/or security, environmental 
impact, implementable within the next five years, and a favorable 
benefit/cost ratio.
    The carefully selected demonstrations will provide us with the 
information to link foundational programs with enabled NextGen 
applications and criteria.

Foundational Programs

        <bullet>  ADS-B

        <bullet>  RNP/RNAV

        <bullet>  Surface Management System

        <bullet>  SWIM

        <bullet>  DataComm

Enabled Applications

        <bullet>  CDAs/Tailored Arrivals

        <bullet>  Closely Spaced Parallels

        <bullet>  CDTI assisted approaches

Criteria

        <bullet>  Capacity enhancing

        <bullet>  More energy efficient

        <bullet>  Improved safety/security

        <bullet>  Environmentally sound

        <bullet>  Implementable in the next five years

        <bullet>  Favorable benefit/cost ratio

    The selected FAA test beds and demonstrations will undergo the 
iterative cycle of planning, design and model, build, test and 
evaluate, adjust, redesign and refine modeling and simulation, build 
more, integrate results, and then start over. As I call it, ``build a 
little, test a little.''
    A tested capability (capability ``A'') is established in one 
location and integrated with another location (after testing). This 
linkage can be expanded to achieve a strategic system engineering model 
with a regionally linked capability. Another capability is then added 
to one location and the same process begins with the second capability, 
adding it as a second capability layered on top of the first one and 
linked regionally.
    This iterative process continues, adding capabilities, expanding 
the regional linkage, and adding participating users as they see the 
value of capability equipage.
    Appropriate modeling and simulation is key to accelerating 
progress: it provides the systems engineering foundation needed to 
support and integrate acquisition; it helps establish priorities for 
achieving the best payoff, and helps define policies and procedures to 
achieve the objectives (energy and operational efficiency, 
environmental improvement, improved safety and security; iterative 
modeling and simulation enables systematic improvements, promotes a 
common understanding of complex new capabilities, their value added, 
and mutual interaction; when validated by testing, modeling and 
simulation demonstrate the value proposition and link incremental 
improvements to the business case; and data from modeling and 
simulation supported by demonstrations will yield the rationale and 
business case to replace unnecessary legacy systems.
    There are specific requirements to execute this acceleration of 
NextGen capabilities. These requirements are a strategic systems 
engineering foundation (enabled by modeling and simulation) to refine 
operational planning and requirements, set priorities, develop system 
specifications, and support deployment planning; systems acquisition 
experience and discipline to enhance JPDO planning and FAA 
implementation processes; systems acquisition/integration management 
expertise to manage JPDO working groups, and mature IWP and modeling & 
simulation architecture; a systems acquisition manager under FAA ATO/
COO with subordinate program managers for major programs; consortia and 
individual supporting industry contractors to implement NextGen (e.g., 
ADS-B contract consortium); and immediate start with operational 
demonstrations of foundational technology programs with stay behind 
capabilities, which will then be replicated.
    In summary, as the first step, we need to build the ``Scaffolds'' 
(i.e., demonstrate and model the applications enabled by foundational 
programs in an integrated approach) to support the NextGen Vision. Then 
we must strengthen the scaffold's three ``Pillars'': 1) System 
Engineering supported by robust modeling and simulation capability to 
support the other two Pillars, and to refine the architecture and 
integrate technologies; 2) System Acquisition and Integrated Management 
at FAA and other implementing agencies; and 3) Deployment Planning to 
include operational concepts, safety, procedures, training and 
security.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Ian A. Waitz, PARTNER Director; Jerome C. Hunsaker 
        Professor of Aeronautics and Astronautics; Head, Department of 
        Aeronautics and Astronautics, Massachusetts Institute of 
        Technology

Questions submitted by Chairman Bart Gordon

Q1.  The high cost of fuel has forced airlines to remove less fuel-
efficient aircraft from their fleets and reduce the number of flights. 
In the near-term this should result in less fuel consumed and a 
commensurate decrease in emissions. But airlines are also delaying 
plans to purchase newer, quieter and more fuel-efficient replacement 
aircraft. Does the new energy picture alter the thrust and urgency of 
your team's 2004 report on aviation and the environment?

A1. The new energy picture increases the urgency of the need to jointly 
address environment and energy issues for air transportation. Two-
thirds of every drop of petroleum is used by transportation. The 
transportation sector is one of the fastest growing major economic 
sectors with respect to CO<INF>2</INF> emissions. And within the 
transportation sector, aviation is the fastest growing mode of 
transportation in many regions of the world. Aviation is also uniquely 
challenged in terms of opportunities for improvement because of the 
weight, volume, and safety constraints that come with flight (relative 
to movement on the surface of the Earth). Further, while commercial air 
transportation is an industry that is estimated to contribute three 
percent to eight percent to the U.S. GDP, it is also an industry that 
is very sensitive to a variety of economic drivers like the price of 
fuel. As some support for this, note that the historical net operating 
profits for the industry as a whole are around zero percent. Indeed, 
the balance with regard to the adoption of more fuel-efficient aircraft 
that you identify in your question is a reflection of this sensitivity. 
Never before has there been a more opportune time to jointly promote 
environment and economy through addressing the challenges of aviation, 
environment, and energy.

Q2.  In a February report to the Subcommittee, GAO reported that noise 
reduction technologies may be limited by concerns about global warming 
as advances in these technologies could make it more difficult to also 
achieve reductions in emissions of greenhouse gases. In your opinion, 
are reductions in noise and emissions mutually exclusive or could high 
fuel prices spur technological innovations we have yet to envision?

A2. There are many examples of trade-offs in aircraft and engine 
technology where improving one thing (e.g., noise performance) 
penalizes something else (e.g., fuel efficiency and GHG emissions). 
This is true with many noise reduction technologies. There are also 
examples of co-benefits, whereby changes to improve fuel efficiency 
also reduce noise (or other environmental or performance issues)--as 
was the case with the introduction of the high bypass ratio gas turbine 
engine in the `70s and `80s. So there is not a ``yes'' or ``no'' answer 
to this question that is always true. Nonetheless, it is true that most 
design changes for relatively mature, well-developed technologies 
exhibit negative trade-offs whereby improving one aspect of performance 
(environmental, safety, economics, etc.) limits other performance 
objectives. This is a result of aircraft being highly optimized systems 
refined for specific performance objectives. I wish to emphasize that 
these trade-offs are most acute for known, and relatively mature 
technologies. Historically, new and innovative aircraft technology has 
changed the equation (e.g., by enabling a beneficial step change in 
several performance objectives at the same time). It is exactly this 
type of innovation that is required and that should be the focus of 
more robust, federally funded research and development programs in NASA 
and FAA.

Q3.  In light of the uncertainty associated with how greenhouse gas and 
other emissions from aviation will be dealt with worldwide, how can the 
JPDO address the concern that the NextGen initiative is honing in on 
solutions without a clear idea of the problem?

A3. First, I concur fully with the concern. It is hard to make a case 
that NextGen is honing in on the right solutions if they don't have a 
clear idea of the problem. JPDO's understanding of the climate change 
impacts of aviation is indeed insufficient. As noted in both my written 
and oral testimony, this should be addressed by funding a scientific 
research program that focuses on aviation and climate change (one 
designed specifically to answer the needs of the decision-makers with 
regard to technology, operational procedures, and policies). This is 
especially critical because of the unique nature of aviation's impacts 
on climate. In my mind, this is the single greatest failing of our 
national aviation and environment research enterprise today. Climate 
change is a critical concern that could greatly impact the industry and 
human health and welfare, we have the talent to answer the important 
questions and to plot a reasoned, intelligent path forward, yet the 
work to answer the questions is not being funded. And the magnitude of 
the funding required (perhaps $5M per year) is embarrassingly small 
compared to the potential impact of even a single misplaced policy 
decision on an industry that contributes so much to our well being and 
economy.

Questions submitted by Representative Ralph M. Hall

Q1.  With the upcoming change in Administrations, do you foresee 
difficulties maintaining program continuity during the transition? Does 
NextGen have enough traction among its partner agencies to maintain 
momentum in the months ahead?

A1. We are currently suffering because of inaction in advance of the 
change in Administration: no new reauthorization for FAA, no new 
reauthorization for NASA. Within these reauthorization bills are the 
critical programs required to jointly address aviation and environment. 
The programs are not going forward under the continuing resolution. 
Important new programs have been put on hold--programs that were 
already overdue. A related question is whether the momentum that 
NextGen has now is sufficient. I believe it is not. So the current 
momentum is insufficient, and it is being hurt further by inaction 
surrounding the change in Administration.

Q2.  The Joint Planning and Development Office is a planning and 
coordinating body that relies on the cooperation of its federal 
partners to provide expertise and resources needed to accomplish 
NextGen. With slightly more than four years of experience, how would 
you rate the effectiveness of the JPDO, especially with regard to 
engaging and sustaining the cooperation of the participating federal 
agencies? What concerns, if any, do you have about JPDO's effectiveness 
following the reorganization?

A2. The first two to three years of JPDO as a whole were rough. 
However, in the last year, I have seen progress being made, especially 
with regard to coordination between FAA and NASA, which is particularly 
important in the environmental area. And as I noted in my testimony, 
within the JPDO, the Environmental Working Group has been a bright 
spot. However, for the JPDO as a whole, if 1 were to assign a grade, I 
would give them a C or a D for first couple years, and a B more 
recently. There is room for improvement. I do not know how this will be 
impacted by the reorganization of the JPDO.

Q3.  You point out that the Europeans are beginning to leap ahead in 
research on aviation's impact on climate. What are the implications? 
Does Europe share their research findings broadly, as we do with 
government funded R&D? Will it affect the competitiveness of American 
products in the marketplace?

A3. The research findings from European research programs are shared 
through journal publications and presentations at conferences. These 
often come a year or two after the work is complete. There are 
insufficient opportunities for non-EU engagement in the scientific 
process earlier in the process as the work is being planned and carried 
out. Such engagement is particularly important for promoting an 
effective, mutually beneficial, international research enterprise. And 
even if the sharing of results was immediate, it does not imply that 
the questions being addressed in their research programs are the same 
questions that we would want to address. We have different national and 
local interests, and different opportunities with respect to addressing 
these interests. Research by proxy for important national issues like 
air transportation and the environment is not a strong approach in my 
opinion.

Q4.  You state that proposed funding levels for FAA's CLEEN (Continuous 
Lower Energy, Emissions and Noise) program are insufficient to promote 
needed technological advances. What level of funding do you consider 
appropriate?

A4. We need to accelerate the technology, operations, and alternative 
fuels programs in both NASA and FAA with an emphasis on programs that 
bridge fundamental aeronautics research and industrial development 
programs. FAA's CLEEN program funding should not be considered in a 
vacuum without the context of funding for parallel NASA programs. I 
believe that something on the order of $0.5B per year should be 
invested in jointly addressing aviation and environment with 
approximately 20 percent invested on the FAA side and 80 percent on the 
NASA side. With respect to NASA funding, I am pleased to note that this 
parallels recommendations made in various versions of the pending 
reauthorization bills. With respect to FAA, it is a factor of two or 
three higher than proposed in the pending reauthorization bills.

Q5.  Based on research to date, have any estimates of the cost of 
producing alternative fuels been provided if industry were to embrace 
full-scale production?

A5. Yes, production cost estimates have been provided by researchers in 
industry, governmental agencies, and academia for several potential 
alternative fuels. However, because of the multiple potential 
alternative fuels, there is a wide range of estimated production costs. 
These production costs depend heavily on the choice of feedstock (e.g., 
coal, natural gas, solid biomass, and algal oil) and the process that 
is used to convert the feedstock into an alternative fuel (e.g., 
Fischer-Tropsch synthesis, or hydro-processing). The production costs 
are currently estimated to be larger than those for petroleum, but for 
fuel prices at or above those we have seen recently, production of 
fuels from some of the alternative feedstocks appears to economically 
attractive. Production cost estimates will always have uncertainties 
associated with them; this uncertainty will decrease as more is known 
about the processes.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
